<html>
<title> - FIRST IN SERIES ON SOCIAL SECURITY DISABILITY PROGRAMS' CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



FIRST IN SERIES ON SOCIAL SECURITY DISABILITY PROGRAMS' CHALLENGES AND 
                             OPPORTUNITIES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2001

                               __________

                           Serial No. 107-35

                               __________

         Printed for the use of the Committee on Ways and Means


                   U.S. GOVERNMENT PRINTING OFFICE
74-854                     WASHINGTON : 2001

----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM McDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. McNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J.D. HAYWORTH, Arizona               LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                    E. CLAY SHAW, Florida, Chairman

SAM JOHNSON, Texas                   ROBERT T. MATSUI, California
MAC COLLINS, Georgia                 LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               BENJAMIN L. CARDIN, Maryland
KENNY C. HULSHOF, Missouri           EARL POMEROY, North Dakota
RON LEWIS, Kentucky                  XAVIER BECERRA, California
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page
Advisory of June 21, 2001, announcing the hearing................     2

                               WITNESSES

Social Security Administration, Larry G. Massanari, Acting 
  Commissioner...................................................     7
Social Security Advisory Board, Stanford G. Ross, Chairman.......    31
                               __________
American Federation of Government Employees, AFL-CIO, Witold 
  Skwierczynski..................................................    48
Association of Administrative Law Judges, and Social Security 
  Administration, Hon. Ronald G. Bernoski........................    79
National Association of Disability Examiners, Sue Heflin.........    63
National Council of Disability Determinations Directors, Douglas 
  Willman........................................................    68
National Council of Social Security Management Associations, 
  Inc., Steve Korn...............................................    57
National Treasury Employees Union, Chapter 224, and Social 
  Security Administration, James A. Hill.........................    72

                       SUBMISSIONS FOR THE RECORD

American Federation of State, County and Municipal Employees, 
  AFL-CIO, statement.............................................   127
Association of Attorney Advisors, Greenville, SC, Elizabeth B. 
  Dameron, statement.............................................   129
Cannistraro, Al, Clifton Park, NY, statement.....................   131
Hitchcock, James R., Knoxville, TN, letter.......................   131
Independent Life Center, Inc., Craig, CO, Evelyn Tileston, letter 
  and attachment.................................................   135
National Law Center on Homelessness & Poverty, Jeremy Rosen, 
  statement......................................................   136

 
FIRST IN SERIES ON SOCIAL SECURITY DISABILITY PROGRAMS' CHALLENGES AND 
                             OPPORTUNITIES

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:16 p.m., in 
room B-318 Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS SUBCOMMITTEE ON SOCIAL 
SECURITY

                                                CONTACT: (202) 225-9263
FOR IMMEDIATE RELEASE
June 21, 2001
No. SS-6

    Shaw Announces First in a Series of Hearings on Social Security 
           Disability Programs' Challenges and Opportunities

    Congressman E. Clay Shaw, Jr., (R-FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee will hold the first in a series of hearings on 
Social Security disability programs' challenges and opportunities. This 
hearing will provide an overview of the challenges and opportunities 
facing Social Security disability programs provided by the Acting 
Commissioner of Social Security, the bipartisan Social Security 
Advisory Board, and representatives from the Social Security 
Administration (SSA) and State agency employee groups. The hearing will 
take place on Thursday, June 28, 2001, in room B-318 Rayburn House 
Office Building, beginning at 2:00 p.m.
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The SSA administers two disability programs, Social Security 
Disability Insurance (SSDI) and Supplemental Security Income (SSI). 
Created in 1956 and financed out of payroll taxes, the SSDI program is 
an insurance program that provides disability benefits based on 
previous employment covered by Social Security. Today, almost 140 
million Americans are insured for Social Security Disability Insurance 
and about 6.7 million workers and their families are receiving benefits 
from the SSDI program. The SSI program is a need-based program enacted 
in 1972, funded from general revenues of the U.S. Department of the 
Treasury. Today there are nearly 5.3 million disabled and needy adults 
and children receiving SSI disability benefits.
    Both of these programs have grown steadily. For fiscal year 2001, 
both the SSDI and SSI programs are expected to account for 
approximately $90 billion in Federal spending, or nearly 5 percent of 
the Federal budget. Also, nearly two-thirds of the agency's fiscal year 
2001 $7.1 billion administrative budget will be devoted to disability 
programs. Moreover, due to the aging of the baby boomers, Social 
Security's actuaries project that between now and 2010, the number of 
SSDI beneficiaries will increase by nearly 50 percent and the number of 
SSI recipients will increase by 15 percent.
    Like Old-Age and Survivors Insurance, Disability Insurance will 
face financial challenges in coming decades. According to the 2001 
Annual Report of the Board of Trustees, beginning in 2008, the 
Disability Insurance Trust Fund is projected to run cash deficits and 
by 2026, the trust fund assets will be exhausted. Administering the 
safety net will also become more difficult due to the aging of SSA's 
own workforce. By the end of this decade, nearly half of all SSA 
employees are expected to leave the agency, largely due to retirements.
    Previous hearings by this Subcommittee have highlighted the 
changing nature of disability (based on medical advances, new 
technologies, and improvement of support services), the changing 
demographics of individuals with disabilities (who are younger and 
increasingly diagnosed with mental impairments), and SSA's fragmented 
and complex disability determination process, that results in 
claimants' often waiting more than one year for final disability 
decisions. The U.S. General Accounting Office continues to identify 
making timely and accurate disability determinations along with 
developing comprehensive return-to-work strategies as major management 
challenges facing SSA.
    Most recently, the bipartisan Social Security Advisory Board 
released reports to provide the new Administration and the Congress 
with a framework for considering the fundamental changes they believe 
need to be made to ensure disability programs are able to meet the 
challenges they are facing, including: unexplained inconsistencies in 
disability determination outcomes, changes in the disability 
determination process resulting from court decisions--not the Congress, 
the inability of SSA's administrative structure to handle today's 
increasingly complex and growing workloads, and the differences between 
Social Security's criteria for receiving disability benefits and the 
Americans with Disabilities Act.
    In announcing the hearing, Chairman Shaw stated: ``Given our 
nation's growing prosperity and remarkable advancements in technology 
and medicine, it's not surprising that Social Security's disability 
programs, created in the '50s and the '70s, should experience strains. 
Our challenge is to thoughtfully and carefully examine the challenges 
and opportunities faced by these essential safety net programs today to 
ensure they will meet the changing needs of individuals with 
disabilities and their families tomorrow.''
      

FOCUS OF THE HEARING:

      
    During the hearing, witnesses will provide their perspectives on 
the challenges and opportunities facing Social Security disability 
programs today.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Thursday, 
July 12, 2001, to Allison Giles, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Social Security office, room B-316 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:


    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.

    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect or 
MS Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.

    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.

    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.

    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov''.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                <F-dash>


    Mr. Johnson. [Presiding.] The Subcommittee will come to 
order.
    Thank you. Mr. Shaw is detained, so we will start the 
hearing without him, and I will yield to Mr. Pomeroy for an 
opening statement.
    Mr. Pomeroy. I thank the Chairman for yielding, and I am 
very pleased that we will spend today's hearing inquiring into 
the operation of the disability insurance component of the 
Social Security System.
    At the time that Social Security was created, it was really 
a masterful effort to have the people of this country united in 
a program where all of us insured each of us against some of 
the otherwise unavoidable perils that we have. Obviously, the 
best-known feature is the peril against outliving your assets, 
the defined benefit retirement income.
    But of course, the survivors benefit covering widows and 
dependent children of decedents is a program that has been 
extraordinarily successful. It is estimated that 98 percent of 
the children of this country are covered under the survivors 
benefits. It is about as universal a coverage as we could 
possibly design today.
    The other is the disability feature, the one that we are 
talking about today, which is the feature providing disability 
income for those who become injured and are unable to work. It 
is estimated that three-quarters of all the people in the 
workforce today only have the Social Security coverage insuring 
them against income loss during a period of prolonged or 
chronic disability.
    As of January of this year, that means that some 6.7 
million people, or about 15 percent of all beneficiaries, were 
receiving their benefits under the disability program. It is 
estimated that 36 percent of these families would be living in 
poverty but for getting the disability income check through the 
Social Security program.
    This is a very significant feature and obviously is one 
that 6.7 million people know very, very well, but I think some 
of the discussion, frankly, on rates of return, that tries to 
make Social Security look like it is just another retirement 
plan and how much are you making on that asset accumulation in 
there really misses the point and does not often count the 
value of having this disability insurance.
    I have people say to me that ``Social Security will never 
give me anything,'' and I tell them it already is; assuming 
they are over 18 and working, they have the disability 
coverage. If I am visiting a junior high or a high school and 
hear that, I tell them they have the survivors benefit.
    The disability benefit has the value of a $200,000 
disability insurance policy and translates to an average 
monthly benefit of $755. This is the amount that people are 
receiving to hold them out of poverty.
    I must tell you that I am a little concerned about some of 
the language commissioning the ongoing President's Commission 
on Social Security. It gave them five principles for reform, 
one of them, creating individual accounts, another preserving 
Social Security's disability and survivors components. Well, 
preserving the component does not necessarily mean holding 
harmless the benefit levels, and at $755 a month average 
benefit check, you cannot have any erosion of that benefit 
level and meet the needs of long-term disabled individuals who 
are depending on this check.
    In addition to concerns about where we are going relatively 
to privatization schemes as they relate to disability, we 
certainly want to make sure that the system has, now and going 
forward, the resources to competently discharge its function in 
terms of getting the coverage out there to those who need it. 
This is especially true looking forward, because the estimates 
are that disability insurance beneficiaries are going to rise 
by nearly 50 percent by the year 2010 and that the Supplemental 
Security Income (SSI) disability beneficiaries will rise by 15 
percent.
    What is troubling is that from some of the complaints we 
get in our congressional office, you get a notion that this is 
not always working just as well as it might. But those notions 
are borne out by surveys of the Social Security managers 
themselves. In fact, responding to a recent survey conducted by 
the National Council of Social Security Management 
Associations, managers in the field offices said to the extent 
of 77 percent that the quality of work produced by their 
offices has actually declined over the last 5 years. Of the 77 
percent that noted a decline in service proficiency, 71 percent 
suggested the decline was directly attributable to the 
reduction in supervisory staff and other employees with over 15 
years' hands-on experience. One manager noted that, quote: 
``Quality definitely takes a back seat to quantity. We simply 
cannot give the attention to all the work load that is 
needed.''
    Unfortunately, as you look at these staffing needs, you 
begin to worry about whether there is a mismatch between the 
needs and the actual budget request by the Social Security 
Administration (SSA), or at least the funding levels committed 
by Congress.
    There is a proposal that the former Commission and I spoke 
about which would once again restore funding for Social 
Security coming from the Social Security trust fund itself. I 
think that that self-funding concept would greatly stabilize 
the long-term management of Social Security against the 
extraordinary budget pressures that we are going to face 
relative to funding the management of this program out of the 
general revenues of this program. I think that that is 
something we should think about.
    I again want to commend Chairman Shaw for convening this 
hearing, and I certainly look forward to hearing from the 
Acting Commissioner as we explore these issues.
    Thank you.
    Mr. Johnson. Thank you.
    I am going to read a little bit of Chairman Shaw's remarks 
before we get started, if you do not mind, because he has some 
good points.
    ``I would just like to say that today begins the first of 
several hearings which this Subcommittee will conduct, 
examining the challenges and opportunities faced by Social 
Security's two disability programs, the Disability Insurance 
and Supplemental Security Income. Today, we are happy to have 
you with us, the Acting Commissioner of Social Security; the 
chairman of the Social Security Advisory Board, which has 
completed considerable research on this topic; and several 
employee groups who are on the frontlines every day, serving 
disability claimants.''
    ``The Disability Insurance program is under significant 
financial strain. The actuaries project the program to run cash 
deficits in just 7 years, just as the baby boom retirees reach 
their peak years for disability claims.''
    Welcome, Mr. Chairman. I am usurping your statement. Mr. 
Shaw has arrived.
    Chairman Shaw. I would be interested to know what I had to 
say.
    [Laughter.]
    Mr. Johnson. And, as Mr. Shaw was saying, ``Over the next 
decade, the number of individuals receiving disability benefits 
will jump by about 50 percent, and SSI recipients will increase 
by about 15 percent. At the same time, disability workloads are 
expected to increase as well. More and more seasoned employees 
who service disability clients are going to begin to retire. 
Social Security expects to lose about 50 percent of its 
employees in the next 10 years.''
    ``How the system will be able to provide efficient, 
comprehensive, and fair service to its customers with 
disabilities under these conditions is of great concern.''
    ``Given the monumental social, legal, medical, and 
demographic changes that have altered the disability 
environment over the last 40 years, it is no wonder navigating 
the disability claims process takes too long, and it is too 
complex, and it is stressful on the individuals whom we are 
trying to serve. The current process, already inadequate in the 
past decade, will never withstand the mounting needs of the 
next.''
    ``The law regarding disability has not changed 
substantially in 30 years, but the world in which we live and 
the individuals with disabilities live has changed, and I think 
it is time for policymakers and Social Security management and 
employees to craft a realistic plan of action for making the 
disability program a functioning, viable system for the 
future.''
    [The opening statement of Chairman Shaw follows:]

 Opening Statement of the Hon. E. Clay Shaw, Jr., a Representative in 
   Congress From the State of Florida, and Chairman, Subcommittee on 
                            Social Security

    Today begins the first of several hearings in which the 
Subcommittee will examine the challenges and opportunities faced by 
Social Security's two disability programs--Disability Insurance and 
Supplemental Security Income. We will begin today by hearing from the 
Acting Commissioner of Social Security, the Chairman of the Social 
Security Advisory Board--who has completed considerable research on 
this topic--and several employee groups who are on the front lines 
every day serving disability claimants.
    Both disability programs are crucial links in our social safety 
net, but they are beginning to show their age. Disability insurance was 
created in 1956 and SSI in 1972. Back then, rehabilitation, treatment, 
and employment for individuals with disabilities were far less 
sophisticated than they are in today's high-tech world. Fortunately, 
advances in medical treatments and new technologies have transformed 
lives of dependency into lives of opportunity. Yet, at the same time, 
these very advancements have made the determination and review of 
disability cases more complex than ever.
    Worse yet, the disability insurance program is under significant 
financial strain. SSA's actuaries project the program will run cash 
deficits in just seven years, right as the baby boom retirees reach 
their peak years for disability claims. Over the next decade the number 
of individuals receiving disability benefits will jump by almost 50% 
and SSI recipients will increase by 15%.
    At the same time disability workloads are expected to rapidly 
increase, more and more seasoned employees who service disability 
clients will begin retiring. SSA expects to lose about 50 percent of 
its employees in the next 10 years. How the system will be able to 
provide efficient, comprehensive and fair service to its customers with 
disabilities under these conditions is one of my greatest concerns.
    Given the monumental social, legal, medical and demographic changes 
that have altered the disability environment over the last forty years, 
it's no wonder that navigating the disability claims process takes too 
long, and is too complex and stressful on the very individuals we are 
trying to serve. The current process, already inadequate in the past 
decade, will never withstand the mounting needs of the next.
    SSA is expected to efficiently and fairly process more than three 
million applications for disabled DI and SSI claimants annually. That 
is not happening now, and it is our job to help strike a better balance 
between the needs of individuals with disabilities and the time and 
resources that must be committed to accurately administer this program.
    The law regarding disability has not changed substantially 
in thirty years, but the world in which individuals with 
disabilities live has changed tremendously. It is time for 
policymakers and Social Security management and employees to 
craft a realistic plan of action for making the disability 
program a functioning, viable system for the future.

                                <F-dash>


    Mr. Johnson.  Now, I recognize Mr. Massanari for your 
testimony, sir.

 STATEMENT OF LARRY G. MASSANARI, ACTING COMMISSIONER, SOCIAL 
                    SECURITY ADMINISTRATION

    Mr. Massanari.  Thank you, sir.
    Mr. Chairman, Mr. Pomeroy, members of the Subcommittee, 
thank you for inviting me here this afternoon to discuss the 
direction that the Social Security Administration is taking to 
strengthen our disability program.
    I would like to begin by acknowledging the important 
contributions of the Social Security Advisory Board. Their 
advice and their support have been extremely helpful to us at 
SSA.
    As the Board notes in its January report, our disability 
programs have grown rapidly in recent years and will continue 
to grow in the years ahead. That growth will coincide with the 
anticipated retirement of many SSA employees, increasing the 
strain on administering our programs. In addition, new 
workloads such as those associated with the Ticket to Work will 
require more SSA resources to assist disabled beneficiaries 
reenter the work force.
    As you know, President Bush has announced his intention to 
nominate Jo Anne Barnhart as Commissioner of Social Security. 
She will be a great asset to our agency because of her broad 
range of experience, including previous service as an SSA 
executive and as a member of the Social Security Advisory 
Board.
    To help her address the challenges facing the disability 
program, we are now developing a comprehensive plan that aligns 
and integrates current process, automation, and operational 
policy initiatives.
    Before discussing improvements, though, I want to note the 
importance of our disability programs. Social Security 
disability protection can be invaluable, especially for young 
families; it can be all that stands between them and poverty. 
The SSI Program services the most economically vulnerable 
population with disabilities.
    Almost 7 million disabled persons and their families 
receive disability insurance benefits, and more than 5 million 
blind or disabled individuals receive SSI.
    Together, these programs will provide more than $90 billion 
to beneficiaries and their families this year.
    Social Security disability benefits also provide a gateway 
to Medicare, and SSI provides eligibility for Medicaid.
    We know the current process works well for many people, but 
we also know that we can and must do better. At the heart of 
all our efforts to improve the disability process is our 
commitment to ensure that disabled Americans receive fair, 
accurate, consistent and timely decisions on their claims for 
benefits.
    During my 35 years as a career manager within SSA, I have 
seen firsthand the hard work and dedication of SSA's employees 
as well as the employees in our State disability units. They do 
a remarkably good job of administering this highly complex 
program.
    The solutions to many of the problems the Advisory Board 
raises in its reports are neither simple nor clear-cut. SSA has 
addressed many of the problems as part of our ongoing efforts 
to improve public service.
    Perhaps one of the most important successes is reducing the 
backlog of continuing disability reviews. We became current in 
the Disability Insurance program last year, and we will be 
current with the SSI Program next year. I would like to thank 
this Subcommittee for supporting the Continuing Disability 
Reviews (CDR) funding that made this achievement possible.
    Also, we have reduced the processing time for 
administrative law judge (ALJ) hearings by almost 100 days from 
the peak of 397 days in 1997. We have also reduced processing 
times at the Appeals Council by 140 days during the past 15 
months. Processing times, though, are still too long, and we 
must continue to seek solutions.
    After evaluating a series of options, we settled on a new 
initial claims process that we have been rigorously testing in 
10 States since October 1999. Our results so far indicate that 
accuracy has improved and that we are paying people earlier in 
the adjudicative process.
    Other initiatives during the past year include our Hearings 
and Appeals Council Process Improvement Plans. The Hearings 
Improvement Plan involves significant changes to the way in 
which we process our hearings workload. We have never 
undertaken a process change of this magnitude, and quite 
frankly, it has been a struggle. In some offices, we have seen 
progress, but in others, the progress has been much slower. We 
are undertaking a broad-scale evaluation of this entire 
initiative.
    One concern cited in the Advisory Board's report is the 
variation in allowance rates among States. Because 
socioeconomic and demographic factors influence who applies for 
benefits, it is reasonable to expect some variation in 
allowance rates. These differences do not necessarily suggest 
inconsistent or improper application of policy. Nonetheless, 
substantial differences are cause for attention, and we are 
addressing that issue now. Refinements in our quality review 
process will help achieve greater consistency.
    Finally, the Advisory Board recommended that we revise our 
quality assurance system. We shared the Board's concerns and 
brought in a consultant to study the current progress and make 
recommendations for improvement. We are carefully reviewing 
these recommendations now to assess their merits and to 
determine which ones we should adopt.
    In conclusion, let me emphasize that we are strongly 
committed to making our disability program more responsive to 
claimants and more accountable to the nation's taxpayers. As we 
have done in the past, SSA will rise to the occasion, and we 
will address the challenges facing us in administering this 
large and complex program.
    But we must have the support of the Congress in doing so. 
Mr. Chairman, I want to thank you and the members of the 
Subcommittee who have worked so hard to assure adequate funding 
for Social Security. We will again be relying upon your support 
to receive the funding that we have requested in the 
President's budget. Our written testimony discusses these 
issues in greater detail, and I would be very pleased to answer 
any questions that you might have.
    Thank you.
    [The prepared statement of Mr. Massanari follows:]

 Statement of Larry G. Massanari, Acting Commissioner, Social Security 
                             Administration

    Mr. Chairman, Mr. Matsui, members of the Subcommittee:
    Thank you for inviting me here to discuss the direction that the 
Social Security Administration (SSA) is taking to strengthen the Social 
Security Disability Insurance (SSDI) and the Supplemental Security 
Income (SSI) disability programs. I am pleased to be testifying here in 
my first visit before you as Acting Commissioner, especially since 
SSA's stewardship of these programs touches the lives of so many 
people.
    The monthly disability benefits provided through these programs 
form an economic safety net for circumstances that any of us could face 
in life. Few individuals have private or employer-provided long-term 
disability insurance.
    But nearly all American workers have Social Security. And the 
importance of this program in the lives of American families today will 
only increase in the years to come as America's baby boomers age and 
enter their most disability prone years. We expect receipts of initial 
disability applications will potentially increase about by three 
percent per year over the next decade as projected by SSA's Office of 
the Actuary.
    It is an enormous challenge to administer these large and complex 
programs efficiently, effectively and compassionately. Today I will 
discuss the importance of the disability programs, the challenges 
facing us, and what we are doing to improve our administration of these 
programs. 

Introduction
    Before I begin, however, I would like to acknowledge the important 
contributions of the Social Security Advisory Board. We greatly 
appreciate the Board's advice and support. The Advisory Board's reports 
and findings are invaluable, both now and for the future, as we work to 
ensure that our programs treat our citizens compassionately and meet 
the demands of the baby boom population as it ages. As the Advisory 
Board notes in its January 2001 report on Social Security's disability 
programs, these programs have grown rapidly in recent years and will 
continue to grow as the baby boom generation ages. That growth will 
coincide with the anticipated retirement of many of our experienced 
employees, increasing the strain on the administration of the program. 
In addition, new activities such as those associated with the Ticket to 
Work and Work Incentives Improvement Act of 1999 will require a greater 
portion of SSA resources to assist beneficiaries with disabilities to 
enter or reenter the workforce.
    As you know, Mr. Chairman, the President has announced his 
intention to nominate Jo Anne Barnhart to be Commissioner of Social 
Security. She will be an outstanding Commissioner and a great asset to 
the Social Security Administration. She comes to the position with a 
broad range of experience with the Congress and with the Executive 
Branch, including having served previously as an executive in SSA. 
Currently, she is a member of the Social Security Advisory Board.
    We are not, however, simply waiting for a new Commissioner to 
arrive. In order to be in the best possible position to address the 
challenges facing the disability program, we are developing a 
comprehensive and integrated management plan that aligns and integrates 
current process, automation, and operational policy activities. Our 
goal is to have a plan ready for the next Commissioner that integrates 
all disability related activities across all levels of the process to 
achieve our goals of improved efficiency, customer service and program 
integrity. These activities need to be aligned to ensure balanced 
attention to all of the elements of the plan.
    This plan will identify near-term and longer-term operational 
policy changes and it will continue process improvements, such as 
further refinements to our hearing process. It will support the Ticket 
to Work legislation and other return to work initiatives and strengthen 
our information technology capabilities. The plan will allow us to give 
the new Commissioner a framework and meaningful context to consider for 
future action.
    The Advisory Board shares many of our concerns about disability 
program administration. The January 2001 report recommended that SSA 
study ways to improve the structure of its disability adjudication 
processes so that it can meet the demands of these increasing workloads 
while ensuring that claimants are treated consistently and fairly. We 
believe that our planning will help accomplish this.
    However, the solutions to the issues the Advisory Board raises are 
not simple or clear-cut. SSA has taken steps to address many of them as 
part of its ongoing effort to improve service to the American public. 
For instance,  while there have been complaints about our hearing 
process, we have reduced processing times by about 100 days, from their 
peak of 397 days in Fiscal Year (FY) 1997 to the current processing 
time of about 300 days. We have also seen real progress at the Appeals 
Council level. Over the past 15 months, processing times for cases at 
the Appeals Council level have been reduced by 140 days, and pending 
cases have been reduced by 45,000 cases. 
    These improvements have come about in part because we have modified 
our procedures to increase productivity. However, they also have come 
about because we have shifted resources to the areas of greatest need. 
Nevertheless, it is undeniable that these processing times, although 
improved, are still too long and we must continue to seek solutions.
    For initial decisions, we have also seen some significant 
improvements as a result of our efforts. A major focus has been on 
improving the development and analysis of claims at the initial level 
so that we can pay people who should be paid as early in the process as 
possible. Not only is this a great benefit to the people who are 
allowed much earlier in the process, but it enables our Office of 
Hearings and Appeals to provide better service to those individuals who 
do move through the appeals process.
    Perhaps one of our most important successes in the disability area 
is the progress we have made in reducing the backlog that had developed 
in continuing disability reviews (CDRs. SSA ensures the integrity of 
the DI and SSI programs by periodically reviewing the continuing 
eligibility of individuals receiving disability benefits to make sure 
that only those who continue to be disabled receive benefits. As you 
know, we have been working under a 7-year plan which we first developed 
in 1996 to process the backlog of CDRs that had grown throughout the 
early 1990s and to address a new workload of SSI CDRs that the Agency 
undertook in 1996. We became current in the SSDI program in 2000, and 
we expect to be current in the SSI program by the end of FY 2002.
    Over the course of the entire 7-year plan, we estimate an average 
savings of $10 in benefits for every administrative dollar spent. We 
would not have been able to accomplish this without the help of the 
Congress, particularly this subcommittee, in providing us with the 
resources we needed. For future years, FYs 2003-2011, we expect the 
return on investment in CDRs to be $7 to $1.
Importance of Social Security's Disability Programs
    Generally, when people think about Social Security, they think 
about retirement benefits. However, the disability program is an 
essential part of Social Security's protections. Almost 140 million 
people are insured for SSDI benefits and about 6.7 million workers and 
their families are receiving benefits. About 5.3 million blind or 
disabled individuals receive SSI benefits, about 30 percent of who also 
receive SSDI benefits.
    Approval for SSDI benefits also provides Medicare coverage after 2 
years of receiving benefits. These benefits provide health care 
coverage that to many SSDI beneficiaries is simply irreplaceable, since 
many would not be able to obtain insurance in private markets because 
they are already disabled.
    The protection provided by the SSDI program is extremely important, 
especially for young families. For a young worker, married with two 
children and earning an average income, Social Security has a value 
equivalent to a $208,000 disability income insurance policy, which is 
paid through payroll taxes.
    While about one in six disabled workers is under age 40, the 
typical SSDI disabled worker is over age 50 and has fewer than 12 years 
of education. The average monthly benefit for a disabled worker, and 
his or her spouse and children is $1,311. Nearly half of these families 
rely on Social Security for at least half of their family income. 
Without Social Security, 55 percent of these families would live in 
poverty. Additionally, SSI serves the most economically vulnerable 
population with disabilities, most of whom are living in poverty.
    In fiscal 2001, we expect to pay about $90 billion in benefits to 
disabled individuals and their families through both the SSDI and SSI 
programs. In addition, the SSDI program also provides eligibility for 
Medicare and the SSI program provides eligibility for Medicaid. We 
expect that this year over 2 million individuals will apply for 
disability benefits, and that we will perform 1.7 million CDRs to 
determine whether those already on the rolls remain disabled.
    We also have a responsibility to the beneficiaries and to the 
general public to try to assist beneficiaries to return to work if they 
can. The programs have for many years contained some provisions 
designed to encourage people to return to work. With the passage of 
additional tools in the Ticket to Work and Work Incentives Improvement 
Act of 1999, which we have begun to implement, we are hopeful that more 
individuals will be able to start working or return to work.
    As a matter of record, Mr. Chairman, you already know that 
President Bush has a strong interest in disability issues. The 
President has said that he is committed to tearing down the remaining 
barriers to equality that face Americans with disabilities today. His 
``New Freedom Initiative'' will help Americans with disabilities by 
increasing access to assistive technologies, expanding educational 
opportunities, and increasing the ability of Americans with 
disabilities to integrate into the workforce.
    Clearly, SSA has a great responsibility, not only to the 
beneficiaries of the program to provide the help they need as quickly 
and compassionately as possible, but also to the American people to see 
that benefits go only to those who are truly eligible. This is a large 
and complex program and SSA administers it in cooperation with the 
States. While recognizing that we can and must do better in some areas, 
I want to acknowledge the hard work and dedication of Social Security's 
employees and the employees in our State disability determination 
units. They do a remarkably good job of handling the enormous 
responsibilities assigned to them in administering the disability 
programs.

Processing Disability Claims
    After a disability claim is taken in one of Social Security's field 
offices, it is forwarded to one of the State Disability Determination 
Services (DDS). These State employees are the ones who actually make 
the initial disability determination and, if the individual is 
dissatisfied with the decision, they also provide the first level of 
review, called a reconsideration. These determinations are 
individualized and complex and will be made in more than 2 million 
initial applications, in about 585,000 reconsideration decisions of 
initial claims denials,  and for 1.7 million CDRs this year, as I 
mentioned earlier. These state employees generally must obtain at least 
one year of medical evidence in support of the claim, scheduling 
medical examinations to obtain further evidence if necessary.
    If an individual wants to appeal the reconsideration decision, he 
or she can file a request for a hearing before an administrative law 
judge (ALJ). If the individual wishes to appeal the decision of the 
ALJ, the individual may request that the claim be reviewed by the 
Appeals Council. This is the final administrative level of review. If 
the claimant is dissatisfied with the Appeals Council decision, he or 
she may appeal to a Federal court.
    We know that the current process works well for many people, but we 
also know we can do better. I would like to discuss some of the areas 
we are working on to deal with the issues mentioned in the Board's 
reports.

New Adjudication Process
    At the heart of our attempts to improve the disability process are 
our primary goals to make the right decision, make it as early in the 
process as possible, and ensure that policy is applied consistently at 
all levels of the process and by all decisionmakers in all parts of the 
country. This entails a major effort to document decisions in all cases 
so that the decisions will, right from the beginning, represent a high-
quality product at every step of the adjudicatory process.
    After carefully evaluating a number of different options for 
improving the initial claims process, we settled on a new decision 
process which we are rigorously testing in 10 States in a prototype 
environment. Testing in those states began on October 1, 1999 and is 
still continuing.
    There are three key elements to the prototype adjudication process. 
First, we enhanced the role of the disability examiner in the State DDS 
so that they are authorized to make disability determinations in many 
cases without further review by a staff physician or psychologist. This 
allows medical consultants to spend time on more complex medical cases. 
(Physician or psychologist signoff, however, is still required in all 
cases involving children and denials involving a mental impairment.) 
Second, we eliminated the reconsideration step for initial disability 
claims. Finally, we implemented informal conferences between the 
decisionmaker and claimant if the evidence does not support a fully 
favorable determination. This provides an opportunity for the claimant 
to talk directly to the decisionmaker.
    While we do not yet have complete results in our analysis of this 
process change, our early indicators suggest that accuracy of decisions 
for cases adjudicated under the new process has improved (as measured 
by quality assurance analysis as performed by SSA' Office of Quality 
Analysis. We also have favorable reactions from both customers and 
employees concerning the new process.
    Processing times for awards in the prototype adjudicative process 
are very similar to the time for the current process. Processing time 
for denials takes about 20 days longer, primarily due to the addition 
of the claimant conference. But, importantly, we have found that by 
improving the accuracy of initial decisions, we can reduce the need for 
claimants to pursue further levels of appeal and thereby shorten their 
overall processing times.
    Elimination of the reconsideration step would also save about 70 
days for the almost 500,000 people who seek a hearing each year. (About 
70 percent of claimants are not satisfied with the decision on their 
reconsideration request and appeal the decision to the hearings level.)
    Although the results of the prototype adjudication process appear 
promising, we have not made decisions on extending it to other states. 
We do not yet have sufficient data on the decisional outcomes of the 
test cases through the hearing process, nor do we have all the data 
needed to gauge fully the impact of the new process on program costs. 
We expect that when we have complete information we will be able to 
make decisions on whether to extend the new process to other states.

Hearings before the Administrative Law Judges
    One of the major concerns expressed by the Advisory Board is the 
amount of time we are taking to process hearings. During the past year, 
the Office of Hearings and Appeals (OHA) has implemented a new workload 
process commonly referred to as the Hearings Process Improvement 
initiative or HPI. Implementation of this initiative involved 
significant changes to the way we process our hearings workload, and 
the organizational structure of our hearing offices. We designed the 
initiative to reduce case processing times, improve productivity, and 
enhance the quality of our service to claimants.
    We expect to accomplish these goals by putting in place several key 
elements. The new process streamlines the hearing workflow, with 
emphasis on pre-hearing analysis and development. It creates a group-
based approach, which involves structural changes in the hearing 
office, which is intended to foster a cooperative team environment and 
enhance the skills of the staff. It incorporates administrative 
efficiencies to allow cases to be prepared for hearings faster. And it 
provides higher level analytical support to the ALJ and early analysis 
of cases. 
    We have never undertaken a process change with such a broad impact 
in OHA. More than 2,000 employees assumed different duties as a result 
of revised position descriptions required by the new process. An 
extensive effort took place to train these employees on their new 
duties, as well as all employees on the new process. One of the lessons 
we have learned is that it takes much longer than we had anticipated to 
introduce both fundamental process and cultural change. Working to 
change the process and culture at the same time is not easy, but these 
changes are mutually supportive in the long run. It is disruptive, and 
has taken a toll on performance. Nonetheless, we are now seeing some 
positive performance indicators, and we believe that a growing number 
of offices are benefiting from the new business process.
    You should know that OHA management has been engaged in discussions 
with a broad spectrum of employee representatives to make adjustments 
in the process and to provide more flexibility to local managers. Most 
recently, an agreement was reached to provide needed flexibility in the 
rotation of support staff. Although our efforts thus far have focussed 
on matters directly related to the support staff, we have also taken 
steps to begin discussions with the ALJ union.
    Over the past few months, we have responded to the challenges that 
have arisen in the implementation of the new process. We are also 
taking steps to ensure that best practices are more widely shared among 
hearing offices. We are confident that processing times will decline as 
the hearing offices gain experience with the new process and its full 
benefits are realized. We are continuing to make adjustments and 
refinements in the process in order to achieve continuous improvements.
    This effort is a long-term investment. We are now undertaking a 
broad scale evaluation of all aspects of the new process. The Steering 
Committee responsible for leading the evaluation of HPI will include 
employee representatives. The Advisory Board will also be involved in 
the evaluation process. The Steering Committee has been asked to 
develop and execute a plan that will assess the implementation of the 
process in the hearing offices, solicit and consider feedback about the 
process from within and outside the agency, and identify ways to 
continually improve the OHA hearing process. I have asked the Committee 
to be ready to report early in the tenure of the new Commissioner.

Inability to Hire Additional ALJs
    There are two areas that have the potential to affect the 
disability hearing process. First, since April 1999, due to litigation 
pending before the Merit Systems Protection Board, (MSPB) SSA has been 
unable to hire new ALJs to replace those who have retired. From 1999 to 
present, we have lost 172 ALJs without the ability to hire. We 
currently have 973 ALJs on board. While we were ready to hire 120 new 
ALJs this spring, the order issued by the MSPB has precluded us from 
completing that action. If we are unable to hire more ALJs, we expect 
the number of ALJs will decline to about 950 by the end of the year. 
Obviously, this has the potential to seriously affect our ability to 
decide cases in the hearing offices.
    The order was issued in the case of Azdell v. OPM. The case was 
brought by a class of individuals who have challenged the method that 
the Office of Personnel Management used to compute the veterans' 
preference in the ranking of ALJ candidates. The MSPB has ruled in 
favor of the plaintiffs in the case and against OPM. The MSPB ordered 
OPM to revise the rankings.
    On March 14, OPM issued a new register of candidates, and SSA was 
ready to extend offers to 120 of these candidates when, on April 12, 
2001, the MSPB imposed a stay not to exceed 60 days. The stay, which 
would have expired on June 12, 2001, effectively precluded SSA from 
hiring ALJs from the March 14 register. The MSPB issued a second stay 
on June 11, scheduled to expire August 11.
    Even if the order is not extended again and we are able to hire new 
ALJs beginning in August, they would not be able to begin hearing cases 
until well into next year, because of the training they must receive. 
However, we are seriously concerned that the order preventing the 
hiring of new ALJs may continue to be extended and further delay the 
hiring of additional ALJs.

New Medicare Workload
    A second area that will seriously affect our hearing offices is the 
new responsibility we have under the Medicare, Medicaid and State Child 
Health Insurance Program Benefits Improvement and Protection Act of 
2000. Under that legislation, SSA's administrative law judges are 
required to review local coverage determinations by Medicare 
contractors beginning October 1 of this year. These new hearings will 
require the ALJs who hear the cases to develop substantial expertise in 
Medicare coverage matters. Further, the legislation provides that, 
unlike SSA's current hearing process, these hearings must be 
adversarial. This will be a fundamental change in our hearing 
procedures.
    In addition, the legislation requires that after October 1, 2002, 
SSA must render a decision within 90 days of the request in all 
Medicare cases, including those under Part A and Part B of Medicare, as 
well as those involving local coverage determinations. The legislation 
also provides that the dollar threshold for requesting a hearing will 
drop from $500 to $100, which will result in an increase in the number 
of hearings.
    We expect that this new workload and the stringent time 
requirements will have a substantial effect of the operations of the 
Office of Hearings and Appeals and could seriously affect our ability 
to process disability cases. We are evaluating exactly what the effect 
will be and how SSA will respond to this new workload and are working 
with our colleagues at the Centers for Medicare and Medicaid Services 
(formerly known as the Health Care Financing Administration). However, 
to give you some idea of the magnitude of the challenge, the 
Congressional Budget Office has estimated that for the Social Security 
Administration to fulfill the requirements of the legislation would 
take 1,100 workyears annually. These workyears would represent about 1 
out of every 6 workyears in the hearing offices this year.
    This workload and the inability to hire ALJs pose a significant 
challenge to reducing the workloads and improving the timeliness of 
decisions at the hearing level.

Appeals Council Improvements
    In October 1999, a workgroup representing SSA components was 
convened and charged with developing a plan to assist the Appeals 
Council in reducing the backlog of pending cases in the short term, and 
to keep pace with receipts in the long term. This workgroup published 
the Appeals Council Process Improvement Plan in February 2000, with 
implementation beginning the following month. Since that time, as I 
mentioned at the beginning of my statement, we have made significant 
progress in addressing the time it takes for the Appeals Council to 
review and issue decisions in claims appealed to them. Processing time 
has fallen by 144 days and pending cases have been reduced by 45,000 
cases.
    We are encouraged by these positive first steps, and we expect to 
see continued improvement in the performance of this important 
component of SSA's appellate process. Currently, the Appeals Council 
has a task force working the oldest cases, and once these cases are 
processed, we expect a dramatic improvement in the overall average 
processing time.
    We are committed to continuous process improvement in both the 
hearing offices and the Appeals Council. We will need to continue to 
make adjustments and refinements as we move forward.

State Variations and Consistent Application of Policy
    One of the areas highlighted in the Advisory Board's report is the 
variation in allowance rates among states. I know that this 
subcommittee has long been interested in these differences in 
adjudicative outcomes.
    Because of the varied socioeconomic and demographic factors that 
influence the proportion of a State's population that applies for 
benefits, it is reasonable to expect some difference among state in 
their allowance rates. However, such differences do not necessarily 
suggest inconsistent or inaccurate application of law or policy. 
Consistency among decisionmakers should not be measured solely by 
allowance rates.
    Nonetheless, variations in current allowance rates are cause for 
attention. We are conducting a detailed regression analysis to 
determine the extent to which these differences in initial allowance 
rates can be explained by environmental and demographic factors. 
However, in an effort to ensure consistent decisions, we have begun to 
address the concern through what we term ``process unification,'' which 
is a comprehensive effort to assure that all decisionmakers apply the 
same standards in making disability decisions. Process unification is 
designed to help achieve greater decisional consistency, both from 
state to state and at the different stages in the adjudication process.
    We have seen progress with regard to improved consistency between 
the DDS and hearing levels over the last few years. For example, we 
have achieved improved compliance with difficult policy areas where 
nationwide training was provided. This progress is consistent with an 
important trend toward a higher proportion of all awards being made at 
the front end of the process.

Quality Assurance
    The Social Security Advisory Board recommended that SSA revise its 
quality assurance process. The Board suggested that a revised process 
might shed light on why State variations exist and whether they 
represent problems that could or should be addressed. The Board also 
recommended that a revised process should apply to all levels of 
adjudication and that standard processes apply to all DDSs.
    SSA has long shared the Advisory Board's concerns about the need 
for improvement to our quality assurance system. Because of these 
concerns, we brought in a contractor, the Lewin Group, to conduct a 
study of the current process and make recommendations for revisions.
    The recommendations made in the report from the Lewin Group are 
sweeping. They call for the introduction of a whole new quality 
management system that defines ``quality'' in much broader terms than 
we do today. It would take us well beyond ``quality assurance'' and 
``quality control.'' This quality management system would focus on 
process analysis and process management and would move us away from 
end-of-line inspection and detection of error.
    We believe that the Lewin report, which came to us this March, has 
much to offer. We are carefully reviewing these recommendations to 
fully assess the advantages and disadvantages of the proposals to 
determine which we should adopt. Already underway is a pilot of a new 
consistency review process for claims processed in the DDS's. The new 
review is intended to assure that the quality review system sends a 
single message to all of the States on the accuracy of their decisions.

Disability Research
    The Advisory Board has also recommended that SSA study long-term 
policy changes to its disability programs. One of the most valuable 
services SSA can provide the Administration, the Congress, and other 
policymakers is the information they need for making sound decisions. 
SSA is placing a high priority on policy analysis and research that 
will provide the information necessary to evaluate and strengthen the 
nation's disability programs.
    For example, design plans are well underway for the benefit offset 
demonstration project required by the Ticket to Work and Work 
Incentives Improvement Act of 1999. In this project, SSDI benefits will 
be reduced gradually by $1 for every $2 that a beneficiary earns over a 
certain level. Currently, SSDI beneficiaries face losing their entire 
benefit for months that they earn over $740, the substantial gainful 
activity level. The fear of losing cash and Medicare benefits is often 
cited as a reason beneficiaries do not return to work. The benefit 
offset project will be designed and implemented to measure the 
importance that these two factors have on the beneficiary's decision to 
return to work. In addition, the demonstration will identity the costs 
and benefits of a SSDI offset as well as the determinants of return to 
work, characteristics of beneficiaries who participate in the project, 
and information on employment outcomes.
    Last year, we awarded a 5-year cooperative agreement for our 
Disability Research Institute (DRI) to the University of Illinois at 
Urbana-Champaign. The DRI will conduct research that will help SSA 
address the needs of people with disabilities and to better understand 
the factors that contribute to their ability to remain in the 
workforce. Two DRI projects deserve special mention. The first is a 
design for an experiment and demonstration in early intervention.
    Many experts believe that providing intervention methods to 
disabled individuals as close to the disability onset as possible 
significantly improves their chance of returning to work. We plan on 
testing several models including such interventions as integrated 
service supports and collaboration with employers. We are in the early 
design phase of the project, and are currently working with the DRI to 
develop the details for several models.
    The second priority project that the DRI has undertaken is research 
on validating SSA's medical listings. We are working with the DRI to 
develop criteria that will help determine the extent to which the 
listings are predictive of work ability.
    These are just a few examples of the research we have underway that 
will enable us to continue making improvements in our disability 
programs.

Conclusion
    In conclusion, Mr. Chairman, the disability programs are large, 
complex programs that are critically important to the lives of millions 
of Americans. As the programs have changed over time, so have the 
challenges that confront SSA in ensuring that Americans with 
disabilities receive fair, accurate, consistent and timely decisions 
when they apply for benefits.
    SSA is committed to making the Social Security disability programs 
both more responsive to claimants and beneficiaries and more 
accountable to the nation's taxpayers. We are better able to do so 
because of the important contributions of the Social Security Advisory 
Board, and I want to thank them again for their help.
    In order to succeed, we will also need the support and advice of 
the Congress, and especially this subcommittee. I want to thank you, 
Chairman Shaw, and the members of this subcommittee who have worked so 
hard to assure the funding for Social Security. It is crucial that we 
receive the funding requested in the President's FY 2002 budget 
request. We will again be relying on your continued support to obtain 
the needed funding for our operations.
    I truly appreciate the opportunity to come before you today, so 
that together we can build on the successes that we have seen in recent 
years and work to meet the challenges that remain. I would be happy to 
answer any questions.

                               <F-dash> 


    Chairman Shaw. [Presiding.] Larry, I want to personally 
thank you before I call on other members for the service that 
you have given us. I know that you have been looking forward to 
returning to Philadelphia, but you have certainly done a 
wonderful job for us as Acting Commissioner, and we very much 
appreciate your service to your country.
    Mr. Massanari.  Thank you, Mr. Chairman.
    Chairman Shaw.  Mr. Johnson.
    Mr. Johnson.  Thank you, Mr. Chairman.
    It appears to me that everything is working better than it 
used to, at least at the higher level, but when you get to the 
administrative law judge level, it appears that the 
determinations are still too time-consuming, and it looks like 
about 59 percent of those cases that are appealed get approved.
    Can you speak to that and tell me how we can address that 
problem?
    Mr. Massanari.  Yes. We have in fact, Mr. Johnson, made 
some progress over the past several years. As I mentioned in my 
statement, we have reduced processing times by just about 100 
days since 1997. But clearly, we still need to make more 
improvements, and that is why we undertook last year a major 
process improvement effort which we refer to as the Hearing 
Process Improvement plan, or HPI.
    We are still not satisfied with where we are. This has been 
a very difficult undertaking. So we are intending to undertake 
a major comprehensive evaluation of that entire effort. But I 
would agree that we need to achieve significant improvement at 
that level of the process.
    Mr. Johnson.  I guess you didn't tell me how you are going 
to do that, but that is OK--I presume you are looking at it. I 
believe you have about a $7.1 billion administrative budget, 
and about $5 billion of that is spent on disability, as I 
understand it. Has the cost of disability determination risen 
or fallen on a per case basis since you have been doing 
redesign, and what percentage of the cost of benefits paid is 
the cost of administrative overhead?
    Mr. Massanari.  Let me pick up on your last question first. 
If I understand your question, the percentage of total benefits 
that are captured in administrative expenses runs about 0.9 
percent in terms of total administration of all of our 
programs.
    Mr. Johnson.  That is overall in the administration?
    Mr. Massanari.  Yes, that is overall. This program clearly 
is more expensive. It is a much more complex program than 
managing our retirement or survivors insurance program because 
of the nature of the decision that has to be made. These are 
very complex and very subjective decisions, and that is the 
reason why the administrative costs are higher.
    But at the initial stage, cost per case has declined 
somewhat on average, but in a dollar amount, it continues to 
increase because medical costs increase as do employees' 
salaries.
    Mr. Johnson.  Thank you very much. I yield back the balance 
of my time.
    Chairman Shaw.  Mr. Pomeroy.
    Mr. Pomeroy.  Commissioner, I want to join the Chairman in 
thanking you for that interim assignment. There probably is no 
tougher assignment that anyone can do; you have problems to 
solve, but people know you are not going to be there for the 
long term, and that makes the whole thing more challenging. I 
commend you for your effort.
    Mr. Massanari.  Thank you, Mr. Pomeroy.
    Mr. Pomeroy.  One of the most shameful things I have ever 
seen in a Government program occurred in the early eighties 
when I was practicing law in my home town, Valley City, North 
Dakota, and noticed that just about everybody applying for 
disability was summarily rejected and people on disability 
summarily terminated. It was undoubtedly driven by a concern 
about where claims costs were going, but clearly, it was not 
based on what it needed to be based upon, which was factual 
determinations upon the eligibility criteria given the health 
condition of the individual involved.
    Have steps been taken to make certain that some very 
inappropriate policy decision can never again so dramatically 
affect disability claims administration?
    Mr. Massanari.  Yes. In fact, Mr. Pomeroy, the Congress 
took steps to prevent that from happening by putting in place 
something called the ``medical improvement standard'' so that a 
person, when we go through our continuing disability review 
process, cannot be taken off the rolls unless it clearly is 
established that there has been medical improvement.
    We have been very aggressive in carrying out our 
stewardship responsibilities. We are continuing to do 
continuing disability reviews with the help of this 
Subcommittee, and we are now very close to being up-to-date 
even in the SSI Program, but there are certainly safeguards in 
place, and the appeals process I think serves persons well who 
have been determined to have shown medical improvement where we 
are taking them off the rolls.
    Mr. Pomeroy.  Are we seeing a growing backlog in the 
appeals process?
    Mr. Massanari.  It has actually come down some over the 
past couple of years, but over the past year, with the 
introduction of the hearing process improvement activity, 
backlogs are climbing. That is one of the great concerns that 
we have with the process improvements that we have put in 
place, and that is why we are undertaking an evaluation, 
because things are not going in the direction we would like.
    Mr. Pomeroy.  Some have suggested that cancellation of the 
Senior Attorney program has actually exacerbated the problems, 
and the backlog is growing in the absence of that program. Can 
you describe to us briefly what the Senior Attorney program was 
and why it was cancelled?
    Mr. Massanari.  Back in the mid-nineties, backlogs had 
risen to unusually high levels, and we undertook a number of 
short-term measures. That was one where we were using some of 
our attorneys to do on-the-record decisions, and they were 
doing pre-hearing conferences, and they were permitted to make 
fully favorable decisions. If an allowance could be made, they 
were permitted to make it.
    I do not share the perspective that that was a greatly 
successful effort. Productivity was not what we had hoped, and 
the quality of the product was marginal--although my 
perspective is a bit different on that one.
    Mr. Pomeroy.  It is my understanding that there is a review 
of some cases that were denied by a significant number--130,000 
cases denied--and that a review is ongoing as to the 
appropriateness of those claims denials over a period of many 
years dating back to 1974. Are you aware of an initiative like 
that?
    Mr. Massanari.  I think that what you are referring to are 
not cases that were denied. These are individuals who have been 
on the rolls, receiving SSI benefits, and as part of an 
internal quality assurance review, we discovered that there may 
be as many as 130,000 SSI recipients who may also be eligible 
for Social Security Disability Insurance benefits, Title II 
benefits, that they may in fact be insured. So we are 
undertaking a major effort to determine whether those folks in 
fact are also eligible for Social Security benefits. We are 
starting that effort here in the next several weeks.
    Mr. Pomeroy.  My last question relates to the average 
disability payment level. It is $755 on average. Do you have a 
sense in terms of whether we can reduce this benefit in any 
amount as part of a formula relating to solvency or overhaul of 
Social Security and adequately meet the needs of disabled 
people depending upon this income?
    Mr. Massanari.  I would certainly think that any reduction 
in that benefit would make it very difficult for young families 
with children to make a go of it. I think it is important to 
underscore the fact that when the President established the 
President's Commission to strengthen Social Security, he of 
course outlined six principles to guide the work of the 
Commission, and as you pointed out, one of those is to preserve 
the disability program. We think that is important for the 
folks who are currently receiving benefits.
    Mr. Pomeroy.  Yes, I would agree with you. We need to 
preserve the program, and we need to preserve the benefit 
level, if not increase it. Clearly, anything going south of 
$755 a month would be catastrophic for the individuals 
involved.
    I thank the Chairman.
    Chairman Shaw.  Mr. Brady.
    Mr. Brady.  Thank you, Mr. Chairman.
    First, I want to thank you, Mr. Chairman, for holding this 
series of disability hearings, and not only for your leadership 
but for being responsive to a request from members like myself 
to look into this area.
    Earlier this year, our local newspaper, The Houston 
Chronicle, did a very good, in-depth series of articles about 
the disability claims in our regions, the problems with it, 
looking at real life examples, identifying the unusually long 
time it takes to get to a hearing before an administrative law 
judge, the differences, low approval rate, statewide and in our 
region, basically looking at problems occurring in our region.
    Acting Commissioner, I appreciate three of the associate 
commissioners meeting with our office in the Houston delegation 
to talk through these issues. They made a commitment at the 
time which we all appreciate, Republican and Democratic, in our 
region to expedite the creation of two more administrative law 
judges for our area to try to tackle that part of the backlog 
as well as a review on quality and accuracy to see if we can 
identify what those problems are. And when we look at the 
average numbers in our region, we have not seen those 100 days 
of improvement is my understanding in getting our cases heard. 
We do have an unusually low approval rate--not that this is a 
quota system where each one has an average that has to be met 
exactly; what we want is fairness and timeliness in the 
process. We want people who are truly needy to be approved 
quicker and those who need more information to get that as soon 
as possible to make their case.
    I appreciate, too, the leadership of the Chairman in 
identifying a problem that we do need to take a hard look at 
reviewing and rewriting our disability laws. Thirty years is a 
long time. We have had a number of conflicting and 
contradictory rulings and regulations that I think make it 
difficult to hit that standard of consistency. I know that the 
trends of claims is growing. The trend that less claims will be 
granted based just on obvious physical factors has decreased, 
while the trend of those cases that are being decided by ``You 
are able to work if and under these conditions and in this type 
of situation.''
    We are seeing also from the disability community, not just 
in Social Security but in other parts of government, in 
technology and medicine and service, they have really moved 
past us in their potential to be working, vocationally 
occupied, and back on the job.
    So I have a couple different questions. One, in the bigger 
picture first, is it time for Congress to rewrite our 
disability laws to create a more consistent, clear 
interpretation for our hearing examiners and our judges to 
follow?
    Mr. Massanari.  Well, at a general level, I would have to 
say that with a program that has the level of impact that it 
does in this society, I think it is always appropriate to 
review a program of this kind on a continuing basis to assure 
that it remains responsive to contemporary society, although I 
would not want to see significant change until a broad 
consensus begins to emerge around the need for change in this 
program. But I think that that kind of review is probably 
essential, as the Advisory Board has pointed out.
    Mr. Brady.  Do you not see that we have reached that point? 
I mean, given the variations in the approval rates, in the 
filings, in the time it takes to get there and the different 
regional rulings and regulations and precedents, what more 
would it take to get there?
    Mr. Massanari.  I think it depends on the level that you 
are talking about. If you are talking about fundamental change 
in public policy, then, I think there probably needs to be some 
consensus that needs to emerge. I am suggesting that the kind 
of exploration that the Subcommittee is undertaking is very 
appropriate, and I think we need to very thoughtfully and 
carefully examine the current program.
    But when you begin to talk more about the nature of the 
decisions that are being made, the fact that fewer decisions 
are being made on the basis of objective medical findings, 
decisions are becoming more subjective, and some of that has 
been driven by the courts, those are the kinds of issues that 
we need to look at immediately. In fact, we are beginning to 
undertake an assessment of some of the more recent court 
decisions to make sure that they are consistent with the intent 
of Congress.
    So I am really making a distinction between the policies 
that drive us in terms of medical determinations as opposed to 
very basic public policy. Those are two different things.
    Mr. Brady.  I understand. I guess my point is that I think 
the day has come. While we focus on improvement, and everyone 
appreciates the progress that is being made, striving for 
consistency and lower variations across the country, 
timeliness, can be helped if perhaps Congress gives a much 
clearer--hopefully, clearer; not every rewrite we do is clear, 
by the way--but it seems to me that the time has arrived for a 
rewrite of our disability laws.
    Secondly----
    Chairman Shaw.  The gentleman's time has expired.
    Mr. Brady.  I was just getting going, too. Thank you very 
much.
    Chairman Shaw.  Your statement lasted 3-plus minutes.
    Mr. Brady.  Do you have an additional 30 minutes that I can 
use?
    [Laughter.]
    Chairman Shaw.  Mr. Becerra.
    Mr. Becerra.  Thank you, Mr. Chairman.
    First, Mr. Massanari, let me also congratulate you on the 
work that you have done and thank all the people who work for 
SSA for all they do, because too often, we do not recognize 
that this has perhaps been the most successful agency that the 
Federal government has ever created except perhaps for the 
Department of Defense, and in many ways, we do defend Americans 
by providing them with some guarantees about their survival and 
their retirement and their children.
    Let me ask a couple of questions. First, let me try to 
follow up on something that my colleague Mr. Pomeroy asked, and 
that is in regard to this whole debate that we are having these 
days about the Social Security System, the benefits, where we 
are heading, the reforms.
    When you mentioned in response to some of Mr. Pomeroy's 
questioning that in the whole larger debate on Social Security, 
the President has a principle to preserve the survivors and 
disability components of the current program, give me your 
sense of what we mean by ``preserve.'' Does that mean keep the 
shell, or keep the heart and the guts of what we know today as 
the survivors and disability program under Social Security?
    Mr. Massanari.  Mr. Becerra, I really cannot define it 
beyond what is laid out in the Executive Order. I think the 
Commission will begin to work with the guidelines as they are 
written and will move from there. And as you know, the 
Commission has only held one meeting. They are at the very 
preliminary stages of their deliberations, and they will be 
meeting again on the 24th of July, and at that point, I think 
they hope to issue an interim report talking about the broad 
challenges facing the program. But I think it would be 
premature for me to speculate on that issue.
    Mr. Becerra.  Would you like to offer your own personal 
opinion?
    Mr. Massanari.  I would rather not, thank you.
    [Laughter.]
    Mr. Becerra.  Then, let me use my time in a more valuable 
way and move on to another question. The Social Security 
Administration deals with disability under the Social Security 
Act. We have a definition of disability under the Americans 
with Disabilities Act (ADA), and there is some contention about 
what the true definition of disability is under both acts.
    Do you have an opinion about whether or not the definition 
under the Social Security Act is different, and if it is, 
should it remain different from the definition we find within 
the ADA?
    Mr. Massanari.  Clearly, the definitions, Mr. Becerra, are 
different, but the focus of the two programs, of course, is 
very different. In the case of Social Security, the definition 
is used to determine whether or not a person meets a medical 
and work standard that will yield monthly cash benefits, 
whereas in the case of the Americans with Disabilities Act, the 
focus is really on providing assistance to people who are 
working, to provide reasonable accommodations, and to eliminate 
discrimination in employment.
    The Supreme Court has held in the Cleveland case that while 
the two definitions are different, they are not in conflict 
with one another. In fact, they are complementary--and that 
they can comfortably exist side-by-side.
    Mr. Becerra.  Thank you. I appreciate the answer, because I 
know there has been some concern that we may try to redefine 
disability within the Social Security Act, and I know that that 
would cause a number of folks some concern.
    Let me ask you a question with regard to staffing. As we 
get closer to this crunch period--I remember talking to folks 
at the Department of Transportation about the crunch they are 
going to face with air traffic controllers who are going to be 
forced to retire because of mandatory age requirements, and all 
of a sudden, we are going to have the skies filled with planes 
and the towers filled with inexperienced air traffic 
controllers.
    What are we doing to try to make sure that we can continue 
to hire the best and the brightest at SSA? We have to be very 
competitive. Obviously, a lot of folks are finding some very 
decent salaries out there in the private sector. What are we 
trying to do to make sure that we are paying our personnel 
adequate salaries to compete and to make sure that those who 
are recipients of the program continue to receive decent 
service?
    Mr. Massanari.  As you point out, this is a critical issue 
for this agency, because as we look over the coming decade, we 
may lose as many as 28,000 employees by retirement and another 
10,000 by other forms of attrition. So hiring is critical to 
us.
    We think that we are competitive as we go out into the 
marketplace. We are in fact hiring now, and we have been able 
to attract very good candidates.
    Our concern, of course--and this is where I will make my 
pitch to the Subcommittee--is that we have an adequate number 
of new hires, and that is why we need your support----
    Mr. Becerra.  And more money--more money, right?
    Mr. Massanari.  Well, in supporting the President's request 
in our 2001 budget for a 6.3-percent increase. We need that 
increase in order to be sure that we can achieve our mission. 
It is particularly important in the disability program.
    Mr. Becerra.  Mr. Chairman, my final comment is that I hope 
that you and your successor will continue to point out the 
stark reality that we face so that we will continue to give 
recognition to your needs for additional resources. Otherwise, 
we will face that brick wall as we come to it.
    Mr. Massanari.  Thank you, Mr. Becerra.
    Mr. Becerra.  Thank you.
    Chairman Shaw.  Mr. Hulshof.
    Mr. Hulshof.  Thank you, Mr. Chairman.
    Mr. Massanari, welcome. One of the disadvantages of being 
first in the order to testify is that you perhaps do not have a 
chance to anticipate or to respond to those who may be coming 
behind you. So let me paraphrase a little bit what I expect we 
are going to hear with subsequent panels and see if you have 
some response.
    I am especially taken by the testimony of Judge Bernoski, 
who is here with us somewhere, and specifically pointing out in 
his written testimony at page 3 his belief that the Social 
Security Administration, or the SSA's administration of the 
Office of Hearings and Appeals has really been a failure. And I 
am not paraphrasing; that is right there in black and white.
    He also talks about ``improper implementation of policy'' 
and suggests that an ALJ-administered independent agency should 
be established. Let me go from those comments and let me think 
about those for just a second. I know that also, Chairman Ross, 
who is likely to be next, also thinks that the agency's 
relationship with the ALJs needs to be fixed, or is broken. And 
I know the Advisory Board is suggesting perhaps even a Social 
Security court. So I have given you a couple of hardball 
questions and will give you a chance to respond. What is your 
sense of the observations made by those who are going to come 
after you?
    Mr. Massanari.  Well, I would have to say in response to 
the initial comment that SSA's management has been--and I am 
not sure of the term that was used----
    Mr. Hulshof.  I think especially regarding the Office of 
Hearings and Appeals ``has failed.''
    Mr. Massanari.  I would say first of all that that suggests 
that the Office of Hearings and Appeals is not a part of the 
Social Security Administration. It is indeed a part of this 
agency, and I do not think that that is an accurate 
characterization at all.
    There are certainly challenges facing the Office of 
Hearings and Appeals (OHA) both at the hearings level as well 
as at the Appeals Council level. These are significant 
challenges that face this agency. There are no quick fixes or 
easy solutions, but the agency has worked to try to wrestle 
with the public service problems we face within OHA. But to say 
that it is a failure, I do not think is accurate.
    Mr. Hulshof.  What about this tension or relationship 
between SSA and the administrative law judges? What do you see 
as a way to maybe help turn that around?
    Mr. Massanari.  I think that clearly we need to do more to 
engage the ALJ union. The nature of the relationship, of 
course, has changed within the past year now that the 
administrative law judges are now organized and have formed a 
union, so we have to deal with them as a bargaining unit under 
Title VI of the Civil Service Reform Act. So there is a little 
bit different relationship, but I do think we need to be more 
open and engaging in dealing with them to be sure that we seek 
their counsel as changes are made. We certainly need to provide 
appropriate notice and negotiate with them as appropriate as 
changes are made that affect their working conditions.
    While I am not sure I would describe it as a ``broken'' 
relationship, it is one that needs to be worked at, and I think 
we need to improve communications. I think one of the things 
that has set us on the right track is that very recently, we 
concluded the negotiation of a master agreement with the ALJ 
union, and think it is a positive sign that we are able to 
reach agreement on that set of negotiations.
    Mr. Hulshof.  I appreciate that.
    Let me shift gears and try to end on a positive note. In 
your written testimony or longer testimony at page 11, 
something that I have the opportunity to be a fan of as we have 
discussions on Ticket to Work and as this Subcommittee let the 
effort, and this Chairman helped pass into law and make changes 
regarding work incentives, and that is the benefit-offset 
demonstration project. I know that my time is drawing short, 
but specifically, as we talk about and put this demonstration 
plan together, we are talking about gradually losing $1 for 
every $2 that a beneficiary earns over a certain level. You 
note that there is this 5-year cooperative agreement for 
Disability Research Institute to the University of Illinois.
    Could you briefly--again, my time is short--describe how 
that is working or what you see positive in that regard?
    Mr. Massanari.  We are just in the design stage of the one-
for-two demonstration. There is a bit of a challenge that we 
are trying to work through as we try to sort through the 
legislative fix that we will need to propose. When that 
legislation was enacted, it did not provide for continuing 
appropriation of benefits, and we need to deal with that, 
because without it, we are not going to be able to attract 
potential participants in that demonstration.
    But we are now working with those folks outside the agency 
to begin to design that demonstration. We are also working with 
the University of Illinois as a part of the Disability Research 
Institute to develop a set of research protocols as a part of 
early intervention, which is really a different demonstration, 
of course, but to deal with early intervention to try to get 
persons who are disabled rehabilitated and back into the work 
force rather than getting them on the rolls and then dealing 
with rehabilitation.
    Many believe that this is probably the future and the 
appropriate future for this program.
    We have to have our research protocols sorted out by March 
of next year, with some conclusions by 2004. So we are not at a 
point yet where we have settled on which models we are going to 
pursue, but we are working with the University of Illinois and 
Rutgers University as well in that regard.
    Mr. Hulshof.  Great. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Shaw.  Mr. Ryan.
    Mr. Ryan.  Thank you, Mr. Chairman.
    Thank you, Mr. Commissioner. I wanted to bring your 
attention to a point made on page 3 of the Social Security 
Advisory Board's report, and we as Members of Congress also 
serve as activists and represent our constituents. This is a 
point that, going through this report, I think really says a 
lot. ``Basically, a primary reason why the disability programs 
do not share the same level of public confidence as the 
retirement program is the perception that determinations of 
eligibility for disability are not being made in a uniform and 
consistent manner. As long as variations in decisionmaking 
remain unexplained, the integrity and the fairness of the 
disability programs are open to question.''
    These programs are too valuable and too important to the 
American people to be left with so many questions hanging over 
them. I think we have all probably experienced that ourselves 
when we work on behalf of our constituents. I wanted to ask you 
for your comments. I missed your opening statement, and you may 
have addressed it already, but I want to ask you if you could 
respond to that in fairly quick form, and then I have two more 
questions I would like to ask you.
    Mr. Massanari.  Clearly, variation across State lines is a 
significant issue for us. I had mentioned in my opening 
statement that because of socioeconomic and demographic 
differences among regions of the country and States, you would 
expect some variation in allowance rates. But when they are as 
pronounced as they are in some cases, we need to address that 
and try to figure out why.
    We now have underway a detailed regression analysis that 
our Office of Policy is pursuing so that we can begin to answer 
the question more effectively as to why does that variation 
exist so that we can begin to isolate some of the reasons.
    We have also built a number of things into our quality 
review process. We are now piloting a new consistency review 
activity as a part of our quality assurance activity which is 
intended to overcome some of those inconsistencies across State 
lines.
    Some variation will always exist, and we can explain some 
of it by demographic differences, and this has been 
historically true. For example, those States where we have the 
highest filing rate tend to have the lower allowance rates, and 
I think that is predictable. But again, it is those unexplained 
differences that we are trying to address.
    Mr. Ryan.  Let me get into that point a little further and 
allow you to comment on some testimony we may be hearing later. 
Chairman Ross discusses federalization of the State agencies as 
an interim step to strengthening regulations to require States 
to follow the key guidelines. As a former regional commissioner 
who has worked extensively with the State governments relative 
to their State agencies, what do you think of those ideas? Do 
you think this is a feasible point, and what do you think the 
States' reaction would be to an idea like that?
    Mr. Massanari.  My own judgment is that the States have 
done an extraordinarily good job of handling this program. I 
think they perform very well. So I certainly would not urge 
that we do that. It is something that this body may want to 
explore, but I have to give the States very high marks for the 
way in which they make medical determinations in this program. 
I think the Federal-State partnership has worked well; it has 
been one of the strengths of this program since the mid-
fifties.
    Mr. Ryan.  So you would want to leave it relatively the 
same?
    Mr. Massanari.  I think that before such changes are made, 
they need to be very, very carefully evaluated.
    Mr. Ryan.  One more point--and I have heard this myself 
from some of your field personnel, and I think we are going to 
hear it later today from some of the witnesses who are coming 
from the field offices, who have spoken very highly of your 
Disability Claims Manager pilot. I have heard great comments 
about this program, and I want to get your impression of that 
program and what is the current status of the pilot on the 
Disability Claims Manager? Is it fitting the bill? Is it as 
successful as we are hearing, and are you continuing on with 
the pilot?
    Mr. Massanari.  I would not judge it a success or a failure 
at this point. The pilot itself ran through November of last 
year; that was the end point of the pilot itself, although we 
kept the folks in place to work off the cases that were in the 
pipeline. In fact, just this week, we are ending those pilot 
arrangements.
    We are in the process now of putting together a draft 
report which will go out to the stakeholders within the agency, 
including the employee organizations, to look at. I would 
expect that sometime later next month, a briefing will be done 
for me, and recommendations will be presented to me. But I 
think it is too early to tell whether it is a success or a 
failure, although clearly the responses have been very positive 
from our clients as well as from employees.
    Mr. Ryan.  I would just like to conclude by saying there is 
quite a bit of room for improvement on uniformity in the 
disability claims area, and it is something that we need to 
improve upon to restore confidence that should exist within 
this program which I think the heart and soul, to answer my 
friend from California, ought to be maintained and preserved, 
and I think we will.
    So thank you very much. No further questions, Mr. Chairman.
    Chairman Shaw.  Thank you.
    Thank you, Larry. I want to again express the appreciation 
of this Committee for the fine work that you have done. If you 
get real lucky, this may be the last time that you will be 
before us.
    Mr. Massanari.  It is always a pleasure, Mr. Chairman.
    Chairman Shaw.  I do think that we have acknowledged your 
presence with both gratitude and respect, which is well-
deserved. Thank you, and Godspeed on your way back to 
Philadelphia.
    Mr. Massanari.  Thank you, Mr. Chairman. I appreciate it.
    [Questions submitted from Chairman Shaw to Mr. Massanari, 
and his responses follow:]

                             Social Security Administration
                                          Baltimore, Maryland 21235

    Question 1. In 1996, the Congress designated a separate line item 
of money, outside the appropriations cap, for reducing the number of 
disability reviews. You refer to your completion of the continuing 
disability review (CDR) backlogs as one of your greatest successes. How 
important to your success was that predictable stream of funding? Would 
you recommend this same type of special line item to your budget for 
dealing with other needs of the Agency for such items as enhancing of 
information technology, building human capital or increasing efforts to 
ensure effective stewardship?
    Having a reliable and predictable stream of additional funding was 
absolutely critical to our success. It enabled us to develop and carry 
out a long-term plan to eliminate the CDR backlog, and it ensured that 
this important program integrity work did not have to compete with our 
other critical work, such as processing initial claims and answering 
the phones.
    Our CDR efforts also have been very cost-effective: Over the entire 
7-year period (fiscal years (FY) 1996-2002), we expect to save an 
average of $10 for every administrative dollar spent. For future years 
(FY 2003-2011), the return on investment, while more modest, still is 
projected to be $7 to $1, assuming that sufficient administrative 
resources will be made available to conduct the required reviews.
    In these times of limited resources and competing program 
initiatives, designated and predictable line items are desirable for 
any effort that Congress and the executive branch see as priority, 
``must-do'' items, especially those programs that can be successful 
only if they receive dedicated funding for several consecutive FYs.
    Question 2. It seems that most of our employee representatives and 
State agency representatives in our third panel are saying they don't 
have enough resources, referring to increasing backlogs and the 
increased stress being felt by workers to continue to do more with 
less. Are there plans to provide these components with additional 
resources? If so, would this negatively affect other aspects of SSA 
operations?
    Within the total funding appropriated by Congress for 
administration of the Social Security programs, we continuously review 
resource allocations to ensure that they are directed to the most 
critical priorities. In FY 2001, we have been able to reprogram funds 
both to the Disability Determination Services (DDS) budget to deal with 
disability workloads and to our front-line SSA offices (e.g., 
additional overtime) to deal with claims and other customer service 
workloads. In addition, once resources have been allocated at the 
Agency level, they are often reprogrammed at regional levels (e.g., 
between States) to deal with specific workload issues.
    At this time, the most important resource issue for SSA is 
congressional enactment of the President's full budget request for FY 
2002. The level of service we are able to provide depends on it. If we 
receive the President's full request in FY 2002, which provides a 6.3-
percent increase over the FY 2001 level, we will be able to fund 400 
more workyears in the DDSs and ensure stable staffing in SSA offices.
    I do not believe that there is a manager in government who could 
not put additional resources to good use. However, good service also 
depends on effective management practices. We constantly monitor 
spending in various cost categories and the relationship between 
spending and workloads at the national level to ensure that limited 
resources are distributed effectively among major Agency components, 
including Operations, Hearings and Appeals and the DDSs.
    Similarly, and of equal importance, spending and workloads are 
monitored throughout the Agency down to the local level where 
allocations can be adjusted or work shifted among offices based on 
available staff. Here, because of its portability, overtime is a 
powerful tool for aligning resources with work.
    We believe our efforts to monitor and distribute limited resources 
effectively strike the best possible balance among public service, 
program integrity and investments in technology and in our workforce. 
With the President's request for FY 2002, we would be able to provide 
more resources to our frontline operations and employees.
    In an environment of limited discretionary resources Government-
wide, cap adjustments are useful tools to ensure funding for cost-
effective stewardship activities, such as CDRs, or for essential long-
range investments, such as in information technology and workforce 
development. The CDR cap adjustment has certainly been critical for 
SSA. However, my major concern is that SSA be adequately funded to meet 
its mission, regardless of the source of the funds or the budget 
mechanism employed.
    Question 3. You state that SSA is currently developing a plan that 
aligns and integrates current process, automation and operational 
policy initiatives. Can you briefly tell us about this plan? How is it 
being developed and by whom? Are employee groups represented? What is 
the timeframe for the plan's completion?
    SSA has been working on a number of different initiatives designed 
to address issues in the disability program, including automation, the 
disability redesign process, updating the medical listings, return to 
work, and so forth. The plan pulls together all of the separate 
initiatives to make sure that all aspects of the disability program are 
considered as we develop our plans for further action. I have asked the 
Acting Deputy Commissioner for Disability and Income Security Programs 
to take the lead on developing the plans for addressing all of these 
issues. For many of these initiatives, it is a matter of identifying 
the activity and coordinating the initiative with involved components. 
For example, the lead for the development of an electronic disability 
process was moved from the Office of Systems to the Office of 
Disability. In addition, employee groups are involved in a number of 
the individual initiatives.
    Question 4. You state that the Office of Hearings and Appeals (OHA) 
management has been engaged in discussions with a number of employee 
representatives to make adjustments in the Hearing Process Improvement 
initiative. What adjustments are being made and when?
    Efforts to increase the flexibility of the new business process 
continue to be encouraged. In March 2001, the Associate Commissioner 
for Hearings and Appeals and the Chief administrative law judge issued 
guidance to OHA field managers and staff, outlining ``good ideas'' and 
``flexibilities'' within the new business process that hearing office 
staff could take advantage of and still maintain the core elements of 
the process. In May 2001, OHA management and the American Federation of 
government Employees (AFGE; i.e., the union) signed a Memorandum of 
Understanding, adding two new positions to the hearing office 
structure--the case intake technician and a full-time receptionist--to 
relieve employees of some of the rotational assignments to hearing 
office administrative functions that proved to have a negative impact 
on productivity.
    Question 5. You mention that SSA is refining its quality review 
process. Can you share with us what refinements are being made and what 
are the timeframes for implementation?
    I have established a workgroup comprised of senior executives and 
headed by the Acting Chief of Staff to provide advice to the new 
Commissioner on quality assurance (QA) issues. The charge to this 
workgroup includes, but is not limited to, consideration of the 
findings and recommendations by an independent consultant, The Lewin 
Group, Inc., which was brought in to assess the Agency's QA needs and 
requirements. The workgroup will be developing recommendations for the 
new Commissioner on a new quality process and quality culture within 
the Agency. Since the workgroup has only recently begun its 
deliberations and the specific recommendations are not yet known, 
target dates for implementation of any changes in the QA process are 
not available at this time.
    Question 6. As the Advisory Board and other witnesses on this panel 
have testified, there are variations in allowance rates among States. 
You stated in your testimony that it is reasonable to expect some 
variance of allowance rates because socioeconomic and demographic 
factors do influence the type of individual who applies for benefits. 
You mention that substantial differences are cause for attention and 
that SSA is addressing this issue. How specifically is SSA addressing 
this issue and what have been the results?
    To the maximum extent practicable, SSA strives to maintain and 
apply uniform standards at all levels of determination, review and 
adjudication. In recent years this commitment has been demonstrated 
through the Agency's ongoing process unification efforts, which have 
been supplemented by events such as the ``One-SSA'' meeting that was 
held in June. In that meeting, adjudicators and managers from all 
administrative levels throughout the country met to discuss the 
different management and policy issues facing them, including the 
important role that consistent application of policy plays in meeting 
SSA's obligation to provide an equitable disability determination 
process. Through initiatives such as these, SSA will continue to take 
every opportunity to ingrain in its disability adjudicators the 
importance of ensuring that similar cases are decided in a similar 
manner throughout the country. The result of this program-wide emphasis 
has been, and will continue to be, more consistent application of 
Agency policy around the nation. Without reservation, SSA remains 
committed to providing a fair and consistent disability determination 
process.
    In addition, we are piloting a new consistency review process that 
may help in narrowing variations in allowance rates among the states. 
This new process is described in our response to a later question.
    Finally, SSA is studying a range of factors associated with 
variations in allowance rates using 3 years of recent data. Past 
analyses have shown that a substantial portion of variation in 
allowance rates across the States is due to differences in the 
characteristics of State populations. This does not mean that we should 
not worry about possible decisional inconsistency. Rather, it means 
that in assessing variation, we must first control for demographic and 
economic factors that have an independent impact on allowance rates. A 
simple example of such factors is age. A State with an older population 
is more likely to have a higher allowance rate because, on average, 
older individuals who file for disability benefits are more likely to 
meet the disability criteria.
    SSA currently is conducting a study using regression analysis to 
determine the impact on State allowance rates of factors that are 
external to the adjudicative process. These are factors that research 
has shown to be related to the incidence of disability in the 
population and include:

          <bullet> economic indicators such as the unemployment rate, 
        the labor force participation rate, the poverty rate and per 
        capita income,
          <bullet> demographic indicators such as the proportion of the 
        work force in ages most vulnerable to disability (ages 50-64), 
        the percent of the work force that is male and the educational 
        level of the work force and
          <bullet> health indicators such as the proportion of workers 
        with health insurance, the rate of nonfatal work-related 
        injuries and illnesses and self-reported indicators of health 
        and disability.

    We are examining the Supplemental Security Income and Disability 
Insurance programs separately. The analysis will enable us to assess 
the difference in allowance rates across States, adjusting for 
differences in economic and demographic factors. We will report on the 
results of this study in the fall.
    Question 7. You state that the results are promising in the 
prototype adjudication process, but you have not made a decision to 
extend it to other States. On what factors will your decision to extend 
or not to extend be based? On which data will you focus? When will the 
results be available?
    The decision to extend or not to extend the prototype adjudication 
process to other States will be based on analyses of administrative and 
program cost impacts. The evaluation will focus on a number of factors 
including processing time, quality of decisions, appeal rates and 
overall allowance rates. We will assess all of the available 
information, both quantitative and qualitative, in deciding our next 
steps. An interim report on the status of the prototype will be 
available in the next few weeks. We expect to have a further report 
based on a more complete set of data by the end of the calendar year.
    Question 8. You describe a pilot that is already underway which 
will involve a new consistency review (CR) process for claims processed 
by the DDSs. Can you give us an overview of this pilot program? How 
will it work? Will only claims from specific States be involved?
    Our Office of Quality Assurance (OQA) is piloting a new two-part CR 
process. The first part of this pilot is designed not only to assess 
the State DDS quality, but also the quality reviews of DDS disability 
decisions conducted by OQA's 10 regional disability quality branches 
(DQB). The purpose of this new assessment is to ensure consistent and 
uniform application of SSA policies and procedures in reviews 
throughout the 10 regions. It will also provide case feedback to make 
corrections and adjustments necessary to achieve consistent quality. 
This process aims to promote national consistency in the adjudication 
and review of disability cases. The results of the review will provide 
a means of monitoring the degree of consistency among the DDSs and the 
regions. The data from this pilot will help us to identify methods to 
overcome concerns raised about deviations among the several review 
components.
    State DDSs in two to three regions will participate with the 
central office review component during a 3-month period. The pilot will 
be conducted over a 12-month period until all regions and their 
respective State DDSs have participated. The central review of the 
first three regions, Dallas, New York and San Francisco, was initiated 
in April 2001. Disability determinations from the State DDSs in the 
participating regions will be selected and sent both to the regional 
review component and to the central office review component (central 
office receives a photocopy, the regional review component receives the 
actual case) for a simultaneous preeffectuation review. The results of 
these independent reviews are compared and any discrepancy resolved 
prior to payment. The data collected from these reviews will help us 
assess our consistency, not only within the regional reviews, but 
throughout the regions.
    The second part of this consistency review process is a review of a 
completed case, involving a complex policy issue, by all DDSs and all 
regional DQBs. A copy of the claims file, minus the original decision, 
is sent to all DDSs and DQBs for a separate and independent 
determination. Results from these separate reviews are compared and 
discussed by a cadre of State and Federal representatives. Areas of 
disagreement are identified, discussed and resolved. All participants 
are provided the outcome of the cadre's final report. This information 
is used by the DDSs and regional review components to improve 
consistency with the national standard and for training and future 
assessments. This process began in the first week of February 2001, and 
preliminary results should be available soon.
    Question 9. Judge Bernoski, a witness in our third panel, believes 
that SSA's management of the Office of Hearings and Appeals has been a 
failure. He suggests that an ALJ-administered independent agency should 
be established. What are your views on this suggestion? Is such a plan 
realistic? Would it benefit claimants and taxpayers? What efforts are 
being made to improve OHA?
    We are concerned that an ALJ-administered independent agency could 
hamper uniform and consistent administration of the Social Security 
program. Over the last few years, the Association of administrative law 
judges and its union successor have attempted to advance 
recommendations to split or separate the ALJs off from SSA. We are 
concerned that such a plan may not be realistic and would not benefit 
claimants and taxpayers because it would require, for example, the 
establishment of another administrative structure or layer to manage 
and support ALJs' work throughout the government, adding to the cost of 
administering the disability program.
    The Hearings Process Improvement (HPI) initiative is the most 
recent effort made to improve OHA. Its structure and core elements 
promote group processing of work and position the Agency for future 
growth in adjudicative capacity. During the transition to full HPI 
implementation, OHA has worked closely with the employee unions, 
managers and staff to: (1) encourage flexibility with the new process; 
(2) sign a May 2001 Memorandum of Understanding that added two new 
hearing office positions and reduced the need to rotate staff into 
administrative functions; and (3) promote HPI continuous improvement 
and evaluation activity.
    We are now undertaking a broad scale evaluation of all aspects of 
the new process. Overseeing this effort is a Steering Committee, which 
includes employee representatives and is responsible for leading the 
evaluation of HPI. In addition, a representative of the Social Security 
Advisory Board has agreed to serve as an ex officio Member of the 
Committee. The Steering Committee has been asked to develop and execute 
a plan that will fully assess the implementation of the process in the 
hearing offices, solicit and consider feedback about the process from 
within and outside the Agency and identify ways to continually improve 
the OHA hearing process. The Steering Committee's report of their 
findings and recommendations is due at the end of October. This report 
will be used to determine further actions to improve the hearing 
process and ensure long-term success.
    Question 10. The Advisory Board has made a number of 
recommendations, including revisiting the definition of disability and 
closing the record after an ALJ hearing or certifying claimant 
representatives. What are your reactions to these recommendations?
    The Advisory Board has made a number of extremely important 
recommendations that deserve careful consideration by SSA and the 
Congress. Their recommendations are based on a thorough review of the 
disability program. The Advisory Board gathered and carefully examined 
available disability program data. Members of the Advisory Board 
conducted on-site reviews of field offices, hearings offices, and state 
Disability Determination Services (DDS) offices. These visits aided the 
Advisory Board in analyzing disability program data.
    We are carefully evaluating the recommendations of the Board and 
will work with them and the members of this Committee to assure that 
these recommendations receive full consideration.
    Question 11. Mr. Korn, a Member of our third panel, suggested in 
his testimony that Technical Disability Experts be established in field 
offices. What are your thoughts on his suggestion?
    The Technical Expert for Disability (TED) proposal contains many of 
the same functions as the Federal Disability Claim Manager (DCM). The 
concept of a TED as an alternative approach for utilizing DCM-type 
skills is one of a number of ideas for using DCM-type skills. The draft 
DCM evaluation report was sent to stakeholders for comment on June 29, 
2001 and a final report, expected later this summer, will be the basis 
for considering next steps.
    Question 12. During the hearing, Mr. Skwierczynski was questioned 
about the Title II disability workload program that SSA will be 
implementing. Mr. Skwierczynski expressed concern about the policies 
and procedures designed for this workload, and that the union was not 
given notice or consulted about the plan's implementation. Can you 
provide information about this plan and also comment on Mr. 
Skwierczynski's concerns?
    We do not agree with Mr. Skwierczynski. The principles SSA follows 
to process this large, important workload are longstanding and well 
known.
    Our employees regularly detect that certain Title XVI recipients 
have attained insured status for title II eligibility. Employees 
process such cases routinely throughout the year.
    The policies and procedures we are using to process this workload 
are the same as they have been all along and the impact on any 
individual employee is minimal. Although SSA developed a special 
handbook to process these cases, we did that to focus attention on the 
workload. The handbook simply reiterates existing policies and 
procedures.
    Question 13. Mr. Hill, a Member of our third panel and President of 
Chapter 224 of the National Treasury Employees Union, stated in his 
testimony that the Short Term Disability Plan (STDP) and its Senior 
Attorney program were instrumental in reducing the OHA backlog. He 
stated that the Senior Attorney program alone was successful in 
producing more than 200,000 decisions. Can you give us your thoughts on 
this program? Do you think the Senior Attorney program was successful 
as part of HPI? Why was it eliminated?
    The Senior Attorney program was established in 1995 as an 
initiative of the Agency's Short Term Disability Project to rapidly 
reduce the number of pending disability cases at the hearing level. 
Under this program, some 200,000 fully favorable decisions were issued 
without the need for approval by an ALJ, thus saving the ALJ's time for 
hearings and decisions on the rest of the hearing workload. In general, 
the Senior Attorney program had a positive impact on hearing process 
efficiency and productivity.
    However, by the beginning of FY 2000, pending hearing workloads had 
declined and fewer cases lent themselves to on-the-record fully 
favorable decisions primarily because of process unification 
improvements at the initial claim level. Thus, it was decided that an 
adjudicator in addition to the ALJ would not be a useful element of the 
workflow and staffing structure and that the signatory authority of the 
Senior Attorney would be terminated in each office.
    At the time the decision was made to terminate the Senior Attorney 
program, the full implementation of prototype in the DDSs was believed 
to be imminent. These process changes would further reduce the pool of 
possible on-the-record decisions at the hearing level by ensuring more 
allowance decisions made correctly at the DDS level and by sending 
fully developed and ``fresher'' cases to the hearing offices for 
adjudication.
    The Senior Attorney program was never a part of HPI. However, the 
HPI plan institutionalized key positive aspects of the Senior Attorney 
program, like early screening and analysis of cases and early 
identification and fast-tracking of potential on-the-record decisions.
    Question 14. Several members our third panel stated how successful 
the Disability Claims Manager (DCM) program was. Can you give us your 
comments on this program, and tell us why the program was not extended? 
Will it be reintroduced in the future?
    Although testimonies described the success of the DCM, the 
evaluation results contained in the draft report are mixed and indicate 
that DCM:

          <bullet> Accuracy was comparable;
          <bullet> Processing time was faster, but not dramatically so;
          <bullet> Productivity was within a range roughly comparable 
        to the current process;
          <bullet> Administrative cost was significantly higher;
          <bullet> Customer satisfaction was higher especially for 
        denied claimants;
          <bullet> Employee job satisfaction was higher as compared to 
        their former jobs; and
          <bullet> Initial allowance rates were comparable. Data 
        through the hearing level is not yet available.

DCM site operations were terminated at the end of June 2001.

          <bullet> Federal and State agreement and cooperation were 
        needed for the test, which was conducted over a 3\1/2\-year 
        period.
          <bullet> The data collection period ended in November 2000 
        but sites agreed to continue operation through June to allow 
        for a smooth work transition.
          <bullet> Many test participants had been in travel status 
        during this timeframe and away from home since the test began 
        in November 1997. It was time for them to return home. 
        Additionally, because of significant staff attrition, 
        additional DCMs would need to be selected and trained to keep 
        current sites operational. This was not deemed as a viable 
        option since it takes more than a year to bring staff up to 
        speed.

    It is too early to determine what decisions will be made regarding 
the DCM process. SSA Executive Staff will consider evaluation results, 
stakeholder input, the Federal/State relationship and costs associated 
with next steps as decisions are made regarding the DCM process.
    Question 15. During our hearing, we heard witness testimony and 
questions from the members of the Subcommittee about the backlog of 
cases. The backlog of cases at SSA is an issue that is dealt with 
continually by members' offices. Can you tell us what is being done to 
decrease this backlog?
    To the maximum extent possible, the Agency's available funding for 
FY 2001 is being reprogrammed to maximize case processing capacity. 
SSA's ability to manage pending workloads in the upcoming months is 
dependent on the enactment of the President's budget, which provides a 
6.3-percent increase in the Agency's administrative budget for FY 2002. 
This level of funding will enable SSA to process additional disability 
cases in FY 2002.
    Question 16. There has been concern expressed that employee groups 
are not adequately represented in the HPI Steering Committee. Can you 
comment on this? Who comprises the Steering Committee?
    The Agency is committed to a review of the implementation of the 
HPI initiative in OHA. A multi-component Executive-level Steering 
Committee was established to develop and implement a multi-part plan 
that examines the performance of the HPI initiative in OHA and includes 
broad representation from both management and employee groups. The 
Executive Steering Committee is composed of representatives from:

          <bullet> Office of Operations
          <bullet> Office of Disability and Income Security Programs
          <bullet> Office of Human Resources
          <bullet> Office of Finance, Assessment and Management
          <bullet> Disability Determination Services
          <bullet> OHA Managers Association
          <bullet> National Treasury Employees Union
          <bullet> Association of Administrative Law Judges/IFPTE and
          <bullet> an ex officio Member from the Social Security 
        Advisory Board.

    The American Federation of Government Employees was invited to 
participate but declined to do so.
    A workgroup team has been established, which reports to the 
Steering Committee and has primary responsibility for gathering 
information. The workgroup team includes two bargaining unit members.
    In addition to this formal representation, input is being sought 
from employees representing all position types through onsite visits, 
questionnaires and e-mail.
    Question 17. Process unification was established as part of SSA's 
redesign plan and was designed to improve the disability decisionmaking 
process. Can you tell us if this program has been successful, and if so 
why? Have you found that there is room for improvement?
    Process unification does have its origins in the redesign plan 
beginning with the establishment of an executive level Process 
Unification Team. The focus of the work has been to achieve consistent 
application of agency disability policy at all levels of adjudication. 
It is an ongoing process, which is similar to incremental improvements 
rather than to a finite project with a set number of initiatives. 
Although the Process Unification Team did identify specific initiatives 
to move the Agency forward on process unification, we are now trying to 
ingrain the concept with other activities such as the recent One-SSA 
Meeting, which focused on the entire disability program rather than 
just the policy application.
    Finally, you asked if there is room for further improvement; and 
the simple answer is yes. As we have tried to articulate, process 
unification is an ongoing incremental improvement which probably will 
never have a completion date because there will always be room for 
further improvement.
                                         Larry G. Massanari
                                                Acting Commissioner

                               <F-dash> 


    Chairman Shaw.  Our next witness is Mr. Stanford Ross, who 
is Chairman of the Social Security Advisory Board. Mr. Ross, 
you know the ropes. We will put your full testimony into the 
record, and you may proceed or summarize as you see fit.

   STATEMENT OF STANFORD G. ROSS, CHAIRMAN, SOCIAL SECURITY 
                         ADVISORY BOARD

    Mr. Ross.  Thank you, Mr. Chairman.
    Mr. Chairman, members of the Subcommittee, on behalf of the 
Social Security Advisory Board, I want to thank you for 
undertaking this series of hearings on the challenges and 
opportunities of the Social Security disability programs. These 
programs are of immense importance to the American people, and 
their problems must be effectively addressed.
    Serious problems exist today, and if they are to be 
resolved, fundamental change is needed. This hearing is an 
important step in the careful review that needs to take place 
if changes are to move forward in a timely and appropriate way.
    Over the past 4 years, the Board has spent a great deal of 
time studying SSA's disability programs. We have consulted with 
the agency's leadership, visited with hundreds of managers and 
other employees in the field, and we have also held public 
hearings and benefited from the views of many individuals and 
organizations in individual meetings.
    As has been the case with all of our work, the Board's 
study of disability has been conducted on a nonpartisan basis. 
All of our reports have been issued by consensus and without 
dissent.
    I am not going to go through the numbers, but the huge size 
of this program should be remarked on. Unfortunately, despite 
its huge size, it is almost like a stealth program, because the 
agency also has the Old Age and Survivors Program, where 82 
percent of the dollars are spent. But programs that approach 
$100 billion in cost and constitute 5 percent of the Federal 
budget deserve the kind of scrutiny that you are beginning here 
today.
    The $5 billion administrative budget for the disability 
programs that we site makes up two-thirds of the agency's 
overall administrative budget. In terms of senior management 
time, I would guess that it is much more than two-thirds. Most 
of the problems of SSA as an administrative agency today lie in 
the disability area. The Old Age and Survivors Programs run 
relatively effectively and efficiently. The disability programs 
do not.
    Moreover, what is really worrisome is that the disability 
programs are going to expand rapidly in the coming decade. As 
the baby boom generation approaches retirement, many of them 
will be applying for disability benefits, so that long before 
you have the problem of how to handle the baby boom generation 
retirement, you are going to have the problems of how to handle 
their coming onto the disability rolls.
    At the same time, SSA faces its own retirement wave, and 
having adequate people in place to handle this great increase 
in work is a huge challenge. Part of the reason is because 
SSA's hiring today is not what it was 20 or 30 years ago. It is 
more difficult today. The agency has to be more competitive to 
get good people, and the people who are coming in are often 
older. It may be their second or third career--and they cannot 
be expected to have long-term careers like the present Acting 
Commissioner, who has maybe 30 years with the agency. They may 
only be there 3, 5, or 7 years. So there is going to be a 
constant need to try to keep up with the work load, and it is 
going to be a real challenge.
    Our study of the disability programs has grown out of our 
firm belief that they are a vital part of the Nation's social 
insurance and welfare systems.
    There has not been a full-scale review of disability policy 
and process in over 20 years. The result is a great deal of 
incoherence and, at times, demonstrable unfairness. If your 
claim is relatively simple, maybe it will be processed in 3 or 
4 months; but if it is complex, a year could go by, and if you 
need to go for an appeal to the Office of Hearings and Appeals, 
it can be 3, 4, or 5 years by the time that appeal is heard by 
the Appeals Council. Moreover, you are not able to appeal your 
case to a court until the administrative review is complete.
    This is not good public service. These problems really need 
to be addressed.
    We capsulize our findings by saying that there is a serious 
gap between disability policy and the administrative capacity 
required to carry out that policy. Every part of the process is 
under stress. Field office employees lack sufficient time to 
explain program rules and provide the kind of assistance that 
many applicants need to file a properly documented claim. 
Backlogs are growing in many State disability agencies, and 
caseloads are in effect unassigned; they are sitting in stacks 
somewhere. We have gone out and seen this with our own eyes.
    Hearing offices, the Appeals Council, and the Office of 
General Counsel are all struggling to keep up with the large 
workloads generated by the magnitude and complexity of the 
disability cases that are proceeding through the system.
    There are strengths to the system. I want to make clear 
that there are many dedicated and loyal employees, thousands of 
them, at the Federal and State level who care deeply about the 
people they are serving and who are working hard to meet the 
needs of the people they serve under very difficult 
circumstances. But I would say that this is another case of a 
lot of very good people trapped in a broken system that needs 
to be fixed as promptly as possible so their efforts can be 
productive.
    One of the important thing that can come out of this 
hearing is to begin the process of change, which will not be 
easy, but it will let people, like the people you are going to 
have on your next panel, understand that help is on the way, 
that policy makers are not going to turn back from looking at 
these issues and trying to make the changes that are necessary 
to make these programs more responsive to the needs of the 
present society.
    There are a number of important issues, but I think the 
fundamental issues are three. The first is the issue of 
consistency and fairness. In our reports, we documented 
variations in the program across areas and across steps in the 
process. We had to pull the data together ourselves. What is 
remarkable is that the agency cannot provide policymakers like 
yourselves, on a routine and ongoing basis, information about 
why these differences exist so that you can begin to address 
them.
    I think that one of the things that has to happen is that 
the agency has to be a better manager and produce information 
on a timely basis that allows it to better manage the programs 
and allows you to better exercise oversight.
    Second, as I said before, the process can be very slow and 
cumbersome, and the public deserves better.
    Third, the present systems is not sustainable as it is 
currently being administered. Changes will have to take place 
to meet this huge bulge that is going to come into the program, 
which has been predicted by the actuaries and is as sure to 
happen to the disability programs as it is in the Old Age and 
Survivors Program. This agency has to get prepared for that.
    In terms of the elements of reform, we would point out 
three major things. The management structure needs to be made 
more accountable and more coherent. SSA has a weak management 
infrastructure, and there is just not enough attention being 
paid to the need for change so that the agency can be on top of 
this. One of the major challenges facing the new Commissioner 
will be to determine how to address these shortcomings.
    Second, the Federal-State arrangement needs strengthening. 
I do not disagree that the State agencies are doing a very good 
job under difficult circumstances. As a Commissioner 20 years 
ago, I can tell you they have improved; they are very 
responsive, and they have very many knowledgeable people. But 
there are huge variations in their ability to discharge their 
responsibilities depending on which States they are in and what 
the State laws are.
    We do not advocate Federalization today, but we do advocate 
issuing regulations that establish uniform standards so that 
the disability examiners have the levels of experience, 
training, background and pay that will enable them to do this 
job.
    Our proposals may sound like we are interested in more 
Federal control. We are not. We are interested in helping the 
State agencies, which are often a small part of an umbrella 
State agency, get what they need to do the necessary work and 
for which the Federal government is paying 100 percent of the 
cost. In many States, for example, there is often a hiring 
freeze or other kind of restriction that curtails their 
capacity to do the work that the Federal Government is willing 
to pay for in the interest of helping people.
    Chairman Shaw.  Mr. Ross, could I ask you to sum up? We are 
going to be running over, and there will be some votes called, 
and that concerns me.
    Mr. Ross.  Certainly. I would be happy to do that. I am 
almost at the end of my statement.
    We think that the President has made a good move in stating 
his intention to name one of our own, Jo Anne Barnhart, as the 
next Commissioner. She will bring to the job a wealth of 
relevant experience and a clear understanding of the issues. 
You will find her to be a knowledgeable, thoughtful, and 
decisive representative of the agency.
    We also commend Acting Commissioner Massanari, who has 
shown great initiative and leadership in preparing the way for 
the next Commissioner by establishing working groups to develop 
recommendations in many of the areas we have addressed.
    Finally, I think it is important for me to say that it 
would be a mistake to underestimate how deep and numerous the 
problems are. Isolated incremental changes will not be 
sufficient to address the situation. Nothing less than a 
comprehensive plan for reform is needed to bring about coherent 
changes in the many interrelated elements of the disability 
program. These changes will likely have to be implemented over 
a long period of time but should be guided by the overall plan 
to avoid unexpected and unintended consequences. The Hearings 
Process Improvement Plan is a good example of something that 
has had many unintended and unexpected consequences and has not 
worked to improve things, but has actually worked to make 
things more difficult for both the people working in the Office 
of Hearings and Appeals and the public who have to deal with 
that office.
    In closing, I want to emphasize that the Board is eager to 
work with the Congress, the administration, and the agency on 
the changes that need to be made.
    I am very pleased to have this opportunity, and while I 
have gone way over my allotted time, we have spent so much time 
on this, you will have to excuse me for wanting to use my 
opportunity. I would be happy to answer any questions that you 
may have.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Ross follows:]

Statement of Stanford G. Ross, Chairman, Social Security Advisory Board

    Chairman Shaw, Congressman Matsui, members of the Subcommittee, on 
behalf of the Social Security Advisory Board I want to thank you for 
undertaking this series of hearings on the challenges and opportunities 
of the Social Security disability programs. These programs are of 
immense importance to the American people and their problems must be 
effectively addressed. Serious problems exist today, and if they are to 
be resolved, fundamental change is needed. This hearing is an important 
step in the careful review that needs to take place if change is to 
move forward in a timely and appropriate way. I appreciate the 
opportunity to testify before you today.
    Over the last four years the Board has spent a great deal of time 
studying SSA's disability programs. We have consulted with the agency's 
leadership, visited with hundreds of managers and other employees in 
the field who are responsible for making the agency's disability 
decisions, and examined agency data. We have also had the benefit of 
hearing the views of many individuals and organizations in the 
disability community, both at public hearings and in individual 
meetings. As has been the case with all of our work, the Board's study 
of disability has been conducted on a nonpartisan basis. All of our 
reports have been issued without dissent.

               The Huge Scope of the Disability Programs

    Today, more than 154 million American workers are insured for 
Disability Insurance and rely upon this protection in case of serious 
illness or accident. More than 5 million disabled workers are receiving 
Disability Insurance benefits, and over 1.6 million spouses and 
children of disabled workers are also receiving benefits. More than 5 
million disabled and needy adults and children, many of whom would 
otherwise be living in serious poverty, are receiving SSI disability 
benefits. About 1.6 million SSI beneficiaries also receive benefits 
under the Disability Insurance program.
    As the baby boomers reach the age of increased likelihood of 
disability the growth in these programs will accelerate. The Social 
Security Administration's actuaries project that between 2001 and 2011 
the number of DI worker beneficiaries will increase by 47 percent, and 
the number of SSI disability beneficiaries will increase by 15 percent. 
In the coming fiscal year, Social Security's disability programs are 
projected to cost about $96 billion, or 5 percent of the Federal 
budget.
    Processing disability claims is a massive operation that requires a 
growing portion of the time and attention of SSA staff at all levels. 
Each year, State disability agencies, under the direction of SSA, make 
initial disability determinations for more than 2 million individuals. 
About one quarter of these cases are appealed to an administrative law 
judge, requiring a face-to-face evidentiary hearing. This fiscal year, 
about $5 billion, or two-thirds of the agency's $7.1 billion 
administrative budget, is expected to be spent on disability work. In 
terms of management time, the demands of the disability programs appear 
to be even greater than these numbers suggest.
    The public thinks of the Social Security Administration primarily 
in terms of the Old-Age and Survivors (OASI) programs. This is not 
surprising, given the fact that in calendar year 2000, these programs 
accounted for about $357 billion, or 82 percent of total Federal 
benefit dollars paid by the agency. They represented the single largest 
program expenditure of the Federal government. From the standpoint of 
agency operations, however, the OASI programs run relatively 
efficiently. It is the disability programs that today are at the heart 
of SSA's administrative problems.

     The Gap Between Disability Policy And Administrative Capacity

    Our study of the disability programs has grown out of our firm 
belief that these programs are a vital part of the nation's social 
insurance and welfare system. They are complex in conception and 
application and constantly changing as our society changes. They need 
vigilant attention in order to keep their policy and administrative 
structures sound and up to date.
    Today, there is a serious gap between disability policy and the 
administrative capacity required to carry out that policy. There has 
not been a full-scale review of disability policy and process in over 
20 years. The result is a great deal of incoherence and at times 
demonstrable unfairness.
    All parts of the application and appeals structure are experiencing 
great stress. Field office employees lack sufficient time to explain 
program rules and provide the kind of assistance that many applicants 
need to file a properly documented claim. Backlogs are growing in many 
State disability agencies and caseloads are in effect unassigned. Most 
State agency administrators agree that SSA's current requirements for 
adjudicating claims cannot be appropriately implemented given the 
resources that are presently available. Hearing offices, the Appeals 
Council, and the Office of General Counsel are all struggling to keep 
up with the large workloads generated by the magnitude and complexity 
of the disability cases that are proceeding through the administrative 
and court appeals systems.
    Determining whether an individual is disabled often is inherently 
difficult, but over the years, and particularly in the last decade and 
a half, changes in disability policy have made decision making 
increasingly subjective and complex.
    For example, changes in SSA's regulations and rulings have resulted 
in a gradual but persistent trend away from reliance on medical 
listings to decisions that increasingly involve assessment of an 
individual's ability to function. Program rules now require all 
adjudicators to make a finding on the credibility of statements by 
claimants and others about the effect of pain and other symptoms on the 
claimant's ability to function. There are also more intricate rules 
relating to how to weigh the opinion of treating sources. Making 
assessments such as these is further complicated by the fact that a 
large portion of claims--the Board has been told half or more--involve 
allegations of mental impairment, which are often particularly 
difficult to resolve.
    A number of the most significant changes that have been made have 
grown out of court decisions, many of which have not been appealed. 
These changes have not been reviewed by the Congress and there is a 
question as to whether the agency itself has adequately analyzed them 
from the perspective of--

          <bullet> whether the decisions that are being made reflect 
        the intent of the Congress,
          <bullet> whether they will improve consistency and fairness 
        in decision making throughout the system, and
          <bullet> whether they are operationally sustainable for a 
        program that must process massive numbers of cases.

    We believe that the agency's regulations and rulings need to be 
reexamined from the standpoint of both sound policy and administrative 
feasibility.
    Both the Administration and the Congress share the responsibility 
of ensuring that the agency has the resources it needs to carry out 
legally applicable disability policy. Today there is a large gap 
between disability policy and administrative capacity and the need to 
bridge it is urgent.
    Given the magnitude and projected growth of these programs, it is 
increasingly important to step up and reexamine how they are working 
and whether the policies, resources, and administrative structure we 
have now are adequate to meet future needs.

             Fundamental Issues of the Disability Programs

    In our January 2001 report, Charting the Future of Social 
Security's Disability Programs: The Need for Fundamental Change, we 
describe the major issues that we believe need to be addressed. I will 
not review them in detail today, but I would like to emphasize several 
areas of particular concern.
    First is the issue of consistency and fairness. The Board believes 
strongly that consistency and fairness should be a fundamental goal of 
the disability programs. One of the primary strengths of the Social 
Security retirement program is that benefits are paid on the basis of 
objective rules that treat people consistently and fairly. Although 
determining disability is inherently more complex than determining age 
or work history, the objective should be to achieve as high a level of 
consistency and fairness in the disability programs as feasible.
    These programs require sustained public support. This support can 
only be produced if there is transparency, so that the public believes 
that disability decisions are made consistently and fairly. This 
transparency is sorely lacking now.
    A document issued by the Board in January, titled Disability 
Decision Making: Data and Materials, presents extensive data that 
indicate striking differences in outcomes over time, among State 
agencies, and between levels of adjudication. A recent independent 
study by The Lewin Group and Pugh Ettinger McCarthy Associates also 
found compelling evidence of inconsistencies in agency decision making.
    For many years Members of Congress and others have expressed 
concern about differences such as these. Analysts have identified many 
factors that they think contribute to inconsistencies in outcomes, such 
as economic and demographic changes, regional differences in income and 
health status, court decisions, differences in the evidence at 
different levels of adjudication, and the fact that the disability 
claimant is often unseen until the face-to-face hearing at the 
administrative law judge hearing.
    But many who are knowledgeable about the program, including 
adjudicators in State agencies as well as administrative law judges, 
have long believed that there are also reasons relating to program 
policy, procedures, and structure that are responsible for some if not 
many of these differences.
    Second is the slow and cumbersome nature of the disability 
determination process. The time it will take a claimant to receive an 
initial decision currently varies according to where the individual 
lives, but on average takes about three to four months. Complex claims 
may take considerably longer, and for the many who pursue their claims 
through the hearing process, the final decision will likely take more 
than a year. The wait can be as long as three to four years if an 
appeal goes forward to SSA's Appeals Council. Lengthy waiting times 
such as these impose a heavy hardship on disabled claimants who may 
have no other source of income or medical assistance.
    Third is the unsustainability of the disability system as it is 
currently being administered. The complexity of the current rules 
requires greater skills, training, and time for analysis and decision 
making than is currently being funded. Both State agencies and hearing 
offices lack sufficient staff to balance both quality of work and the 
high productivity that their massive workloads require. In many State 
agencies heavy workloads are causing employee stress, and staff 
attrition is a serious problem. For example, in 2000, 10 States had 
disability examiner attrition rates of 21 percent or higher. This is a 
serious impediment to public service, given the fact that most 
administrators believe that it takes at least 2 years to fully train a 
disability examiner.
    Without major change, these problems will become increasingly 
critical as the growth in the disability workload accelerates over the 
coming decade.

                         The Elements of Reform

    I would like now to highlight the most important changes that the 
Board believes policy makers in the Congress and the Social Security 
Administration need to consider. Some of these changes are within the 
purview of SSA itself, but some would require Congressional action. 
Others would require at least the implicit concurrence of the Congress 
because they are likely to require additional administrative resources.

                  Strengthen SSA's Capacity to Manage

    In our discussions with employees throughout SSA's massive 
disability structure, we have heard many expressions of concern about 
the agency's capacity to provide the strong and coherent leadership 
that the size and complexity of the disability programs require. In our 
observation, there are three major institutional shortcomings:

          <bullet> lack of management accountability,
          <bullet> a weak policy infrastructure, and
          <bullet> the absence of a comprehensive quality management 
        program that can provide the information needed by policy 
        makers and administrators to make sound decisions.

    One of the major challenges facing the new Commissioner will be to 
determine how to address these shortcomings. Jo Anne Barnhart, the 
person named to become the new Commissioner, has been an active 
participant in the Board's work, and is eminently qualified for this 
task.
    Under SSA's present administrative structure, nearly every 
component of the agency is involved in some way in the administration 
of the disability programs. The missions and interests of these many 
components differ, and no one other than the Commissioner has the 
authority to bring issues to closure. The result too often is 
indecision and stalemate rather than well thought out and timely 
action. The 1994 independent agency legislation gives the Commissioner 
broad organizational and appointment authority. We hope that the new 
Commissioner will be able to take advantage of that authority to create 
a management structure that will provide greater accountability and 
unified direction for the disability programs.
    Equally urgent is the need to strengthen the expertise of the 
agency in the area of disability policy. SSA's ability to address 
important disability policy issues has diminished over the years. 
Downsizing and inadequate attention to the need for major new 
investments in this area have undermined the agency's capacity to 
provide adjudicators with clear and sustainable policy guidance. As 
noted above, SSA's regulations and rulings need careful review. There 
is an urgent need to develop a single presentation of policy to guide 
all adjudicators, update medical listings, and develop a replacement 
for the Department of Labor's Dictionary of Occupational Titles (DOT), 
which has long been used to determine whether a claimant has the 
capacity to work. The DOT is no longer being updated and there is need 
for an authoritative source for determinations of occupational capacity 
and related issues.
    SSA also badly needs to replace its narrowly-focused quality 
assurance system with a new quality management system that will have 
much greater capacity to routinely produce the comprehensive program 
information that policy makers need to guide disability policy and 
procedures and to ensure accuracy and consistency in decision making.
    I want to commend Acting Commissioner Larry Massanari for 
establishing working groups to come up with recommendations for how the 
agency can move forward as rapidly as possible in these areas. The 
actions he has taken should be of substantial assistance to the next 
Commissioner who undoubtedly will have to address all these difficult 
issues as promptly as possible.

              Change The Disability Adjudication Structure

    If problems of consistency and timeliness of decisions are to be 
addressed, changes in institutional structure will have to be 
considered.

Strengthen the Federal-State Arrangement
    Since the beginning of the disability system a half-century ago, 
Social Security law has ceded to the States the authority for 
determining whether an individual is disabled. Although the Federal 
government pays 100 percent of the cost, the State agencies remain 
under the direction of the governor and the State legislature.
    This administrative arrangement is inherently difficult to manage, 
and although it has lasted nearly 50 years, its efficacy has become 
increasingly questionable as the disability programs have grown in size 
and complexity. Many believe that the disability system should be an 
entirely Federal system in order to implement adequately the rules and 
procedures necessary to ensure high quality, uniform administration 
through the country. Bills to accomplish this were introduced by two 
former chairmen of this Subcommittee, Bill Archer and Jake Pickle. We 
believe it is time to reexamine the question of Federalization in the 
light of anticipated future needs of the disability programs.
    In the short run, however, Federalization is a problematic option, 
given SSA's current lack of capacity to take on this major 
responsibility. To meet present needs, steps need to be taken as 
quickly as possible to strengthen the present Federal-State arrangement 
by issuing Federal regulations that require States to follow Federal 
guidelines relating to educational requirements and salaries for staff, 
training, quality assurance procedures, and other areas that have a 
direct impact on the quality of employees and their ability to make 
decisions that are both of high quality and timely. For example, 
regulations should ensure that States do not undermine the ability of 
the system to function by imposing hiring freezes or other actions that 
curtail needed State disability operations.
    We believe that under the disability amendments enacted in 1980 SSA 
already has authority to issue these regulations, but if the agency 
decides otherwise, it should come to the Congress and request new 
legislation that will specifically authorize it to make these changes.

Reform the Hearing Process
    Social Security claimants have had a right to a hearing since 1940, 
but the number who exercised that right was very small until the advent 
of the disability programs. Today, about 85 percent of appeals are 
disability cases, with most of the remainder being Medicare. The high 
volume of work demanded by the expanding number of appeals has 
periodically prompted SSA to press for higher administrative law judge 
(ALJ) productivity, which many ALJs believe has not been balanced by an 
equal concern for quality. The relationship between the agency and its 
administrative law judges has been poor for many years, and has 
deteriorated now to the point where the judges have voted to form a 
union, with a view that this was necessary in order to have their views 
taken into account.
    Both the agency's new leadership and the ALJs should work 
aggressively to repair the relationship and to develop reasonable 
procedures that will preserve the decisional independence of judges 
while also assuring promptness and consistency in decision making.
    In addition, three substantive changes should be considered.
    First, the fact that most claimants are now represented by an 
attorney reinforces the proposition that has been made several times in 
the past that the agency should be represented as well. We believe that 
having an individual who represents the agency present at the hearing 
would help to clarify the issues and introduce greater consistency and 
accountability into the adjudicative system. The proposal raises issues 
that would have to be addressed, such as providing representation for 
those claimants who do not have it, but these are essentially secondary 
issues that can be reasonably resolved.
    Second, Congress and SSA should review again the issue of whether 
the record should be fully closed after the ALJ decision. Leaving the 
record open means that the case can change at each level of appeal, 
requiring a de novo  decision based on a different record. Closing the 
record would heighten the need to develop the record as fully as 
possible before the decision is made in order to ensure that claimants 
are treated fairly. If new evidence emerges after the decision, a 
claimant would be able to make a new application, but finality would be 
achieved on the record presented before the hearing decision is made.
    Third, we recommend that consideration be given to establishing a 
system of certification for claimant representatives and to 
establishing uniform procedures for claimant representatives to follow, 
such as requiring them (absent good cause) to submit all evidence 
within a specified number of days prior to the hearing and certify that 
the case is fully developed and ready for a hearing. The objective 
would be to provide for a more orderly and expeditious hearing 
procedure than currently exists.

Rationalize the Role of the Appeals Council
    The Appeals Council performs two basic functions. First, it 
performs a case correction function by providing a final level of 
administrative appeal and by reviewing ALJ decisions on its own motion. 
Second, it reviews cases that are appealed to courts to determine 
whether the agency should defend them or whether it should request the 
court to remand them to the agency for the purpose of affirming, 
reversing, or remanding the ALJ's decision. The case correction 
function is important, but the way it is being conducted has been 
inadequate and needs to be rethought.

Consider Changes in the Current Provisions for Judicial Review
    Over the years a number of bills have been introduced in the 
Congress on both sides of the aisle that would create either a Social 
Security Court or a Social Security Court of Appeals that would 
specialize in Social Security cases, with the aim of providing a 
framework that would produce greater uniformity in decision making. 
Past sponsors of such bills include former Chairmen of this 
Subcommittee James Burke, Jake Pickle, Bill Archer, and Andy Jacobs. In 
addition, the statutorily established Commission on Structural 
Alternatives for the Federal Courts of Appeals, chaired by Justice 
Byron White, recommended in 1998 that Congress should seriously 
consider placing judicial review of Social Security cases in an Article 
I court.
    We believe that that the question of whether existing arrangements 
for judicial review should be retained or replaced by a new court 
structure deserves careful examination at this time by the Congress and 
the Social Security Administration.

     Bring Disability Programs Into Better Alignment With National 
                           Disability Policy

    Finally, there is a need to look at the very underpinnings of what 
constitutes disability today, and how best to serve the needs of 
individuals with disabilities.
    Social Security's definition of disability has not changed in a 
fundamental way since it was enacted. It was conceptualized at a time 
when most of the work being performed required physical labor. Although 
the Congress has always emphasized the value of rehabilitation, there 
was little expectation at the time the program was developed that 
significant numbers of severely disabled individuals would be able to 
perform any kind of substantial work.
    Today the shape of the labor market has changed dramatically. Many 
individuals with disabilities can and do work, and employment has 
become a major objective of many in the disability community. But there 
is growing concern that Social Security's definition, which requires 
individuals to prove that they cannot work in order to receive 
assistance, is inconsistent with this objective.
    The issue of whether the present structure of assistance to the 
disabled provides sufficient help and incentive for employment requires 
thoughtful review. The 1999 Ticket to Work legislation, which this 
Subcommittee played a major role in developing and enacting, should be 
very helpful in encouraging beneficiaries to enter or return to work, 
but it is largely aimed at those who have already been determined to be 
disabled and are likely to have been out of the workforce for a 
substantial period of time.
    Many experts believe that the most effective intervention is to 
help disabled individuals remain in their jobs or return to work as 
quickly as possible. Some research on ways to do this has been 
undertaken, but much more needs to be done. Included as part of this 
comprehensive research effort should be a study of whether providing 
some type of short-term disability assistance, combined with 
rehabilitation and employment services, would improve assistance for 
those who have disabilities while also relieving pressure on the 
permanent disability programs. The experience of other countries and of 
both private and public employers in the United States in facilitating 
employment for the disabled should also be examined. Where needed, 
specific legislative authority and funding for these studies should be 
provided

   Conclusion: Constructive Change and Additional Resources Will Be 
                                Required

    The problems of the disability programs are not new, but they have 
continued to grow as the programs have become more complex, the number 
of claimants has grown, and resources have been constrained. Over the 
last few years, SSA has been working hard to find ways to bring about 
improvements through changes in the disability process. Employees in 
both SSA and the State agencies deserve great credit for performing as 
well as they have in the face of difficult circumstances. But it is 
unrealistic to think that over the next decade, as workloads soar and 
the agency loses more than half of its current workforce through 
retirement and other reasons, that even the current level of 
performance can be maintained.
    If the Social Security Administration is to be able to provide an 
appropriate level of service to those who are disabled and to 
effectively discharge its stewardship responsibilities, fundamental 
changes in policy, institutional arrangements, and resources are 
needed.
    Make no mistake. The problems are deep and numerous. Isolated, 
incremental changes will not work to address the situation. Nothing 
less than a comprehensive plan is needed to bring about coherent 
changes in the various elements of the disability system.
    Experience teaches us that making major changes will be difficult. 
The issues are complex and sensitive, involving the basic well being of 
millions of vulnerable individuals. Changes will have to be carefully 
evaluated within the context of clear goals and objectives. These goals 
and objectives should ensure that all those who need benefits will 
receive them, those who can work and need assistance to do so will 
receive it, and the disability system will provide fair and expeditious 
decisions for all.
    The agency and the Congress face difficult decisions. Your hearings 
provide the opportunity for the open discussion and debate that needs 
to take place to clarify issues for policy makers and the public. 
Importantly, the agency needs to take greater initiative in analyzing 
issues and recommending appropriate solutions to the Congress.
    I appreciate this opportunity to present to you the views of the 
Board. I want to assure you that we are committed to continuing our 
efforts to strengthen the nation's disability system, and we look 
forward to assisting the agency, the new Commissioner, and the Congress 
in any way we can.

    [The attachments are being retained in the Committee files, but you 
can download a copy from the following websites:

    Charting the Future of Social Security's Disability Programs: The 
Need for Fundamental Change, January 2001, http://www.ssab.gov/
disabilitywhitepap.pdf
    Disability Decision Making: Data And Materials (Part One A), 
January 2001, 
http://www.ssab.gov/chartbookA.pdf
    Disability Decision Making: Data And Materials (Part One B), 
January 2001, http://www.ssab.gov/chartbookB.pdf
    Disability Decision Making: Data And Materials (Part Two), January 
2001, http://www.ssab.gov/chartbook2.pdf]

                               <F-dash> 


    Chairman Shaw.  That is why I have been so lenient with the 
time. Thank you very much, Mr. Ross.
    Mr. Brady.
    Mr. Brady.  Thank you, Mr. Chairman.
    Your basic message to us, Mr. Ross, is that there are three 
things we should do--restructure the management of the agency 
to make it more accountable and coherent; strengthen the State-
Federal partnership to raise the quality and consistency of it; 
and undertake a comprehensive plan.
    If we were to ask you what are the three most important 
things we ought to do, would those be it?
    Mr. Ross.  Yes. I would also want to be honest with you 
that I think, despite $5 billion sounding like a lot of money, 
it may well be that more resources in the short term are 
required. Some of these changes will take a while to kick in 
and produce savings, and meanwhile, there is a huge number of 
claims out there that need to be addressed. The Board has 
favored, both during the last administration and the present 
one, a budget for SSA that is greater than the one in the 
President's budget. We think, to put it bluntly, that the 
programs are being run on the cheap. There needs to be an 
adequate number of people in the Federal and State agencies to 
do this work, and they need to be supported by technology and 
other modern management tools.
    Mr. Brady.  I understand someone else will be asking you 
how, specifically, we ought to undertake a comprehensive plan 
and what should be part of that process. But following up on 
the short-term initiatives, you made a comment that you see HPI 
as a failure. Mr. Ryan asked the previous witness about the 
pilot program in New Hampshire and 10 other States, and that 
pilot program seems to me to be fairly sound in its approach, 
taking more time to actually meet with the claimant, get more 
information in their file to present their case, give the 
examiners in the initial examination more time to review it. I 
think they combined the initial examination and the 
reconsideration together to have more time to thoroughly look 
at it, and there seems to be more accuracy and consistency in 
that initial denial or approval phase.
    Does your Advisory Board see that as a process that should 
be applied across the other States as well?
    Mr. Ross.  I think with both the HPI and the prototype 
plans, there are some good elements, and there are obviously 
some elements that are probably going to need to be changed or 
adjusted.
    I did not use the word ``failure.'' But I would say that 
the word we hear when we go to hearings offices most often are 
that ``It has been a disaster for us.''
    Now, there are some positive things that have been learned 
from HPI, and they can be built on, and the same is true with 
prototype. But one of the challenges for the new Commissioner 
will be to sort out the things that are worth making generally 
available across the Nation and those things that should be 
adjusted or even abandoned.
    It is much too early to know how to go on some of this, but 
it is not too early to say there needs to be more attention 
given to the interrelationship of these changes, because when 
you change one part of this puzzle without anticipating what it 
is going to do to the other parts, you have not improved 
things.
    So I would be very slow to recommend going national, say, 
with prototype, even though all the things you say are true. 
There are aspects of it, such as more attentiveness and looking 
at things earlier, that are valuable.
    Mr. Brady.  Thank you. Thank you, Mr. Chairman.
    Chairman Shaw.  Mr. Becerra.
    Mr. Becerra.  Thank you, Mr. Chairman.
    Mr. Ross, thank you very much for your testimony--and thank 
you for your candor, by the way.
    Let me ask you a question first with regard to the 
definition of disability that I asked Acting Commissioner 
Massanari. I am wondering if you could tell me that the Board 
has any intention to recommend that we reconsider the 
definition of disability within the SSA.
    Mr. Ross.  The Board's reports actually address that issue. 
We see important discrepancies between the definition in the 
ADA and the definition under the Social Security laws. Even 
more important than the legal definitions is the way these laws 
work in practice. One law emphasizes trying to keep people who 
are disabled in the mainstream by accommodating the workplace, 
ending discrimination. The Social Security law provides an 
incentive for people to prove total and permanent disability. 
And while Ticket to Work legislation which this Committee has 
worked so hard on may help to improve things, we know that the 
best time to help people is before they are determined to be 
disabled and try to get them some help up front to stay in the 
workplace.
    So we think there are whole areas of policy where there 
needs to be a fresh look to see whether more can be done to 
help people stay in the mainstream and not become dependent on 
this program.
    Mr. Becerra.  Do you see that as a marked departure from 
the existing definition of disability within the system?
    Mr. Ross.  I do not know whether it is so much in the 
definition as in the application, and it may be that an adjunct 
program that may be even more comprehensive than Ticket to Work 
needs to be undertaken; it could be some temporary support to 
help people who want to work and try to continue to work but 
need some help during this period so they do not actually get 
into the Social Security disability system.
    Other countries have done some of this; in some areas like 
worker's compensation, there have been some developments. There 
is a whole universe of things that you can look at, and the 
analysis and research to try to figure out how to help people 
in today's economy really should be looked at. We are dealing 
with a definition that goes back to a time when most work was 
physical labor, and it was pretty clear that if you could not 
work, you could not work, and that was the end of it. In 
today's world, lots of people who are disabled work because it 
is a service economy, the technology has changed, and the new 
directions that we are seeing--and many of them come out of the 
disability community and their advocates--have not been 
recognized sufficiently in these laws. And, as a lawyer, I have 
to say that I do not read the Cleveland case the same way that 
Acting Commissioner Massanari does. It said there are two 
separate definitions, and if that is what Congress did, we will 
let it stand. It pointed out the incongruity of the Social 
Security rules that say that you are disabled even if the 
employer can and will accommodate the workplace--you can still 
be entitled to the benefits. So the two are not meshed.
    Mr. Becerra.  I suspect we will be very interested in 
seeing how you and the rest of the Board continue to develop 
those thoughts about the definition.
    Let me ask one last question since my time is expiring 
quickly. You made some very frank statements that there is a 
need for a comprehensive plan for reform and that the program 
has been run on the cheap. Maybe not in the 30 seconds that 
remain, but if you could please provide us, I would be very 
interested in hearing your thoughts and having more particular 
communications with the Advisory Board members on what you 
think we need to do, because you are sounding an alarm, and it 
will not come out just in a report, but I hear the rumbling, 
and the closer we put our ear to the ground, I think we are 
going to find out that there is a big stampede. So I hope that 
you are willing to give us some very frank and direct 
commentary on what we need to do, because if we are going to 
have to increase funding, if we are going to have to make some 
major changes, we should hear it now, because it will not be 
easy to do.
    Mr. Ross.  Thank you. We will try to continue to help, and 
we will be responsive to you. Thank you.
    Mr. Becerra.  Thank you. Thank you, Mr. Chairman.
    Chairman Shaw.  Mr. Hulshof.
    Mr. Hulshof.  Thank you, Mr. Chairman.
    Mr. Ross, welcome. I am interested in the part of the 
report that talks about trying to improve the relationship 
between the Social Security Administration and the 
administrative law judges. And I appreciate the recognition, as 
Mr. Becerra said, the very candid recognition, of the tension 
between preserving the decisional independence of an ALJ and 
yet trying to get that prompt determination in maintaining that 
independence. I know there is that tension available.
    You suggest, or the report suggests, having the agency 
represented at the hearing. And I know that some of the ALJs, 
as you put it on pages 19 and 20 of your statement, are 
concerned about maybe a tough cross-examination because the 
record on appeal is going to see that maybe they piled on 
against the claimant and that the agency should have someone 
representing them at the hearing.
    Now, I do not have the institutional memory that some of my 
colleagues here do, but hasn't that been tried before?
    Mr. Ross.  Yes. During the reforms that we initiated in the 
late seventies and early eighties, that was done as an 
experiment. It was brought to a halt for a variety of reasons 
including an adverse court decision. But it is 20 years later, 
and the situation has changed dramatically.
    Most claimants are represented today, and represented by 
people who are quite able, and the State agency decision is not 
defended. Now, I do not know how many of you are lawyers, but I 
am a lawyer, and I know that when you are not required to 
defend your decisions, you make mistakes. The best way to 
assure the quality of the agency's decisions is if they have to 
defend them, because a lot of their decisions would not pass 
the ``red face'' test. They are not going to get up in front of 
an ALJ and try to defend bad decisions.
    So a number of cases would go away immediately.
    Second, the ALJs cannot wear so many hats. The ALJ really 
has to be a judge and cannot start cross-examining and trying 
to figure out whether the truth is being told by this one or 
that one. The ALJs' jobs would be a lot better if they could be 
a judge and have both sides make their arguments, and then they 
would make a decision.
    Now, there are problems that you would have to solve. You 
would have to make sure that those claimants who are not 
represented do have representation. There are lots of issues. I 
am not saying that it would be simple, but I do think you could 
solve those problems, and the end product would be a better 
process.
    Interestingly, the new Medicare cases that have been 
assigned to the Office of Hearings and Appeals will be 
adversarial procedures, so they are going to have a large 
caseload that is adversarial that will provide some insights 
into how well this might work in the disability area.
    Mr. Hulshof.  I appreciate that.
    You also talked about the recommendation of closing the 
record after the hearing and whether we should review that 
issue. I am not going to spend time on that, but I wanted to 
make sure the record was complete that that is part of this 
recommendation, as well as a third recommendation of new rules 
for claimant representatives. I probably do not have the time 
to ask you about it. But one thing that I think was sort of 
throw in on page 21 that was not one of the main three 
recommendations was that you suggest that Congress review the 
issue of payment of attorney fees. We had this, I think, as 
part and parcel of a previous hearing about attorneys' 
complaints on statutory limits.
    Do you have any suggestions for us? I know that it was not 
one of the main three components of suggested changes for 
repairing this relationship, but what kind of guidance would 
you provide to us on that?
    Mr. Ross.  The attorney fee situation is structured in a 
way that the ALJs really have to ignore things that are obvious 
to them, such as whether somebody has done a considerable 
amount of work or very little work, whether they have done a 
good job or a poor job. Unlike in most court settings, where 
the judge would review the allowance of fees in a situation, 
that does not take place here; it is pretty mechanical.
    This is a sensitive area. Certainly attorneys who work hard 
and do a good job for their claimants should get fees; and 
certainly if we go to an adversarial situation, it is important 
that they get fees and provide good representation.
    But under the present situation, where it is a non-
adversarial proceeding, I think there are more questions raised 
about the fee issue because their value-added in many cases is 
subject to question.
    Chairman Shaw.  Mr. Ryan.
    Mr. Ryan.  I will yield, Mr. Chairman, so we can get to the 
next panel.
    Chairman Shaw.  Thank you.
    Mr. Ross, I will just throw one thing in. Back when we had 
the city courts, I was a municipal judge, and we would bring in 
a city prosecutor if and only if the defendant was represented 
himself in order to balance it out. Maybe that is something we 
should look at. Even though this is not really supported to be 
an adversarial situation, it would appear that there should be 
someone in there to defend whatever the----
    Mr. Ross.  Mr. Chairman, we have had some ALJs tell us that 
they will almost invariably go to legal services or others and 
tell claimants to be represented. They do not want to sit on 
cases any more where people do not show up with an attorney or 
other representative, because the program has gotten so complex 
that they are afraid the courts will reverse them if the case 
does not show that there has been representation.
    So there is a different situation today than when the 
experiments were run in the early eighties, and your analogy 
may well be very helpful.
    Chairman Shaw.  Thank you. Thank you for what you do and 
for the time that you put in. Obviously, you have been very 
conscientious.
    Mr. Ross.  Thank you very much for having me.
    [Questions submitted from Chairman Shaw to Mr. Ross, and 
his responses follow:]

                             Social Security Advisory Board
                                               Washington, DC 20024
    Question 1. Does the Advisory Board believe the disability 
determination process should be federalized in the long run? By that, I 
mean, should the states be taken out of the process? How would the 
states feel about that in your view?
    The Board's principal concern is that the present Federal-State 
arrangement is not ensuring high quality, uniform administration 
throughout the country. There are wide variances among State agencies 
in areas that have a major impact on the quality of work that is 
performed, including staff salaries, hiring requirements, training, and 
quality assurance procedures. In addition, State agencies are sometimes 
subject to statewide hiring freezes or other constraints that can 
severely limit their ability to process claims in a timely way. The 
Board has urged the Social Security Administration to revise its 
regulations to require States to follow Federal guidelines in these 
areas. We have also stated that SSA should be prepared to take over the 
work of a State agency if, as a result of these new regulations, any 
State should decide to withdraw from the program.
    In addition, the Board believes that the issue of federalizing the 
disability determination process should be examined by SSA and the 
Congress in light of anticipated future needs of the disability 
programs. This will require careful analysis of the administrative, 
fiscal, and political issues that federalization would entail. We do 
not know how States would react to being relieved of their 
responsibilities for making disability determinations, but this would 
likely depend upon the specifics of any particular federalization 
proposal that may be made.
    Question 2. You state that nothing less than a comprehensive plan 
is needed to bring about coherent changes in the various elements of 
the disability system. Can you suggest how SSA could develop a 
comprehensive plan? What particular role do you believe the Congress 
should play?
    The problems that need to be addressed will require changes in 
policy, administrative arrangements, processes, and resources. To 
develop a comprehensive plan, SSA will have to bring together the 
expertise of employees from throughout the agency, including the Office 
of Hearings and Appeals as well as the State agencies. The plan will 
have to include not only a description of the changes that need to be 
made but also a careful timetable for implementing these changes in an 
integrated way so that there will not be unintended consequences. 
Implementation of all the changes that are needed will undoubtedly 
extend over a substantial period of time, so coordination will be 
important.
    Changes should be made with (1) a clear understanding of their 
likely impact on all parts of the process, including field offices, 
State agencies, hearing offices, the Appeals Council, the Office of 
General Council, and the courts, and (2) a measure of assurance that 
the resources, including systems support, that will be needed to carry 
them out, will in fact be available. The agency and the Congress need 
to work together closely to develop changes that can be widely 
supported and successfully implemented. Initially, the Congress can be 
particularly helpful by holding hearings that will educate policy 
makers and the public on the problems that need to be addressed and the 
changes that are needed.
    Question 3. You testified about the lack of management 
accountability. One recommendation by Mr. Willman, from our third 
panel, is that SSA designate one person, accountable directly to the 
Commissioner to oversee the entire disability program. Would you 
recommend this to the new Commissioner?
    The 1994 legislation that established SSA as an independent agency 
gives the Commissioner the authority to organize the agency as the 
Commissioner considers necessary or appropriate. There are a number of 
ways the Commissioner could try to bring greater accountability and 
unified direction to the disability programs. The Board noted in its 
January 2001 report that one way to do this would be to appoint a high 
level individual, who would report directly to the Commissioner and 
have authority to make decisions that cut across functional lines, to 
manage the programs. Alternatively, the Commissioner may determine 
that, given the importance of the disability programs, it is the 
Commissioner who is the most appropriate person to assume direct 
responsibility for coordinating the many aspects of the operation. If 
the magnitude of the Commissioner's other responsibilities is deemed 
too great to make this feasible, the Commissioner could assign this 
responsibility to the Deputy Commissioner. Still another option would 
be to restructure the agency so that disability-related functions could 
be coordinated more coherently than under the agency's present 
organizational arrangements.
    Question 4. You state that there is concern that disability 
decisions be consistent and fair in order to sustain public support of 
SSA's disability programs. In order to do this, you feel that public 
support can only be produced if there is transparency. Can you tell us 
more about what you mean by transparency, and how it would help?
    The disability programs require sustained public support. This 
support can only be produced if it is clearly perceived by claimants 
and the public at large that disability decisions are made consistently 
and fairly. One reason the disability programs do not share the level 
of public confidence enjoyed by other programs administered by SSA is 
because there is a longstanding and widespread perception that the 
agency is unable to apply the statutory definition of disability in a 
uniform and consistent manner.
    As data assembled by the Board show, there are striking differences 
in outcomes over time, among State agencies, and between levels of 
adjudication. Analysts of the disability programs have identified many 
factors, such as economic and demographic differences among regions of 
the country, which they believe contribute to these differences. 
However, the agency has no effective mechanism to provide the kind of 
information that policy makers and administrators need if they are to 
understand why differences are occurring and the degree to which they 
may be the product of the agency's own policies and procedures. The 
lack of transparency in how decisions are being made is harmful in two 
important ways. It contributes to a perception that the program is not 
administered consistently and fairly, and it prevents policy makers and 
administrators from knowing what corrective action is needed.
    The Board has recommended that SSA develop and implement a new 
quality management system that will routinely produce the comprehensive 
program information that policy makers need to guide disability policy 
and procedures and to ensure accuracy and consistency in 
decisionmaking. The quality management system should incorporate all 
parts of the disability determination process. Making the information 
that it provides available to persons who are concerned with the 
disability programs both within and outside of the agency should 
promote more uniform administration and better public understanding of 
and support for the disability programs.
    Question 5. Another area you suggest needs a close review is reform 
of the hearing process. You state that Social Security claimants have 
had a right to a hearing since 1940, but the number who exercised that 
right was very small until the advent of the disability programs. You 
state today that about 85% of appeals are for disability cases. Do you 
have any suggestions of what could be done to decrease the number of 
cases appealed such as program changes?
    Individuals who believe their cases have been incorrectly decided 
should be encouraged to appeal the decisions, as the agency currently 
does. But it is in the claimant's interest, as well as the interest of 
the programs, to have a determination that the claimant considers 
satisfactory early in the process so that an appeal is not considered 
necessary.
    The Board's reports point to a number of improvements that need to 
be made in the disability system that may affect the number of cases 
that are appealed. For example, at the beginning of the application 
process claimants need to be given a better understanding of the rules 
of the program and the information needed to correctly process their 
claims. Improving the Federal-State arrangement and providing adequate 
resources at the field office and State agency levels should result in 
better developed cases and better reasoned and explained decisions. 
Introducing adversarial hearings at the appeals level may also have an 
indirect effect over the long term because State agencies may become 
more rigorous in their decisionmaking if the decision has to be 
defended at a hearing. More careful articulation of policy, and making 
policy uniformly applicable at both the State agency and administrative 
law judge levels, should produce more uniform decisionmaking, which 
also may affect the number of appeals. The Congress and the agency 
should also examine the extent to which the changes that have been made 
in recent years as the result of court decisions and other pressures 
have produced a degree of subjectivity into the process that encourages 
continued appeals.
    In addition, both the Congress and SSA should carefully review the 
impact of the agency's present plan to eliminate the reconsideration 
step in the appeals process. SSA is currently testing the elimination 
of reconsideration in 10 prototype States. The agency intends to 
eliminate reconsideration nationwide as one of a number of changes it 
plans to make in the disability determination process. It is still 
unclear what impact the elimination of reconsideration and the other 
changes that are being tested will have on claimants and on the ALJ 
process. If the evaluation does not clearly show that the prototype 
changes will produce the hoped for results, including significantly 
fewer appeals to the ALJ hearing level, SSA should consider enhancing 
the current reconsideration step by offering claimants a face-to-face 
hearing and ensuring that it involves a de novo review that is 
conducted only by highly trained and experienced individuals.
    Question 6. In your testimony, you state that the role of the 
Appeals Council should be rationalized. You specifically point to one 
function, case correction, which should be reviewed because the way it 
is currently being conducted is inadequate. Can you explain how it is 
inadequate, and what could be done to improve it?
    The Appeals Council performs a ``case correction'' function by 
providing a final administrative appeal for individuals whose claims 
have been denied by an administrative law judge. Congress also gave the 
Appeals Council the authority to review ALJ decisions on its own motion 
in order to ensure that the agency's policy is being uniformly applied 
and to identify areas where policy needs to be more clearly 
articulated.
    Currently, there are weaknesses in the performance of the case 
correction function from the standpoint of both individual claimants 
and the disability programs. For claimants, the Appeals Council step 
can be unreasonably slow. Although it has improved recently, the 
average time for processing an appeal was 505 days in fiscal year 2000. 
From the standpoint of the programs, the Appeals Council step appears 
to be ineffective in improving consistency in the application of policy 
or in identifying areas where policy articulation needs to be improved. 
Although in recent years the number of cases being remanded by the 
Council to administrative law judges has increased, the Board has been 
told that the explanations for the remands that are provided to the 
judges often give them little guidance as to the reasons why the 
decision needs to be reviewed. The Council has also been reviewing too 
few cases on its own motion to serve as an effective monitor of 
consistency and accuracy in the application of policy.
    In addition, the current system allows claimants not only to 
present additional evidence to the Appeals Council but also to present 
new allegations of disability. Rather than performing an appellate 
review, the Appeals Council becomes involved in determining, or re-
determining, facts. Closing the record after the ALJ decision would 
give the Appeals Council an appellate function. Claimants would, of 
course, have the right to file a new claim in order to present new 
evidence or allegations.
    Question 7. You state that over the years a number of bills have 
been introduced which would create either a Social Security Court or a 
Social Security Court of Appeals which would specialize in Social 
Security cases with the aim of providing a framework to produce greater 
uniformity in decision making. Can you give us some advantages and 
disadvantages of creating a separate court system?
    The principal argument for a Social Security court is that it would 
provide more uniform case law throughout the country and increase the 
consistency of decisions. It would provide more uniform procedures, 
resulting in more consistent application of the substantial evidence 
rule and more uniformity in how remands are made. A separate court 
system would also provide a bench with greater expertise in disability 
program rules. Social Security cases are only a small percentage of 
Federal court cases, and generalist judges cannot be expected to have 
expertise in this subject. A final important advantage is that there 
would be less variance throughout the country in how long an appellant 
has to wait to have his case heard.
    The major disadvantage would be the loss of the legal debate that 
now takes place as issues are discussed in various Federal circuits. 
Some refer to this as a ``percolation'' of ideas before review by the 
Supreme Court is sought. Another point that is raised by opponents of a 
separate court system is that, even though Social Security court 
proposals that have been made in the past provided for divisions and 
field panels to make the court more accessible, these might not be as 
convenient for claimants as the existing court system. Finally, there 
is the issue of the number of judges needed and the attendant costs. 
The issue of additional cost needs to be studied. A separate court 
would not create additional work but would re-distribute existing work. 
A study should clarify whether the costs of a separate court would be 
offset by savings elsewhere.
                                           Stanford G. Ross
                                                           Chairman

                               <F-dash> 


    Chairman Shaw.  We now have a panel consisting of Witold 
Skwierczynski, who is President of the National Council of SSA 
Field Operations Locals, American Federation of Government 
Employees, AFL-CIO, Baltimore, Maryland; Steven Korn, who is 
President of the National Council of Social Security Management 
Associations, Inc.; Sue Heflin, who is President of the 
National Association of Disability Examiners, from Jackson, 
Mississippi; Douglas Willman, who is past President of the 
National Council of Disability Determinations Directors, from 
Lincoln, Nebraska; James A. Hill, President of Chapter 224, 
National Treasury Employees Union, from Cleveland Heights, 
Ohio; and finally, we welcome the Honorable Ronald G. Bernoski, 
who is President of the Association of Administrative Law 
Judges, from Milwaukee, Wisconsin.
    We have all of your testimony, and I would request, in that 
we are getting a little late, and we want to get through all 
the witnesses on the panel, if you could be as brief as you can 
so that members will have an opportunity to question you.
    We are going to be starting to vote, and when that happens, 
it is going to make it very difficult for us to continue the 
hearing, particularly because Congress will be letting out, and 
people will be catching planes and going home.
    Mr. Skwierczynski.

STATEMENT OF WITOLD SKWIERCZYNSKI, PRESIDENT, NATIONAL COUNCIL 
  OF SSA FIELD OPERATIONS LOCALS, CHICAGO, ILLINOIS, AMERICAN 
    FEDERATION OF GOVERNMENT EMPLOYEES, AFL-CIO, BALTIMORE, 
                            MARYLAND

    Mr. Skwierczynski.  Thank you, Mr. Chairman.
    My name is Witold Skwierczynski. I am with the AFGE union. 
We represent employees who work in the 1,300 field offices and 
36 teleservice centers around the country. It is a bargaining 
unit of about 25,000 people.
    The people whom I represent interview the public; they take 
and process disability claims. Our frontline workers are 
dedicated, they care about the disability program, and they 
want changes.
    The disability program is broken. What we are experiencing 
right now is higher processing times; there is no uniform 
decisionmaking; each State has different approval rates and 
criteria. We have a sad situation where there are 150,000 cases 
that SSA has sent to States that are not assigned to any 
disability examiners and are sitting up to 6 weeks before they 
are assigned.
    It is our experience that the prototype is a failure. It 
has resulted in higher processing times. Claimant satisfaction 
is low. Employees are dissatisfied with the process. The 
claimant conference is, frankly, a joke; only 2 percent of 
those who do a claimant conference have a reversal. And 
hearings requests have escalated out of control. The States are 
complaining about the quality of the product that is produced 
in Social Security offices, and Social Security employees 
complain about the State backlogs.
    There are some solutions, and in my statement, I include a 
number of them, but I will concentrate on three--more 
resources, the Disability Claims Manager pilot, and the Ticket 
to Work pilot and employee support representatives.
    I think that more resources are absolutely necessary. 
Efficiencies, Internet claims, and streamlining the 
decisionmaking process will not derive the kinds of changes 
that the Subcommittee is looking for.
    The disability process is labor-intensive. Actuaries 
predict that our workloads are going to go up close to 50 
percent by the end of the decade. I was disappointed with 
Commissioner Massanari's support of the President's budget. The 
previous Commissioner Apfel in his budget that he proposed 
before he left asked for 2,426 more work years, and in that 
budget, he indicated that if Congress provided that kind of 
assistance, we would be able to process more disability cases, 
reduce the SSA pendings, produce more hearings, and reduce the 
pending hearings.
    So I urge the Committee to encourage the Appropriations 
Committee to seriously consider the Apfel proposals.
    On the Disability Claims Manager (DCM), the pilot ends 
today. DCM is a caseworker approach and combines the disability 
and entitlement decision making.
    What are the results of the pilot? It is a winner. Why? 
High levels of customer satisfaction. I include a chart 
comparing customer satisfaction to the prototypes, and it is 
amazing.
    On processing time, average processing time is 73 days. The 
agency in their FY 2002 goals is shooting for 108 days; that is 
32 percent better than the agency's goal.
    Accuracy, costs, and productivity are comparable to the 
current process. Employee satisfaction is very high.
    Why is SSA shutting it down? It is a tragedy, actually. 
There is State resistance. They think it is a threat to the 45-
year monopoly that the States have on the disability 
decisionmaking process. There is no political will for SSA to 
buck that trend, and they are afraid to come to you and ask for 
the changes that are needed in legislation to allow Federal 
employees to make disability decisions. We would ask that you 
strongly consider that in view of the success of the DCM pilot, 
that having a caseworker approach is a much more efficient, 
speedy, and better way to process disability claims.
    We would also ask you to look at the Employee Support 
Representative program. This Committee was the catalyst for the 
Ticket to Work legislation. Part of Ticket to Work is the 
establishment of the Employee Support Representative program. 
It is a pilot; there are only 32 of them. That worker plans and 
develops outreach and communication regarding work incentives 
with community groups. They also do work issues and continuing 
disability review investigations.
    The recent evaluation on that program is excellent. For 
every $1 spent on just the CDR portion of the program, the 
trust fund gets a $12 return. This will reduce overpayments if 
we have an aggressive Employee Support Representative (ESR) 
program across the country.
    Currently, people on disability who work is the second-
highest incidence of overpayments within Social Security. It 
also has a redeeming social factor in that we are helping 
disabled people to return to work and to have more dignity in 
their situations and not have them permanently on the 
disability rolls.
    We would ask Congress to urge the agency and to provide 
funding to expand ESR to every office in the country so that it 
will be a more effective program than just the 32 that we have. 
I think the agency is reluctant to do that. They are afraid 
that expanding the ESR program under current staffing 
constraints will cause problems in the initial disability case 
work.
    So we need help from this Committee to urge the agency and 
to ensure the agency does expand that program which is of 
benefit not only to disabled people but enhances the viability 
of the trust fund.
    Thank you.
    [The prepared statement of Mr. Skwierczynski follows:]

 Statement of Witold Skwierczynski, President, National Council of SSA 
  Field Operations Locals, Chicago, Illinois, American Federation of 
           Government Employees, AFL-CIO, Baltimore, Maryland

    Chairman Shaw, Ranking Member Matsui, and members of the Social 
Security Subcommittee, I want to thank you for your invitation to 
testify on the subject of SSA's disability programs and for the 
opportunity to present this statement regarding the longstanding and 
worsening crisis in the Social Security Administration's disability 
programs. As President of the National Council of SSA Field Operations 
Locals, I speak on behalf of approximately 25,000 Social Security 
Administration (SSA) employees in over 1300 field offices and 36 
Teleservice Centers across the country. These employees receive, 
process and review disability benefit applications, appeals requests, 
and assist disabled beneficiaries with many post entitlement issues, 
including recent employment support initiatives. AFGE welcomes the 
opportunity to encourage the prompt action that is needed to ensure 
that the Social Security Administration can fulfill its current and 
future obligation to serve the American people.
    I would like to extend our gratitude to Stanford Ross and the 
Social Security Advisory Board (SSAB) for their continued perseverance 
in addressing improvements necessary to strengthen SSA's capability to 
respond to the demands of the disability workloads, present and future. 
AFGE strongly agrees with the SSAB's finding that additional resources 
are essential to administer these disability programs. AFGE fully 
supports the Board's recommendations to exclude SSA's administrative 
budget for Social Security from the statutory cap that imposes a limit 
on the amount of discretionary government spending.
    While SSA disability workloads continue to increase steadily, human 
resources have been constrained. As this committee is aware, the crisis 
stems from a severe downsizing within the Agency, almost entirely in 
those positions that provide direct public service. Senior SSA 
officials and AFGE have testified at various times to this Committee 
that without human capital and process improvements, our Agency will 
find itself with a deficit of nearly 20,000 employees to maintain the 
previous levels of public service. The improvements and the staff 
increases needed to deliver the timely, high quality service that our 
clients have paid for and deserve have not materialized.
    AFGE supports the budget proposed by former Commissioner Apfel of 
$8.2 billion for FY 2002. Chairman Shaw proposed an even larger 
appropriation for FY 2002 ($8.4 billion) when he sponsored HR 5447. 
These resources are necessary to provide sufficient staff to enable SSA 
to efficiently process its disability workloads. Absent such resources 
SSA will process fewer claims and fewer continuing disability reviews 
(CDRs). Processing times will be longer and waiting times in offices 
will exceed tolerable limits. Overpayments will increase due to 
staffing shortages. These outcomes were all predicted in the former 
Commissioner's budget proposal. AFGE believes that the American public 
deserves a better deal from SSA. Actuaries predict that SSA's 
disability workloads will increase by over 40% by the end of the 
decade. Processing times are already escalating due to the increasing 
volume of work. In addition, overpayments are rapidly escalating due to 
SSA's inability to properly monitor eligibility of those currently on 
the benefit rolls.
    SSA observers such as the SSA Advisory Board are critical of the 
uneven allowance rate which depend on a claimant's state of residence. 
Profit motivated companies have become an increasing problem in SSA. 
These companies have taken over some claims taking functions that have 
traditionally been viewed as inherently governmental. Such transfer of 
work has often resulted in poor service and occasionally in outright 
fraud and criminal activity. In addition, SSA's own management 
information systems have been compromised due to cutthroat competition 
by SSA managers over ever decreasing resources.
    Solving these problems is a daunting task. A multifaceted response 
is required. Certainly Congress must supply adequate budgetary 
resources to enable SSA to process the anticipated increases in 
disability workloads. However, many of SSA's disability related 
problems can be solved if SSA rolls out two pilots which have proven 
remarkably successful in reducing processing times, providing greater 
customer satisfaction and eliminating some of the large overpayments in 
the Disability program. These pilots are the Disability Claims Manager 
(DCM) and the Employment Support Representative (ESR).

Disability Claims Manager
    Today the Social Security Administration (SSA) will close down the 
Disability Claims Manager (DCM) pilot which is the final and only 
successful project of the approximately $100 million Disability Process 
Redesign. SSA is abandoning this project, closing the sites and 
dismissing journey level Federal and State DCMs before a complete 
consideration of the formal evaluation results that is targeted for a 
mid-July release.
    The DCM was designed as a proof of concept test of one stop service 
to SSA's disability claimants. The current bifurcated process is slowed 
by hand-offs between the federal claims representatives and the state 
disability examiners. Claimants do not understand the system. Currently 
federal employees interview disability claimants and secure information 
regarding their medical condition. The medical information is sent to 
state disability processing centers. Employees in the state centers 
secure the medical evidence of record for the claimant. Often claimants 
are referred for consultative examinations by contracted physicians. 
After all required medical information is secured, a state disability 
examiner decides whether the claimant is disabled and sends this 
decision back to the SSA field office. SSA makes decisions on all of 
the claimant's non-medical entitlement factors such as benefit amount, 
entitlement of children and spouse, correct posting of earnings in 
their work history, etc.
    Claimants are thoroughly confused by this process. They are 
confused by the division of duties between the state and federal 
workers. They are never able to identify who makes the medical decision 
on their disability claims. They never are seen by this state decision-
maker. The public expresses significant frustration to front line SSA 
employees regarding this process.
    The three-year DCM test measured the capability of one person to 
adjudicate both the technical and medical factors of entitlement. It 
was intended to evaluate the overall processing time and decisional 
quality of the DCM as compared to the current process. The results are 
a resounding success! The DCMs succeeded in this position, achieved a 
statistically significant reduction in processing time, and maintained 
the same high-level quality in comparison to the current process.
    The Agency's FY 2002 Performance Plan sets as a goal disability 
claims processing time of 108 days. DCM processing time during Phase 2 
of the test was 73 days overall. Congress should closely question 
Agency officials who ignore such performance and prefer to maintain the 
current--and significantly more lengthy--process.
    Congress should also examine the scandalously deteriorating 
performance levels of the states. The SSA Advisory Board indicated in 
its January 2001 report that state employee attrition levels have 
escalated as high as 38% per year in state DDS facilities. The 
inadequate pay and benefit package provided by some states cause many 
employees to abandon their jobs. State backlogs have become endemic in 
many states. The DDS is now staging cases. This means that 150,000 
disability claims at any given time are unassigned to disability 
examiners because their caseloads are at the maximum. Such cases may 
not be assigned to a disability examiner for up to six weeks. And SSA 
is satisfied with this current system?
    Customer satisfaction is the greatest accomplishment of the DCMs. 
They meet with the claimants at their first point of contact and 
explain SSA's requirements for disability eligibility. The DCMs worked 
concurrently with physicians, advocacy groups and the claimants on 
their cases. When compared to both the current process measurement 
study and a separate study of the Prototype process, the DCMs scored 
significantly higher in all areas of customer satisfaction. It is 
noteworthy that among claimants denied benefits, satisfaction with the 
DCMs was significantly superior to both the current process and the 
Prototype process. Under the current process, claimants do not meet a 
decision-maker until the hearing stage of their case. DCM claimants 
enjoyed the fact that they knew their caseworker and could communicate 
with them while the claim was being processed.
    The DCMs themselves reported an 83% higher job satisfaction rating 
by taking responsibility for all aspects of the disability case, 
compared to their previous work in handing off decisions to others. It 
is imperative to recognize these excellent human resources and to 
empower employees. This would reduce the attrition rates that are 
increasing in both the federal and state sectors.
    AFGE repeatedly has called for SSA and this Subcommittee to conduct 
an independent evaluation of the formal (Phase 2) DCM test. The Lewin 
Group assessed Phase 1 and found that the DCM provides a viable 
approach for processing initial disability claims. Separate SSA 
components measured Phase 2 processing time, customer satisfaction, 
employee satisfaction and quality compared to a control group. These 
studies proved the DCMs' effective service. SSA attempted to measure 
productivity and the administrative cost of the DCM and found it to be 
within a comparable range to the current process. A longer-range study 
is required to measure program cost in appeals rates and benefits paid.
    Shutting down the DCM sites on June 29th clearly shows that SSA 
reached the wrong conclusion about the DCM in the disability process. 
The test is the first successful breakthrough streamlining the claims 
process for disability claimants. Unfortunately SSA leadership lacks 
the political will to demand that Congress enact legislation permitting 
SSA workers to make disability decisions. Such legislation is necessary 
to enable a full roll out of this wonderful example of good and 
efficient government.
    The Agency favors the Prototype program, which eliminates the 
reconsideration process and incorporates the single decision-maker. 
While the Agency is willing to go ahead with the Prototype, the public 
is much more satisfied with the DCM process.
    The following is a comparison of the results of customer 
satisfaction studies regarding the DCM and the Prototypes. SSA's Office 
of Quality Assurance conducted these studies.

     Customer Service Comparison--DCM/Prototype (Excellent/Very Good
                               Responses)
------------------------------------------------------------------------
                   Question                         DCM       Prototype
------------------------------------------------------------------------
Adjudicator Explained Rules/Requirements--              74%          46%
 claim allowed................................
Adjudicator Explained Rules/Requirements--              41%       27-35%
 claim denied.................................
Adjudicator Caring/Helpful--claim allowed.....          87%          59%
Adjudicator Caring/Helpful--claim denied......          60%          38%
Adjudicator Courteous/Respectful--claim                 87%          67%
 allowed......................................
Adjudicator Courteous/Respectful--claim denied          65%          53%
Adjudicator Job Knowledge--claim allowed......          85%          64%
Adjudicator Job Knowledge--claim denied.......          64%       42-60%
Amount of Time Spent with Claimant--claim               78%          58%
 allowed......................................
Amount of Time Spent with Claimant--claim               49%          33%
 denied.......................................
How Long it Took to handle application--claim           58%          40%
 allowed......................................
How Long it Took to handle application--claim           23%          18%
 denied.......................................
Clear Notice With Reason--claim allowed.......          69%          41%
Clear Notice With Reason--claim denied........          21%          20%
Overall Service--claim allowed................          79%          47%
Overall Service--claim denied.................          25%          25%
------------------------------------------------------------------------

    Goals and objectives in the Social Security Advisory Board Report, 
January 2001, emphasize that claimants must be assisted to understand 
the disability rules and determination process. The disability system 
should provide fair and consistent treatment, ensuring high quality 
decisions by well-qualified and trained adjudicators, who provide 
expeditious processing of claims and increased claimant understanding. 
The DCMs provide this service and the claimant's know it!
    The next step should be a nationally representative pilot of the 
DCM process for handling initial disability claims. It is time to 
provide claimants one stop service. This occurred in 36 federal and 
state DCM test sites for the past three years, and should be expanded 
to represent all states and all SSA regions. SSA's investment in 
resources for this successful pilot has resulted in a blueprint for a 
more efficient disability process. Rejecting it borders on malfeasance. 
Congress must take action to preserve this example of good government.
    There is a critical need for the DCM in bridging the gap between 
the federal and state processes that currently specialize in initial 
disability adjudication. The investment in giving both federal and 
state employees control over the medical development is the incentive 
to involve the claimant in adequately developing communication and 
understanding from the outset. This will result in a consistent and 
equitable application of SSA's process unification approach.
    AFGE asks that the Subcommittee take an oversight role in the next 
step--piloting the DCM nationwide. Legislative change is required to 
accomplish this because the current law reserves technical entitlement 
to the federal sector and medical entitlement to the states. The DCM 
provides both federal and state components an opportunity to work 
together to finally remedy the process for claimants who are clamoring 
for a responsive system that meets their needs!

Employment Support Representative
    Another fundamentally crucial piece in SSA's ability to provide 
viable, responsive, community based service to disabled beneficiaries 
is the Employment Support Representative (ESR).
    The Ticket to Work and Work Incentives Improvement Act, which was 
enacted on December 17, 1999, requires SSA to establish a community 
based work incentives planning and assistance program for the purpose 
of disseminating accurate information to disabled beneficiaries on work 
incentives programs and issues. The Ticket to Work and Work Incentives 
Improvement Act specified that this should be accomplished by:

          1. Allowing disabled beneficiaries to receive assistance and/
        or information for disabled beneficiaries to work by ``Federal, 
        State, and private agencies and nonprofit organizations that 
        serve disabled beneficiaries and with agencies and 
        organizations that focus on vocational rehabilitation and work-
        related training and counseling''; and
          2. Establishing ``a corps of trained, accessible and 
        responsive work incentive specialists within the Social 
        Security Administration who will specialize in disability work 
        incentives under Titles II and XVI''. The legislation mandates 
        that these SSA employees be experts with respect to inquiries 
        and issues relating to work incentives to beneficiaries, 
        applicants, and to benefits planning and advocacy groups.

    To comply with the ``Ticket to Work and Work Incentives Improvement 
Act of 1999'', SSA has redefined its mission to include promoting the 
employment of Social Security beneficiaries with disabilities. By the 
year 2005, SSA's goal is to increase the number of beneficiaries who 
can attain steady employment and leave the disability rolls by 100%.
    SSA created the Employment Support Representative (ESR) position to 
improve service delivery to beneficiaries interested in returning to 
work and related issues. The ESR plans, develops and leads an active 
outreach and communications program to promote understanding and use of 
Social Security work incentives provisions among beneficiaries, 
claimants, support groups, advocates, employers and the general public. 
This includes organizing workshops and conferences for various advocacy 
groups, employers, educational institutions, vocational rehabilitation 
counselors and Administrative Law Judges. The ESR initiates, 
coordinates, and leads outreach activities aimed at supporting 
beneficiaries who are interested in, or are returning to work. The ESR 
serves as a liaison and the primary SSA work incentive expert to 
advocacy groups, the public, congressional staff members, claims 
representatives and other field office personnel.
    Although implementation of a pilot of 32 ESRs nationwide could be 
considered timid or meek effort on the part of SSA to comply with the 
legislation, the interim evaluation report demonstrates positive 
results. This report unequivocally shows that the ESR fills a gaping 
hole in providing service to disabled constituents seeking assistance 
in return to work, as well as providing a vital link for community 
organizations assisting the disabled.
    Customers and organizations were highly appreciative of the service 
that ESRs provided, finding them to be compassionate, responsive, 
accessible, and highly knowledgeable. Over 83% of community 
organizations who responded to surveys agreed or strongly agreed that 
the ESRs provided helpful information on SSA programs that support 
work. One community organization commented: ``it is [a] well needed and 
appreciated position. It is a long time coming. It is wonderful to be 
able to call a representative for questions. Shows great customer 
service.'' Other comments from organizations and beneficiaries included 
``I never knew SSA was so easy to work with . . . thank you, thank you, 
thank you!; ``to my surprise, (SSA) actually wanted me to succeed. The 
ESR gets my vote'' and ``. . . anyone on disability who has the desire 
to try to work should immediately be directed to the ESR.''
    Outreach efforts by the ESR were effective in educating customers 
about SSA's employment support programs. Work activity processing 
represents the highest percentage of employment support activities, 
ranging from 26-37 percent across the board. In addition to having a 
dedicated, discrete specialist processing these cases, ESRs have been 
successful in educating beneficiaries, and monitoring their work 
activity early on, so large overpayments are avoided. ESRs have been 
providing beneficiaries with a single point of contact within SSA about 
their work.
    The ESR has also served a valuable role in processing Continuing 
Disability Review (CDR) cases involving return to work issues. Although 
most CDRs do not result in cessation, SSA's CDR process has been 
yielding a favorable ratio of savings to costs. For fiscal year 1998, 
actuaries estimate the ratio of savings to administrative costs at $12 
to $1. In testimony before this subcommittee in March 2000, SSA stated 
that the second leading cause of Social Security program overpayments 
is disability cessation. Nearly $294 million dollars in 1999 was caused 
by cessations due to work activity. While this can occur when a 
beneficiary fails to timely report earnings, often beneficiaries have 
informed SSA, many times repeatedly that they have returned to work and 
the cases are not processed timely. These cases are highly complex, 
involving extensive, time consuming development and application of many 
different work incentive provisions.
    Hardworking employees in understaffed offices are pressed to 
interview, answer phones, assist callers in the reception area, clear 
cases, and deal with a myriad of other workload crises. Anecdotal 
evidence from employees throughout the country cites large backlogs of 
CDRs. Many involve retroactive terminations going back several years 
causing very large overpayments, commonly in the tens of thousands of 
dollars, to disabled beneficiaries. In the same testimony, SSA stated 
that the ESR would be monitoring these cases and this would reduce 
future overpayments.
    The volume of work issue CDRs is growing each year, totaling over a 
million new receipts in FY 2000, according to SSA workload reports. 
These receipts have increased at an average annual rate of 25% over the 
past 3 years, and they will increase at a faster rate because of 
provisions in the Ticket to Work legislation. Additionally, as 
beneficiaries begin using Tickets, employment networks will in turn 
expect timely reimbursement, which can only occur when a determination 
is made on a work CDR case.
    Although the testimony states that the ESR also served a valuable 
role in SSA's plan to improve service to the disabled who are trying to 
return to work, there are only 32 workers assigned to this job. 
Allocations should be focused or budgeted specifically to support at 
least one ESR in support of your constituents at each field office. If 
32 ESRs could present such a favorable reaction in a limited number of 
locations, AFGE proposes that at least one ESR be assigned to each 
social security office in each congressional district.
    AFGE applauds and supports SSA's focus and efforts to increase the 
number of disabled beneficiaries returning to work and to improve 
service in this crucial area. We support the role and function of the 
ESR in this plan. This position will ensure that disabled constituents 
have an accessible and responsive specialist who provides high quality 
and timely community based service. SSA is currently considering 
further implementation of the ESR. AFGE is concerned that the Agency 
may choose an option of implementation significantly short of national 
rollout to every field office because of staffing concerns.
    The national implementation of the ESR to every servicing area 
should not be delayed any longer. Section 121 of PL 106-170 authorized 
$23,000,000 to be appropriated to establish a community based work 
incentives planning and assistance program for the purpose of 
disseminating accurate information to disabled beneficiaries on work 
incentives programs for each of the fiscal years 2000 through 2004. 
However, SSA has decided to allocate all of the $23 million towards 
grants and cooperative agreements for private agencies and nonprofit 
organizations. SSA's decision to put all the allocated revenues into 
one aspect of the Ticket to Work and Work Incentives Improvement Act 
has depleted the Agency's ability to meet the legislative requirement 
to establish a corps of trained, accessible and responsive work 
incentive specialists within SSA. It is clear, unless Congress directs 
SSA to reallocate the appropriated funds provided in Section 121 of PL 
106-170 or appropriates additional funding to meet the requirements of 
the Ticket to Work and Work Incentives Improvement Act, the most 
important and effective method of providing consistent and accurate 
information and assistance on work incentive programs will not be 
accessible to the majority of disabled beneficiaries. SSA needs the 
necessary resources to achieve a wide-scale implementation of the ESR.

Third Party Involvement
    SSA and AFGE created a Third Party Assistance Team for the purpose 
of identifying areas of concern involving third parties and developing 
recommendations for consideration by SSA and AFGE leaders.
    Reports indicated that information to determine proper eligibility 
(such as income, resources, prior wage history, etc.) were being 
reported incorrectly as well as insufficient medical information, (such 
as the disabled completing their own medical reports) that would 
require follow-up. Additionally, reports of fraud and inappropriate 
actions by third party assistants (identified by Social Security 
employees and verified by SSA's OIG, law enforcement and district 
attorneys), indicated that some third party assistants and/or 
organizations created fraudulent medical evidence for applicants 
resulting in eligibility decisions that would not have otherwise been 
made, shared confidential records resulting in privacy act violations, 
withheld/failed to report income resulting in payment errors and 
overpayments, and charged improper fees for services.
    The Third Party Assistance Team found that virtually all third 
parties have a financial incentive in the disability claims process. 
Whether they receive fees for services or they are motivated to shift 
the financial responsibility from state and local government to the 
federal government, the employee of the organization and/or the 
organization itself gains financially through the disability claims 
process. The Third Party Assistance Team determined that only SSA 
employees were found to be neutral in the disability claims process and 
the outcome of a disability decision.
    Other trends identified by the Third Party Assistance Team have 
resulted in genuine concern. In many cases, loss of benefits would have 
been caused due to untrained, albeit well meaning, assistance from 
third parties that receive little, or no, formal training. Protective 
filings were not always documented properly, resulting in payment 
errors. Most of the time, third party assistants are not able to 
establish a correct date of onset, resulting in processing delays and/
or loss of benefits. Some third parties conducted eligibility screening 
incorrectly, resulting in a disabled individual failing to file for 
benefits or suffering a loss of benefits. AFGE believes that 
eligibility screening should only be done by trained SSA employees.
    The Third Party Assistance Team was briefed by the SSA Office of 
General Counsel regarding the legal prohibition of third parties 
providing reporting instructions to applicants. It was verified that 
only SSA employees can give reporting instructions, which includes 
reporting information that would effect eligibility or payment amounts. 
Therefore, all applicants from third parties should be contacted by an 
SSA employee to discuss their reporting responsibilities. This creates 
a counterproductive process. This leaves the door open to fraud.
    The Third Party Assistance Team recommended that an automated data 
system was needed to identify third parties involved in the disability 
claims process, in order to monitor and evaluate their effectiveness. 
Additional recommendations addressed fraud by third parties. This topic 
created embarrassing adverse publicity for SSA, resulting in a hearing 
before the House Ways & Means, Subcommittees on Oversight and Human 
Resources. Rather than effectuate the joint recommendations, SSA has 
abandoned its work with AFGE on these important public service issues 
and has failed to address them independently. On the contrary, SSA has 
resumed the expansion of third party individuals and/or organizations. 
As a result, AFGE believes that fraud by ``non-profit'' and ``for-
profit'' third parties may have gone and may continue to go undetected, 
robbing many millions of dollars from Trust Funds and General Revenues.
    AFGE has received recent reports from employees in the Atlanta 
region regarding a third party company that pays a commission to its 
employees for every approved disability case that is submitted to SSA. 
Company employees are encouraged to lie on the applications that are 
filled out for claimants to enhance the likelihood of approval. Company 
employees are also encouraged to change information on signed 
applications if doing so improves the chance of a favorable decision. 
SSA employees report that these ``benefit specialists'' coach claimants 
to respond to interviewer questions with false information.
    Employees report that another third party company has submitted 
signed applications for claimants who were dead at the time the 
application was signed. The same company is notorious for failing to 
list income and resources for TXVI SSI claimants. Often such hidden 
income and resources are subsequently discovered by claims 
representatives. Knowing failure to list such income and resources is 
fraudulent activity punishable by fine and/or imprisonment. SSA takes 
no action to discipline or sanction these third parties.
    The third party disability application process remains an 
unaccountable system that is riddled with inefficiencies as well as 
fraud, waste and abuse. At a minimum, it is poor public service which 
will be further exacerbated as SSA proceeds with plans to encourage 
disability claims to be filed via the Internet, instead of direct 
contact through local field offices. The harm to claimants, 
beneficiaries, and taxpayers by this ghost workforce should not be 
dismissed by SSA or Congress.

Management Information Integrity
    In July 1996, the Management Information Integrity Partnership Team 
issued a 300 page Report to the SSA/AFGE National Partnership Council. 
The report listed 57 inappropriate practices used to manipulate work 
processes and work measurement, many of which involved disability 
claims and appeals. The practices were employed to give the false 
impression that service levels have been maintained, or even improved, 
despite a lack of adequate staffing. The report included a 
comprehensive set of specific recommendations to deal with this 
misrepresentation and to restore the integrity of the disability claims 
process. Virtually all were accepted, but few have been implemented.
    To make matters worse, SSA institutionalized changes in disability 
claim work measurement that added powerful new incentives for managers 
to encourage cheating by their employees. A prime example is taking 
unnecessary claims from clearly ineligible claimants for the purpose of 
lowering overall processing times of Title II and TXVI disability 
claims. In the past, the Ways and Means Subcommittee on SSA has found 
these practices to be inappropriate and especially egregious.
    In December 2000, SSA's Office of Inspector General produced an 
audit report that did not capture or address the reliability or 
validity of the Agency's SSI Disability claims performance measures. 
AFGE addressed its concerns to the SSA's Office of Inspector General on 
May 7, 2001. To date, AFGE has not received a response. Additionally, 
AFGE has recently learned of renewed practices to date stamp claims 
upon processing rather than upon receipt. This practice is clearly 
unethical and is meant to distort the overall processing time of a 
claim and conceal any delays in processing due to inadequate staff. 
AFGE is concerned that most, if not all, of the 57 inappropriate 
practices used to manipulate work processes and work measurement have 
become institutionalized.

Internet Claims
    SSA has offered claimants the ability to file retirement 
applications on the Internet. SSA plans to offer this same service to 
disability applicants. Although AFGE reserves judgment about the wisdom 
of this plan, workers are reporting serious quality problems with the 
current Internet retirement claims. These problems involve potential 
benefit losses for both claimants and eligible auxiliary beneficiaries. 
AFGE urges a moratorium of any expansion of Internet claims until 
studies are conducted regarding the quality and accuracy of current 
Internet claims.

Conclusion
    AFGE respectfully thanks this Committee for its work and for 
including SSA's employees in the process of identifying and resolving 
problems in the Social Security disability programs. AFGE is willing to 
work in cooperation with SSA's new Commissioner in a continued effort 
to improve the disability process that better serves the American 
people. AFGE and the SSA employees it represents understand and deeply 
care about providing the best public service possible. AFGE will 
continue to serve as not only the employees' advocate, but also as a 
watchdog for clients, taxpayers, and their elected representatives.

Recommendations
    In summary, AFGE requests that the Committee take the following 
action:

          1. Consider enacting amendments to current legislation that 
        restricts the authority for making disability decisions to 
        state employees. Expand this authority to federal employees. 
        Direct SSA to expand the DCM pilot nationwide.
          2.Urge the Appropriations Committee to consider the Apfel 
        budget proposal.
          3. Consider off-budget legislation for SSA's administrative 
        expenses.
          4. Consider legislation excluding SSA administrative expenses 
        from the budget caps.
          5. Direct SSA to implement nationally the ESR position by 
        requiring such federal Ticket to Work activity in every SSA 
        office.
          6. Investigate Third Party Involvement in the disability 
        claims process. Consider imposing legislative sanctions for 
        third parties found guilty of unethical or illegal practices.
          7. Investigate SSA's management information system to insure 
        its integrity.
          8. Oversee SSA's Internet claims initiatives to insure that 
        claimants are not adversely affected due to inadequate 
        safeguards in the process.

                               <F-dash> 


    Chairman Shaw.  Thank you, Mr. Skwierczynski.
    Mr. Korn.

STATEMENT OF STEVE KORN, PRESIDENT, NATIONAL COUNCIL OF SOCIAL 
  SECURITY MANAGEMENT ASSOCIATIONS, INC., VALLEJO, CALIFORNIA

    Mr. Korn.  Thank you.
    Chairman Shaw and members of the Subcommittee, my name is 
Steve Korn, and I am here as President of the National Council 
of Social Security Management Associations. I thank you for 
giving me the opportunity to come before you today to talk 
about the challenges and opportunities facing SSA's disability 
program from the perspective of SSA's frontline managers and 
supervisors.
    SSA's field offices are the primary points of interface for 
disability claimants. We hear their stories and see firsthand 
the effect that our processes have on their lives.
    In my testimony this afternoon, I will provide information 
about current problems with the disability program and 
specifically suggest the establishment of a new position in 
SSA's field offices designed to improve the front-end process. 
I will discuss other opportunities for improving the disability 
program, and I will talk about the resources that will be 
necessary to address the significant problems facing the 
disability program.
    By far the most common customer complaint about the 
disability program is the amount of time it takes to receive a 
decision. Claimants wait an average of almost 4 months from 
filing for an initial decision. And backlogs at State agencies, 
as we have heard already, are growing. In addition, a majority 
of claimants seem to have little understanding of how the 
process works, and what they should do to document their claim.
    Fortunately, SSA is piloting a process--and you heard about 
this in the last testimony--that successfully addresses many of 
these problems. In the Disability Claims Manager, or DCM pilot, 
a single employee is given responsibility for the complete 
processing of an initial disability claim. DCMs process claims 
faster while maintaining a level of accuracy that is at or 
above the traditional process. DCMs were more productive, and 
both claimants and employees alike express increased levels of 
satisfaction.
    While nationwide implementation of DCM may be very 
difficult or impossible due to issues relating to the Federal-
State relationship, we recommend that SSA capitalize on the 
success of the DCM by creating a new position in SSA's field 
offices whose focus would be the processing of disability 
claims. This Technical Expert for Disability, or TED, would 
receive the same basic medical training received by new DDS 
Disability Examiners.
    Implementation of this position should accelerate initial 
decisions and have a positive impact on accuracy. Their medical 
training, coupled with their non-medical program knowledge, 
would equip them to truly provide single-point-of-contact 
service. In addition, the TED's location in community-based 
field offices would help to deter fraud.
    TEDs could be used to make final medical decisions with the 
State's concurrence. For example, TEDs could make same-day 
decisions for claimants with terminal illnesses, decisions that 
can currently take weeks or even months. States that are 
temporarily unable to handle their full volume of cases could 
give TEDs authority to make final decisions for the full range 
of cases, and this would give SSA additional flexibility to 
deal with growing backlogs.
    TEDs could also help focus SSA's efforts to help disabled 
applicants return to the work force.
    Besides implementation of the TED position, SSA needs to 
focus its efforts to improve automated support. There is an 
immediate need for software that would provide field offices 
with an intelligent front-end interview system that would 
include an interview path based on the nature of someone's 
disability rather than SSA's current scattergun approach, in 
which we ask for all possible information that might be needed 
by the State agencies.
    Other improvements in the process should include, number 
one, making the appeals process more efficient while 
significantly reducing the time it takes to receive a decision; 
second, a serious look at changes to the current Federal-State 
relationship, which should include at a minimum issues of 
regulations to ensure quality and uniformity in the performance 
of the 54-State Disability Determination Service (DDS); and 
third, an examination of the definition of disability to see if 
it is still consistent with national disability policy. The 
current definition, as was pointed out, does seem to focus more 
on the inabilities that people have rather than the abilities 
they might have to go back into the work force.
    While the suggestions offered above will result in 
significant improvements to SSA's disability process, none will 
provide the kind of productivity gain that will allow SSA to 
address its currently workload problems without additional 
resources. Even those changes that will provide a more 
efficient process, such as automation of front-end intake, will 
require up front resources to design and implement. And of 
course--and you have heard this--as if the current situation 
were not troublesome enough, SSA expects a tremendous increase 
in disability applications over the next 10 years as the baby 
boomers reach the age in which disability is more likely.
    We believe it is a mistake for the new administration and 
Congress to fail to provide the resources needed to address the 
problems affecting the disability program. Working Americans 
who have paid into the program since joining the workforce have 
every right to expect that they will receive a level of service 
commensurate with their investment.
    With total administrative costs for the entire SSA program 
running at less than 1 percent of trust fund receipts, we think 
Americans will support increased funding devoted to disability 
processing.
    Again, Mr. Chairman, I thank you for the opportunity to 
appear before this Subcommittee. I would be happy to answer any 
questions that you and your colleagues may have.
    Thank you.
    [The prepared statement of Mr. Korn follows:]

Statement of Steve Korn, President, National Council of Social Security 
           Management Associations, Inc., Vallejo, California

    Chairman Shaw and members of the Subcommittee, my name is Steve 
Korn and I am here today representing the National Council of Social 
Security Management Associations (NCSSMA). I am also the manager of the 
Social Security office in Vallejo, California, and have worked for the 
Social Security Administration (SSA) for 25 years. On behalf of our 
membership, I am very honored that the NCSSMA was selected to testify 
at this hearing on the challenges and opportunities facing SSA's 
disability program.
    As you know, Mr. Chairman, the NCSSMA is a membership organization 
of 3000 Social Security Administration managers and supervisors who 
work in SSA's 1400 field offices and teleservice centers throughout the 
nation. It is most often our members who your staffs work with when 
problems and issues arise with Social Security recipients in your 
Congressional Districts. Since our organization was founded thirty-two 
years ago, the NCSSMA has been a strong advocate of locally-delivered 
services nationwide to meet the variety of needs of beneficiaries, 
claimants, and the general public. We, like you, consider our top 
priority to be a strong and stable Social Security Administration, 
which delivers quality services to our clients and your constituents.
    While the number of people receiving Social Security or 
Supplemental Security Income (SSI) disability benefits constitute less 
than 20% of all those receiving Social Security or SSI, about two 
thirds of Social Security's administrative budget, approximately $5 
billion, will be spent on disability work this year. It is therefore 
not surprising that field offices spend a significant amount of our 
time and effort on the disability program. Field offices take 
disability claims, provide information to claimants and their 
representatives, initiate continuing disability reviews, and meet with 
the public and third parties to provide information about the 
disability program. Specifically, we are the primary point of interface 
with SSA for disability claimants. We hear their stories and see 
firsthand the effect our processes have on their lives. This gives us a 
unique perspective to look at current problems and assess opportunities 
for improvement.
    In the following sections, we provide information about current 
problems with the disability program, especially from the perspective 
of our claimants. We support the establishment of a new position in 
SSA's field offices designed to improve the front-end process. We will 
discuss other opportunities for improving the disability program. And 
we will talk about the resource needs that will be necessary if we 
realistically expect to address the significant problems facing the 
disability program, both now and in the future.

Problems Facing the Disability Program
    While considerable time and effort have been devoted throughout SSA 
to improve the processing of disability claims, significant problems 
remain. By far the most common complaint field offices hear is the 
amount of time it takes to receive a decision. Claimants wait an 
average of almost 4 months from filing to receipt of the initial 
decision. And the almost half million claimants who request a hearing 
with an Administrative Law Judge (ALJ) each year, can expect to wait, 
on average, over a year from the date of initial filing for a decision. 
Prospects for short-term improvement are not promising. At the initial 
level, pending claims at State agencies are increasing with over 
100,000 cases nationwide on the shelf awaiting assignment to an analyst 
because they already have all the cases they can handle. And despite a 
drop in average processing time from just under 400 days in FY 1997 to 
just under 300 days in FY 2000, the number of cases pending at SSA's 
hearing offices have again begun to rise.
    While the delay in receiving a decision is the most obvious problem 
facing those who apply for disability benefits, it is not the only 
problem. A majority of claimants seem to have little understanding of 
how the process works and how decisions are made. They have little 
understanding of what is required to meet the Social Security 
Administration's definition of disability or what they should do to 
document their claim. Unfortunately, limited field office resources 
have placed a premium on self-help completion of forms and telephone 
interviews. Claims representatives rarely have the time to fully review 
all forms completed by the claimant or fully explain how the process 
works. Failure to see the claimant face-to-face also increases the 
opportunity for fraudulent activity.
    While the other significant problems facing the disability program 
are not as obvious to field office employees or members of the public, 
they have been documented by reports issued by the Social Security 
Advisory Board, GAO, and others. For example, there is wide variance in 
allowance rates and processing times from State to State. Court 
decisions have added significant complexity to the disability 
determination process and have seemed to increase the gap between 
criteria used to make initial and reconsidered decisions, and criteria 
used at the hearing level. And, despite recent attempts to focus more 
attention on helping beneficiaries return to work, the ``all or 
nothing'' statutory definition of disability, and the ensuing 
application process, which focuses on inabilities rather than 
abilities, tends to discourage beneficiaries from doing so.

Improving the Front-End Disability Process 
    Eight years ago SSA embarked on an ambitious project to improve the 
disability program by significantly redesigning its processes. 
Unfortunately, with one major exception, most initiatives that resulted 
from the redesign effort have not yet demonstrated success in either 
reducing processing times, increasing claimant satisfaction levels, or 
making the process more efficient. The Disability Claims Manager (DCM) 
pilot was the one initiative that could be proclaimed a success by any 
of the above measurements. Under this initiative, one individual, 
either in a field office or a Disability Determination Services (DDS), 
was given the responsibility for the complete processing, from initial 
application and interview to final decision, of an initial disability 
claim. The DCM served as the claimant's point of contact throughout the 
initial claims process.
    While final results of this three-year pilot are not yet available, 
both phase I and preliminary final results show that DCMs processed 
claims in less time than the current process. This was achieved while 
maintaining a level of accuracy that was at or above that achieved in 
the traditional initial claims process. DCMs have been more productive, 
at the peak of the pilot producing more work for the total number of 
staff hours involved than that produced in the current process. 
Claimants expressed high levels of satisfaction with the increased 
level of service provided under the pilot compared to the traditional 
process, especially claimants whose claims were denied. Moreover, 
employees involved in the test had a high level of job satisfaction.
    Despite what we feel is the unqualified success of the DCM pilot, 
issues relating to the Federal-State relationship create a major and 
perhaps insurmountable impediment to nationwide implementation of the 
DCM. First of all, the law requires that disability decisions be made 
by State agencies rather than by SSA itself. While we agree with the 
Social Security Advisory Board's recommendation in its January 2001 
report, ``Charting the Future of Social Security's Disability Programs: 
The Need for Fundamental Change,'' that the idea of federalizing the 
disability determination process needs to be examined, it is unlikely 
such a major change will be enacted, at least in the short-term. 
Secondly, the establishment of both Federal and State DCMs is 
problematic in many States where employee pay scales are significantly 
below Federal pay scales. This would result in employees doing 
essentially the same job in the same relative location for different 
rates of pay.
    However, the NCSSMA is recommending that SSA capitalize on the 
success of the DCM experience, within the confines of current law, by 
expanding and strengthening the role and performance of the field 
office in the front-end of the disability process. Specifically, we 
recommend creation of new position in SSA's field offices whose focus 
would be the processing of disability claims . This is fully consistent 
with the Social Security Advisory Board recommendation that field 
offices be given increased responsibility for taking disability claims. 
This ``Technical Expert for Disability'' or ``TED,'' for want of a 
better name, would be fully trained in the same basic medical 
determination training received by new DDS Disability Examiners (DEs). 
Their responsibilities would include:

          <bullet> Intake of initial applications for disability 
        benefits under both the Title II and Title XVI programs;
          <bullet> Developing both the medical and non-medical aspects 
        of certain claims;
          <bullet> Making the non-medical and making or recommending 
        the medical decisions in predetermined types of cases, with 
        individual State agreement;
          <bullet> Reviewing and taking, where indicated, the first 
        action on disability claims being forwarded to the DDS for 
        development and medical decision;
          <bullet> Training and mentoring other field office employees 
        involved in the disability process.

    Implementation of the TED position would go a long way toward 
addressing one of the most pervasive problems in the initial disability 
decision making process by improving the quality of initial medical 
transmittals to DEs in DDSs. It would accelerate the timeliness and 
should have a positive impact on the accuracy of disability decisions. 
The TED would remain the primary contact for the claimant, answering 
questions pertaining to both the medical and non-medical decision 
making process, providing status on the receipt of requested medical 
information and explaining final decisions based on the facts of the 
case. When requested by the DE, they would assist with or conduct the 
claimant conference. Their medical training and their knowledge of the 
sequential evaluation process, coupled with their non-medical program 
knowledge, would equip them to truly provide single point of contact 
service.
    With their primary contact in the field office, the public would 
have more choices in how they interact with us throughout the 
disability decision making process, including face-to-face when they so 
choose. Applicants would have help available to them from someone in 
their community who is familiar with medical sources, transportation 
issues, community resources and employment opportunities. Additionally, 
the TED located in community-based field offices would, through their 
enhanced knowledge of medical providers and sources, investigative work 
and personal contacts, help to strengthen the integrity of the program 
and thus help to deter fraud.
    TEDs could be used to make final medical decision with the State's 
concurrence. For example, TEDs could routinely make final and 
potentially same day decisions for claimants with terminal illnesses. 
Or States that are temporarily unable to handle their full volume of 
cases may choose to give TEDs authority to make final decisions for the 
full range of cases. This would give SSA additional flexibility to deal 
with growing backlogs.
    Even where the TED did not make the final decision, it would help 
establish closer cooperation between FOs (field offices) and DDSs. It 
would result in a clear delineation of duties between the TED and DE, 
putting full responsibility for a high quality initial product on the 
TED, while providing that TED with the background, knowledge and focus 
that they need to produce such a product. It results in a shift in both 
process and responsibility that is essential if the TED is to develop a 
true feeling of ownership and accountability for this work product.
    Most importantly, it provides the Agency with a way to meet the 
projected growth in the number of disability claims without a 
corresponding increase in processing time and in the number of 
complaints from the public, advocates and representatives about the 
initial disability claims process. The public can receive the level of 
responsive service and timely and accurate decision making to which 
they are entitled.

Other Opportunities for Improving the Disability Process 
    SSA needs to focus its efforts to produce improved automation 
support for the disability process. Unfortunately, we have not seen any 
significant results from over eight years of work on a redesigned 
disability system. Current efforts to produce an electronic disability 
folder (e-DIB) are promising, but by itself will not address many of 
the significant needs that now exist. Specifically, the NCSSMA sees the 
immediate need for improved software that would:

          <bullet> Provide field offices with an intelligent front-end 
        interview system that would allow us to obtain medical 
        information. This would include ``drop down'' menus and an 
        interview path based on the nature of the disability. Not only 
        would this produce a more complete front-end product that 
        should improve overall processing times and decision accuracy, 
        but it would be more efficient than our current scattergun 
        approach of obtaining the same basic information for all 
        claimants whether it is relevant to their specific impairment 
        or not. This same intelligent front-end system could also be 
        placed on the Internet for use by claimants and third parties 
        assisting claimants.
          <bullet> Allow field offices to directly interface with DDS 
        and Office of Hearings and Appeals (OHA) systems. This would 
        allow all components to track processing of a case and directly 
        post new information no matter what component received it.
          <bullet> Assist in identifying and tracking the location of 
        disability folders. Even with the eventual development of an 
        electronic disability folder, the need to locate and retrieve 
        pre-existing paper folders will continue for many years.

    SSA needs to seriously look into significant changes to the hearing 
process that would make the process more efficient while significantly 
reducing the time it takes to receive hearing and appeals council 
decisions. Among the suggestions worth looking into are closing the 
record after the ALJ decision, agency representation at ALJ hearings, 
and the combining of OHA and SSA field offices. Finally, SSA and ALJs 
need to work together to formulate changes that will streamline the 
current process.
    The Social Security Advisory Board in its January 2001 report, 
recommended that SSA exercise its authority, granted by a change in the 
law in 1980, to issue regulations to ensure quality and uniformity in 
the performance of the States. We endorse this recommendation. One of 
the essential problems stressing the system arises from the fact that 
we have 54 DDSs handling the initial medical decision function in a 
variety of ways. This is evidenced by the fact that allowance rates 
vary widely between States as does processing times. There is a need 
for consistency and uniformity if the American public is to get 
effective service.
    SSA needs to reexamine the definition of disability to see if it is 
still consistent with national disability policy. This recommendation 
was also endorsed by the Social Security Advisory Board. The definition 
of disability currently in use has not been changed in over 30 years. 
It is at odds with the desire of many disabled individuals who want to 
work but still need some financial or medical assistance. While SSA 
will be challenged to come up with a new definition that will satisfy 
all stakeholders, its success in doing so may also lead to efficiencies 
in the process that were not possible within the limited scope of the 
redesign process initiated eight years ago.

The Need for Resources
    SSA is currently struggling to keep up with disability workloads. 
Many State agencies are struggling to handle pending workloads with 
over 100,000 pending claims unassigned to DEs who have reached their 
limit. After a three-year drop, pendings are again increasing at OHA. 
Field offices also cannot keep up with the growing workloads. In their 
January 2001 report on disability, the Social Security Advisory Board 
states that, ``As a result of the growth in the number of disability 
claimants and continued agency downsizing, field office personnel are 
no longer able to provide the kind of assistance many applicants need 
to file a properly documented claim. They lack the time to explain 
program rules and procedures so that applicants understand whether they 
meet the strict requirements of the Social Security disability 
definition and what items of information they need to document their 
case.'' The NCSSMA released a survey in March in which field managers 
documented the need for an additional 5000 employees simply to keep up 
with current workloads.
    If the current situation were not troublesome enough, SSA expects a 
tremendous increase in disability applications over the next 10 years 
as the baby boomers reach the age in which disability is more common. 
SSA's actuaries estimate that SSA will add 50% more Title II disability 
beneficiaries and 15% more SSI disability recipients over this period. 
During this same time, a significant portion of SSA's technical staff 
that processes disability is expected to retire. The employees who 
replace them will take several years to reach equivalent levels of 
productivity.
    While the suggestions offered above will result in significant 
improvements to SSA's disability process, none will provide the type of 
productivity gain that will allow SSA to address even its current 
workload problems without additional resources. In fact, many of the 
recommendations will simply provide service improvements, such as 
decreased processing times, rather than processing efficiencies. Some 
will require additional resources to implement. Even those changes 
which will provide a more efficient process, such as automation of 
front-end intake or e-DIB, require up-front resources to design and 
implement.
    We believe it is a mistake for the new Administration and Congress 
to fail to provide the resources needed to address the problems 
affecting the disability program now, and in the future. Working 
Americans who have paid into the program since joining the workforce 
have every right to expect that they will receive a level of service 
and a process commensurate with their investment. With total 
administrative costs for the entire SSA program only running at 
approximately 2 percent of receipts, we believe Americans would support 
the increase in funding devoted to disability processing necessary to 
achieve the improvements outlined in our testimony.
    Again, Mr. Chairman, I thank you for this opportunity to appear 
before this Subcommittee. I would welcome any questions that you and 
your colleagues may have.

                               <F-dash> 


    Chairman Shaw.  Thank you, Mr. Korn.
    Ms. Heflin.

  STATEMENT OF SUE HEFLIN, PRESIDENT, NATIONAL ASSOCIATION OF 
           DISABILITY EXAMINERS, JACKSON, MISSISSIPPI

    Ms. Heflin.  Chairman Shaw, members of the Subcommittee, on 
behalf of the National Association of Disability Examiners 
(NADE), thank you for the opportunity to share our views on the 
challenges and opportunities facing the Social Security 
disability programs today.
    We agree with the assessment of the Social Security 
Advisory Board in their February 2001 report that ``In recent 
decades, disability policy has come to resemble a mosaic, 
pieced together in response to court decisions and other 
external pressures rather than the result of a well-thought-out 
concept of how the programs should be operating. Policy and 
administrative capacity are dramatically out of alignment.''
    This fragmented policy and lack of appropriate and adequate 
resources have seriously undermined the Social Security 
Administration's ability to maintain fairness and consistency 
in the disability programs today.
    While SSA's administration of the retirement programs 
generally receives high grades in terms of public confidence, 
the public has significantly less confidence in the disability 
programs. In part, this is due to the inconsistencies in 
decisional outcomes between the States and regions. A larger 
factor, however, is the difference between DDS decisions and 
those made at the hearing level.
    Few realize that 80 percent of the claims that are allowed 
are allowed at the DDS level. The need to change this 
perception and the reality that underlies it must be viewed as 
one of SSA's biggest challenges.
    Disability decisions are not made in a nationally uniform 
manner. While to some extent this has always been true, it has 
become increasingly more pronounced in recent years. We are 
concerned that this trend will continue. New policies developed 
by SSA, both in response to and independent of court decisions 
and other litigation, have required that increasingly more 
weight be given to the subjective complaints of disability 
applicants. Assessing these subjective complaints has added to 
the growing belief that there is a general lack of consistency 
in what should be a uniform national program.
    Social Security lacks a clear quality review process that 
would provide meaningful feedback to all decisionmakers. 
Quality assurance reviews and the adjudicative climate under 
which claims are reviewed are inconsistent and reflective of 
and convoluted by politics and/or litigation. Regulations are 
frequently promulgated and implemented before operating 
procedures, instructions, and other tools have been developed.
    In order to increase the consistency and uniformity of 
disability decisions, the Social Security Administration must 
become truly ``one SSA.'' While NADE supports the current 
Federal-State partnership structure, we believe that it must be 
strengthened to provide more effective oversight of the 
process. Individual State government downsizing, hiring 
freezes, and other aspects that are particular to the different 
States should not be allowed to interfere with the efficient 
operation of the DDS.
    In addition, SSA must continue with the development of a 
single presentation of policy that will be binding on all 
adjudicators. Ongoing communication between the field offices, 
the State DDSs, and the ALJs must become a priority.
    In addition to this, NADE believes that ongoing joint 
training for all decisionmakers is essential if we are going to 
provide fair, accurate, and consistent decisions. This training 
must be clear and include interaction and discussion among the 
different components.
    SSA's quality assurance process must be designed to provide 
nationally consistent feedback. We are encouraged that SSA is 
now looking seriously at the quality assurance issue. However, 
we are concerned that this initiative, like so many others, 
will be curtailed for lack of resources. Failure to devise an 
effective and meaningful quality assurance process would 
compromise the public's confidence in the program.
    NADE has long supported the establishment of a Social 
Security court. The development of and decision on an 
individual's claim should not be dependent upon his or her 
residence or judicial jurisdiction. The ever-increasing 
complexity of disability claims and the growth of medical 
technology makes the need for a specialized court with 
expertise in these matters a necessity.
    The State DDSs must have the necessary resources to hire 
and retain staff. Because this is a medical-legal decision, 
disability examiners must have a thorough understanding of the 
medical, vocational, and administrative/technical issues 
involved. The increasing turnover rate in the DDS due to the 
increasing complexity of the program and the failure of the 
DDSs to offer salaries commensurate with job duties invites 
public concern.
    NADE does not support changing the definition of disability 
at this time. The current definition provides a solid 
foundation for the disability program. We do believe that any 
action to reform the disability program should include 
elimination of the 5-month waiting period for Title II 
applicants, and NADE has prepared a position on paper on this 
issue which we have included with prior testimony. There is now 
proposed legislation that would eliminate this.
    We strongly believe in fair and equal treatment for all 
disabled citizens, and we urge the Congress to give favorable 
consideration to H.R. 344.
    In conclusion, we want to echo the opinion expressed by the 
Advisory Board that ``disability policy and administrative 
capacity urgently need to be brought into alignment.'' This is 
critical in light of the increase in claims from the baby boom 
generation who are just now entering their most disability-
prone years.
    We strongly concur with the Advisory Board about some of 
the changes that need to be done, particularly the fact that we 
need to given the tools that we need to render fair and timely 
decisions so that the disabled citizens who come to us for 
assistance can be treated with respect and humanity.
    Thank you.
    [The prepared statement of Ms. Heflin follows:]

Statement of Sue Heflin, President, National Association of Disability 
                    Examiners, Jackson, Mississippi

    Chairman Shaw, Mr. Matsui, and members of the Subcommittee, on 
behalf of the National Association of Disability Examiners (NADE), 
thank you for this opportunity to share our views on the challenges and 
opportunities facing the Social Security disability programs today.
    NADE is a professional organization whose mission is to advance the 
art and science of disability evaluation. Our membership includes 
Social Security Headquarters staff and Field Office personnel, 
attorneys, claimant advocates and physicians. However, the majority of 
our members are employed in the state Disability Determination Service 
(DDS) offices and are directly involved in processing claims for Social 
Security and Supplemental Security Income (SSI) disability benefits. It 
is the diversity of our membership, combined with our ``hands on'' 
experience, which we believe provides us with a unique understanding of 
the challenges and opportunities facing the Social Security and SSI 
disability programs today. Our members face these challenges on a daily 
basis.
    We agree with the assessment of the Social Security Advisory Board 
in their February 2001 report that, ``In recent decades, disability 
policy has come to resemble a mosaic, pieced together in response to 
court decisions and other external pressures, rather than the result of 
a well-thought out concept of how the programs should be operating . . 
. Policy and administrative capacity are dramatically out of alignment 
in the sense that new and binding rules of adjudication frequently 
cannot be implemented in a reasonable manner, particularly in view of 
the resources that are currently available.'' This fragmented policy 
and lack of appropriate and adequate resources have seriously 
undermined the Social Security Administration's ability to maintain 
fairness and consistency in the Social Security and SSI disability 
programs today.
    We believe that the focus of this hearing is extremely important. 
The Social Security Administration spends two-thirds of its 
administrative budget, nearly $5 billion, on the disability program. 
Such a large expenditure justifies extensive oversight by this 
subcommittee to ensure that these funds are spent in a manner that 
delivers the best possible service for the taxpayer and the disabled.
    While SSA's administration of the retirement programs generally 
receives high grades in terms of public confidence and support, the 
public has significantly less confidence in the disability programs. In 
part this is due to the inconsistency in decisional outcomes between 
the states and regions. A larger factor, however, is the difference 
between DDS decisions and those made at the hearing level. There is a 
widespread public belief that ``everyone'' has his or her claim denied 
by the DDSs and must request a hearing before an Administrative Law 
Judge in order to receive benefits. In fact, this is not true. Eighty 
percent of the disability claims that are allowed, are allowed by the 
DDSs. However, the public's perception of the disability program and 
the public's confidence in the disability program is altered by the 
fact that there are widespread, unexplained  differences in decisional 
outcomes between the different states and regions and between the 
different levels in the appeals process. These differences have 
undermined public confidence in SSA's administration of the disability 
programs. The need to change this perception, and the reality that 
underlies it, must be viewed as one of SSA's biggest challenges.
    Disability decisions are not made in a nationally uniform and 
consistent manner. While to some extent this has always been true, it 
has become increasingly more pronounced in recent years. For several 
reasons, we are concerned that this trend will continue. New policies 
developed by SSA, both in response to, and independent of, court 
decisions and other litigation, have required that increasingly more 
weight be given to the subjective complaints of disability applicants. 
Similar impairments will affect different individuals in different 
ways. Assessing these subjective complaints necessarily has added to 
the growing belief that there is a general lack of consistency in what 
the public believes should be a uniform national program.
    Social Security lacks a clear and uniform quality review process 
that would provide consistent, meaningful feedback to all decision-
makers. Quality assurance reviews and the ``adjudicative climate'' 
under which claims are reviewed, are inconsistent and reflective of--
and convoluted by--politics and/or litigation. Regulations are 
frequently promulgated and implemented before operating procedures, 
instructions and other tools have been developed. Decisions made by 
Administrative Law Judges are driven by court decisions while decisions 
made in the DDSs are controlled by program directives issued by SSA. 
SSA's recent attempt to launch a new disability claims process, 
currently being prototyped in ten states, and the Agency's efforts to 
direct DDSs to follow very specific regulations, collectively known as 
the Process Unification rulings, will increasingly require that DDS 
decisions be based on subjective complaints and treating source 
opinion, rather than the objective medical findings. We are pleased 
that the Administration recently decided to postpone national rollout 
of the Prototype initiative, pending additional review of its costs and 
benefits. However, while the national rollout has been delayed, those 
ten states that were involved in the prototype experiment continue to 
process claims in this manner while the rest of the country continues 
to adjudicate claims under the longstanding process. We are concerned 
that the public's confidence in the disability program will be affected 
by the fact that nationally initial claims are being adjudicated under 
two distinctly different processes.
    In order to increase the consistency and uniformity of disability 
decisions, the Social Security Administration must become truly ``one 
SSA.'' While NADE supports the current federal--state partnership 
structure, we believe that it must be strengthened to provide more 
effective oversight of the process. Individual state government 
``downsizing,'' hiring freezes, and other aspects that are particular 
to the different states should not be allowed to interfere with the 
efficient operation of the DDS. In addition, SSA must continue with the 
development of a single presentation of policy that will be binding on 
all adjudicators. Ongoing communication between the Field Offices, the 
state DDSs and the ALJs must become a priority. Building trust between 
the various components in the disability program will be a major 
challenge for SSA but must also be viewed as a major opportunity. We 
applaud recent efforts by SSA and by the various components, to improve 
and maintain these lines of communication. We believe that these 
initial efforts, if continued, will provide a more consistent message 
to the public and to the individual applicant and should improve both 
the quality and the consistency of the decision.
    In addition to ongoing communication and a single presentation of 
policy, NADE believes that ongoing, joint training for all decision-
makers is essential  if we are to provide fair, accurate and consistent 
decisions. This training must be clear and consistent and include 
interaction and discussion between the different components, including 
Field Office staff, DDS staff, and OHA staff. SSA's use of technology 
based training, such as IVT, or Interactive Video Technology training, 
is a valuable training tool but it cannot replace the benefits derived 
from personal interaction and discussion. Technology based training, 
while certainly useful, must not be the sole mechanism for providing 
training.
    Another major challenge for the disability program will be finding 
a suitable replacement for the Dictionary of Occupational Titles, or 
D.O.T. This publication, periodically compiled by the U.S. Department 
of Labor, has served as the guidebook for disability decisions made by 
the DDSs on claims that were decided on vocational issues. 
Unfortunately, the Labor Department has ceased compiling this 
information and SSA has not yet found a suitable replacement. Already, 
DDSs are beginning to struggle with decisions that are based on whether 
a claimant can return to past relevant work or to other work because 
the information at our disposal is outdated. Experiments with other 
tools, such as the O-net, have not proved beneficial thusfar. This 
problem will only get worse with the passage of time until and unless 
SSA is able to find a replacement for the information used daily by the 
DDSs in making their disability decisions.
    SSA's Quality Assurance process must be designed to provide 
nationally consistent  feedback. The Agency recently received an 
extensive research report based on a study of its internal quality 
assurance process. This report, compiled by the Lewin Group, offered 
two general conclusions. The first was that, ``Given the challenges 
faced by SSA, the design of the Prototype Process, and the current 
performance of the existing QA system, no amount of retooling, 
refocusing, redesign, tinkering, or the simple addition of resources to 
the existing QA processes will achieve SSA's quality improvement 
goals.'' The second general conclusion was, ``The only way that SSA 
will achieve its quality objectives for the disability programs is to 
adopt a broad, modern view of quality management that includes efforts 
outside of OQA and the current quality assurance process.'' NADE 
concurs with these conclusions. We are encouraged that SSA is now 
looking seriously at the quality assurance issue. We are concerned, 
however, that this initiative, like so many others that SSA is now 
considering, will be curtailed for lack of resources. This will be a 
mistake! Failure to devise an effective and meaningful quality 
assurance process would be to compromise the public's confidence in the 
program.
    NADE has long supported the establishment of a Social Security 
Court. The development of--and decision on--an individual's claim 
should not be dependent upon their residence or judicial jurisdiction. 
The ever-increasing complexity of disability claims, and the growth of 
medical technology, makes the need for a specialized court, with 
expertise in these matters, a necessity.
    The state DDSs must have the necessary resources to hire and retain 
 staff. This will be a major challenge for the disability program. The 
disability program has become increasingly complex. Because this is a 
medical--legal decision, disability examiners must necessarily have a 
thorough understanding of the medical, vocational and administrative/
technical issues involved. It has been widely acknowledged that it 
takes at least two years for a disability examiner to become proficient 
in the performance of their job duties. Unfortunately, more than 50% of 
the disability examiners in the DDSs now have less than two years of 
experience. This will have a tremendous impact on the public's 
confidence in the ability of SSA to render fair and timely decisions. 
The increasing turnover rate in the DDSs is due to the increasing 
complexity of the program and the failure of the DDSs to offer salaries 
commensurate with the job duties. The Social Security Advisory Board 
addressed this issue in its January, 2001 report and, while addresing 
the issue of salary levels in the DDSs, commented, . . . the disability 
programs are national programs and SSA has an obligation to try to 
ensure equal treatment for all claimants wherever they reside.''
    Another challenge that SSA will need to address is the growing 
issue of non-English speaking claimants. As our country's diversity 
increases, so too will the need for the disability program to make the 
necessary accommodations for those claimants who do not communicate in 
English.
    NADE does not support changing the definition of disability at this 
time. The current definition of disability provides a solid foundation 
for the disability program. While the ability of the remaining 
structure to support the program has been questioned, we do not believe 
that the foundation is weak. Having constructed a solid foundation, we 
believe that the best efforts of those charged with administering the 
program, and those charged with maintaining oversight of the program, 
should be directed at building stronger walls and other supports before 
constructing the roof. Unfortunately, we do not believe that this is 
the current practice.
    We strongly support the goals and objectives of disability program 
reform as outlined by the Social Security Advisory Board in their 
February 2001 report:

          <bullet> All who are truly disabled and cannot work should 
        receive benefits
          <bullet> Those who can work but need assistance to do so 
        should receive it
          <bullet> Vocational rehabilitation and employment services 
        should be readily available and claimants and beneficiaries 
        should be helped to take advantage of them
          <bullet> Claimants should be helped to understand the 
        disability rules and the determination process
          <bullet> The disability system should ensure high quality 
        decisions by well-qualified and trained adjudicators
          <bullet> The disability system should provide expeditious 
        processing of claims. When cases are complex and require more 
        time, claimants should be informed so that they will understand 
        why there is delay

    In addition to these goals, we believe that any action to reform 
the disability program should include the elimination of the five-month 
waiting period for Title II applicants. Currently, Title II disability 
beneficiaries must wait five full calendar months from the onset of 
their disability before they can begin receiving cash benefits. Title 
XVI (SSI) beneficiaries, on the other hand, can begin receiving 
benefits immediately. This fosters a perception that the Title II 
program is unfair to the disabled worker who has actually paid into the 
system. This is particularly evident in cases involving claimants with 
terminal illnesses when the claimants actually die during the waiting 
period and, therefore, do not collect any cash benefits. NADE has 
previously prepared a position paper on this issue and included a copy 
of this paper with prior testimony before this subcommittee. There is 
now proposed legislation before this subcommittee that would eliminate 
the five-month waiting period. This proposed legislation, H.R. 344, 
will also eliminate the 24-month waiting period for Medicare 
eligibility for the disabled. We commend the Congress for recently 
waiving this waiting period for disabled citizens with Amyotrophic 
Lateral Sclerosis, commonly known as Lou Gehrig's disease. However, 
waiving this 24 month requirement for one group of disabled citizens, 
and not doing so for others, is discriminatory and may result in future 
litigation. We strongly believe in equal and fair treatment for all 
disabled citizens and strongly urge the Congress to give favorable 
consideration to H.R. 344.
    We recognize the need to preserve the fiscal integrity of the 
Social Security disability fund and urge the Congress to consider 
revision of the medical improvement review standard. Under the current 
law, cessation of benefits can only occur if it can be shown that there 
has been medical improvement in a claimant's impairment. While this 
concept may appear fair at face value, it ignores the fact that ever-
increasing advances in medical technology make it possible for many 
disabled citizens to work. However, the lack of any incentive to pursue 
a return to work makes it unlikely that many disabled claimants will do 
so. While we do not support the cessation of benefits for those who are 
truly disabled and cannot return to work, we believe that the necessity 
of demonstrating medical improvement before cessation of benefits can 
occur is a deterrent to the Agency's efforts to return disabled 
claimants to work. We also believe that the right of claimants to elect 
to continue benefit payments during the appeals process should be 
eliminated when the basis for the proposed cessation was the claimant's 
failure to cooperate with the decision-maker. The fact that many 
claimants can continue to receive benefits during an appeals process 
that may take years because of their own failure to cooperate with the 
decision-makers is an affront to justice and an embarrassment to the 
disability program.
    In conclusion, we would like to echo the opinion expressed by the 
Advisory Board, ``. . . disability policy and administrative capacity 
urgently need to be brought into alignment.'' This is critical in light 
of the likelihood of an increase in claims from the baby boom 
generation who are just now entering their most disability prone years. 
Disability workloads have grown in recent years and more growth is 
expected. However, the capacity of the DDSs and SSA to handle this 
growth in workloads has not. The Advisory Board's report makes the 
emphatic point that, ``Although there are many capable people working 
in the disability system, their efforts will be of little avail unless 
they have the tools they need to administer the program.'' We strongly 
concur with this statement and ask that we be given the tools that we 
need to render fair and timely decisions so that the disabled citizens 
who come to us for assistance can be treated with respect and humanity.
    Thank you.

                               <F-dash> 


    Chairman Shaw.  Thank you, Ms. Heflin.
    Mr. Willman.

STATEMENT OF DOUGLAS WILLMAN, PAST PRESIDENT, NATIONAL COUNCIL 
   OF DISABILITY DETERMINATIONS DIRECTORS, LINCOLN, NEBRASKA

    Mr. Willman.  Chairman Shaw and members of the 
Subcommittee, on behalf of our organization, thank you for the 
opportunity to appear here today to present our views regarding 
the challenges and opportunities now facing the disability 
programs.
    The NCDDD is a professional organization of the directors 
of the State agencies that perform the disability determination 
function. Our goals include finding ways to establish, 
maintain, and improve accurate, timely, and economical 
decisions to persons applying for benefits.
    We and the Social Security Advisory Board are generally in 
agreement as to the broad courses of action that are necessary 
to improve our service delivery. The following five key 
challenges are important areas in which we on the Advisory 
Board hold similar positions.
    First, the disability program must have the resources that 
are necessary to deliver the level of service that the public 
deserves. The complex task of applying the statutory definition 
of disability requires acquisition of extensive medical 
evidence and careful analysis of that evidence and thorough 
explanation of the conclusions. Therefore, the process is 
costly.
    The recent history of downsizing, attempts to implement 
multiple costly projects and the creation of new policies that 
are expensive to administer have contributed to the current 
situation in which the program and the resources available to 
carry it out are seriously out of alignment.
    The result is that our program now has by our count about 
175,000 more cases pending than we are able to handle. 
Assignment of these cases to caseworkers is not happening 
because all the caseloads are full. Worse, SSA has predicted 
that with the current resource allocation, this backlog will 
actually grow. We feel that this level of service delivery is 
unacceptable and amounts to a failure to provide the service 
that the public deserves.
    Second, SSA should modify its organizational structure so 
the disability program occupies a level commensurate with its 
size and importance. As the Advisory Board has reported, SSA's 
current operational structure disperses function and authority 
for the disability program over too many components. The 
individual most identifiable as being responsible for the 
disability program is at the Associate Commissioner level. We 
find this curious in view of the fact that the program consumes 
two-thirds of SSA's administrative budget and comprises nearly 
5 percent of all Federal expenditures.
    Problems result because policy development, program 
evaluation, budgeting, systems, and so forth, are all managed 
separately. Such an environment does not provide for the level 
of accountability that the program needs. We feel that the 
program would benefit if it were managed by having one high-
level individual who would report directly to the Commissioner 
and whose authority would cross functional lines.
    Third, improvement in policy and training is necessary to 
produce more consistent and accurate decisionmaking. As 
reported by the Advisory Board, the most important step SSA can 
take to improve the process is to provide ongoing joint 
training for all adjudicators and all the components that make 
and review the disability determinations. The Board also noted 
that such a training program would first be based on the 
existence of a policy base which is clear, concise, and 
applicable in a real world setting.
    Presently, SSA's policies are neither clear nor consistent 
among the components, nor practicable. This compromises our 
ability to decide cases consistently and accurately and is part 
of the reason why about 60 percent of the applicants who appeal 
the initial denial of benefits receive those benefits after 
appeal.
    Fourth, the quality assurance system must be improved. We 
recommend that SSA assign a high priority to revising its QA 
system so as to achieve the goal of unifying the application of 
policy among all components. The present QA system is out-of-
date, it applies differently to the various components, and it 
actually induces inconsistency of decisionmaking.
    SSA is in possession of an independent consultant's report 
concerning changes in the QA system. We endorse many aspects of 
the Lewin report and recommend that it receive expedited 
attention by top management at SSA.
    Last, SSA should find better ways to develop its computer 
systems. We rely on electronic systems in order to deliver 
high-quality service at a reasonable cost. Historically, the 
States have had an excellent track record of having worked 
together to develop systems to support their business 
processes, but in the last several years, our ability to 
improve our own systems has been curtailed by various SSA 
initiatives which have been costly and which have not produced 
advantages commensurate with their cost.
    NCDDD recommends that future development and enhancement of 
electronic systems be accomplished with greater reliance on 
State systems personnel and through the use of private sector 
contracting.
    Mr. Chairman, members of the Committee, thanks again for 
the opportunity to provide this comments on the challenges and 
opportunities facing our program.
    [The prepared statement of Mr. Willman follows:]

   Statement of Douglas Willman, Past President, National Council of 
         Disability Determinations Directors, Lincoln, Nebraska

    Mr. Chairman, thank you for your invitation to participate in the 
first in a series of hearings on the challenges and opportunities 
facing the Social Security disability programs. As members of the 
disability community, we certainly agree that we all must work 
collegially to thoughtfully, carefully and realistically examine the 
challenges faced by these programs. The National Council of Disability 
Determination Directors (NCDDD) reaffirms all its previous commitments 
to participate in finding and implementing responsible solutions with 
accountability by all stakeholders. We agree wholeheartedly with 
President Bush that the first guiding principal of Social Security is 
to ``. . . protect disability for American citizens.''
    Before commenting on five specific challenges and opportunities, we 
would like to restate the purpose of our organization, explain the 
reasons for the federal state partnership, and describe our commitment 
to current and future solutions to the major challenges facing the 
disability programs.
    The NCDDD is a professional association of directors and managers 
of the agencies of state government performing the disability 
determination function on behalf of Social Security. NCDDD's goals 
focus on finding ways to establish, maintain, and improve fair, 
accurate, timely, and economical decisions to persons applying for 
disability benefits.
    Congress created the federal state relationship in response to the 
need for experts at the grass roots level working effectively and 
efficiently with other community-based services. The intention was that 
the DDS be the human face in government services to our disabled 
population. This still proves to be the case in most instances. State 
initiatives, cost effectiveness in personnel usage, and working within 
the individual state infrastructures to provide referrals to related 
state agencies has served the disability program and the American 
public well. This relationship should continue to be nurtured and 
supported to allow for alignment with other community-based one-stop 
services. In reality, the federal state partnership, while not perfect, 
is at its best when integrated with the Administration's mandate of 
empowering the states to act on behalf of and empowering our most 
vulnerable citizens.
    The SSA/DDS partnership is held to a high standard by close contact 
with individual state governors, U.S. Congressional delegations and the 
American public. Serving the public requires close teamwork. We 
appreciate the recommendations of the bipartisan Social Security 
Advisory Board (SSAB) as stated in their report of February 2001 and 
generally concur with their findings, particularly in regard to 
strengthening the federal state relationship in the short run.
    The definition of disability has remained essentially unchanged in 
the past 30 years. It was always meant to be a more stringent standard 
compared to many other programs. Recent attention has been focused on 
allowance rates and other issues when, in fact, the program was never 
designed to allow every individual with any disability. Contrary to 
some statements contending the disability programs have not changed 
over the past years, the program has indeed experienced multiple 
changes in leadership, focus and direction. For example, mental, 
childhood, pain, treating source opinion, and credibility issues have 
engendered many changes which in turn impacted our ability to provide 
thoughtful, consistent, timely adjudication of Social Security 
disability cases.
    NCDD sees five key challenges that compromise our ability to 
continue to provide even basic levels of customer service for the 
programs that we jointly administer with SSA. These challenges relate 
to the tools necessary to effectively and efficiently administer the 
disability programs. The essential tools consist of:

          1. adequate resources;
          2. an organizational structure more appropriate to the scope 
        and importance of the program;
          3. clear, concise policy;
          4. a quality culture promoting consistency and integrity;
          5. up to date, integrated systems support.

Resources
    The complex task of applying the statutory definition of disability 
requires extensive development of medical evidence, expert analysis of 
the evidence, and careful explanation of the conclusions. The process 
is therefore costly. Because determining eligibility for disability 
benefits is far more than a medical clerical function, the process 
requires staff trained in making complicated medical, psychological and 
vocational judgments. This is not done in a ``lab'' situation or vacuum 
but rather in the real world of mounting pressures. Thus far, the DDSs 
have been the only component to perform the mission of the Social 
Security disability programs productively, responsibly, timely, 
consistently, and cost effectively. In fact, for years, various SSA 
components have referred to the state agencies as being the ``best 
deal'' in government service.
    However, given the significance of the programs we jointly 
administer, we are greatly concerned that SSA is increasingly unable to 
provide the high quality of service that the public deserves and has 
come to expect. A clear relationship exists between the level of 
service we are able to provide and the resources available to provide 
that service. The recent history of downsizing, the attempts to 
implement multiple costly projects, pilots and prototypes, the creation 
of new policies that are expensive to administer, and other unfunded 
mandates have contributed to the current situation in which the program 
and the resources available to carry it out are seriously out of 
alignment.
    The task-to-resource deficit has resulted in an alarming situation 
about which we want to be very clear. Presently our program has at 
least 175,000 more cases pending that we are able to process. These 
applications are awaiting assignment to caseworkers because all the 
caseloads are full. Worse, SSA has predicted that, with the current 
resource allocation, this number will continue to grow. NCDDD feels 
that this quality of service delivery is unacceptable and amounts to a 
failure to provide the level of service that the public deserves.

Organizational Structure
    As described in the recent reports of the Social Security Advisory 
Board, SSA's current organizational structure disperses functions and 
authority for the disability program over too many separate components. 
The individual most identifiable as being responsible for the 
disability program is at the associate commissioner level which we find 
curious in view of the magnitude of the program. Policy development, 
program evaluation, budgeting, and systems are all administered 
separately. Such an environment does not provide for the level of 
accountability appropriate for such an important program.
    NCDDD and the Advisory Board agree that the program would benefit 
if it were managed by having one high level individual who would report 
directly to the commissioner and whose authority would cut across 
functional lines.

Improving Policy and Training to Produce More Consistent and Accurate 
        Decision Making.
    As recommended by the Advisory Board in its report of August of 
1998, ``the most important step SSA can take to improve the process is 
to develop on-going joint training for all adjudicators in all the 
components that make and review disability determinations.'' The Board 
also noted that such a training program presumes the existence of a 
policy base which is clear, concise, and applicable in a real world 
setting.
    Presently, SSA policy for evaluating disability claims is 
fragmented, complex, conflicting, confusing, and sometimes obsolete. 
This compromises the ability of the DDSs to adjudicate cases 
consistently and accurately and is part of the reason that about 60% of 
the applicants who appeal denial of benefits at the initial level 
receive those benefits after appeal.
    While SSA should be commended for its recent efforts to introduce a 
greater degree of consistency into the process, much more remains to be 
done.

Quality Assurance
    Along with clear and concise policy and guidelines, NCDDD 
recommends that SSA assign a high priority to revising its quality 
assurance system so as to achieve the goal of unifying the application 
of policy among all components. The presently QA system is out of date, 
applies differently to the various components, and induces 
inconsistency of decision making.
    SSA presently is in possession of an independent consultant's 
report concerning changes in the QA system. NCDDD endorses many aspects 
of the Lewin report and recommends that it receive expedited attention 
by top management at SSA.

Systems Support
    The development and enhancement of effectively performing 
electronic systems is critical to delivering high quality service at a 
reasonable cost. Historically, DDSs have an excellent track record of 
having worked together to develop systems capabilities to support their 
business processes. In the last several years, SSA has embarked on 
various initiatives to develop, at the centralized level, alternative 
systems that would replace the equipment and software used in the DDSs. 
These initiatives have been extremely costly and have not produced 
advantages commensurate with their costs. While the available resources 
were diverted to the unsuccessful development of SSA systems, 
enhancement of the DDS systems has been curtailed due to lack of 
funding.
    NCDDD recommends that future development and enhancement of 
electronic systems be accomplished with greater reliance on the DDS 
systems personnel and through the use of private sector contracting.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to provide these comments on the challenges and 
opportunities facing the disability program. Again, NCDDD restates its 
desire to continue to work in partnership with SSA during the continued 
evolution and improvement of the program. We appreciate this 
committee's interest in addressing and resolving barriers to improved 
service delivery.

                               <F-dash> 


    Chairman Shaw.  You stopped right on 5 minutes. Thank you, 
Mr. Willman.
    Mr. Hill.

  STATEMENT OF THE JAMES A. HILL, ATTORNEY-ADVISOR, OFFICE OF 
HEARINGS AND APPEALS, SOCIAL SECURITY ADMINISTRATION, CLEVELAND 
 HEIGHTS, OHIO, AND PRESIDENT, CHAPTER 224, NATIONAL TREASURY 
            EMPLOYEES UNION, CLEVELAND HEIGHTS, OHIO

    Mr. Hill.  Good afternoon, Mr. Chairman.
    My name is James Hill. I have been an attorney advisor at 
the Cleveland, Ohio, OHA office for over 18 years. For nearly 
11 years, I have also been the President of Chapter 224 of the 
National Treasury Employees Union which represents attorneys 
and other staff members in over 100 OHA offices across the 
United States.
    I want to thank you for inviting me to testify regarding 
the challenges and opportunities facing Social Security 
disability programs today.
    I last testified before the Subcommittee in March 2000, 
when the Hearings Process Improvement (HPI) Initiative was in 
its infancy. At that time, the backlog pending at OHA was 
321,000 cases. At the end of last month, the backlog was over 
405,000 cases. Indeed, in the last month alone, the backlog 
grew by over 10,000 cases.
    Average processing time for SSA cases has increased from 
approximately 250 days at the end of fiscal year 2000 to the 
current level of 300 days and is still climbing.
    In my testimony in March 2000, I predicted that HPI would 
fail, but I had no idea the magnitude of that failure.
    We are now in yet another crisis, and corrective action 
must be both rapid and decisive. This is not a time for yet 
another untested experiment. This crisis is the latest 
disability in a long saga beginning in the early nineties when, 
for a variety of reasons, the number of cases pending at OHA 
skyrocketed. During the period from 1995 through December 1999, 
we were able to reduce the backlog by approximately 250,000 
cases. During that time, senior attorneys produced 
approximately 200,000 fully favorable, on the record decisions, 
with an average processing time of about 100 days.
    The correlation between senior attorney decisions and the 
decline in the backlog is obvious and inescapable. The Senior 
Attorney Program solved the backlog problem once; it can solve 
it again.
    We recommend that SSA permanently reinstate the original 
Senior Attorney Program. The immediate improvement in 
productivity caused by this reinstatement will give SSA the 
time it needs to carefully consider additional changes that 
will further improve the adjudication process. Reinstatement of 
the Senior Attorney Program would permit as many as 100,000 
disabled claimants to receive their benefits on a much more 
timely basis, without increasing the payment rate at OHA. I 
understand the current payment rate of OHA ALJs exceeds 60 
percent. It would also commit limited OHA resources to be 
concentrated on those cases that require an ALJ hearing.
    The Senior Attorney Program offers a nearly unique 
opportunity, the chance to provide better service at lower 
cost. OHA receives approximately 100,000 cases a year that, 
with minimal development, could receive a fully favorable on 
the record decision. Currently, these cases must go through the 
entire OHA adjudication process, including an ALJ hearing. 
During the current fiscal year, ALJs have issued slightly more 
than 5,000 on the record decisions. This is a far cry from 
fiscal year 1997, when Senior Attorneys issued nearly 50,000 
fully favorable on the record decisions, and ALJs added over 
10,000 more.
    The expense of going through the entire adjudication 
process is considerable, and in those cases that should be paid 
on the record, that cost is excessive. Reinstating the original 
Senior Attorney Program would provide deserving claimants with 
a favorable decision in considerably less time and at 
considerably lower cost. To maintain the integrity of the 
disability adjudication system, it is essential that the 
original Senior Attorney Program be reestablished immediately.
    Thank you.
    [The prepared statement of Mr. Hill follows:]

 Statement of James A. Hill, Attorney-Advisor, Office of Hearings and 
 Appeals, Social Security Administration, Cleveland Heights, Ohio, and 
 President, Chapter 224, National Treasury Employees Union, Cleveland 
                             Heights, Ohio

    My name is James A. Hill. I have been employed by the Office of 
Hearings and Appeals (OHA) of the Social Security Administration (SSA) 
for more than 18 years as an Attorney-Advisor. I am also the President 
of National Treasury Employees Union (NTEU) Chapter 224 that represents 
Attorney-Advisors and other staff members in approximately 110 Hearing 
Offices and OHA Regional Offices across the United States. I wish to 
thank the Subcommittee for inviting me to testify regarding the 
challenges and opportunities facing Social Security disability programs 
today.
    The challenges facing the SSA disability program are well known and 
need little amplification by NTEU. The aging of the ``baby-boomers'' is 
projected to push disability applications to record heights. The 
Medicare, Medicaid and SCHIP Benefits Improvement and Protection Act of 
2000  (BIPA) imposes additional workloads and time constraints upon 
OHA. Exacerbating the situation even more is the prospect that during 
the next several years the Agency will lose a substantial segment of 
its current workforce to retirement; another result of the aging of the 
``baby-boomers.'' Nonetheless, it is the responsibility of SSA to 
maintain the level of service expected by the American people despite 
the ever-increasing workload. While the service delivery situation has 
both long-term and short-term ramifications, I will limit my testimony 
to the service provided currently and in the immediate future by the 
Office of Hearings and Appeals.
    We are in the midst of an emerging disaster surrounding the 
disability workload at OHA precipitated by the demise of the Senior 
Attorney decision maker and fueled by HPI. The backlog at OHA has 
increased from approximately 311,000 cases in September 1999 to over 
405,000 cases in May 2001. The backlog has increased by over 10,000 a 
month in two of the last three months, a situation recalling 1994-1995. 
Processing times have increased from approximately 260 days in January 
2000 to approximately 319 days in May 2001. The situation continues to 
deteriorate, so that any hope of significant improvement without bold 
and decisive action is unreasonable. Heretofore, SSA has failed to 
recognize the extent of the impending disaster, choosing to believe 
that somehow the passage of time would solve the problem. Belatedly, 
there has been some recognition of ``failure,'' but SSA continues to 
believe that with some ``tweaking'' the process can be fixed. The loss 
of efficiency caused by HPI, the precipitous decline in the number of 
on-the-record decisions, the impending increase in disability receipts, 
and the imposition of a new and increased Medicare workload spells 
disaster. Something more than ``tweaking'' must be done now.
    NTEU makes the following recommendations of action necessary to 
ensure that the Office of Hearings and Appeals delivers the quality of 
service demanded by the American people currently and in the immediate 
future:

          1. All experienced OHA Attorney Advisers should immediately 
        be converted to Senior Attorney decision makers and given the 
        authority to issue fully favorable on-the-record decisions. 
        These Senior Attorney decision makers would review all cases 
        coming into the hearing office. The Senior Attorney will 
        identify, develop as necessary, and issue on-the-record fully 
        favorable decisions; The Senior Attorney would also evaluate 
        which cases are subject to dismissal and which cases need 
        further development before a hearing can be scheduled. The 
        Senior Attorney would also select those cases that need no 
        further development, but cannot be paid on the record, and 
        forward those cases to the staff for appropriate action 
        including assignment to an ALJ for immediate scheduling. The 
        Senior Attorney would continue to provide legal advise to the 
        ALJs and staff, and as a secondary duty, draft ALJ decisions.
          2. SSA should establish a workgroup empowered to conduct a 
        detailed review of the HPI process to identify and evaluate 
        inefficient and counter productive practices, to evaluate the 
        validity of the fundamental assumptions upon which HPI is 
        predicated in light of actual experience, and to suggest 
        changes necessary to produce the high level of public service 
        expected of SSA.
          3. SSA should establish a workgroup to examine the 
        implementation of alternative attorney decision makers in the 
        OHA hearing offices to work in conjunction with the ALJs in 
        processing the ever-growing workload that faces SSA.

    Mr. Chairman, the disability system has experienced one crisis 
after another since the early 1990's when the Social Security 
Administration failed to timely react to a significant increase in 
disability receipts leading to a disastrous increase in the number of 
cases pending, the disability backlog. In 1994 and 1995 a considerable 
number of claimants were waiting over a year for hearing decisions. By 
the time SSA decided to respond, the situation was entirely out of 
control with the OHA backlog increasing by as many as 10,000 cases a 
month. SSA's response was the overly ambitious and very expensive 
Disability Process Redesign (DPR) that was intended to introduce 
radical changes to the adjudication process over an extended period of 
time. Unfortunately, the individuals charged with the task of dealing 
with the disability backlog used the opportunity to forward their 
philosophical agenda to de-legalize the Office of Hearings and Appeals.
    Little needs to be said about the DPR. It was a massive and 
expensive program designed to fundamentally change the Social Security 
Disability adjudication process. Unfortunately, the DPR was 
fundamentally flawed, its scope was too large, and the project was 
poorly planned and executed. Cynthia M. Fagnoni, Director of Education, 
Workforce, and Income Security Issues; Health, Education, and Human 
Resources Division of the General Accounting Office, testified before 
the Subcommittees on Social Security and Human Resources on October 21, 
1999 that,

          ``The agency's first ambitious redesign plan in 1994 yielded 
        little. When the agency scaled back its plan in 1997, progress 
        was slow, in part because even the scaled-back plan proved to 
        be too large to be kept on track.''

    The ``scaled back'' plan had eight major initiatives; none have 
been completed and several (the Adjudication Officer and Redesigned 
Disability System) have been terminated. The GAO was being overly kind; 
the Disability Process Redesign has been a monumental and expensive 
failure.
    While the DPR did little to reduce the OHA backlog, the Short Term 
Disability Plan (STDP) and its Senior Attorney Program, which continued 
after most of the other STDP initiatives were terminated, was 
instrumental in substantially reducing the OHA backlog. During its 
pendency, the Senior Attorney Program produced more than 200,000 
decisions. During the operation of the Senior Attorney Program, ALJ 
productivity achieved record levels. The backlog, which peaked at 
approximately 570,000 cases in 1995, was reduced to just over 311,000 
cases at the end of September 1999. Indeed, the backlog decreased every 
single month from February 1997 to September 1999.
    Given the fact that the disability adjudication program had made 
giant strides in reducing the number of cases pending despite less than 
optimum support for the Senior Attorney Program, it is difficult to 
justify why SSA chose to introduce the massive changes in operations 
entitled the Hearings Process Improvement Plan without continuing the 
Senior Attorney Program. The answer is quite simple: Despite the 
failure of the DPR and particularly the failure of the Adjudication 
Officer Program, SSA has never abandoned the underlying premises of 
these programs including the ``de-legalization'' of OHA. One element of 
the DPR, the Adjudication Officer (AO) Program, was extensively piloted 
for a substantial period of time, and at an enormous expense to the 
taxpayers, under the pretense that full-scale implementation of the 
Program would significantly reduce the backlog. The pilot failed, but 
SSA did not give up on the concept. One lesson that SSA learned from 
the Adjudication Officer Program Pilot was that if they do not pilot a 
program, they can do exactly what they want.
    The result of that peculiar line of thinking is Hearings Process 
Improvement. In many ways HPI is an extension of the AO concept to the 
hearing office. The shortcomings of the piloted AO Program did not 
adversely affect OHA operations. Since HPI was implemented on a 
widespread, real world basis without adequate testing or piloting, its 
shortcomings are dramatic and impact directly on public service. 
Interestingly enough, the one aspect of the AO Program that was not 
included in HPI was non-ALJ decisional authority to issue fully 
favorable On-the-Record decisions.
    That HPI has been a failure is incontestable. Then Commissioner 
Apfel's written statement provided in conjunction with the March 16, 
2000 hearing of this Subcommittee stated that processing time was just 
over 260 days. In May 2001 processing time climbed to 319 days, a 22% 
increase. Average age of pending has also increased at an alarming 
rate. Since September 1999, the backlog at OHA has increased every 
single month. In fact, the backlog has increased by more than 10,000 
cases per month in two of the last three months, recalling the dismal 
performance of 1994 and 1995 that led to the implementation of the 
Senior Attorney Program. While a learning curve was expected, it 
certainly is a strange learning curve, the most severe increases have 
occurred in the last three months. The longer HPI is in effect, the 
worse OHA's performance becomes. The following chart documents the 
increase in backlog at OHA during the past year.

[GRAPHIC] [TIFF OMITTED] T4854A.001

    While the Agency may point to a number of factors such as longer 
than estimated learning curves, the impact of time lost for training, 
the effect of the Prototype Programs and the inability to hire new 
ALJs, nearly all these factors were clearly foreseeable. While it is 
readily apparent that there has been a plethora of poor managerial 
decisions regarding implementation of HPI, poor management is not the 
root cause of the failure of HPI. The root cause of that failure is the 
plan itself. Despite the uncontested success of the Senior Attorney 
Program that produced over 200,000 decisions in addition to the record 
number of decisions produced by ALJs, SSA determined that ALJs should 
be the only decision makers in OHA hearing offices. Indeed, even prior 
to HPI, the Agency's commitment to the concept that the ALJ should be 
the only decision maker at the hearings level, which resulted in 
downsizing the Senior Attorney Program, began the inexorable 
deterioration in the level of service provided by OHA. HPI accelerated 
the process.
    The former Chief Administrative Law Judge of OHA recently stated 
that OHA may receive as many as 100,000 cases a year that with minimum 
development could be paid without a hearing before an Administrative 
Law Judge. Prior to the implementation of HPI, Senior Attorneys could 
quickly, efficiently, and in a cost effective manner issue fully 
favorable OTR decisions for obviously disabled claimants. The average 
processing time for Senior Attorney decisions was just over 100 days. 
This was at a time when processing time at the OHA hearing level was 
386 days--more than 1 whole year . As a result of the Senior Attorney 
Program, disabled claimants received their benefits nearly 9 months 
earlier than otherwise would have been the case.
    Of course the success of the Senior Attorney Program, like the 
success of the ALJ due process hearings, ultimately rests on the 
competence of the highly trained legal professionals who serve as 
adjudicators. These individuals are experienced OHA Staff Attorneys who 
have many years experience advising ALJs and composing ALJ decisions. 
They are attorneys well versed in the law, and they are experienced 
disability practitioners. Senior Attorney decision makers have proven 
by their performance that pre-ALJ decision making in the OHA hearing 
office significantly improves the quality of service provided to the 
public.
    The Senior Attorney Program was a resounding success. It materially 
improved the quality of service provided to the public, especially 
those individuals who were disabled and entitled to receive their 
disability decision and benefits on a timely basis. Despite its 
success, the Senior Attorney as an independent adjudicator was 
eliminated as part of the HPI Plan. Ironically, the Senior Attorney 
Program is ideally suited for inclusion in the HPI process. Indeed, 
under HPI a new permanent position called the Senior Attorney Adviser 
has been created whose prime responsibility is to review cases for 
possible on the record decisions. The Senior Attorney position under 
HPI does not have independent decisional authority.
    Prior to HPI, a Senior Attorney could review, develop, decide, 
draft and issue a fully favorable on-the-record decision with no 
interim handoffs. Under HPI if a Senior Attorney believes that a case 
he/she has reviewed may result in a fully favorable on-the-record 
decision, the case is forwarded to a Senior Case Technician to obtain 
any needed development; the case must then be returned to the Senior 
Attorney after the development has been obtained to determine if the 
case remains appropriate for a fully favorable on-the-record decision; 
the Senior Attorney must then draft a memorandum to the ALJ proposing 
that the ALJ issue an on-the-record decision; the ALJ must review the 
memorandum and the case file and make an independent determination that 
an on-the-record fully favorable decision is appropriate; the ALJ must 
convey his/her decision and the case file back to the Senior Attorney; 
the Senior Attorney must then draft the written decision based upon the 
instructions from the ALJ and forward the draft decision and the case 
file back to the ALJ, who reviews the draft, makes changes he/she deems 
necessary, and signs and issues the decision. This involves many more 
hand-offs, requires that an ALJ duplicate the effort of the Senior 
Attorney, and reduces the number of other cases an ALJ can adjudicate. 
This is not an administratively efficient process, but it is typical of 
the increased complexity of the HPI process. Restoring the decisional 
authority to a Senior Attorney decision maker would provide the HPI 
process with a tested mechanism for efficiently dealing with claimants 
who are entitled to disability benefits at virtually no additional cost 
to the Agency.
    SSA's Office of Workforce Analysis after site visits to eleven OHA 
offices stated:

          ``Restore the signature authority for favorable decisions 
        that offices enjoyed under the Senior Attorney initiative so 
        that OTRs can be moved out of the office quickly without ALJ 
        intervention.'' NTEU concurs.

    NTEU recommends that:

          All experienced OHA Attorney Advisers should be converted to 
        Senior Attorney decision makers and given the authority to 
        issue fully favorable on-the-record decisions. These Senior 
        Attorney decision makers would review all cases coming into the 
        hearing office. The Senior Attorney will identify, develop as 
        necessary, and issue on-the-record fully favorable decisions; 
        The Senior Attorney would also evaluate which cases are subject 
        to dismissal and which cases need further development before a 
        hearing can be scheduled. The Senior Attorney would also select 
        those cases that need no further development but cannot be paid 
        on the record and forward those cases to the staff for 
        appropriate action including assignment to an ALJ for immediate 
        scheduling. The Senior Attorney would continue to provide legal 
        advise to the ALJs and staff, and as a secondary duty, draft 
        ALJ decisions.

    The immediate conversion of OHA Attorney Advisers to Senior 
Attorney decision makers as described above will result in an immediate 
and substantial improvement in OHA service to the public with minimal 
disruption of current OHA structure and operations and at minimal 
additional cost. Based upon the Agency's experience with the original 
Senior Attorney Program, and with the full cooperation of hearing 
office management (lacking during the original Senior Attorney 
Program), this measure could produce as many as 100,000 decisions a 
year without diminishing ALJ productivity. Based upon previous 
experience, the average processing time for these cases would be 
approximately 100 days. Additionally, the minimal staff and complete 
lack of ALJ time spent on these cases frees the staff and ALJs to spend 
more time on processing those cases requiring a hearing.
    The installation of the Senior Attorney decision maker will result 
in an immediate improvement in service to the public and permit SSA to 
deal with the other significant flaws in the HPI process. Given the 
glacial pace of the SSA bureaucracy in effecting significant beneficial 
change, without the Senior Attorney decision maker the OHA backlog will 
rise above 500,000 cases with processing times in excess of 1 year 
before SSA can adequately effect significant improvement in hearing 
office work processes.
    On its surface HPI appeared to be tailored to enhance ALJ 
productivity. However, fundamental misconceptions regarding hearing 
office work processes have resulted in developing a process that 
degrades rather than enhances hearing office operations.
    A fundamental misconception of HPI was that the process could 
adequately replace the on-the-record decisions lost as a result of the 
demise of the Senior Attorney Program. Experience shows that a vast 
majority of on-the-record fully favorable decisions were made by Senior 
Attorneys rather than ALJs. In fact, ALJ on-the-record fully favorable 
decisions as recorded in OHA's Monthly Activity Report actually 
declined with the passage of time despite the fewer number of Senior 
Attorney decisions made as a result of the downsizing of the Program. 
This is particularly noteworthy after the implementation of HPI which 
has failed to produce the expected number of on-the-record decisions. 
The failure of the process to produce a reasonable number of on-the-
record decisions at a time when ALJs are paying overly 60% of the cases 
heard is unconscionable.
[GRAPHIC] [TIFF OMITTED] T4854B.001

    The misconceptions upon which HPI is predicated include the fallacy 
that ALJs were extensively involved in pre-hearing development, and 
that HPI would free ALJs of that activity permitting them to devote 
more time to hold hearings and make decisions. The fact is that few 
ALJs spent any appreciable amount of time developing and pulling cases; 
that job was primarily accomplished by GS-8 Legal Assistants who 
understood how each ALJ wanted his/her cases developed. The work 
product was tailored to a particular ALJ. Under HPI, development occurs 
before assignment to an ALJ so that the individual requirements of a 
particular ALJ cannot be applied. Nonetheless, upon receipt of the 
case, each ALJ's requirements must be met. Therefore, in some instances 
too much time is spent developing a case; in others too little time is 
spent developing a case prior to submission to an ALJ, requiring more 
work be performed after the case has been assigned.
    Under HPI the group is accountable for productivity rather than an 
individual. This concept of group responsibility rather then individual 
responsibility erodes individual commitment and initiative leading to a 
lack of accountability and decreased productivity. After the case has 
been processed by the Senior Attorney and determined to be 
inappropriate for an on-the-record decision, it will be immediately 
assigned to an ALJ who has the responsibility of ensuring that the case 
is properly developed. This also avoids the unworkable concept of group 
accountability. This ensures that either a Senior Attorney or an ALJ is 
accountable for the proper processing of the case file.
    Because of the lack of detailed knowledge of actual hearing office 
processes, a less than knowledgeable ``ivory tower'' bureaucracy 
developed an absolutely byzantine plan that involved an incredible 
number of hand-offs and ``make-work'' tasks that would complicate and 
slow down case processing. The plan and the flow charts in the glossy 
publications were impressive, but as events soon showed, were not based 
in reality. As a result of the nearly complete lack of credibility of 
the Plan, prior to implementation of HPI nearly every employee in 
hearing offices had serious doubts over the viability of HPI. It is not 
surprising that it has failed.
    Other key misconceptions include the belief: That the tasks and 
duties performed by the remaining hearing office staff were so generic 
that any individual with minimal training could perform nearly every 
task required in the processing of a case; that massive disruptions in 
work processes, job duties, interpersonal relationships, and self-
confidence would have little or no impact upon the workplace 
environment; that rotating staff members into master docket and 
scheduling positions that require extensive training would not 
seriously disrupt hearing office operations; that certification by 
someone other than the ALJ that a case is ready to schedule would add 
value to the process; that the impact of the culture change was 
minimal; and that the lack of respect for the knowledge and talents of 
each individual employee, including the ALJs and attorneys, would not 
be keenly felt by employees and would not negatively impact on morale.
    The Bush Administration has indicated that it expects executive 
agencies to consider the cost of its business processes in preparing 
their FY 2003 budgets. NTEU is convinced that reliance upon ALJs as the 
only decision maker at the hearings level not only results in degraded 
service to the public, but also raises the cost of that service. 
Currently, OHA does not have a sufficient number of decision makers in 
its hearing offices to adequately meet its mission goals. One obvious 
solution is to hire many, many new ALJs. The problem is that ALJs and 
the staff necessary to support them are expensive. Currently, more than 
60% of the decisions made by OHA are favorable to the claimant. 
Management has estimated that as many as 100,000 receipts per year 
could be properly adjudicated as OTR fully favorable decisions. 
Approximately 200 ALJs and 800 other employees would be required to 
adjudicate these cases which could be adjudicated by approximately 600 
Senior Attorneys. The cost of ALJ adjudication is not justified in 
these cases. The Senior Attorney adjudicator is a much more cost-
effective alternative. Likewise there are other types of cases handled 
by OHA including Medicare, SSI, non-disability SSA cases, and even some 
disability cases which could be decided more efficiently in terms of 
service and cost by alternative decision makers such as hearing 
officers or magistrates. NTEU is not suggesting replacing ALJs, but 
adding different decision makers to perform adjudication of specific 
kinds of cases supporting the adjudication work of the ALJs. NTEU is 
suggesting that SSA tailor the decision maker to the specific task, 
utilizing a range of decision makers who are appropriate to the 
specific situation.
    NTEU recommends that:
    A workgroup be established to carefully examine the implementation 
of alternative attorney decision makers in the OHA hearing offices to 
work in conjunction with the ALJs in processing the ever-growing 
workload that faces SSA.

                               <F-dash> 


    Chairman Shaw.  Thank you, Mr. Hill.
    Mr. Bernoski.

 STATEMENT OF THE HON. RONALD G. BERNOSKI, ADMINISTRATIVE LAW 
    JUDGE, OFFICE OF HEARINGS AND APPEALS, SOCIAL SECURITY 
     ADMINISTRATION, MILWAUKEE, WISCONSIN, AND PRESIDENT, 
 ASSOCIATION OF ADMINISTRATIVE LAW JUDGES, MILWAUKEE, WISCONSIN

    Mr. Bernoski.  Mr. Chairman, thank you for inviting us to 
testify at this hearing.
    I represent the Association of administrative law judges, 
and my comments are not those of the Social Security 
Administration.
    The Social Security Administration has long struggled to 
develop and implement an efficient office procedure for its 
disability program. In the early 19nineties, the agency tried a 
system called ``Redesign'' which failed in the pilot stage. In 
October 1999, the agency introduced the Hearing Process 
Improvement plan, or HPI. The purpose of HPI was to reduce 
processing time, improve quality and productivity, promote 
individual case management, and increase employee job 
satisfaction.
    The HPI was developed without any input from the judges; it 
removed all support staff from the judges and placed them in 
teams; skilled clerical workers were promoted to decision 
writers without adequate past training or experience, and many 
skilled decision writers were placed in supervisory-type 
positions. It turned a simple procedure into a 14-step process, 
which I have handed out for you to look at.
    The judges lost control of most of the pre-hearing case 
development and were left without assigned support staff. The 
result has been delay and confusion. Processing times are 
getting longer; case backlogs are growing; pre-hearing work 
products and decision writing is of poorer quality; employee 
morale is dropping, and there is a lack of accountability for 
work product.
    Judges have on occasion been asked to issue decisions on 
cases where the exhibits are not in a marked exhibit record. 
The offices are paralyzed and are not able to deliver cases to 
the judges to hear. We are now in a much poorer state than we 
were before HPI started, and we are waiting for the next 
change.
    Any change from HPI must return the control of the casework 
product to the judge and provide the judges with sufficient 
staff. This is needed to provide quality service to the 
American public.
    Several groups, including the Judicial Conference, the 
Social Security Advisory Board, and the Administrative 
Conference of the United States (ACUS), have looked at the 
Social Security disability system, and all agree that replacing 
the Appeals Council with another body that can handle the case 
backlog and improve quality is essential.
    Therefore, any change must improve the quality of the 
agency's final administrative decisions and reduce the Appeals 
Council's case backlog. The change that we propose--and it is 
set forth rather extensively in our statement--creates a 
separate adjudication component within the agency consisting of 
administrative law judges, that is managed by a chief judge. 
The appeals process is transferred to local appellate review 
panels, with each panel consisting of three administrative law 
judges, with the number of panels varying depending upon the 
need.
    This appellate change is based upon the Bankruptcy Court 
system, which has been working well. This change is needed 
because small boards such as the Appeals Council, a board or a 
commission cannot handle a workload of over 100,000 cases a 
year. In the Bankruptcy Court system, the appellate panels have 
resulted in shorter processing times, higher-quality decisions, 
fewer appeals to the Federal courts, and fewer appellate 
reversals.
    Under our plan, the Commissioner of Social Security retains 
all authority for agency rulemaking, and our plan saves money 
because it closes the Social Security regional management 
offices.
    We believe, Mr. Chairman, that it is now time for us to 
come to a consensus on the reform for the Social Security 
process. The plan that we propose is a new concept for Social 
Security that is based on an existing system that works well. 
It will improve the quality and efficiency of the Social 
Security Administration and provide a quality product for the 
American public.
    Our proposal has been reviewed by a former Associate 
Commissioner of the Office of Hearings and Appeals and a 
Northwestern University Law School professor, and both were 
enthusiastic with this realistic approach to this issue and 
have expressed a willingness to testify before your Committee.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bernoski follows:]

  Statement of the Hon. Ronald G. Bernoski, Administrative Law Judge, 
    Office of Hearings and Appeals, Social Security Administration, 
Milwaukee, Wisconsin, and President, Association of Administrative Law 
                      Judges, Milwaukee, Wisconsin

    Mr. Chairman and members of the Subcommittee:

I. INTRODUCTION
    Thank you for the opportunity to testify before you today. My name 
is Ronald G. Bernoski. I am an Administrative Law Judge (``ALJ'') who 
has been hearing Social Security disability cases at the Office of 
Hearings and Appeals (``OHA'') of the Social Security Administration 
(``SSA'') in Milwaukee, Wisconsin, for over 20 years.
    This statement is presented in my capacity as the President of the 
Association of Administrative Law Judges (``AALJ''), which represents 
the ALJs employed in the SSA OHA and the Department of Health and Human 
Services. The stated purpose of the AALJ is to promote and preserve 
full due process hearings in compliance with the Administrative 
Procedure Act for those individuals who seek adjudication of program 
entitlement disputes within the SSA.
    SSA has been unsuccessful in managing OHA's mammoth appellate 
administrative caseload in addition to performing its many other 
duties. SSA also has been unable to refrain from efforts to implement 
policy through the OHA adjudication process. These failings chronically 
have interfered with the timeliness and quality of the final 
adjudication of Social Security Act claims by OHA adjudicators. To cure 
these problems, AALJ recommends that Congress create an ALJ-
administered independent adjudication agency that has the exclusive 
jurisdiction to make the final administrative decisions of Social 
Security Act claims. An ALJ-administered independent agency will enable 
the ALJs to do their job: affording timely and high quality due process 
hearings and decisions to the members of the American public who seek 
Social Security Act benefits.
    The Social Security Act hearing process should be reformed by the 
transfer of the authority to make final administrative adjudications of 
Social Security Act claims, which currently are made at the ALJ and SSA 
Appeals Council levels, from the Social Security Administration to a 
new independent adjudication agency. AALJ's proposal would amend the 
Social Security Act to provide the claimants with timely, high quality, 
impartial and fair decisions of their claims pursuant to the Social 
Security Act and Administrative Procedure Act (``APA'') by adjudicators 
who are in an agency independent of, but within, the SSA. A substantial 
amount of funds would be saved annually by our recommendations to (1) 
replace the Appeals Council with a nationwide network of appellate 
panels staffed by ALJs, and (2) abolish the ten OHA regional offices, 
which appears to be on the order of in excess of $75,000,000.
    In this statement, I present (1) the reasons why an ALJ-
administered independent adjudication agency that supplants the SSA OHA 
function is the right reform of the Social Security Act hearing process 
to address the timeliness and quality issues that chronically have 
beset the SSA OHA, and (2) a summary of the features of the proposed 
new agency, which may be called the United States Office of Hearings 
and Appeals (``USOHA'').
    A detailed version of the features of the proposed new agency and 
the rationales for such a new agency is presented in the AALJ's 
``Report and Recommendations for the Transfer of the Authority to Make 
Final Administrative Adjudications of the Social Security Act Claims 
from the Social Security Administration to a New Independent Regulatory 
Agency,'' which is available upon request or from the homepage link on 
the AALJ website, www.aalj.org.

II. REASONS TO ESTABLISH AN ALJ-ADMINISTERED INDEPENDENT AGENCY FOR THE 
        FINAL ADMINISTRATIVE ADJUDICATION OF SOCIAL SECURITY ACT CLAIMS

A. Structure, Size and Workload of the Social Security Administration, 
        Office of Hearings and Appeals
    Essentially, OHA performs an adjudicatory function in an executive 
agency that was created by Congress, and handles the largest appellate 
administrative caseload of any agency in the world.
    In 1994, the SSA became a Congressionally-created independent 
regulatory single commissioner agency. Social Security Administration 
Reform Act of 1994, Pub. L. No. 103-296, 108 Stat. 1472, codified at  
42 U.S.C. Sec. 901 et seq. The appellate adjudicatory function, namely 
the administrative review of the SSA's initial determinations of Social 
Security Act claims that were partially or wholly denied by the state 
Disability Determinations Services agencies (``DDS'') on behalf of the 
SSA, takes place within the SSA OHA. There is an Associate Commissioner 
for OHA, who reports to the Deputy Commissioner of Disability and 
Income Security Programs, who is one of eight Deputy Commissioners who 
report to the Commissioner of SSA. SSA's Official Internet Site, 
www.ssa.gov/org.
    There are two primary organizational components of OHA. The first 
level of administrative appeal is handled within Hearing Operations, 
where a claimant is afforded an opportunity for a de novo  hearing and 
decision by an Administrative Law Judge. ALJs are Article II Executive 
Branch competitive civil service employees who are hired pursuant to 
statute: 5 U.S.C. Sec. 3501 of the APA through a Title V OPM civil 
service examination process. The Chief Administrative Law Judge 
oversees 140 hearing offices and 10 regional offices, and is described 
by SSA as the ``principal consultant and advisor to the Associate 
Commissioner on all matters concerning the ALJ hearing process and all 
field operations.'' The Chief ALJ reports to the Associate Commissioner 
for OHA, there are over 1,000 ALJs and about 5,600 support staff. SSA 
ALJs issue over 500,000 decisions per year.
    The second and final level of administrative appeal is handled 
within the Office of Appellate Operations, where a claimant is afforded 
an opportunity for a record review of the ALJ's decision by the Appeals 
Council. The Office of Appellate Operations has about 800 employees and 
received over 115,000 appeals in fiscal year 1999. The Appeals Council 
decided over 101,000 cases in fiscal year 1999. OHA also has a Program 
Management unit, which makes policy and sets procedures for OHA, 
including policy for the processing of cases through OHA, and an 
Administrative Management unit, which provides administrative support 
for OHA. SSA's Official Internet Site for the Office of Hearings and 
Appeals, www.ssa.gov/oha/: About SSA's Office of Hearings and Appeals; 
Information on OHA's Hearing Sites.  The Associate Commissioner of OHA 
is the Chair of the Appeals Council. The Appeals Council consists of 
administrative appeals judges who are not  ALJs selected by the civil 
service procedure established by the APA. They are career civil 
servants who are required to be attorneys with a certain level of 
experience.

B. The Social Security Administration's Management of the Office of 
        Hearings and Appeals Has Been a Failure
    The SSA's administration of OHA has failed. Management initiatives 
such as process redesign, process unification, prototype, and, most 
recently, the Hearing Process Improvement Plan (``HPI'') and Appeals 
Council Process Improvement Plan (``ACPI''), have not achieved their 
goals. Also, most of these initiatives were undertaken by the SSA 
without consulting with the ALJs for their input, including HPI and 
ACPI, which is a major reorganization of OHA. The SSA's plan to 
reorganize OHA, which became HPI and ACPI, was not revealed by SSA 
until shortly before the release of the first version of HPI in July 
1999.
    The Failure of the Process Unification and Prototype Projects: The 
failure of the process unification and prototype has been the 
foreshadowing for the failure thus far of HPI and ACPI. Process 
unification is an effort to have all DDS and OHA decisionmakers use the 
same standards for determining claims. The prototype is an elimination 
of the reconsideration determination step at the DDS level in favor of 
increased claimant contact and improved medical-vocational evaluations 
at the initial level with an evaluation of the claimant's credibility. 
Even with three years of training, the simultaneous implementation of 
process unification and the prototype has resulted in a marked loss of 
efficiency, loss of experienced staff from the stress of the now 
complex job as an examiner, low pay, and an uneven quality of the 
initial determinations, according to the Social Security Advisory 
Board's June 2000 Report of the Board's Study of Process Unification 
and Prototype and Implementation of the Hearing Process Improvement 
Initiative in California  (``SSAB California Study''). New staff 
require close to two years of training to do the complex work demanded 
by prototype and process unification and half of the training classes 
drop out. The move of DDS from focusing on objective medical findings 
to assessing credibility of the claimant has resulted in an inability 
of the DDS examiners in California to determine more than 12 cases per 
week even with extensive overtime work, which has resulted in longer 
case processing times and major workload backlogs that required 
extensive help from other non-prototype offices. The SSA underestimated 
the experience and quality of staff needed to do this more complex 
analytical work. However, the increase in the labor-intensive nature of 
their work has not resulted in any indication yet that the reversal 
rate of DDS denials at the ALJ level has declined, which was a primary 
purpose of process unification and prototype. SSAB California Study, 
pp. 1-9. (The SSAB's findings are based upon the statements of those 
interviewed by SSAB, rather than SSAB's own conclusions about the 
functioning of process unification, prototype and HPI.)
    The average prototype case processing time has risen from 78 days 
in May 2000 to 241 days in March 2001, according to the HPI Monthly 
Monitoring Report for March 2001 by the Acting Deputy Commissioner for 
Disability and Income Security Programs to the Acting Commissioner 
(``March 2001 HPI Report''). The marked rise is explained in the report 
by a lack of a stable mix of cases among favorable on-the-record cases, 
dismissals, and favorable and unfavorable cases that require a hearing. 
The advancement of mostly favorable on-the-record cases during the 
first period of May 2000 through March 2001 resulted in what is 
described as an artificially low cumulative average processing time of 
189 days, which has risen to 210 days for the Fiscal Year 2001.
    The Failure of the Hearing Process Improvement Plan: Cases 
processed through HPI take longer to be heard and decided and are more 
labor-intensive than processing the cases in the way it was done before 
HPI. HPI is causing delays in claimants receiving hearings and 
decisions on their cases.
    The HPI plan entails significant changes in job duties and titles 
for OHA employees that required new job descriptions for all OHA non-
ALJ personnel and also entails major changes in how cases are prepared 
for hearing. HPI is an effort to reduce case processing time within 
OHA. OHA now readily admits that the implementation of the HPI process, 
which was supposed to reduce the time that cases are pending for a 
hearing and decision and increase output, so far has not done so. SSA's 
report on the implementation of Phase 1 of HPI generally calls HPI a 
success, but the data for the four months surveyed, May-August 2000, 
show that the average processing time and per person work years 
expended is greater for the HPI cases than the non-HPI cases. 
Implementing a New Hearings Process in OHA: Hearings Process 
Improvement: Phase 1 Implementation Report, Appendix I (October 2000).
    On an ongoing basis, HPI has resulted in an increase in the backlog 
of cases awaiting a hearing and an increase in the processing time for 
the cases. SSA OHA's monthly national workload and performance 
statistics say it all: Nationally, the case backlog has been climbing 
(December 1999: 317,947, December 2000: 361,564, April 2001: 389,679), 
so that the backlog now is 22.5 % higher than in December 1999, just 
before HPI was implemented. In December 1999, the average case 
processing time was 287 days in HPI Phase I OHAs and 274 days in HPI 
Phase II/III OHAs. In December 2000, the average case processing time 
was 273 days in HPI Phase I OHAs and 294 days in HPI Phase II/III OHAs. 
However, by April 2001, the national average case processing time had 
risen to 316 days. The March 2001 HPI Report  states that the average 
processing time for non-Medicare SSA cases in March 2001, compared to 
March 2000, was up 27 days (10%) in HPI Phase I OHAs and up 38 days 
(15%) in HPI Phase II/III OHAs. Although the report attributed the rise 
in processing time solely to the growth of per ALJ workloads, the 
downturn in dispositions far exceeds the loss of ALJ personnel 
(available ALJs down 8% but daily dispositions down 18% in Phase I 
OHAs, available ALJs down 7% but daily dispositions down 33% in Phase 
II/III OHAs).
    The HPI process thus far has resulted in significant bottlenecks in 
(1) the clerical preparation of the files so that they are an organized 
record that is marked in exhibit form (known as case ``pulling''), (2) 
the `certification' of the cases as being done with pre-hearing 
development and ready for a hearing, and (3) the drafting of decisions 
by the writing staff who now also spend time reviewing and `certifying' 
cases as ready for a hearing. These bottlenecks in the workflow have 
been acknowledged by the SSA in its formal training of the OHA hearing 
office staffs in the third and last wave of implementation last fall 
and the OHA Associate Commissioner's November 22, 2000, issue of the 
HPI newsletter, ``HPIdeas,'' and on an ongoing basis by SSA management 
to the staff in its efforts to overcome these bottlenecks. The 
production statistics and anecdotal evidence strongly suggest that ALJs 
now are hearing cases with unpulled files and the number of cases being 
heard and decided using the HPI model has declined significantly from 
the numbers that were heard using the prior practice of having the ALJs 
review the cases and determining what prehearing development is needed. 
The SSAB California Study  also revealed concerns with (1) taking the 
ALJs out of the prehearing record development process until its end, 
(2) how the duties of the clerical staff were changed, which ``slowed 
the process and reduced productivity,'' and (3) that ``HPI will require 
additional resources.'' pp. 9-10. (The SSAB findings are based upon the 
statements of those interviewed by SSAB, rather than SSAB's own 
conclusions about the functioning of HPI.)
    The failure of the HPI process is typified by the experience at the 
Miami OHA. Despite the contrary unanimous recommendation of the ten 
Regional Chief Administrative Law Judges of OHA, the Associate 
Commissioner of OHA directed the nation-wide creation of 350 new 
decision-writer ``paralegal'' positions and the promotion of clerks and 
other staff members to fill these positions. These new positions 
involve drafting the legal decisions issued by the judges. Employees 
were promoted without having to demonstrate that they had the 
appropriate drafting skills and education to perform the job. In some 
cases, remedial training has been required. Because of this practice, 
under HPI, it is taking the Miami judges longer to edit draft 
decisions, adding to the delay experienced by the claimants. Under HPI, 
no additional attorney positions were created, although the 350 new 
paralegal positions are paid at the same level as attorneys.
    Therefore, as is stated above, HPI cases take longer to process and 
are more labor-intensive than processing the cases in the way it was 
done before HPI, which is causing delays in claimants receiving 
hearings and decisions on their cases.
    The Chronic Failure of the Appeals Council: The Appeals Council, 
which originally was intended as a policy making body, has failed in 
its function as the final step in the administrative review of Social 
Security claims.
    In the face of a 66% increase in the number of appeals that the 
Appeals Council heard from fiscal year 1994 (69,171) to 1999 (115,150), 
its backlog of pending cases has ballooned to 144,525 and the average 
processing time has nearly quadrupled from 118 to 460 days. By early 
2000, the average processing time climbed to 541 days. SSA OHA Appeals 
Council Process Improvement: Action Plan, pp. 3-4 (March 2000) (``ACPI 
Action Plan''); SSA OHA Associate Commissioner's Message, Salute to the 
Appeals Council  (April 2000), p. 1. At the same time, the quality of 
the Appeals Council decision process has plummeted. Cases that were 
decided by ALJs as long ago as 1995 and 1996 were remanded to ALJs in 
2000. Particularly since the implementation of ACPI, numerous cases 
have been remanded only because the tape recording of the ALJ hearing 
or the entire file was lost by the Appeals Council. The Appeals Council 
does not have a reliable case tracking system in place.
    Appeals Council decisions often do not include rationales, rarely 
refer to relevant statutes, regulations and cases, and only sometimes 
cite SSA Rulings, which reduces the consistency of the decisions. 
Appeals Council decisions all too frequently rely upon non-material 
errors that do not affect the results in the case. The unprofessional 
quality of the Appeals Council decisions was described by a federal 
Circuit Court of Appeals Judge over 15 years ago: ``I have read many 
administrative law judges' decisions on social security disability 
cases, all of which the disappointed claimant has asked the Appeals 
Council to review (as he had to do before he could begin judicial 
review proceedings), but I can remember only one occasion on which the 
Appeals Council wrote an opinion, even when the administrative law 
judge's decision raised difficult questions.'' A Specialized Court for 
Social Security? A Critique of Recent Proposals, Robert E. Rains, 15 
Fla. St. U.L. Rev. 1, 28 (1987), quoting, R. Posner, The Federal Courts 
Crisis & Reform, p. 161 (1985). Decisions that are supported by a full 
rationale still are rare.
    Although there is no significant evidence of direct agency pressure 
to grant or deny more claims, concern has been expressed that ``SSA 
policymakers nevertheless are able to create an adjudicative climate 
that subtly and indirectly inclines the Appeals Council toward more or 
fewer awards, noting that the Appeals Council always reflects, to some 
extent, the interests and style of the OHA Associate Commissioner. Some 
have expressed the view that the Appeals Council is still perceived in 
some quarters as an even more partisan ``arm of the [agency].'' The 
Fourth Bite at the Apple: A Study of the Operation and Utility of the 
Social Security Administration's Appeals Council, Charles H. Koch, Jr. 
& David A. Koplow, 17 Fla. St. U.L. Rev. 199, 236-240 (1990). The 
Appeals Council's administrative appeals judges are not independent 
adjudicators, unlike the ALJs, whose independence is established by the 
Administrative Procedure Act.
    Although SSA's ACPI Action Plan  now states that higher 
productivity, much shorter processing times and improved public service 
are necessary, SSA has allowed the Appeals Council functioning to 
deteriorate for years without regard to the impact on due process and 
fairness for the claimants. (SSA's ACPI Action Plan  was issued 13 
years after a recommendation by the Administrative Conference of the 
United States to abolish the Appeals Council if it cannot be fixed, 
which is described below.) There is an absence of timely and efficient 
case processing and high quality decisions at SSA's final stage of 
administrative review. SSA states that it ``will measure the success of 
the ACPI initiatives by improvements in average processing time, the 
number of pending appeals, and the productivity per [employee] work 
year (``PPWY'').'' Action Plan, p. 10. No measure of the quality of the 
Appeals Council decisions is mentioned in the Action Plan, which again 
demonstrates an absence of quality decisionmaking as a SSA priority.

C. The Social Security Administration's Improper Implementation of 
        Policy through the Office of Hearings and Appeals Adjudication 
        Process Has Compromised the Claimants' Right to Timely, High 
        Quality and Impartial Adjudications of Their Claims
    Separation of OHA's Adjudication Function from SSA's Policy, 
Rulemaking, Enforcement and Investigation Functions Is Necessary to 
Protect the Claimants' Right to Timely, High Quality and Impartial 
Adjudications of Their Claims: Congress made SSA independent of the 
Department of Health and Human Services in 1994 to ensure that ``policy 
errors resulting from inappropriate influence from outside the agency 
such as those occurring in the early 1980s do not recur in the 
future.'' Characteristics of Independent Executive Agencies,  Statement 
by Rogelio Garcia, Congressional Research Service, House Subcommittee 
on Social Security, pp. CRS-4-CRS-5 (July 25, 1996), quoting, House 
Conference Committee Report No. 103-670, Social Security Administration 
Reform Act of 1994, 103rd  Cong., 2nd Sess., p. 90 (1994).
    However, Congress apparently was incorrect that the policy errors 
that led to the SSA's interference with the administration of the OHA 
and ALJs' decisional independence came only from influences outside 
SSA. The problems are within SSA, as is shown by the continuation and 
proliferation of inappropriate policy and policy implementation and 
management errors that negatively affect the timeliness, high quality, 
and impartiality of appellate administrative review of Social Security 
Act claims. A list of some of SSA's major policy abuses of the OHA 
adjudication process is provided at the end of this section.
    Leaving the adjudication function of OHA under the administration 
of SSA is not compatible with efficient and high quality service to the 
claimants and defeats the Congressional intent of providing full and 
fair hearings for Social Security claimants that is embodied in the 
Social Security Act and Administrative Procedure Act.
    In 1935, the Supreme Court held that the desirability of the 
neutral exercise of expertise and impartiality of decisionmaking by 
Executive Branch agencies warranted the power of Congress to create 
independent regulatory agencies and commissions to insulate agency 
officers from at will removal by the President. Humphrey's Executor v. 
United States, 295 U.S. 602 (1935). In 1955, the Hoover Commission 
strongly advocated the separation of the adjudication function of 
Executive Branch agencies from the agencies to protect the claimants' 
due process rights: ``Where the proceeding before the administrative 
agency is strictly judicial in nature, and the remedy afforded by the 
agency is one characteristically granted by the courts, there can be no 
effective protection of private rights unless there is a complete 
separation of the prosecuting functions from the functions of 
decision.'' Specialized Courts and the Administrative Lawmaking System, 
Richard L. Revesz, 138 U. Penn. L. Rev. 1111, 1118-1119 (1990), 
quoting, Commission on Organization of the Executive Branch of 
Government, Legal Services and Procedures: A Report to Congress, 84-85 
(1955).
    Thus, it is difficult to justify a ``role'' for politically 
appointed Commissioners or Board members for an agency that does only 
adjudication, since the independent entity would not set policy. 
Policy-setting is the function for which political accountability is 
desirable, not adjudication of claims.
    The rationales that have justified Congressional separation of the 
appellate administrative adjudication function from Executive Branch 
agencies include an efficient and low cost process for the claimants, 
expertise, high case volumes, and decisional independence of 
adjudicators. The maintenance of a reasonably efficient, orderly and 
low cost adjudication system in the traditional domain of public rights 
is in the public's interest, especially for programs that distribute 
benefits on a large scale. Specialized tribunals are more likely to 
make correct decisions in subject areas that are legally complex or 
have technical facts. The large increase in the administrative case 
volume also supports the use of specialized adjudication agencies. The 
most important rationale is the experience that effective protection of 
individual rights before agencies through independent decisionmaking 
cannot take place unless adjudications are separated from the agency's 
rulemaking/policy, prosecutorial/enforcement and investigatory 
functions.
    These rationales, particularly the need to separate the 
adjudicatory function from other conflicting agency functions, led 
Congress to create the Occupational Safety and Health Review Commission 
(``OSHRC'') in 1970, 29 U.S.C. Sec. 661, and the Federal Mine Safety 
and Health Review Commission (``FMSHRC'') in 1977, 30 U.S.C. Sec. 823, 
as independent Executive Branch agencies outside the Department of 
Labor with only adjudicative authority. The OSHRC determines whether 
regulations promulgated and enforced by the Occupational Safety and 
Health Administration have been violated. The FMSHRC adjudicates 
violations of standards promulgated and enforced by the Mine Safety and 
Health Administration.
    Therefore, when an agency, such as SSA, exclusively uses rulemaking 
proceedings to set policy, rather than also using adjudications to set 
policy, there no longer is any rationale for keeping the adjudicatory 
function within the agency. The Congressional interest in providing a 
check on SSA's enforcement powers, i.e., to withhold disability and 
other program benefits, is best served by having entitlement 
determinations decided by an independent adjudicatory agency based on 
the benefits entitlement standards set by SSA. Hence our proposal that 
the independent agency be an adjudicatory body that is self-
administered by the ALJs with a right of appeal from an individual 
ALJ's decision to an appellate panel staffed by ALJs.
    There are additional reasons why an independent adjudication agency 
administered by ALJs provides a higher quality of due process for 
Social Security benefits claimants than the current SSA Appeals Council 
or an independent but politically appointed Commission or Board 
structure. First, a small body, such as the current Appeals Council, or 
a Commission or Board, cannot be of sufficient size to do meaningful 
administrative review of appeals from the ALJ decisions, which now 
number well over 100,000 per year. The SSA ALJs are a large group of 
highly qualified judicial professionals who are capable of 
administering themselves and the appellate administrative process in a 
competent and effective manner. Second, creating an independent agency 
would eliminate political oversight by appointees (i.e., Commissioners 
or Board members) who do not have due process and adjudicative 
independence as their foremost goal in agency administration. Finally, 
if the SSA ALJs administer themselves, they will draft and issue the 
procedural regulations and rules of the new agency based upon their 
experience and needs of the process, rather than expediency and other 
policy concerns as they are now. There now is no coherent set of 
procedural regulations and rules for the SSA appellate administrative 
process.
    SSA's many efforts to implement policy through OHA's adjudication 
function, only some of which are described below, reveal the nature of 
the change in the Social Security claims process the American public 
needs: Separation of OHA's appellate administrative adjudication 
function into an entity that is independent of the political policy 
making and implementation portions of SSA. An independent adjudication 
agency would provide members of the American public who file claims for 
Social Security Act entitlement program benefits that have been denied 
by the SSA timely adjudications that give due process and a sense of a 
timely and fair hearing free of policy implementation and political 
pressure.
    Examples of SSA's Policy Abuses of the OHA Adjudication Process: 
SSA has a long history of trying to use the adjudicatory function to 
implement policy, rather than just to decide cases on their merits, 
which undermines the ALJs' ability to provide the claimants with 
timely, impartial, high quality and fair adjudications of their claims. 
Examples of SSA's policy incursions into the ALJs' ability to timely 
and effectively hear and decide their cases and exercise their 
decisional independence, both before and since SSA became an 
independent agency in 1994, include:

    1. SSA's reorganization in 1999-2000 of OHA's entire hearings 
procedure with HPI without consulting with the ALJs, which includes, 
among many other things, a substantial reduction in the ALJs' role in 
the pre-hearing development of the case records and a reduction in the 
control by ALJs over their work product. As is stated above, the 
implementation of HPI, which was completed in November 2001, has 
resulted in an increase in the backlog of cases waiting to be heard and 
a lengthening of the time it takes to dispose of cases.
    2. SSA's attempt during the summer of 1999 to discharge the Chief 
Judge for reasons not related to good cause.
    3. The long term and ongoing ``non-acquiescence'' by SSA with 
decisions by the Federal Circuit Courts of Appeal. On January 31, 1997, 
the Commissioner of Social Security issued to the SSA Executive Staff a 
memorandum of law from the SSA Office of the General Counsel entitled 
Legal Foundations of the Duty of Impartiality in the Hearing Process 
and its Applicability to Administrative Law Judges (``Impartiality 
Memo''), which asserts the validity of its non-acquiescence policy as 
supreme over the ALJs' judicial independence in making decisions, among 
other things. pp. 4-5. SSA's ongoing ``non-acquiescence'' with 
decisions by the Federal Circuit Courts of Appeal. Non-acquiescence 
forces ALJs to chose between obeying SSA or following the law as 
interpreted by the Circuit Courts and risk the approbation of their 
employer. A bill was introduced in the 106th Congress to bar the SSA's 
non-acquiescence policy. That an act of Congress should be necessary to 
compel a federal agency to follow the law of the federal appellate 
courts is extraordinary.
    4. The current Quality Assurance Review program, with its abuse of 
the adjudicatory purpose of the Appeals Council by having it implement 
SSA policy by reviewing only fully favorable ALJ decisions on its own 
motion. The SSA Office of Quality Assurance and Performance Assessment, 
which is not part of OHA, periodically conducts an ALJ peer review 
process to, among other things, assess whether ALJs' decisions are 
supported by substantial evidence in the record, which is the standard 
of Appeals Council and judicial review of ALJ decisions. The most 
recent peer review resulted in a finding that 92% of the ALJ denial 
decisions were supported by substantial evidence, but only 83% of the 
fully favorable decisions were supported, the latter of which was an 
improvement over 79% in the prior evaluation. Findings of the 
Disability Hearings Quality Review Process: ALJ Peer Report III, pp. 
ix, 21-32. Although ALJs performed the review, it is interesting to 
note that denial decisions were found to be supported by substantial 
evidence significantly more often than were allowance decisions. This 
practice subjects the ALJs' favorable decisions to more scrutiny than 
unfavorable decisions, which works to the detriment of the claimants 
and undercuts the perception of fairness and impartiality of agency 
adjudication of administrative claims that the APA is intended to 
foster. This program clearly shows that the independent SSA believes 
that targeting only favorable decisions is permissible and now subjects 
all of its ALJs to such review. SSA's current Quality Assurance Review 
Program inherently is unfair and discourages the granting of benefits 
by ALJs.
    5. Statements by senior SSA management and a former SSA General 
Counsel that SSA is not required to hold hearings pursuant to the 
Administrative Procedure Act, notwithstanding that SSA's hearing 
process uses APA judges who by law can conduct only APA hearings. 
However, on January 9, 2001, the Commissioner of the SSA issued a 
statement that ``SSA always has supported the APA and is proud that the 
SSA hearing process has become the model under which all Federal 
agencies that hold hearings subject to the APA operate. SSA's hearing 
process provides the protections set forth in the APA, and SSA's 
Administrative Law Judges are appointed in compliance with the 
provisions of the APA.'' This is the first statement by a Commissioner 
regarding the APA and SSA hearings.
    6. Statements by senior SSA management and the SSA General Counsel 
in the Impartiality Memo that SSA has the power to discipline or remove 
ALJs by proceedings brought before the MSPB based upon a failure to 
decide a quota level of cases each month. pp. 7-21. This position is 
contrary to the APA, law set forth in Nash v. Bowen, agency policy 
stated in Social Security Commissioner Gwendolyn King's memorandum on 
the Temporary Suspension of Numeric Performance Goals (March 5, 1990), 
and the agreement in the Bono settlement. Nash v. Bowen, 869 F.2d 675 
(2nd Cir. 1989), cert. den., 493 U.S. 813, 110 S. Ct. 59, 107 L.Ed.2d 
27 (1989). The Impartiality Memo was an effort to find the outer limits 
of all of the ways and things for which ALJs may be disciplined, which 
demonstrates the SSA's desire to control the ALJs in the performance of 
their duties and hostility to the ALJs' independence in the 
adjudication of Social Security Act claims. It is also an effort to 
commingle the functions of a policy-making component (OGC) and an 
adjudication component (OHA), which clearly is contrary to the APA.
    7. The SSA's longstanding preoccupation with the production of 
decisions in quantity at the expense of quality. In SSA's Strategic 
Plan 2000-2005, SSA states that one of its strategic goals is to 
``deliver customer-responsive, world-class service,'' which includes 
``strategies specific to improving service to disability applicants:''

          Make changes to the hearings and appeals processes focused on 
        reducing processing time and improving efficiency. Hearing 
        process changes [HPI] include a national workflow model, group-
        based accountability and enhanced automation and data 
        collection. Appeals process changes [ACPI] include short-term 
        measures, such as case screening and expedited decisionmaking, 
        as well as long-range proposals, such as restructuring and IT 
        improvements designed to enhance service to the public by 
        improving the timeliness of case processing at the Appeals 
        Council.

pp. 23, 28. However, the quality of service is assessed mostly by 
statistical results: the percent of hearings decisions issued within 
180 days, percent of final actions on appeals of hearings decisions 
that are issued within 105 days, average processing times for hearings 
decisions and for decisions on appeals of hearings decisions, and 
number of hearings and appeals processed per employee work year. Also, 
the substantial evidence support rate is used to assess ALJ decisional 
accuracy ``pending development of a new accuracy indicator.'' Id., p. 
30. No measure of the quality of the Appeals Council decisions is 
mentioned in the Strategic Plan. SSA's disregard of quality has 
undermined the federal courts' respect for SSA ALJ decisions and 
resulted in a de facto  appellate standard of review that is 
unattainably high, rather than the substantial evidence rule that is 
supposed to be applied.
    9. The wholesale cessation of benefits of hundreds of thousands of 
recipients during 1980-1984 without the option to continue benefits 
pending appeal. Remedial legislation was necessary to end the practice.
    10. There were many incidents of SSA policy and management 
decisions during the 1980s to attempt to compel individual judges to 
reduce their allowance rate, to discipline or threaten to discipline 
ALJs for failure to meet production quotas, to control the content of 
ALJ decisions, to discourage the ALJs from using medical and vocational 
experts at their hearings, and to ignore SSA's own regulations 
regarding the sequential evaluation process to deny mental impairment 
disability claims, among other things. For example, the SSA's Bellmon 
Review Program in the early 1980s was a process by which SSA had the 
Appeals Council do ``own motion'' review of 25% to 100% of only the 
favorable decisions issued only by ALJs who the SSA had targeted as 
having high allowance rates of 70% or more. In 1983, the Subcommittee 
on Oversight of Government Management of the Senate Committee on 
Governmental Affairs held hearings on the ALJs' role in the Title II 
disability insurance program and issued a report that stated its 
findings of SSA's improprieties, including limits of ALJs' decisional 
independence, non-acquiescence, and increasing case quotas:

          The principal findings of the Subcommittee is that the SSA is 
        pressuring its ALJs to reduce the rate at which they allow 
        disabled persons to participate in the Social Security 
        Disability Program. . . . [The Subcommittee found that the SSA 
        was limiting the decisional independence of ALJs through its 
        Rulings, its non-acquiescence to federal court decisions, and 
        its increasing of case quotas that reduced the time an ALJ 
        could spend on each case to develop additional evidence that 
        may support an allowance decision, among other things.] The APA 
        mandates that the ALJ be an independent, impartial adjudicator 
        in the administrative process and in so doing separates the 
        adjudicative and prosecutorial functions of an agency. The ALJ 
        is the only impartial, independent adjudicator available to the 
        claimant in the administrative process, and the only person who 
        stand between the claimant and the whim of agency bias and 
        policy. If the ALJ is subordinated to the role of a mere 
        employee, an instrument and mouthpiece for the SSA, then we 
        will have returned to the days when the agency was both 
        prosecutor and judge.

Sen. Rep. No. 98-111 (September 16, 1983). The pitched battle that the 
SSA ALJs had to wage against SSA during the 1980s to preserve the 
independent decisionmaking and due process under the APA for Social 
Security claimants was such that, in 1986, the President of the 
American Bar Association presented the SSA ALJs with an award to 
recognize their efforts to preserve the hearing process. The award 
states ``[t]hat the American Bar Association hereby commends the Social 
Security Administrative Law Judge Corps for its outstanding efforts 
during the period from 1982-1984 to protect the integrity of 
administrative adjudication within their agency, to preserve the public 
confidence in the fairness of governmental institutions and uphold the 
rule of law.''

D. Other Federal Government Entities Have Recognized the Need for 
        Fundamental Reform of the Final Administrative Hearing and 
        Decision Process of the Social Security Administration
    The federal government entities that have considered the Social 
Security claims process all have concluded that substantial reform is 
necessary, especially with the Appeals Council, including the 
Administrative Conference of the United States (``ACUS''), the Judicial 
Conference of the United States (``Judicial Conference''), and the 
Social Security Advisory Board (``SSAB''). However, each adopts a 
different idea of how to go about reforming the Social Security process 
and none present details of how to implement the ideas. It is time to 
form a consensus around one idea that will work in its execution so 
that legislation can become a reality.
    In 1987, ACUS issued a set of recommendations for improving the 
functioning of the Appeals Council, including reorganization, caseload 
control and the quality of the review of cases. ACUS concluded its 
recommendation by stating that ``[i]f the reconstituted Appeals Council 
does not result in improved policy development or case-handling 
performance within a certain number of years (to be determined by 
Congress and SSA), serious consideration should be given to abolishing 
it.'' ACUS, A New Role for the Social Security Appeals Council, 
Recommendation 87-7 (December 18, 1987).
    In 1990, the Federal Courts Study Committee, which was an 
independent review committee that was formed by Congress in 1988 to 
study and report on certain federal courts matters and that included 
Members of Congress and the federal judiciary, issued a minority 
recommendation in its final report that the Appeals Council be 
abolished and replaced with a Social Security Benefits Review Board 
with no further review of the ALJs' decisions by the SSA. Report of the 
Federal Courts Study Committee, pp. 58-59 (1990).
    The Judicial Conference of the United States (``Judicial 
Conference'') recently has advocated legislation to strengthen the 
Social Security disability claim adjudication process by establishing a 
new alternative mechanism for the administrative review of ALJ 
decisions to replace the Appeals Council. Recommendation 9 and 
Implementation Strategy 9a in the Judicial Conference Long Range Plan 
for the Federal Courts, p. 33  (1995). The commentary supporting this 
recommendation and strategy states that its purpose is to expand and 
improve the speed, accuracy and completeness of the administrative 
review process so that the frequency of the need to resort to judicial 
review of such claims is reduced. The 1990 proposal by the Federal 
Courts Study Committee for a Benefits Review Board was cited as an 
example of legislation that Congress may enact to improve the 
administrative review of Social Security Act disability claims. Long 
Range Plan, p. 33.
    The SSAB makes a very strong case in favor of making fundamental 
changes at the SSA OHA, the concept of which was carried over into the 
title of its most recent report on the topic, but it does not present 
any specific recommendations or options for structural reform of the 
ALJ hearing process or Appeals Council process to engender a higher 
quality or faster handling of the caseload. ``Charting the Future of 
Social Security's Disability Programs: The Need for Fundamental 
Change''  (January 2001) (the ``SSAB Report''). The SSAB Report does 
make the point that many support making the individual ALJ decision the 
final decision of the SSA, which would eliminate the Appeals Council 
bottle neck. However, the SSAB Report also correctly points out the 
impracticality of taking this step, since the SSA has shown by testing 
that this would result in a large increase of court appeals.
    Although the SSAB Report also correctly states that the Appeals 
Council model needs to be changed, its suggestion that another small 
body be substituted for the Appeals Council, namely a Review Board, 
which will have the same quality and timeliness issues as the Appeals 
Council, will not be an improvement. No small body of less than 30 
people, such as the Appeals Council or a Board or Commission, 
effectively can handle the caseload, which now is over 115,000 cases 
per year.
    The use of panels of ALJs as the final administrative step, instead 
of the Appeals Council, likely will have the same impact as the use of 
Bankruptcy Judge panels in lieu of District Court review: faster and 
higher quality decisions that are appealed less often and, when they 
are appealed, affirmed more often. The relatively high number of SSA 
ALJs, now about 1,000, provides a large pool of locally available 
adjudicators who are available for such work.
    The AALJ proposal for a new adjudication agency is a detailed and 
practical blueprint to improve the Social Security disability process. 
The AALJ proposal would improve the timeliness and quality of ALJ and 
final administrative review decisions which, at the same time, likely 
will reduce the claimant's need to resort to federal court review and 
thus reduce the federal court Social Security caseload. The process 
AALJ is proposing is realistic in terms of handling the large caseload, 
which I respectfully submit is not the case for the other proposals in 
this area. All of the agencies correctly recognize the need for change, 
but rely on the creation of small bodies, such as a Board, that would 
suffer from the same problems of low decision quality and untimely 
action as the SSA Appeals Council, another small body, has had for 
years.

III. AN ALJ-ADMINISTERED INDEPENDENT AGENCY PROPOSAL FOR THE FINAL 
        ADMINISTRATIVE ADJUDICATION OF SOCIAL SECURITY ACT CLAIMS
    Independent Agency within SSA; Agency Name: AALJ recommends the 
creation of a new ALJ-administered independent adjudication agency for 
Social Security Act claims that would provide a hearing before an ALJ 
with a right of appeal from the individual ALJ's decision to an 
appellate panel staffed by ALJs. This agency may be called the United 
States Office of Hearings and Appeals (``USOHA''). The remainder of 
this section states in detail the proposals for the features of the 
USOHA.
    The USOHA would be within the SSA for logistical reasons, but its 
officers and employees will not be supervised by any other part of SSA. 
The USOHA will be accountable only to Congress and the President. 
Placing the USOHA within SSA results in no new costs for office space 
and information systems and is a practical necessity, given the USOHA's 
substantial space needs that currently are in place at SSA, the need to 
share the SSA's information services and data bases, and the need to 
use the same case files.
    An Article I or Article II court model cannot be used as the format 
for an Executive Branch agency that performs only an adjudicative 
function and continues to have the agency's appellate administrative 
adjudications performed pursuant to 5 U.S.C. Sec. Sec. 551 et seq. of 
the Administrative Procedure Act (``APA'') by APA administrative law 
judges. The APA provides that, for its purposes, ``agency'' means 
``each authority of the Government of the United States, whether or not 
it is within or subject to review by another agency, but does not 
include . . . (B) the courts of the United States . . .'' 5 U.S.C. 
Sec. 551(1) (section 2(a) of the original statute). The APA definition 
of ``agency'' apparently excludes not only all Article III courts and 
Article I tribunals in the Judicial Branch, but also all Executive 
Branch Article I tribunals that perform judicial review of final 
administrative agency adjudications and Executive Branch Article II 
tribunals that review initial administrative agency adjudications but 
are labeled ``courts'' by Congress.
    The Attorney General's Manual on the Administrative Procedure Act 
(the ``Manual'') includes two Article I courts in the Judicial Branch 
and an Article II Executive Branch court as specific examples of 
Congress' exclusion of APA application to ``the courts of the United 
States: ``The Administrative Procedure Act applies to every authority 
of the Government of the United States other than Congress, the courts, 
the governments of the possessions, Territories, and the District of 
Columbia (sec. 2(a)). The term ``courts'' is not limited to 
constitutional courts, but includes the Tax Court, the Court of Customs 
and Patent Appeals, the Court of Claims, and similar courts.'' U.S. 
Justice Dept., Attorney General's Manual on the Administrative 
Procedure Act, p. 10 (1947), citing, S. Rep. No. 752, 79th Cong., 1st 
Sess., p. 38 (1945) (the Appendix to Attorney General's Statement 
Regarding Revised Committee Print of October 5, 1945).
    The Tax Court was functioning as an Article II ``board model'' 
independent agency in the Executive Branch that was doing appellate 
administrative review of initial decisions by the IRS, not judicial 
review of final agency decisions, at the time that the Attorney General 
stated that it was excluded from APA coverage because it is called a 
court. Thus, bearing the label ``court'' is enough to exclude an 
Article II independent adjudication agency from APA coverage. Also, 
Executive Branch Article I tribunals that review final administrative 
agency adjudications, such as the Court of Customs and Patent Appeals 
and the Court of Claims were when the Manual was written, are excluded 
from APA coverage.
    Exclusive Jurisdiction over Final Decisions of Social Security Act 
Claims Vested in the USOHA; Permissive Jurisdiction over other Classes 
of Cases: The USOHA would have the exclusive jurisdiction to make the 
final administrative decisions of Social Security Act Title II and XVI 
claims. The USOHA will have permissive jurisdiction over other classes 
of cases, so it may hear and decide Medicare cases under Social 
Security Act Title XVIII, including those that currently are heard by 
SSA ALJs, and other classes of cases such as those that the SSA ALJs 
have heard in the past, which have included Black Lung and FDIC cases.
    Abolishment of the Final Administrative Adjudication Authority the 
SSA Including the Appeals Council: The final administrative 
adjudication authority of SSA would be abolished, including the Appeals 
Council. The Commissioner of SSA, who sets and implements the policy 
standards for entitlement to Social Security Act benefits, will 
continue to have the power to make only initial decisions on Social 
Security Act claims. However, the Commissioner of SSA will retain all 
authority for all of the policy-making, policy-implementation, 
rulemaking, investigation, and prosecutorial functions vested in the 
SSA by law.
    Final Administrative Appellate Review by the USOHA: Individual 
ALJs' decisions would be appealed to appellate panels staffed by ALJs, 
each of which would consist of three ALJs who would review the cases 
locally. The appellate panel step would be the final and exclusive 
level of administrative appellate review. The USOHA would establish a 
Social Security Appellate Panel Service in each region composed only of 
ALJs from the hearing offices in each region. A sufficient number of 
appellate panels would be designated so that appeals may be heard and 
disposed of expeditiously. An ALJ may not hear an appeal of a case from 
his/her own hearing office.
    The appellate panels would be akin to the Bankruptcy Court 
appellate panels and is one of the key features that makes the ALJ 
self-administration model superior to the current SSA Appeals Council 
model or a Commission or Board model, all of which are small bodies 
that cannot timely and effectively handle a heavy caseload. Based upon 
the Bankruptcy Court experience, the appellate panel model (1) is an 
appellate system that can handle a large caseload, (2) results in a 
shorter disposition time because the large pool of about 1,000 ALJs 
throughout the United States permits the timely determination of 
appeals that cannot take place with a small body such as the Appeals 
Council or a Commission or Board, (3) results in higher quality 
decisions because of expertise, (4) results in substantially fewer 
appeals to the courts and a substantially lower reversal rate by the 
courts because of the confidence in the high quality of the decisions, 
which reflects a higher degree of decision accuracy, (5) results in a 
substantially reduced federal court caseload, and (6) affords the 
claimants access to a local administrative appellate process.
    Judicial Review: The final decisions of the USOHA that are made by 
its appellate panels would be appealed only to the federal courts, with 
the District Courts as the first step in the judicial review. A 
District Court appeal step is essential for several reasons: (1) The 
huge size of the Social Security appellate caseload would overwhelm the 
Circuit Courts if the District Court step is removed. An Article I 
court as a substitute for the District Courts would suffer from the 
same problems of being too small to effectively handle the case load 
that the Appeals Council does. (2) Retaining District Court judicial 
review keeps local decisional generalists in the appeals chain who are 
sensitive to due process concerns, including adherence to the 
Administrative Procedure Act. (3) Social Security claimants have come 
to rely on the availability of the District Courts as a part of the 
judicial review due process. (4) Congress has a demonstrated preference 
for local control and decisionmaking with Social Security programs. (5) 
It is desirable to retain local access to the judicial review process 
for the often indigent Social Security claimants.
    Regarding judicial review at the District Court level, the SSAB did 
not make a convincing case in its SSAB Report for its suggestion that 
there is a need to replace the District Court with an Article I court. 
The pressing issue is to improve the final administrative adjudication 
process so that fewer claimants feel a need to resort to judicial 
review. This will result in fewer appeals to the courts. Also, as is 
stated above, there are several practical reasons to maintain the 
District Court appeal step for the claimants. These include the massive 
Social Security appellate caseload, which would overwhelm an Article I 
court of the small size typically created by Congress and result in the 
same quality and timeliness issues that have plagued the Appeals 
Council, another small body with an unmanageable caseload.
    As of September 30, 1999, and September 30, 2000, the numbers of 
Social Security cases filed in the District Courts throughout the 
country during the preceding year were 13,320 and 15,829, respectively. 
Title II and Title XVI claims made up 99% of the cases in both 1999 and 
2000. As of September 30, 1999, and September 30, 2000, the numbers of 
all civil cases filed in the District Courts throughout the country 
during the preceding year were 260,271 and 259,517, respectively. 
Judicial Business of the United States Courts: 1999 and 2000 Annual 
Reports of the Director, Tables S-7, S-9. Article I courts are small 
courts. The U.S. Court of Federal Claims has 16 judges, the U.S. Tax 
Court has 19 judges, and the U.S. Court of Appeals for Veterans Claims 
has 7 judges. As of October 1, 1999, there were 600 active and 334 
senior District Court Judges, for a total of 934 Judges. As of February 
1, 2001, there were 599 active and 342 senior District Court Judges, 
for a total of 941 Judges. Administrative Offices of the U.S. Courts, 
Statistical Report for Justices and Judges of the United States, 
October 1, 1999, and February 1, 2001. These numbers suggest that an 
Article I Social Security Court would require at least 50 to 75 judges 
to handle the caseload in a timely and high quality manner.
    The appeals from the District Courts will remain with the regional 
Circuit Courts of Appeal, as they do now, rather than go only to the 
D.C. Circuit or the Federal Circuit. Even with District Court review, 
placing all of the Social Security Circuit-level appeals in either of 
these courts would increase their workload by over 50%. The SSAB's 
suggestion of a specialized Social Security Court of Appeals in its 
SSAB Report superficially may sound attractive as a device to have one 
national interpretation of the Social Security Act. However, the SSAB 
does not demonstrate a strong need for such a specialized court. First, 
as SSAB points out, the Supreme Court already serves the function of 
providing a national interpretation of the Social Security Act, and 
having the regional circuits address the issues allows for legal debate 
that would otherwise not occur. Second, continuing to have the appeals 
go to the regional Circuits allows somewhat local access to the 
claimants. This is the same procedure as for appeals from both 
Bankruptcy Court decisions after District Court review and Tax Court 
decisions, which are appealed to the regional Circuits, which makes 
sense since they also serve individual claimants throughout the country 
who often have limited means. (Although the Tax Court is based in 
Washington, D.C., it sits throughout the country.) Regional circuit 
review has worked for tax and bankruptcy cases, despite the obviously 
strong argument that a single standard for construing the tax and 
bankruptcy laws is desirable so that they are applied the same to 
everyone. Finally, the regional circuits are not being overrun with 
Social Security cases. During the years that ended on September 30, 
1999, and September 30, 2000, only 891 and 845 Social Security cases 
respectively were filed with the regional Circuit Courts of Appeals. 
Judicial Business, 1999 and 2000 Reports, Table B-1A. This is less than 
two percent of the 54,693 cases that were filed in 1999 and 54,697 
cases filed in 2000 in the regional Circuit Courts. Judicial Business, 
1999 and 2000 Reports, Table B.
    No substantive changes in the process of judicial review after the 
final administrative decision are recommended by AALJ, other than to 
amend the Social Security Act to reflect that judicial review will be 
from the final decisions of the new agency, not the SSA. Our 
recommendations pertain only to the appellate administrative 
adjudication process that results in a final administrative decision of 
the claimants' entitlement to Social Security benefits, since that is 
where the problems lie.
    Appointment and Duties of the USOHA Chief Administrative Law Judge, 
Principal Deputy Chief Judge, and Deputy Chief Judges: A Chief 
Administrative Law Judge (``Chief Judge'') would be appointed from the 
ranks of the ALJs by the President, with the advice and consent of the 
Senate. The Chief Judge would be responsible for the administrative 
operations of the USOHA. A Principal Deputy Chief Judge, who would have 
the authority to act in the stead of the Chief Judge, also would be 
appointed from the ranks of the ALJs by the President, with the advice 
and consent of the Senate. The Chief Judge would recommend a candidate 
for Principal Deputy Chief Judge as a Schedule C appointment to the 
President. The Chief Judge would appoint five Deputy Chief Judges from 
the ranks of the ALJs. The Principal Deputy Chief Judge and five Deputy 
Chief Judges would perform duties and exercise powers assigned or 
delegated by the Chief Judge to assist the Chief Judge in administering 
the USOHA. The Chief Judge, Principal Deputy Chief Judge, and the 
Deputy Chief Judges all would be appointed for a six year term that is 
renewable once.
    Centralized Administration of USOHA; Abolishment of the Ten SSA OHA 
Regional Offices and Position of Regional Chief Administrative Law 
Judge: The Chief Judge, Principal Deputy Chief Judge, and Deputy Chief 
Judges would administer the USOHA from a single national headquarters. 
The ten OHA regional offices and the position of Regional Chief Judge 
would be abolished so that only one set of support staff and 
administrative offices, instead of 11, will exist. A centralized 
structure also will eliminate inconsistencies in administration and 
carrying out policy, which has been a problem with the OHA regional 
offices. Also, having one central office will create a more efficient 
organization, in view of instant modern electronic communications.
    Cost Savings from Abolishment of SSA OHA Appeals Council and OHA 
Regional Offices: A substantial amount of funds would be saved annually 
by the abolishment of the Appeals Council and the ten OHA regional 
offices, which appears to be on the order of in excess of $75,000,000. 
The appellate panel work would increase the workload of the ALJs and 
thus additional ALJs likely will be required and additional travel and 
other administrative costs incurred. However, given the elimination of 
the Appeals Council, with its staff of 27 Administrative Appeals Judges 
and over 800 support personnel and substantial facilities in the OHA 
headquarters, the costs for the appellate panels, which can meet in 
already established local facilities, likely will be less than the cost 
of the Appeals Council. The SSA Fiscal Year 2000 Performance and 
Accountability Report reflects that the cost of the Appeals Council 
process apparently was $64,671,200 in FY 2000. Thus, unlike the 
Bankruptcy Court Appellate Panel Service, which was a new creation in 
addition to the District Court review step that already was available, 
a Social Security Appellate Panel Service would replace a failed 
appellate review step that already exists and is funded. The staff and 
facilities for the ten OHA regional offices were estimated to cost 
about $13,000,000 annually in 1993 by the Congressional Budget Office, 
which likely is a greater figure now.
    Maintenance of Field Offices: The USOHA will maintain a sufficient 
number of local permanent field offices throughout the United States to 
conduct its business, including all of the field offices of the SSA 
OHA.
    Rulemaking Authority: The USOHA would have the exclusive power to 
set its own rules of practice and procedure and such other regulations 
as it deems necessary or appropriate to carry out its functions, which 
will be promulgated pursuant to 5 U.S.C. Sec. 553 of the Administrative 
Procedure Act.
    Administrative Budget Mechanics: The USOHA Chief Judge would 
prepare an annual budget for the USOHA, which would be submitted by the 
President to the Congress without revision, together with the 
President's annual budget for the USA. The USOHA would include in the 
annual budget an itemization of the amount of funds required by the 
USOHA for the fiscal year covered by the budget to support efforts to 
combat fraud committed by applicants and beneficiaries. Appropriations 
requests for staffing and personnel of the USOHA would be based upon a 
comprehensive work force plan, which shall be established and revised 
from time to time by the Chief Judge. Appropriations for administrative 
expenses of the USOHA should be authorized to be provided on a biennial 
basis.
    The degree of independence that an agency has is affected by the 
degree of control that it has in preparing and submitting its budget 
requests to Congress. Budget requests usually are changed by the Office 
of Management and Budget (``OMB''), but Congress can permit agencies to 
submit their budgets without revision, so that the Appropriations 
Committees can compare the agency budget with the OMB revisions.
    Administrative Budget Levels: The USOHA's administrative budget for 
the Title II Social Security program (the old age, survivors and 
disability insurance programs), which is paid out of the Social 
Security Trust Funds, expressly must be excluded from the statutory 
discretionary spending caps in order for it to provide high quality 
service to the public. The SSI administrative budget must be treated 
separately because it is paid out of general revenues, rather than the 
Social Security Trust Funds. However, the SSI administrative budget 
also expressly must set in reference only to the USOHA's workforce, 
office space and other resource needs, not discretionary spending caps 
or other artificial spending limits, in order for it to provide high 
quality service to the public.
    Direct Transmittals to Congress: The USOHA would annually transmit 
to the Congress and the President a report and recommendations on its 
activities. The USOHA would transmit to Congress and the President 
copies of budget estimates, requests (including personnel needs), 
information, legislative recommendations, prepared testimony for 
congressional hearings, and comments on legislation. An officer of an 
agency, including the OMB, may not impose conditions on or impair 
communications by the USOHA with Congress, or a committee of Member of 
Congress, about the information. The degree of independence that an 
agency has is affected by whether it must clear its communications and 
information that it wishes to submit to Congress with OMB before doing 
so.
    Transfer Mechanics: In order to effect the transfer of functions 
from the SSA OHA to the USOHA, all of the components of the SSA OHA 
that are necessary to effect the adjudication of the appeals of all 
Social Security Act claims after denial by the SSA must be transferred 
to the USOHA. The components of OHA that perform policy, rulemaking, 
investigational and/or prosecutorial functions will remain with SSA. 
The personnel transfers may be permissive in that the USOHA may be 
permitted to choose who from SSA OHA that it wants to hire and/or SSA 
OHA employees may be given the option to stay with SSA OHA. However, 
all of the SSA ALJs must be transferred to the USOHA. The SSA 
administrative budget for the current fiscal year and physical plant of 
the adjudicative portions of SSA OHA, including necessary support 
operations, must be transferred to the USOHA.
[GRAPHIC] [TIFF OMITTED] T4854C.001

                               <F-dash> 


    Chairman Shaw.  Thank you, Judge.
    Mr. Brady.
    Mr. Brady.  Thank you, Mr. Chairman.
    One of the questions that Members of Congress are 
frequently asked in our town hall meetings is, Is there 
anything that you all agree on up there? This is a common 
question. So let me ask the same question of this panel. Is 
there anything that you all agree on that we can take steps on 
for improvement?
    We have heard from six very smart people with about 60 
different ideas for improvement. Are there one or two that are 
the highest priority that you can all agree on?
    Mr. Korn.  I think the one area that is obviously the most 
difficult to deal with is the resource issue. I do not think 
anyone on this panel would tell you that, while we all have 
different ideas about things that can be done to fix the 
system, and certainly, I think we all agree that it does need 
fixing, none of them by themselves will be a magic bullet. And 
quite honestly, regardless of how we restructure disability, 
whether it is setting up a different structure in OHA, in the 
Appeals Council, what the Federal-State relationship is, when 
you look at the net effects of those things, it still does not 
change the fact that we have backlogs that are going to take 
people to adjudicate, and we have a huge increase in people 
coming. I think it would be a mistake to take away that 
message, because--and again, everyone can speak for himself--
but I think all six of us would tell you that these problems at 
some point, regardless of how we restructure, will take a 
significant infusion of resources. Granted you want something 
for those resources, and that is obviously going to have to be 
part of the process.
    Mr. Brady.  I understand. But I think that obviously, 
pouring more water into a leaky bucket does not necessarily 
accomplish what we want to accomplish. So in addition to that, 
which is a good point, is there any other area--and there is 
even disagreement about more people, more information 
technology, more computer help, more integrated resources.
    Yes?
    Mr. Willman.  I think we agree on three things--first, what 
has already been said, that more resources are necessary; 
second, I think we all agree that we just have to do better. 
The world is changing, and the program has not changed enough 
with it over the course of the past couple of decades. We need 
to do better. I think all of us represent organizations or 
people who are sincerely interested in improving service to the 
public and will work hard to do it. And third, I think and I 
hope that we all agree that each component might have to give 
up something in order to form a program that is going to work 
better for the entire public, so we need to be open-minded to 
dissolving the lines and the barriers that have traditionally 
differentiated us. And I think I have heard that all of us 
would agree with that.
    Mr. Brady.  Does any other panel member want to respond?
    Mr. Bernoski.  I think we also all agree, too, that the HPI 
program is a failure, as Chairman Ross indicated, and that the 
Social Security Administration should immediately address that 
issue, because if the case backlog keeps growing, as Jim Hill 
indicated, and if the downturn in the economy leads to 
increased filings as has happened in the past, we are going to 
have serious problems in the not-too-distant future.
    Mr. Skwierczynski.  I think one area of agreement could be 
that--we all represent different constituencies of individuals 
who work either for Social Security or for the DDSs, and 
oftentimes, top management of the agency does not include us in 
the planning and decisionmaking process and to provide our 
expertise as to what is happening with the disability program.
    I heard today Mr. Massanari was complimented for setting up 
a bunch of work groups that are going to report to the new 
Commissioner about changes that need to be made in the 
disability program. Well, he certainly did not invite me or the 
union to participate in that process.
    So I think it is important--and when you are not inviting 
the union, you are not inviting the frontline employees, who 
know best how to do the work, to provide their expertise and 
knowledge about the problems that exist and recommendations on 
how it can improve. So on that area, I suspect we would all 
agree that we ought to be involved in the dialog.
    Mr. Brady.  I am shocked that union would criticize 
management on these kinds of things, but I appreciate the 
point.
    [Laughter.]
    Are there any other thoughts from panel members?
    Mr. Hill.  Yes. I would like to second a couple things that 
were said. I think the comment that Witold just made about not 
including the people on the front lines, whether they be union 
members or whether they simply be people on the front lines, in 
the planning stages of some of these experiments, which is what 
they turn out to be, has caused a lot of trouble.
    And the HPI--and of course, we are from OHA and have very 
little to do with DDS and what goes on there--but Judge 
Bernoski mentioned that the judges were not consulted. Nobody 
else was, either, in the hearing office. It was a proposal that 
came from on high, and this is what happens when you do that.
    So I think we agree that the agency itself has to involve 
its frontline employees at the initial levels where we can tell 
them, ``No, that is not going to work.''
    Mr. Brady.  So additional resources; doing better by giving 
something up, or everyone giving up a little; HPI as a failure; 
and more input, especially from front line people, are all 
areas where there is common agreement.
    Finally, let me ask you this--and I am way over my time 
already--I am surprised that we have not heard about the need 
for better information. It seems to me that in the initial 
examination, there are a number of cases that go through and 
are basically denied or not approved and later on turn out to 
be cases with merit. It seems to me there must be a lack of 
information at that point for an examiner to make the right 
decision. The administrative law judges tell us privately that 
one of the reasons for the nearly year-long delay is that there 
is not enough information in that case to be making a judgment 
at a time when, again, there are fewer and fewer cases where a 
medical provider says ``Yes, you are disabled,'' and more and 
more cases where a vocational counselor is saying ``They are 
disabled if . . .,'' or ``They can work under this situation.''
    I would think that information is one area, from a common 
denominator standpoint, that is needed to make these cases 
accurate in the future.
    Are there any comments on that?
    Mr. Skwierczynski.  I think the Subcommittee should 
question--when SSA gives you statistical data, you should 
question it. I will give you a case-in-point which is a little 
different from what you were saying, Congressman. When the 
agency measures processing time on a disability case, included 
in that measure is a bunch of claims that are taken which I 
would think would be unnecessary. If somebody comes in and is 
clearly not eligible, some managers encourage that we take 
those claims basically to buildup their productivity and cut 
the processing time. So when you are looking at processing time 
statistics, you are looking at quick, 1-day cases where people 
are clearly ineligible and should have never filed in the first 
place.
    So when you look at statistical data, you ought to ask a 
lot of questions about what it is actually measuring.
    Mr. Brady.  Thank you. I appreciate the input. Thank you, 
Mr. Chairman, very much.
    Chairman Shaw.  Mr. Hulshof.
    Mr. Hulshof.  Thank you, Mr. Chairman.
    For the benefit of everyone else, the Chairman held a 
congressional field hearing in my district of Columbia, 
Missouri on the University of Missouri campus where we talked 
about the long-term solvency of Social Security. We were not 
pursuing any particular solution, but it was a very interactive 
hearing. In fact, we had people just like yourselves at tables, 
and at the conclusion of our presentation, we had them get 
together and try to formulate some sort of an end-game result 
so we could have long-term solvency of Social Security.
    Perhaps, Mr. Chairman, we should lock these people in a 
room and not let them out until they resolve these matters.
    [Laughter.]
    Mr. Hulshof. We welcome you. Judge, since I sort of invoked 
your name, hopefully not in vain, with the previous witnesses, 
let me ask you for a quick comment on the suggestion Mr. Ross 
made about having the agency represented before you. Is that a 
good idea, bad idea?
    Mr. Bernoski.  Yes, Mr. Hulshof----
    Mr. Hulshof.  I am sorry. That was a bad question--a good 
idea? Is that a good idea, or is that a bad idea?
    Mr. Bernoski.  It is a good idea.
    Mr. Hulshof.  OK. Why is it a good idea?
    Mr. Bernoski.  It is a good idea for the reasons that 
Chairman Ross indicated. These cases are becoming more complex. 
More claimants are being represented at the hearing. Also, the 
traditional role of the Social Security administrative law 
judge, as Mr. Ross indicated, is to wear the so-called three 
hats. You have to make sure that the Government's evidence is 
in the case; you have to make sure that the claimant's evidence 
is in the case; then, you have to make a decision on the 
record, plus you have to be very careful, as I think you raised 
in the question before, that you do not get into the posture 
where it looks like you are tipping to one side or the other in 
the form of the judge's questions.
    So it puts the judge in a very difficult situation, and you 
do not get as good a quality of evidence as when both of the 
adversaries appear. The attorneys or representatives bring the 
evidence that they have available to them before the judge for 
the decision. It would be a much better process.
    Mr. Hulshof.  I appreciate that.
    Let me go to Mr. Skwierczynski. Welcome back before us. We 
have had occasion to hear you in prior Congresses, and it is 
great to have you again.
    Mr. Skwierczynski.  Thank you.
    Mr. Hulshof.  Let me make sure that I understand, because I 
have gone through your testimony. Do you agree or disagree with 
SSA management's attempts to make operations more efficient 
using information technology?
    Mr. Skwierczynski.  Certainly, efficiency is laudable. If 
you are referring to the claims on the Internet, which I 
address in my written testimony, not in my oral, but we have 
some serious concerns about the quality of work that our 
employees are telling us they are seeing with regard to the 
retirement and survivors insurance (RSI) claims on the 
Internet. I have had a number of reports where individuals have 
said they have questioned further individuals who submitted 
claims to the Internet and found out, with some digging, that 
there were individuals who were entitled on the record but were 
not listed on the form; that there were wages that they had 
earned in the past that were not listed in their earnings 
record which, if they had not done the digging, they would have 
had a reduced monthly benefit.
    I think that when you are asking basically the claimant, 
without any intervention of a trained interviewer, to file a 
claim, you are going to see those kinds of problems. Much of 
the RSI system is automated. Their earnings records are on the 
record, and a lot of claims can go pretty quickly. Disability, 
as has been noted here, is a little different. There is a lot 
of subjective decision making, and there is a lot of 
information regarding a medical condition that you require to 
make a decision.
    We are already being criticized by the States for producing 
a poor product. The agency, because of staffing constraints, is 
taking about half of the disability claims over the phone. We 
rely on self-help. Send the claimant a form, they fill it out, 
we accept it, send it to the State without a lot of review. 
Those kinds of measures result in a poor product, and if you 
have no intervention at all with people who are not familiar 
with the form and the kind of information that is needed on it, 
you are looking at problems.
    So what I was trying to say in my written testimony was 
take a step back before you automate the disability process and 
look at what is happening with the RSI process, do some study 
and close analysis, and if there are errors and mistakes in it, 
fix it first before you go to disability.
    Mr. Hulshof.  I appreciate your response, and I want to let 
you respond fully. I think that that is an interesting 
perspective in that the Internal Revenue Service is encouraging 
more income tax filers to file electronically so that it would 
in fact result in fewer mistakes. Now, I do take your point 
that there are some subjective measures as far as disability is 
concerned, but I think the complexity is equal.
    If the Chairman would permit me, because of the Ticket to 
Work issue being so important, again, just to make sure I am 
not misreading your testimony, the $23 million that we have 
allocated, you talk about the Employment Support 
Representative, the ESR, and yet the concern about the funding 
and that the $23 million that was allocated has been 
primarily--or it has all been allocated, I think, according to 
your testimony--toward grants and cooperative agreements for 
private agencies and not-for-profit organizations. Do you 
oppose private agencies and not-for-profit organizations 
providing assistance to disabled beneficiaries from returning 
to work?
    Mr. Skwierczynski.  No, we are not opposed to that. We 
think that the vocational rehab system that has existed in the 
past has not worked and that the action of your Committee and 
Congress to look at alternatives was a good idea. But 
unfortunately, the agency took the entire appropriation and 
used it for that.
    The Employment Support Specialist, who is the Federal 
employee who is the outreach into the community, is attempting 
to sell the concept of Ticket to Work and also, in order to get 
a ticket, you have to have a continuing disability review, or 
CDR, investigation to even be eligible for the ticket. You need 
staff to do that.
    What the agency did was take 32 existing staff and start 
the pilot. The results are good. They are talking about 
expanding it to 100. Now, we have 1,300 offices in the country; 
100 is not going to do the trick. If you want a successful 
program, you want good outreach, you want the work that is 
necessary in terms of doing the CDRs in order to get 
eligibility for a ticket, you need to have this program across 
the board. Now, the agency legitimately is afraid that shifting 
people from one task to another is going to hurt the task, so 
my testimony is that if you are committed to the program, which 
you seem to be, provide the resources so that it can work.
    Mr. Hulshof.  Thanks. Thank you, Mr. Chairman.
    Chairman Shaw.  Mr. Ryan.
    Mr. Ryan.  Thank you, Mr. Chairman.
    I appreciate the panel's testimony. It was very 
interesting. I would like to ask the panel to focus on the 
backlog issue. That is really something that we are all very 
concerned about.
    Mr. Hill, in particular I was intrigued by your comments. 
You believe that there is more or less a time-tested solution 
that you identified through the Senior Attorney program to get 
at that. What do you think of Judge Bernoski's proposal? I 
would be interested in your impression of that proposal.
    It is nice to hear people coming in with different ideas on 
how to attack the backlog. And then, Judge, I would like to 
hear what your thoughts are on the Senior Attorney program as 
well.
    Mr. Hill.
    Mr. Hill.  When you are talking about whether there should 
be an independent ALJ agency, I have some reservations about 
that. I think that further bifurcating how the disability 
program is administered and in the end, taking the decision out 
of the hands of the agency is probably not a way that I would 
like to go.
    On the other hand, I strongly support--I was on the work 
group with the Lewin report--adversarial type hearings. I think 
that report said that there had been no examples of a 
successful system the way that ours was operated. And I think 
that with the great influx of cases and the expertise that the 
claimants' bar is now bringing, it does place a considerable 
burden on the ALJ, and I think that we need to take a good, 
hard look at that.
    Chairman Shaw.  Would the gentleman yield on that, please?
    Mr. Ryan.  Certainly.
    Chairman Shaw.  I am a little curious as to what that would 
do to the backlog situation. I think that would probably 
increase it substantially. Maybe Judge Bernoski could comment 
on that--to turn this into a fully adversarial situation.
    Mr. Bernoski.  I think that if you turned our hearings into 
an adversarial proceedings, the program would also have to 
encompass a concept or a procedure for bargaining out or 
settling cases, like in the civil court system.
    One problem that we have in Social Security is that every 
case is tried, and we all know what that would do to the 
criminal system, it would paralyze it. But that is the way it 
is here, we try every case except those where the claimant 
withdraws the claim. In some situations the administrative law 
judge may suggest a ``closed period,'' but that is a rare 
situation.
    So if we are going to have an adversarial process, I 
believe it would have to have that component in it, where the 
attorneys could come to some type of resolution of the case, 
like they do in other court proceedings, and settle some of the 
claims before they go to full hearing.
    Chairman Shaw.  Thank you.
    Mr. Ryan.
    Mr. Ryan.  Judge, since the mike is in front of you, could 
you give me your comments and your opinion of the former Senior 
Attorney program?
    Mr. Bernoski.  Yes. Our association has taken the position 
that we have not been in favor of the Senior Attorney program. 
We have felt that there were resources that were not being 
efficiently utilized in the program to the extent that the 
attorney's primary function was to review the case files and 
look for favorable cases where a decision could be written and 
the claim paid. So in all the cases that they go through where 
there is not a determination that the case can be paid the time 
is lost to the extent that the case is put aside, and it is 
placed back in the system and it has to go through the whole 
process.
    So it is not cost-effective from a manpower standpoint. We 
have felt that the system would be more efficient if the 
attorney, when he/she would go through the file, would make 
some notes in the file such as: ``I have gone through the file, 
and I found these problems, and this should be done,'' so that 
the next person who looked at the file could build on that 
expertise. These are very talented people, the Senior 
Attorneys, they know the program, and they could add a lot to 
the file under those circumstances.
    Mr. Ryan.  So maybe a modification of the program as you 
just described would be in order. I kind of suspected that the 
two of you might have had those positions.
    Judge, I am interested in your program for a separate ALJ 
agency. Exactly how would that work? You mentioned that it 
would represent substantial cost savings to the SSA; how would 
that be reflected, and how would the net cost savings occur?
    Mr. Bernoski.  Thank you.
    The plan that we propose, even though it creates a separate 
component for the administrative law judge function, for the 
adjudication function, that component is still within the 
agency. It is not a new agency.
    Mr. Ryan.  So it would answer to the Commission?
    Mr. Bernoski.  Well, yes, to the extent that the decision 
of the adjudication component would be the final decision of 
the agency after it goes through the appellate process, but the 
Commissioner would be responsible, as he or she is now, for the 
total rulemaking of the agency.
    The cost savings that we talked about, when you take the 
total budget of the Social Security Administration, which is in 
the billions of dollars, is not going to be that substantial. I 
believe we said it was something like $13 million that would be 
saved by closing the OHA regional offices. That is based on a 
GAO study that was prepared when we had our prior legislation 
for the Unified Corps Bill, so that is what that figure is 
based on.
    And then, we propose there would be some additional savings 
by the changing of the function of the Appeals Council, but 
many of those resources, I suspect, would be plowed back into 
the system.
    Mr. Ryan.  I appreciate the ideas for getting the backlog 
down. I would be interested in hearing from the other 
panelists, just to engage in a dialogue--what do you think is 
the best thing we can do right away to work on the backlog?
    Mr. Skwierczynski.  My key suggestion was a rollout of the 
Disability Claims Manager. I think the Disability Claims 
Managers are very productive; they do quick work; they 
eliminate hand-offs. Under the current system, a Federal 
employee takes the case, takes the information, without 
understanding the adjudicative requirements of the disability 
process, ships it to the State, what we are seeing is that a 
lot of those cases do not immediately get assigned, and when 
they do get assigned, the State employee has to review the case 
for the first time, understand the principles, make a 
disability decision, ship it back to the Federal employee. 
These are hand-offs that we think are unnecessary.
    The whole idea under the pilot was to see, first, if it 
could be done, and in phase one, we found out that it was 
feasible that someone could do the work, both ends of the 
decision making process; and second, under the formal pilot, 
whether it was productive, cost-effective, and whether they 
could do the cases, how fast they could do it, a general pilot. 
And although the results have not been published yet, I 
understand a draft is going out tomorrow--I have been briefed 
on it, and the results are good. I think that that would not 
only streamline the process but would provide additional 
resources into the disability-making system.
    The way the pilot was designed, the States had DCMs as well 
as the Federal Government. Our employees were trained in the 
disability aspect; the State employees were trained in the 
entitlement factors. And it is my assessment that it works, and 
it would help to bring down the backlog.
    Again, I do not think anything will be overly successful 
without additional resources. I really think that to ask the 
hardworking employees of both the State and Federal governments 
to continue to work without additional staff is unrealistic. 
What we have is a growth agency, claims are going up, and 
staffing is going down. That does not work.
    Mr. Ryan.  Mr. Willman.
    Mr. Willman.  I think we have found something that we 
disagree on, and that is the question of the Disability Claims 
Manager. And actually, I am not sure that we disagree yet. What 
I do know is this. We all agreed to give this concept a fair 
test. There was a period of time under which individuals who 
were trained as Disability Claims Managers got very thorough 
training, and they got mentoring, and they got brought up-to-
speed, and they were asked to do the job this way for a finite 
period of time during which information and data would be 
collected, and then there would be an analysis and evaluation 
piece.
    Where we are now is that that analysis and evaluation piece 
is not done. So I think that to proclaim the success of this 
project now is premature. We need to see and analyze the data 
and make sure that it fairly represents the experience of these 
folks out there. It may prove to have been successful, and it 
may not, but I think it is clearly too soon to say now.
    But to answer your question about what we need to do to 
reduce the backlog, we need to do one of two or a combination--
and this is not my idea; this comes from the Advisory Board 
report--we either need to resimplify the process and stop 
introduce more complication and labor-intensiveness into the 
process and/or we need to increase the number of people who are 
available to do this job as the applications come in. I do not 
think anything else will work.
    Mr. Ryan.  Thank you. Ms. Heflin, did you want to make a 
comment?
    Ms. Heflin.  I was just going to say that we have not been 
briefed on the DCM process, we do not have the draft that is 
about, and our reservation is not that we do not believe that 
it can be done but that we are not convinced yet that it can be 
done cost-effectively.
    Mr. Ryan.  Mr. Korn.
    Mr. Korn.  I was just going to say that one of the reasons 
that our organization is suggesting a position--from what we 
could see, and I agree with Mr. Skwierczynski, we think it 
really has initially shown some success--we understand the 
limitations because of the Federal-State relationships, and we 
understand the concerns that both the NADE and NCDDD have. So 
what we wanted was a position that could take the benefits of 
that and still meet the concerns of the State. That really is 
why we developed it that way.
    There are States that are very willing to have Federal help 
in making decisions. There are other States that do not need 
that help. And we really think that having a position that 
takes the benefits of a one-stop process that can be used when 
needed, or that even takes part of it, and other places where 
it is not needed, where the backlogs do not exist, you do not 
have to do that, it would really be a flexible way to address 
the process.
    So the reason we came to that rather than a full DCM, which 
we think is good, was really after looking at this broader 
perspective to something that maybe everyone could agree on 
rather than what is good for one component or another.
    Mr. Ryan.  Thank you very much. It seems that process 
simplification is something that everybody seems to agree on, 
albeit not in the details.
    I see that my time has expired, and I yield.
    Chairman Shaw.  Twice.
    [Laughter.]
    Mr. Ryan.  Thanks for the 20 minutes.
    Chairman Shaw.  I want to thank this panel. You have been 
very instructive and very helpful. It is quite obvious that 
everyone seems to agree that we have a lot of work to do.
    I was looking at the chart that was supplied to us by Judge 
Bernoski, and it looks like the Republican interpretation of 
Hillary Clinton's health plan. I have been sitting here trying 
to figure it out.
    [Laughter.]
    Mr. Bernoski.  And it probably had the same success.
    Chairman Shaw.  OK. Thank you. I thank all of you for being 
here. We appreciate it. The hearing is adjourned.
    [Whereupon, at 4:43 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Shaw to the panel, and 
their responses follow:]

            National Council of SSA Field Operations Locals
       American Federation of Government Employees, AFL-CIO
                               Chicago, Illinois 60661-7576
                                                      July 31, 2001

    Question 1. You are not happy with third parties, nor do you agree 
with SSA management's attempts to make SSA's operations more efficient 
using information technology despite the fact that better information 
technology is being demanded by the public. With access and use of 
information technology becoming more acceptable every day, are you 
saying that customers should not have access to the faster and easier 
service they want? Why shouldn't beneficiaries get to chose the most 
convenient way to get their services from SSA?
    Response 1. AFGE agrees that customers should have access to the 
faster and easier service that they want. We have urged SSA Management 
to ask our current and future customers how they want service delivered 
now, but they have shown no interest. Only in 1993, through a series of 
focus groups conducted with groups of current and future customers, has 
SSA objectively asked the public how they want service delivered.
    These Service Delivery Focus Groups, held throughout the country, 
revealed that the public preferred face-to-face service provided by SSA 
employees in transacting their most important business. As defined by 
the public, important business consists of filing applications for 
benefits, and resolving payment problems. Our customers expressed 
satisfaction with the convenience of handling more routine business, at 
their option, by calling a local field office or the 800 number.
    Focus group moderators asked participants about other service 
delivery methods. Focus group participants showed little interest in 
doing business through third parties, or by computer, rather than with 
SSA employees. They were strongly opposed to use of telephone 
technology, such as voice mail and automated attendant, that did not 
involve interaction with SSA employees. SSA and AFGE have copies of 
these focus group tapes, and of the written report derived from this 
activity.
    The Agency has not conducted subsequent focus groups to objectively 
ask the public how they wish to do business with SSA. However, 
customers who call the 800 number are asked if they would do future 
business by calling the 800 number. Over the years, the percentage who 
indicates they will choose this method has usually (but not always) 
increased slightly. SSA uses this data, from those who have shown their 
preference for the 800 number by using it, to argue that the general 
public increasingly wants to do business by telephone. Customers who 
visit or call field offices are not surveyed at all regarding their 
preferences. The increased volume of calls and visits to field offices 
that we have observed, neither of which is measured by SSA, 
demonstrates a strong continued interest in local community-based 
service delivery.
    Constrained by administrative spending caps and staffing ceilings, 
and unwilling to petition the Congress for substantial increases in 
front-line service delivery positions, SSA has turned to third party 
involvement in disability claims and self-service via the Internet for 
retirement claims. The choices were not made by our customers, but were 
foisted on the public by senior SSA officials. Incorrect payments, 
program integrity and fraud problems, and general mismanagement plague 
these service delivery methods.
    All third party organizations involved in taking disability claims 
are motivated by money. Some make profits by charging fees, legally or 
illegally. Others are interested in shifting costs for income 
maintenance and medical coverage from state and local governments and 
non-profit agencies to the Federal taxpayer. Personnel in these third 
party organizations are not adequately trained to take applications for 
our complex disability programs. They cannot legally provide reporting 
instructions, according to SSA's Office of General Counsel, making 
prevention and collection of overpayments problematic. Only SSA 
employees are charged with administering the Social Security Act 
equitably, and in the interest of applicants and Federal taxpayers. Our 
Agency does not identify or track third party claims for quality 
assessment, or to monitor program integrity. For-profit and non-profit 
third party organizations have been involved in illegal fee-charging 
arrangements, and in fraudulent entitlement schemes. Some have been 
found guilty of fraud and even criminal activity, but we are convinced 
that those represent just the tip of the iceberg. Nevertheless, 
hundreds of millions of dollars in excess payments and medical benefits 
have been detected and documented.
    Documentation is enclosed from the 1997 SSA/AFGE Third Party 
Assistance Team recommendations (Attachment A), and from a grievance 
filed this year in the Seattle Region that is now pending arbitration 
(Attachment B). More information can be supplied upon request by AFGE. 
The SSA Inspector General should be requested to supply information 
from their many investigations of fraud and other improper activities 
by third parties involved in disability claims and appeals.
    Internet claims filing is initiated and often completed without an 
SSA employee ensuring that claimant rights are protected, or reporting 
responsibilities explained. Identity of the applicant is not verified. 
SSA is not conducting special studies to compare this new process to 
the traditional process, so little data is available and none is being 
shared with AFGE. We must rely, therefore, on the following disturbing 
reports received from our Claims Representatives:

          1. Benefits are being lost when applicants are unable to 
        complete applications, sometimes failing to establish a claim 
        after multiple attempts.
          2. Benefits are lost when customers fail to file timely, due 
        to misunderstandings about how earnings affect entitlement.
          3. Earnings Record reviews are not done with an SSA 
        employee's assistance, and corrections not made, resulting in 
        continuing underpayments to many beneficiaries that will never 
        be corrected.
          4. Military service credits are not calculated and included 
        in computations, creating ongoing underpayments that will never 
        be corrected.
          5. Entitlement to auxiliary and survivor benefits for spouses 
        and children are not always identified and paid.
          6. Individuals other than the proper applicant are filing 
        claims, providing opportunities for fraud (attachment C), 
        because a Claims Representative does not verify identities of 
        applicants.

    Until quality and integrity of Internet claims are comprehensively 
studied, and compared to claims filed with Claims Representatives 
through traditional processes, no further expansion should be allowed.
    Question 2. You recommend that we not restrict the authority for 
making disability decisions to State employees. Could you elaborate? 
What authority do they have now that you suggest we take away?
    Response 2. The Social Security Act currently provides that 
disability determinations are the sole responsibility of a State 
agency. Section 221(a)(1) and 1633(a) of the Act states that the 
determination of whether or not an employee is disabled shall be made 
by a State agency, notwithstanding any other provision of law, in any 
State which notifies the Commissioner that it wishes to make disability 
determinations. The Act provides only limited circumstances in which 
the Commissioner may perform the disability determination function for 
a class or classes of cases in a State without the State's consent. 
These limited instances involve situations when a State's performance 
in making disability determinations deteriorates to an unacceptable 
level.
    Thus, the States have a virtual statutory monopoly in the 
disability decisionmaking role. The DCM pilot was only possible with 
State concurrence. SSA had to obtain State concurrence in each of the 
fifteen pilot states. This process was long and tortuous. The states 
demanded a severely diminished pilot in order to participate at all.
    The original union-SSA agreement provided for 750 DCM's phased in 
over a 3-year period on both the state and Federal side. After State 
objection the test began with only 115 Federal DCM's and 104 State 
DCM's. SSA and the union agreed to establish eight Disability 
Processing Centers (DPC's). This project would involve establishing 
disability centers in facilities with personnel that already have a 
working knowledge of disability decisionmaking. These Centers could 
have been initiated without the training effort and costs that were 
involved in the DCM pilot. The parties (i.e., SSA and the union) felt 
that these centers could concentrate on teleservice claims and have the 
resources and capacity to process a high volume of claims swiftly and 
accurately. Such an effort could relieve State DDS backlogs by shifting 
some of these cases to Federal Disability Processing Centers.
    Unfortunately, the States refused to participate in the DCM pilot 
unless SSA severely limited the Disability Processing Centers. The 
States demanded that only three processing centers be established with 
a limit of 15 DCM's in each center. The States later reneged on this 
agreement and the DPC's were never established.
    The termination of the DCM pilot is also another example of the 
State's control of the disability decisionmaking process. Although data 
indicates that the DCM pilot has been a huge success, States were 
unwilling to extend their 3-year agreement to test the DCM. Thus, 
rather than keep the pilots in place until a final DCM Evaluation 
Report is issued and the Commissioner makes a decision on the fate of 
the project, the Agency discontinued all DCM sites effective June 29, 
2001. Part of the reason for this action is State refusal to continue 
to participate in the pilot. Due to their statutory disability 
decision-making monopoly, SSA is powerless to demand continuing State 
participation. The result is that trained DCM's return to their former 
jobs and their expertise in disability decisionmaking will erode due to 
nonuse. What a waste of training resources! What an insult to the 
public that overwhelmingly approves of the DCM and demands better 
service from their government.
    It is time to end this monopoly and change the statute to allow SSA 
employees to make disability decisions. The DCM draft evaluation report 
shows that the DCM exceeded both control group and current process 
performance in all statistically valid reviewed categories. Claimant 
satisfaction was overwhelmingly high. Employee satisfaction remained 
very high throughout the pilot despite great uncertainty about its 
continuance or termination. Processing time was substantially better 
than either the control groups or the current process. (67 days 
processing time for DCM T-II and T-XVI cases is 44% better than SSA's 
performance goal for FY 2001 and FY 2002 of 120 days). Accuracy equals 
and in some categories exceeds the current process. (Accuracy 
significantly exceeds the current process in technical accuracy for 
disability allowances and dollar accuracy of T-II DCM cases.) 
Productivity data indicated that in the last few months of the pilot, 
DCM productivity exceeded the current process.
    The concept of the DCM is a good one: assign one individual 
decision maker to the claimant who will be the claimant's caseworker 
and will make all decisions on their case. The test shows that it 
works. Despite this fact, the States oppose the DCM for narrow 
parochial interests, namely, to preserve their monopoly. Only Congress 
can change this tragedy by amending the statute to expand disability 
decisionmaking ability to SSA workers.
    Congress should strongly consider statutory modifications in the 
State monopoly. Although the union supports a full roll out of the DCM, 
any expansion of SSA disability decision-making requires legislative 
action. If SSA workers were permitted to make disability decisions on a 
limited degree to alleviate State backlogs or to expedite certain 
obvious favorable decisions, legislative change is necessary. The State 
currently holds all the cards and is unwilling to deal. A change is 
needed. This change will result in better customer service. Good 
government demands it.
    Question 3. In your testimony you state your concern that 
overpayments are escalating because of SSA's inability to properly 
monitor eligibility of current beneficiaries. Can you provide us with 
some of the initiatives you would like to see put in place by SSA?
    Response 3. The primary initiative that SSA should implement that 
would both reduce overpayments and result in the return to work of 
disability beneficiaries is the Employment Support Representative 
(ESR). Congress of Ticket To Work began the ESR initiative in response 
to the passage of legislation. The Ticket To Work initiative cannot 
succeed without Federal support. At minimum a Continuing Disability 
Review (CDR) investigation is required for Ticket eligibility. Under 
the current 32-person ESR pilot, the CDR is an ESR responsibility. 
ESR's are also intended to be a corps of trained, accessible and 
responsive work incentive specialists. These specialists plan, develop 
and lead an outreach and communications effort to promote understanding 
and use of Social Security work incentives provisions among 
beneficiaries, claimants and support groups, advocates employers and 
the public.
    The recently released Agency ESR Pilot Evaluation Report indicates 
that both disability beneficiaries and community organizations were 
highly appreciative of the ESR services. The report concluded that ESR 
outreach was effective in educating customers about SSA's employment 
support programs. All surveyed respondents indicated that ESRs were 
most successful when working in SSA field offices in the community. The 
report recommended that the ESR should be made a permanent position and 
that as many ESRs as possible should be placed in community based field 
offices.
    The union enthusiastically concurs with these recommendations. SSA 
should assign at least one ESR in all 1300 field offices who are 
charged with being the ``single point of contact'' to beneficiaries 
trying to return to work, to monitor their progress, initiate reviews 
and updates on a timely basis, and to work the cases without the 
current backlogs, handoffs and bureaucratic run around that the 
beneficiaries are subjected to in the current environment.
    Many SSA Regional Commissioners have endorsed these 
recommendations. Unfortunately the also express concerns that 
increasing the number of ESRs cannot adversely affect the daily claims 
pressures that exist in every field office. Reshuffling staff to 
emphasize the Return To Work concept would just harm the ability of SSA 
to process initial claims for disability, survivors and retirement 
benefits swiftly and accurately.
    The Subcommittee wisely passed legislation implementing the 
innovative Ticket To Work program. However, resources are necessary for 
this program to succeed. The union recommends that the Subcommittee 
support allocation of sufficient funds to enable the ESR position to be 
established in every SSA field office. Such action should be taken 
without reducing the current field operations staffing levels that are 
required to process the ongoing flow of disability, survivor, 
retirement and SSI benefits applications and post entitlement work. 
This would best be done by way of a special FTE allocation for federal 
Ticket to Work activity that is not subject to the spending caps. 
Congress provided similar allocations to SSA for CDR activity in the 
past.
    Spending money now in order to fully fund the ESR job will result 
in significant trust fund savings in the future. Currently only 1% of 
disability beneficiaries ever leave the benefit rolls. The goal of 
Congress with Ticket to Work was to increase this percentage. This goal 
can be achieved with an aggressive expansion of the ESR job.
    Other initiatives that would reduce overpayments are to use trained 
SSA field office disability decisionmakers to assist the States in 
making CDR disability determinations. State backlogs are inhibiting the 
ability of states to process this workload are often sent to the State 
DDS and are not processed timely. This requires SSA to redevelop CDR's 
for current medical evidence before the cases can be processed. The 
result is wasted time, effort and money. Permitting SSA workers to make 
CDR medical determinations will result in a more timely and efficient 
process and, consequently reduce the incidence of overpayments.
    Similar arguments can be made for increasing full SSI 
Reconsiderations. Studies have shown that expenditures for 
Redeterminations are cost effective and result in many times more 
dollars in return. If Congress desires reducing the incidence of SSI 
overpayments, it can require more frequent and extensive 
Redeterminations. Of course, sufficient FTE must be appropriated to 
achieve his goal.
    Congress should also be cautious about SSA's increasing efforts to 
shift claims taking to the Internet. One danger of allowing the public 
to initiate retirement, survivor, disability and SSI without the 
intervention of an SSA worker is that the claimant will be deprived of 
receiving reporting instructions. One of the key requirements for SSA 
Claims Representatives (CR's) is to provide the public with an 
explanation of reporting instructions. Sending written material or 
posting instructions on the Internet is a poor substitute for the 
dialog between claimant and Claims Representative regarding the 
earnings test and other reporting requirements. The Internet claims 
experience is relatively new. It is not possible yet to assess the 
impact of diminished delivery of reporting instructions. Unfortunately, 
SSA is not initiating appropriate studies to compare Internet claims to 
other claims. SSA should be required to initiate studies both short 
term and long term to assess the impact of Internet claims. Reporting 
instruction impact should be an area addressed in such studies.
    Question 4. In your testimony you state that the Management 
Information Integrity Partnership Team issued a 300 page report to SSA/
AFGE National Partnership Council listing 57 inappropriate practices 
used by SSA to manipulate work processes and work measurement many of 
which were involved in disability claims and appeals. You also state 
that these practices were employed to give the false impression of 
service levels had been maintained or even improved despite a lack of 
staffing. Can you tell us who makes up this team? Do you have any more 
recent data than 5 years ago? Did you share this with the Inspector 
General's office?
    Response 4. The Agency's Office of Assessment verified that 
practices were being used to manipulate work processes and work 
measurement, and issued a Report in 1980, in response to concerns 
raised by AFGE.
    AFGE surveyed employees in 4 SSA Regions in 1992 that revealed that 
many of these practices, and others, were being used. The Ways & Means 
Subcommittee on Social Security was contacted, and issued a Report. The 
issue was subsequently addressed in hearing testimony by AFGE to the 
same Subcommittee and others.
    AFGE followed up with a 1993 survey of employees in all 10 Regions 
that showed widespread cheating encouraged and directed by Management 
throughout SSA. A Report was issued in early 1994. Former Commissioner 
Shirley Chater met with AFGE, and agreed to deal with the issue through 
an SSA/AFGE Partnership initiative.
    The June 1996 Report of the SSA/AFGE Management Information 
Integrity Partnership Team pulled and analyzed data, corroborated the 
earlier findings, and issued a comprehensive set of recommendations. 
The Inspector General requested and received 15 copies, and AFGE met 
twice with OIG. The SSA/AFGE National Partnership Council adopted 
nearly all of the recommendations in August 1996, but few have been 
implemented. A grievance filed by AFGE is scheduled for arbitration in 
November 2001. One of those adopted (but unimplemented) recommendations 
required annual data retrieval from Management Information Systems to 
determine whether the particular inappropriate practices studied in 
depth by the Team from 1994-1996 have increased or decreased.
    An AFGE survey of employees in the Seattle Region in late 1998 and 
early 1999 indicated that there was no overall improvement in the 
integrity of MI, and that the use of some practices was increasing. The 
results were reported in an AFGE newsletter in April 1999 (Attachment 
D).
    In 1999, SSA changed its policy on SSI claim filing dates, allowing 
for a date later than the application date to be used. Later that year, 
technical denial disability claims were merged in Management 
Information Systems with claims requiring a medical determination, 
introducing powerful new incentives to take claims from individuals 
clearly not entitled to benefits. Management increased its efforts to 
ensure that Claims Representatives took yet more technical denial 
claims, allegedly resulting in a 50% increase by early 2001 (about 
500,000 more claims annually). AFGE objections made to the SSA 
Management Information Integrity Monitoring Team regarding policy and 
MI changes were ineffective.
    On May 7, 2001, the technical denial issue was referred to the 
Inspector General, who responded by saying he would do nothing 
(Attachment E).
    The explosion in technical denials has affected the evaluation of 
the Disability Claim Manager position, resulting in an understatement 
by SSA of the success of the pilot (Attachment F).
    The SSA/AFGE Management Information Integrity Partnership Team 
members are listed in the 300-page Report issued June 1996. Many high-
ranking SSA and AFGE officials participated. Mark Blatchford, now 
Associate Commissioner, Office of Automation Support, Operations, was 
the SSA Team Co-Chair. His telephone number is (410) 965-4844. Steve 
Kofahl, Seattle Regional Vice-President, National Council of SSA Field 
Operations Locals, was the AFGE Team Co-Chair. The Co-Chairs can 
provide copies of the Report, which was issued to Management in all SSA 
facilities in 1997. Mr. Kofahl can also provide the complete 1994 AFGE 
survey data and Report to Commissioner Chater. Summary information from 
the 1980 and 1994 Reports is also included in the June 1996 Report.
    Question 5. We would be interested in any comments you would like 
to make on testimony provided by other witnesses at the hearing.
    Response 5. I will provide comments about some of the testimony 
provided by other hearing witnesses.
    I was disappointed that Acting Commissioner Massanari did not feel 
that it was necessary to support the budget proposal sent to Congress 
by his predecessor Commissioner Apfel. Commissioner Apfel proposed an 
appropriation that would provide about 2400 more FTE to SSA in order to 
decrease both the disability claims backlogs and the hearings backlogs. 
SSA is a growth industry. Work is increasing and resources provided by 
Congress should reflect this increase in work requirements. It is 
disappointing that Acting Commissioner Apfel seems to think otherwise.
    I was also disappointed when Acting Commissioner Massanari 
indicated that he would not seek a supplemental appropriation to assist 
in processing the Special 130,000 case T-II disability workload. This 
labor-intensive effort will require SSA employees to reconstruct up to 
27 years of records for some SSI beneficiaries. It will also require 
new disability decisions for most of these cases. SSA is busy 
establishing special units from existing resources to handle these 
cases. Resources devoted to this workload will adversely affect SSA's 
ability to process other work. However, the Commissioner says a neither 
a budget request adjustment nor a supplemental appropriation is 
necessary. I was very disappointed by these remarks.
    I also was disappointed by the fact that Mr. Massanari did not 
mention the DCM in either his oral or written remarks. He should be 
touting this SSA success story but instead is silent.
    The union applauds the strong and consistent statements form 
Stanford G. Ross, Chairman of the Social Security Advisory Board 
regarding the need to provide more administrative resources to SSA. We 
also echo his concern about the lack of consistency and fairness in the 
disability decision-making process. Disability award rates vary 
significantly from state to state. The union feels that a greater 
Federal role in the disability decision-making process will assist in 
reducing this problem. Rather than 50 State decision systems, Federal 
decisionmakers are much more likely to provide consistency and 
fairness. This is another reason for considering the DCM as a potential 
solution to the SSA disability crisis.
    I am intrigued by the proposal by Steve Korn of the National 
Council of Social Security Management Associations, Inc. regarding the 
establishment of a Federal Technical Expert for Disability (TED) 
position that would be empowered to process some disability decision 
type work leaving the ultimate decisionmaking responsibility with the 
States. I don't think that this proposal will provide the type of DCM 
service that was so fully embraced by both claimants and workers. 
However, if Congress is unwilling to loosen up the State monopoly on 
disability decisionmaking, the union would be interested in examining 
this proposal more closely.
    I was alarmed after reading the statement of Sue Heflin, National 
Association of Disability Examiners. She indicates that the turnover 
rate of Disability Examiners (DE's) is astronomical. She stated that 
over 50% of DE's have less than 2 years of experience. She also decried 
the inadequate pay and benefit package that most DE's receive. This 
seems to be more evidence that an increased Federal role in disability 
decision making will bring experience, stability and professionalism to 
this critical government function.
    Mr. Willman, National Council of Disability Determinations 
Directors, complained about the 175,000 shelved cases that the DDS's 
couldn't process due to a ``task to resource deficit.'' It is odd that 
Mr. Willman and his organization is the biggest obstacle to the DCM. 
Even if the DCM provides relief for the DDS backlogs, Mr. Willman 
opposes it. He feels that the disability decision-making monopoly must 
be preserved at all costs. This type of attitude is the real reason for 
Congress to act now to reform the statute and permit SSA workers to do 
the job that the DCM demonstrates that they can do.
    A variety of witnesses addressed the problems with the Office of 
Hearings and Appeals and the Hearings Process Improvement (HPI) 
project. HPI was a radical change in concept that requires some time to 
succeed. Acting Commissioner Massanari has established a task force to 
with multiple stakeholders, including the union, to review the HPI 
experience and recommend improvements. The union endorses this effort.
    The union also urges that this task force take another look at the 
discontinued Adjudicative Officer (AO) position. This position was able 
to make favorable disability decisions only. If favorable decisions 
could not be made, AO's would set up the files for hearings, take 
depositions and interrogatories for use at the hearing and arrange for 
consultative examinations and other additional evidence. The judges, 
including Mr. Bernoski, appeared much more favorably disposed to AO's 
than the HPI project. Unfortunately SSA discontinued the AO under 
mysterious circumstances without ever issuing a final evaluation of the 
pilot.
    Thank you again, Congressman Shaw, for this opportunity to comment 
on the key issues facing the Social Security disability program.
            Sincerely,
                                       Witold Skwierczynski
                                                          President
    [The attachments are being retained in the Committee files.]

                                <F-dash>

National Council of Social Security Management Associations
                                       Washington, DC 20002
                                                      July 31, 2001

    Question 1. You state that the lack of time prevents the 
opportunity for more face-to-face interviews and that without face-to-
face interviews, there is an increased opportunity for fraud. Are you 
saying people should be forced to come into the office instead of using 
the Internet or calling the 800 number?
    NCSSMA testified that failure to see the claimant face-to-face 
increases the opportunity for fraudulent activity. Face-to-face 
interviews do increase the overall integrity of the process. In fact, 
SSA has recently issued draft instructions that recommend face-to-face 
interviews for certain cases deemed prone to fraud. Face-to-face 
interviews make it easier to verify the applicant's identity, and to 
identify inconsistencies between allegations and behavior. However, we 
are not suggesting that all disability applicants be required to come 
into the office versus using the Internet or filing by phone. Due to 
the very nature of the program, many applicants, especially those with 
mobility impairments or other severe disabilities would be better 
served without a face-to-face requirement. However, we believe face-to-
face interviews remain an effective means of reducing fraudulent 
activity that needs to be balanced against the convenience of the 
Internet and telephone application process. At the very least, SSA must 
continue to allow disability applicants the option of coming in to 
their local field office for a face-to-face interview.
    Question 2. You state that SSA should capitalize on the success of 
the Disability Claims Manager program by expanding and strengthening 
the role and performance of the field office in the front end of the 
disability process. Can you explain how this would help? Would this 
speed the disability process or improve accuracy in disability 
determinations?
    NCSSMA testified that SSA should capitalize on the success of the 
Disability Claims Manager (DCM) pilot by expanding and strengthening 
the role and performance of the field office in the front-end of the 
disability process. Specifically, we recommended creation of a new 
position in SSA's field offices whose focus would be the processing of 
disability claims. We believe this new position, which we have labeled 
a Technical Expert for Disability or TED, would both speed the 
disability process and improve the accuracy of initial disability 
decisions.
    DCM pilot results demonstrated that decisions were made faster than 
under the traditional process. In fact, in states such as New Jersey, 
where the DDS is experiencing performance problems, claims handled 
under the DCM pilot were processed up to 4 months faster in Title XVI 
and up to 2 months faster in Title II. Accuracy rates for claims 
processed in the DCM pilot were higher than for claims processed the 
traditional way, though the differences were not statistically valid 
based on the sample size. In fact, denial accuracy was 3.2% higher 
(93.3% versus 90.1%). We believe it stands to reason the DCM accuracy 
would be higher since the employees responsible for completing the 
medical questionnaire, that is central to the ensuing medical 
development, are trained medical adjudicators. In the traditional 
current process they have no medical adjudication training.
    The TED position, which NCSSMA recommends, would be flexibly 
structured so that its function could vary depending on the needs of 
each particular state DDS. In impacted states like New Jersey, the TED 
would function like the pilot DCMs and provide single point of contact 
medical decisions. Thus we would expect the same significant processing 
time improvements that were demonstrated in the DCM pilot. And their 
knowledge of the medical adjudication process would help ensure a more 
accurate and targeted medical questionnaire that should result in more 
accurate decisions.
    Question 3. You state in your testimony that your organization 
recommends the creation of a new position called a ``Technical Expert 
for Disability (TED).'' This position would be in SSA's field office 
and would focus on processing of disability claims. This SSA employee 
would essentially receive the same basic medical determination training 
received by new Disability Determination Service (DDS) Disability 
Examiners. What would then be the role of the state DDS? Could these 
positions be filled from within SSA? How many employees would SSA need 
to effectively fulfill its role to process disability claims? Do you 
have an estimation of the cost of creation of this position?
    NCSSMA has recommended the creation of a new field office position 
called a ``Technical Expert for Disability'' (TED) that would focus on 
the processing of disability claims. We suggested this position to take 
advantage of the positive results of the Disability Claims Manager 
pilot, within the confines of the current Federal-State relationship, 
as well as to shore up what we have identified as current weaknesses in 
the initial intake and adjudication process. As indicated above, we 
believe this position would both improve the timeliness and accuracy of 
initial disability decisions. The TED would offer other advantages, as 
well. Applicants would have help available to them from someone in 
their community who is familiar with medical sources, transportation 
issues, community resources and employment opportunities. Additionally, 
the TED would, through their enhanced knowledge of medical providers 
and sources, investigative work and personal contacts, help to 
strengthen the integrity of the program and thus help to deter fraud.
    As envisioned, the role of the state DDS would not substantially 
change with creation of the TED position. In fact, the TED would be 
flexibly structured so that its function could vary depending on the 
needs of each particular state DDS. States that need the most 
assistance, like New Jersey, could give TEDs authority to make final 
decisions for the full range of cases. This would give SSA additional 
flexibility to deal with growing backlogs. In less impacted states, 
TEDs could simply make final and potentially same day decisions for 
claimants with severe and easily defined disabilities, such as those 
with terminal illnesses.
    Even where the TED did not make the final decision, it would help 
establish closer cooperation between field offices and DDSs. It would 
result in a clear delineation of duties between the TED and DE, putting 
full responsibility for a high quality initial product on the TED, 
while providing that TED with the background, knowledge and focus that 
they need to produce such a product. It results in a shift in both 
process and responsibility that is essential if the TED is to develop a 
true feeling of ownership and accountability for this work product.
    The number of TEDs needed would vary from state to state depending 
on their degree of involvement in making disability determinations. We 
do yet not know exactly how many TEDs an office would need to function 
most effectively. However, we can say that the number could vary from a 
single individual in a smaller field office in which the TED's role is 
limited to intake and review of claims going to DDS, to a half dozen or 
more in larger offices where the TED is truly responsible for the 
entire initial claim, from intake to decision. Because TEDs would 
generally be filled from SSA's existing pool of 16,000 Claims 
Representatives (CRs), they would not affect current DDS staffing 
levels or require any additional allocation of staff to field offices.
    We do not believe the cost to create the TED position would be very 
significant. The major cost would be the initial training effort. 
However, because CRs are already fully trained in non-medical 
adjudication, training would simply focus on medical adjudication and 
development. SSA could use its existing Interactive Video Teletraining 
(IVT) network to deliver this training at the employee's worksite. 
While the TED would probably grade out at the GS-12 level, this would 
represent a relatively minor cost and is consistent with SSA's service 
vision which envisions the agency moving toward a higher graded 
technical workforce. Finally, it should be noted that creation of the 
TED position does not require any growth in either the SSA or DDS 
workforce. While we think such growth is warranted to deal with current 
backlogs and future workload growth, the TED would allow SSA to more 
efficiently deal with the disability workload regardless of staffing 
levels.
    Question 4. You indicated in your testimony that one of the biggest 
problems is the lack of understanding by the claimants as to how the 
process works and how decisions are made. What suggestions do you have 
to ensure the process is better explained to claimants?
    NCSSMA testified that one of the significant problems with the 
current disability program is that a majority of claimants seem to have 
little understanding of how the process works and how decisions are 
made. Claims Representatives fail to fully explain the process to 
applicants for two main reasons, their lack of a full understanding of 
how disability decisions are made, and lack of time.
    NCSSMA believes establishment of the Technical Expert for 
Disability (TED) position in field offices would address the first 
reason. Unlike CRs, TEDs would receive full medical decision 
adjudication training. TEDs would personally conduct a significant 
percentage of initial disability interviews. The DCM pilot demonstrated 
that applicants--especially applicants whose claim was denied--were 
significantly more satisfied with the disability determination process 
when the claim was taken by a DCM trained in disability adjudication, 
than under the tradition process where the claim is taken by a CR. And 
there is a strong correlation between applicant satisfaction and their 
understanding of the disability decision process.
    Even when the TED did not conduct the interview, they would work 
side by side with CRs involved in the disability process, and would 
provide training and mentoring to ensure they have a better 
understanding of the medical decision making process. In addition, the 
TED would review the first action on disability claims being forwarded 
to the DDS for development and medical decision, which would enable 
them to provide continuous feedback to CRs, thus reinforcing this 
knowledge.
    While the TED will help ensure that field office employees have the 
knowledge base necessary to help applicants fully understand the 
process and how disability decisions are made, they will continue to be 
challenged to find the time to actually do so. This is a function of 
the overall resources available in field offices. Quite simply, 
staffing levels in field offices must be increased to ensure that field 
office employees have sufficient time to fully explain the process to 
disability applicants and answer all their questions. As a result of 
NCSSMA's recently completed Staffing Survey, which was distributed to 
all Congressional offices in March of this year, NCSSMA believes that 
field office staffing should immediately be increased by 5000 positions 
to address significant service delivery gaps, including the lack of 
adequate time to fully explain the process to disability applicants.
    Question 5. We would be interested in any comments you would like 
to make on testimony provided by other witnesses at the hearing.
    I would like to comment on a point made by Douglas Willman of the 
National Council of Disability Determinations Directors in his written 
testimony. Mr. Willman testified that the DDSs currently have at least 
175,000 more cases pending than they are able to process, and he 
expects this backlog to grow. We agree. And with the demise of the DCM 
pilot, SSA simply does not have any internal means for assisting DDS 
with this backlog.
    Establishment of the Technical Expert for Disability (TED) position 
in SSA's field offices would give SSA another option. With the state's 
consent, TEDs could significantly reduce or eliminate the number of 
cases DDS does not have the resources to handle. While using TEDs in 
this fashion will obviously impact on other field office workloads, if 
overall staffing levels are not increased, at least SSA will have the 
ability to address this growing disability claims backlog to the extent 
it is determined to be a high priority. The capacity to do so does not 
currently exist regardless of its relative importance.
            Sincerely,
                                                 Steve Korn
                                                          President

                               <F-dash> 


               National Association of Disability Examiners
                                         Jackson, Mississippi 39215

    Question 1. You state that there is inconsistency in decisional 
outcomes between states and regions. Why do you think this is? You also 
state to a larger extent this is more evident between DDS decisions and 
those made at the hearing level. Why is this?
    Numerous reasons have been cited to explain the inconsistencies in 
decisional outcomes and/or allowance rates between the various states 
and regions of the country. While it is reasonable to expect some 
differences due to social and economic factors, the failure of SSA to 
adequately explain these factors, or to offer an explanation of the 
other reasons that would contribute to such inconsistency, has helped 
dilute the public's confidence in the disability program. NADE welcomes 
the opportunity to address some of these issues.
    Quality Assurance. While SSA has denied the role that their quality 
assurance process has had in contributing to these inconsistencies, the 
fact remains that quality assurance drives policy. This fact cannot be 
overstated. Quality assurance is the responsibility of SSA's Office of 
Quality Assurance and Performance Assessment but the important function 
of quality assurance is not conducted in the central office. Instead, 
the responsibility for ``policing'' the decisions made by the DDSs has 
been given to the Disability Quality Branch (DQB) offices in SSA's ten 
Regional Offices. Disability Examiners have long known (and SSA has 
failed to acknowledge) that these ten Regional Offices have different 
views regarding case documentation requirements or other case 
development actions. Although our information is anecdotal, examiners 
who have moved from one Region to another have consistently reported 
that a claim which would be returned for further development in the 
Region they left would not be returned in the new Region. Likewise, a 
claim that would not have been returned in the Region they left would 
be returned for further development in the new Region. It has been our 
observation that views regarding impairment severity also differ among 
the Regional Offices. Since the Regional DQBs appear to rate impairment 
severity differently the DDSs will rate impairment severity 
differently. Hence, a case may be allowed or denied simply because of 
the claimant's geographic residence. In addition, all decisionmakers 
are not reviewed equally or by the same component. A high percentage of 
DDS allowances are reviewed by the DQB via the pre-effectuation (PER) 
review while ALJs have more denials than allowances reviewed by the 
Appeals Council.
    Social and Economic Conditions. A second factor, one which impacts 
on the allowance rate, is the social and economic condition in the 
state. States with strong economies, or strong social supports such as 
General Assistance or short term disability benefits, generally produce 
fewer disability claims. When claims are filed they are likely to be 
filed by people with more severe impairments. States with weaker 
economies and/or limited social supports generally see a higher 
incidence of disability applications, and many of these are filed by 
people who are seeking financial relief of any sort that is available 
to them. Such filings adversely affect that state's allowance rate and 
contribute to the public's perception of inconsistency in what they 
expect should be a nationally uniform program.
    Experience and Training. Also contributing to inconsistencies in 
decisional outcomes is the ability of the DDSs to attract and retain 
highly qualified people to perform the job. Disability decision making 
is an art, not totally a science. The job of the disability examiner is 
much more complex today than it has ever been, and it is becoming 
increasingly more so. Yet, most states have not recognized this change 
and have not adjusted the pay levels for disability examiners 
accordingly. It is generally acknowledged that it takes two years or 
longer for a disability examiner to become proficient in the job. 
However, currently, more than 50% of the disability examiners in the 
DDSs have less than two years of experience. This combination of 
inexperience and the inability to attract and retain highly qualified 
employees means that DDSs, out of the necessity created by the 
increasing turnover in their staff, are spending too much of their 
training budgets on initial training, leaving little money in the 
budget for ongoing training of current staff. Additionally, increasing 
caseloads make it difficult for DDS Administrators to arrange suitable 
times for staff training even when the budget permits such training. 
Couple this with the fact that claimants--and the impairments they 
allege--have changed dramatically over the years, requiring more 
documentation of impairments and impairment related symptoms.
    In the past the majority of claimants were older workers who had a 
significant physical impairment, more easily documented with objective 
medical findings. Today's typical applicant is younger and is more 
likely to allege a mental impairment and/or impairment related symptoms 
which require significant non-medical development and evaluation 
(obtaining Activities of Daily Living information from the claimant and 
collateral sources and assessing credibility).
    Ongoing, comprehensive training of all decision makers, not just 
DDS staff, is imperative to ensure that decisions are made as 
consistently as possible. As more weight is afforded to individual 
subjective factors such as pain, fatigue, assessing credibility and 
treating source opinions, there is a greater likelihood of more 
``inconsistent'' decisions. A single presentation of policy that is 
binding on all decision-makers and consistent QA reviews of all 
decisionmakers can assist in ensuring that policies are being applied 
consistently across states, regions and decisional levels.
    Appeals. Much attention has been focused on the differences in 
decisions between the DDSs and those produced by the Office of Hearings 
& Appeals. The most common explanation for this is that the time 
interval between the DDS decision and when the ALJ sees the case 
(months or years) adds more subjective and objective medical and 
vocational information. This results in a ``de novo'' decision on what 
has become an outdated--or frequently a totally different--case to 
review. We are, in essence, adjudicating a different case. While this 
may be true in some cases, we believe that the differences in 
decisional outcomes between DDS and ALJ decisions is due to the fact 
that DDS decisions are based primarily on medical evidence, considering 
the subjective issue of pain, the credibility of the claimant's 
complaints and the appropriate weight of the treating source opinion, 
while the Hearings decision is based primarily on the outcome of a 
legal procedure. The sources of information for a Hearing decision are 
different in that there is no required Medical Consultant review. 
Medical evidence is likely to be developed to support a specific 
outcome. The claimant is represented by a professional, who interprets 
medical and vocational information along with the rules and regulations 
in building their case for the ALJ. SSA has chosen not to have anyone 
present at the ALJ hearing to explain the DDS decision for fear of 
creating an adversarial environment. The result, of course, has been 
that the Administrative Law Judge is presented only one side of the 
story and if they choose to question the facts in the case presented to 
them, they are fearful of being labeled as biased. NADE supports having 
the DDS decision explained at the hearing level by someone qualified to 
do so.
    Court Decisions. SSA's acquiescence rulings customarily only apply 
in the circuit which issues the court decision. Thus these policies 
become mandatory in a handful of states in a particular circuit. 
Because there are numerous acquiescence rulings, and because the 
Federal judicial circuits do not correspond to SSA regions even states 
within the same region have different adjudicative mandates.
    Question 2. One of the many initiatives SSA has implemented is the 
Prototype process. This initiative is being tried in ten states and by 
all accounts, this process has been met with mixed reviews. Can you 
tell us about your experiences in the states where this initiative is 
used?
    NADE members have expressed similar mixed reviews. The stronger 
implementation of Process Unification in the Prototype states has given 
the DDSs the ability to allow claims they might have otherwise denied. 
Examiners participating as Single Decision-Makers have reported this to 
be a positive and fulfilling experience on a personal and professional 
basis. However, without additional staffing, backlogs build and the 
production pressures on the disability examiner increases to the point 
that the personal and professional fulfillment is not worth the stress 
of the workload. In addition, while the new claims process was expected 
to produce a better public understanding of the disability program and 
higher claimant satisfaction with the decision and, thereby, reduce the 
appeal rate, the opposite has occurred. Without a reconsideration step, 
Hearing Offices in these prototype states are being overwhelmed by the 
growing number of appeals.
    It takes longer to process a claim under Prototype and it costs 
more to do the additional development required. The elimination of the 
reconsideration has not produced the savings anticipated to pay for the 
additional costs. SSA's initial plans for a face to face ``claimant 
conference'' between the initial disability examiner and the claimant 
were quickly scrapped when SSA realized that there were insufficient 
funds to pay for this process, a fact that NADE had made clear very 
early in the process. Now, the Agency acknowledges that the elimination 
of the reconsideration step will not produce sufficient savings to pay 
the additional costs of the prototype process.
    The basic idea behind prototype, to allow claims which should be 
allowed as early in the process as possible, was good. NADE has always 
endorsed this concept.! Increasing the personal contact between the 
trained disability examiner and the claimant is a good idea but any 
realistic plan to achieve this goal must also examine its costs. Our 
concern with the prototype process, however, was always, ``How will SSA 
pay for this?'' Now we know--they can't
    Question 3. In your testimony you state that NADE does not support 
changing the definition of disability. How do you respond to the 
concerns expressed by other witnesses who do support changing the 
definition of disability?
    NADE does not support changing the definition of disability AT THIS 
TIME. We are not opposed to changing it later if it becomes necessary 
to do so. Our position on this matter is simple--SSA has too many other 
problems right now and they need to direct their attention and 
resources to finding credible solutions to these problems. The 
definition of disability is the foundation of the disability program. 
It does not represent a significant problem for the Agency at this 
time. In fact, it is the only part of the house that is not crumbling 
at this time. Repairs are urgently needed to the roof and walls and 
once these have been achieved, then it may be time to examine the 
foundation.
    The aging of the baby boom population and the increased incidence 
of disability anticipated with that, as well as a transitioning labor 
force due to increased retirements, make this a time of massive hiring 
and training with large workload increases. We need stability within 
the core of the program to be able to make a successful transition. In 
addition, with so many changes taking place in the system we would not 
be able to effectively measure the effects of the change in definition 
compared to the other changes. NADE urges Congress and SSA to proceed 
cautiously in any attempt to change or overhaul the definition of 
disability.
    Question 4. You state that you do not support demonstrating medical 
improvement before the cessation of benefits because this policy 
discourages disabled claimants from working. Why do you think this 
policy is unwarranted?
    The issue of medical improvement is one that needs close 
examination, especially if the Congress decides to also look at the 
definition of disability. Individuals who receive disability benefits 
have a right to rely on the validity of the decision and expect that 
they will continue to receive these benefits unless there is a change 
in their condition that would justify termination of these benefits. 
However, one major problem with demonstrating medical improvement is 
that it requires evidence that the underlying condition has changed for 
the better. When a person is allowed benefits without a significant 
medical condition, it will be difficult, if not impossible, to show 
improvement even though the person may be perfectly capable of working. 
NADE is on record as supporting the Medical Improvement Review Standard 
but we have supported making changes in that standard.
    We believe that the time has come that the issue of medical 
improvement should be revisited to ascertain if it is still relevant. 
Improvement in a medical condition is not the only change that can 
occur that would justify termination of benefits. Technology and an 
expanding job market has created many opportunities for disabled people 
to return to work. The federal laws have changed in recent years making 
it easier for disabled people to return to work.
    It is time to ask the question, ``Has the Medical Improvement 
Review Standard outlived its usefulness?'' However, whether or not the 
medical improvement standard is changed we believe that it is vital 
that SSA become, and remain, current on the Continuing Disability 
Reviews.
    Question 5. You state that SSA has developed new disability 
policies in response to court decisions and litigation. These new 
policies are increasingly giving more weight to subjective complaints. 
How important is a full assessment of subjective complaints in your 
view? How should such complaints be assessed?
    An individual's subjective complaints are very important and should 
be given full consideration by the disability examiner. This goes to 
credibility for the system. When people feel they are disabled and they 
have multiple subjective complaints on which they base that belief, 
failing to consider those complaints will result in the person 
believing the system failed. If they then take the same complaints to a 
hearing and receive an allowance, they can prove the system failed 
them. So, full assessment is critical.
    The current SSA medical model with an individualized functional 
assessment is an appropriate ``balance'' but implementing and 
administering the policies and procedures associated with that has been 
extremely problematic due to the lack of a single presentation of 
policy binding on all decision-makers, the lack of consistent feedback 
from quality review components regarding applying these and the lack of 
follow through on clarification of policies once they are implemented. 
Much stronger guidance is needed regarding how to integrate objective 
tests, clinical findings and claimant symptoms to arrive at a correct 
assessment of what a particular claimant can reasonably do as a result 
of their medical condition. This guidance must be provided to, and be 
binding on, all decision-makers. Discounting objective evidence because 
it is inconsistent with subjective complaints is clearly the wrong way 
to go. We believe the subjective complaints should only be applied to a 
decision when it is consistent with the objective findings.
    SSA, the Congress, and the American public must also recognize that 
consideration of these subjective complaints have contributed to the 
growth in inconsistencies in the decisions made on disability claims by 
the DDSs. Also, evaluating subjective complaints is more time consuming 
for examiners, hence it is a more costly process. The need to document 
and evaluate the severity of such complaints has created stronger 
decisions but has added to the growth in complexity in the program and 
added to the growth in pending cases. It takes more time to process 
each case as examiners attempt to contact the claimants and third 
parties to obtain more detailed information about the claimant's 
objective and subjective complaints.
    Question 6. We would be interested in any comments you would like 
to make on testimony provided by other witnesses at the hearing.
    Our responses to the other testimonies presented at the hearing is 
as follows:
    Acting SSA Commissioner--NADE generally supports the testimony 
presented by the Acting Commissioner of Social Security but we were 
disappointed that this testimony did not address the increased costs of 
doing business under the new disability claims process that is being 
tested in the prototype study. SSA has invested much of its pride and 
hopes for the future in this process while refusing to acknowledge the 
increased costs. Nor have they been honest about some of the data and 
the data they have released has not generally supported their position 
that the new process is more efficient and more customer friendly.
    NADE has maintained from the outset that the elimination of the 
reconsideration step in the appeal process would not produce the 
required savings to pay for the enormous costs of implementing the new 
claims process. SSA has only recently acknowledged this to be so and 
delayed the expected national rollout of this new process while they 
seek more information.
    Also, much of the highly touted savings in processing time that SSA 
has used to justify this new process was created simply by the 
elimination of the reconsideration step and not by any new policies 
showcased on the new claims process. Unfortunately, the data appears to 
show that the time saved by the elimination of the reconsideration step 
will be added to the appeals process as the backlogs at the appeals 
process have increased
    Social Security Advisory Board Chairman--NADE is in fundamental 
agreement with SSAB reports and with the testimony presented at this 
hearing
    AFGE--NADE concurs with the statement made by the AFGE spokesperson 
that solving the problems inherent in the Social Security and SSI 
disability program will be a daunting task and will require a multi-
faceted approach. We do not understand, and strongly disagree with, the 
conclusion that many of SSA's disability related problems can be solved 
if SSA rolls out two pilots, namely the Disability Claims Manager (DCM) 
and the Employment Support Representative (ESR). While we have little 
or no experience with the ESR, the superiority of the DCM was vastly 
overstated. While the concept may be feasible, it was never tested in a 
``real world'' situation. Our experience with Prototype (which was 
piloted as the ``Full Process Model'') demonstrates that a process 
which appears successful when piloted must undergo dramatic changes 
when implemented on a larger scale. Production and processing time 
considerations, in addition to resource and staffing concerns, have 
required SSA and the DDSs to implement a number of ``expedients'' 
(shortening the claimant conference, including more of the claimant 
conference information in an initial letter to the claimant, shortening 
the rationale, etc.) in order to process cases. The DCM could not 
survive in its present form if implemented nationally and continuing to 
pilot this process will not add anything to the information already 
gathered.
    National Council of Social Security Management Association--The 
proposal for a Technical Expert for Disability (TED) makes absolutely 
no sense, especially in light of NCSSA's testimony that, ``Field 
offices also cannot keep up with the growing workloads.'' We do agree 
that SSA must address . . . one of the most pervasive problems in the 
initial disability decisionmaking process by improving the quality of 
initial medical transmittals to DEs in the DDSs.'' However, the DDSs do 
not need the Field Offices to develop medical evidence or to assist in 
making the medical decision. Rather, we need them to provide complete, 
accurate applications and detailed descriptive observations when the 
application is taken in person.
    NCDDD--NADE concurs with the testimony presented by NCDDD.
    NTEU--NADE believes that it is absolutely amazing that the solution 
to the problems facing the disability program is the creation of more 
Federal jobs. This is what we see when we read the testimonies 
presented by the spokespersons for the various Federal unions and 
management associations. Based on the testimony presented by NTEU, it 
is clear that they believe that the creation of the Senior Attorney 
program would solve all of the problems in the program.
    Association of Administrative Law Judges--NADE shudders at the 
thought of an independent ALJ corps. SSA presently exercises very 
little control over the Office of Hearings & Appeals and we believe 
that many of the problems in the program can be traced to this very 
fact. OHA has strongly resisted SSA's attempts to introduce change in 
the manner in which OHA conducts its business, a resistance that has 
seriously impaired the ability of SSA to successfully move forward with 
its new disability claims process at the DDS level. SSA needs greater 
control over the Administrative Law Judges. NADE does support a mandate 
that SSA should proceed to develop as soon as possible a single 
presentation of policy--that is that the rules guiding the decisions 
made by the DDSs and the ALJs should be the same. We also agree with 
the assessment that subjecting favorable decisions to more scrutiny 
than unfavorable decisions works to the detriment of the claimants and 
undercuts the perception of fairness and impartiality of agency 
adjudication. NADE has consistently advocated for review of an equal 
percentage of allowances and denials at all levels in the adjudication 
process.
                                                 Sue Heflin
                                                          President

                               <F-dash> 


     National Council of Disability Determination Directors
                                    Lincoln, Nebraska 68512
                                                      July 31, 2001
Hon. E. Clay Shaw, Jr.
Chairman, House Subcommittee on Social Security
U.S. House of Representatives
Washington, D.C. 20515
    Dear Congressman Shaw:
    This responds to your letter of July 13 in which you asked five 
questions in follow up to testimony presented at a hearing on June 28, 
2001. I am happy to have the opportunity to respond to your questions.
    First, you asked if the NCDDD feels that the definition of 
disability, essentially unchanged in 30 years, is in need of review and 
possible revision.
    Certainly a review of the basic definition is in order. The world 
of medicine and the world of work in particular, and our economy and 
our culture in general, have experienced such dramatic changes over the 
past three decades that the original definition delineating the 
requirements for receiving cash disability benefits should be 
reconsidered. In this millenium, there are few, if any, medical 
conditions that can be said to ``preclude any substantial gainful 
activity.'' Persons who are totally without sight, or totally without 
hearing, or confined to wheelchairs are gainfully employed and fully 
participate and contribute to our economy. The Americans with 
Disabilities Act made fundamental changes to retaining and regaining 
the contributions that persons with medical impairments can make to the 
workplace and society. The relationship between the disability program 
and the ADA can be a starting point for re-examining the definition of 
total and permanent disability.
    Second, you asked which elements of the Lewin Report are the most 
important to implement.
    The Lewin Report is a lengthy, detailed, and complex document that 
includes many far reaching and overlapping recommendations. Much work 
among the various components in the disability program will be required 
to sort out and prioritize Lewin's suggestions. Our point is not to 
endorse the report in its entirety, but to urge SSA to start the dialog 
that will be necessary to realize any benefits from the potentially 
valuable report. For too long, the report has been locked in 
bureaucratic inertia and the time is long past to start considering 
some action. The following are among its more important aspects.
    (1) The structure of the disability program is too fragmented with 
too many components responsible for the various pieces of the program 
and too little coordination among those units. We particularly agree 
with Lewin's recommendation that SSA develop a new organizational 
structure that clearly establishes responsibility and authority for the 
disability program across all SSA functions. This would include not 
only operations and quality review but also policy development, 
budgeting, training, and systems design.
    (2) The current model is based on a decades old industrial approach 
to quality control in which end-of-process reviewers check a sample of 
the completed product and report and describe ``errors.'' The primary 
effect is not to educate the frontline workers or to develop their 
abilities but simply to make them fearful of being identified as error 
prone workers. The SSA quality assurance system should place much more 
emphasis on in-line process improvement and much less emphasis on 
finding and reporting on defects.
    (3) The front line workers and the quality reviewers should develop 
a shared definition of what ``quality'' means to replace the current 
process in which they view the concept much differently. Presently, 
front line workers must always simultaneously balance concerns for the 
amount of documentation, the thoroughness of analysis and explanation, 
case processing time, and case costs. The operations definition of 
``quality'' includes all these elements. But at the case review level, 
``thoroughness'' is the only consideration and cost and timeliness of 
case processing are entirely ignored. The result is that operations 
workers on the front lines receive feedback from the quality reviewers 
which is virtually impossible to apply to the reality of the work 
environment. SSA needs to establish a quality concept that all 
components can work toward rather than continue the present model which 
places the components in adversarial positions to one another.
    (4) Lewin recommends that DDSs be responsible for first level 
reviews (which would incorporate emphasis on in-line improvements) and 
that federal resources be used to coordinate and develop the DDS QA 
units rather than to perform direct reviews of the DDS work.
    Third, in regard to the development of information systems, you 
asked what enhancements would be helpful and what SSA is doing toward 
providing these enhancements.
    Our concerns in the area of information systems focus on the 
question of which component will be responsible for designing and 
developing the hardware and software which is critical to our 
operation. The DDSs, as a community, have a history of systems 
development which has been successful both in terms of effectiveness 
and economy. Our systems work every day, and they have been developed 
and are being maintained at very reasonable cost. Most DDSs rely on 
support from the private sector for the maintenance and enhancement of 
the systems that support their business processes.
    But from time to time, SSA introduces major systems initiatives 
without adequate consultation or input from the state agencies. Usually 
these initiatives involve hardware and software replacements which are 
centrally and federally conceived and managed. These initiatives do not 
have a history of success. Most recently, SSA spent most of a decade 
and tens of millions of dollars attempting to develop a replacement 
system called the Redesigned Disability System (RDS). Although the 
great majority of the project has been abandoned, its real cost goes 
well beyond the direct expense. The real cost includes the fact that 
enhancements to the DDS systems was curtailed while RDS consumed, with 
almost no positive result, the vast majority of the resources available 
for systems development.
    One of the key challenges to systems development in the future will 
be adapting the DDS world to the electronic exchange of medical 
evidence. This will soon become critical as the health care community 
adapts its practices to the Health Information Portability and 
Accountability Act. We urge that SSA continue to involve the DDS 
systems personnel in this challenge and to rely upon the local 
development of necessary systems capabilities rather than attempting 
another centralized approach. Because of their placement in state 
government and their varying local circumstances, DDSs must retain 
control of their information processing systems. We also believe it is 
reasonable to consider if systems software development should be a task 
for which the knowledge, skills, and abilities of the private sector, 
by way of the contract process, could be better utilized.
    Fourth, you asked how SSA should change its policy instructions for 
evaluating disability claims.
    As indicated in our testimony, medical policy in the disability 
program is complex, fragmented, and confusing. We have four suggestions 
for changing policy development and implementation.
    (1) policy should be developed and ``enforced'' by the same 
component;
    (2) the presentation and communication of policy should be 
identical among initial level adjudicators, appeals level 
decisionmakers, and quality reviewers--they should all use the same 
policy to make decisions;
    (3) training in the policy should involve more emphasis on ``real 
world'' application rather than being so focused on theory and 
philosophy;
    (4) SSA must reconsider its increasing emphasis on subjective and 
``functional'' considerations and keep in mind that objectivity in 
policy results in more consistent and less costly application.
    Fifth, you asked if NCDDD would like to comment on the testimony of 
the other witnesses at the hearing. We do have a few comments.
    The testimony of Stanford Ross of the Social Security Advisory 
Board was very impressive. NCDDD agrees with the great majority of Mr. 
Ross' comments and recommendations. We take note of the fact that the 
Board, not representing any particular component in the program, is in 
a position to offer an objective and impartial point of view.
    We do disagree with the manner in which two witnesses characterized 
the recently concluded test of the Disability Claims Manager (DCM) 
concept. The test was described as a ``resounding success'' and as 
having shown that the concept ``is a winner'' because it resulted in 
higher levels of customer satisfaction, higher levels of employee 
satisfaction, lower case processing time, and higher productivity all 
at comparable cost. Accuracy of decision-making was described as equal 
to above the traditional process.
    At the time of the hearing, we did not have the draft report of the 
DCM test. Now that we do, we are able to comment on the above 
description of the outcome of the test.
    With regard to administrative costs, the draft report estimates 
that the DCM process was between 6% and 20% more costly than the 
existing process. We believe that this summary figure is understated 
because some cost categories were not included. We doubt that such an 
increase in administrative spending will become available and even if 
it did, we feel it could be better invested in program changes other 
than DCM.
    With regard to accuracy, the correctness of DCM allowance decisions 
was comparable to the control group, but the correctness of denials 
fell short of the regulatory minimum threshold for acceptable 
decisionmaking. Denial accuracy for traditional cases was 93.3% while 
that for DCM cases was 90.1%. The accuracy for non-medical decisions on 
Title XVI cases is not known.
    With regard to processing time, the DCM process did save 10 days on 
Title II cases and 6 days on Title XVI cases. This is a noteworthy 
achievement, but is less impressive than one of the witnesses 
characterized to the committee. The witness stated that

          Average processing time is 73 days. The agency in their FY 
        2002 goals is shooting for 108 days; that is 32 percent better 
        than the agency's goals.

    This statement, while factually correct, could be interpreted to 
state that DCM approach improves processing time by 35 days. In fact, 
it does not. The real gain was about eight days, and this gain was 
achieved only by controlling case receipts, excluding some types of 
complex cases from the workload, and excluding delayed development of 
cases. These controls are not possible in a ``real world'' setting.
    With regard to productivity, SSA's draft report estimates that DCM 
productivity, depending on the model used to measure it, was between 
87% and 108% of the traditional process. But those chosen as personnel 
for the test were historically more productive than their peers, so the 
result may represent an actual loss in productivity.
    Any evaluation of the DCM test must consider the very unusual 
circumstances under which the test was conducted. These included the 
following: the test utilized exceptionally well qualified personnel; 
attrition among the DCM corps was considerably less than for personnel 
handling comparison cases; all of the Federal DCMs received promotions 
for participating in the test; DCMs were able to set limits on the size 
of their caseloads; DCMs were not required to handle some types of 
cases that are regarded as more difficult; and DCMs received amounts of 
training, mentoring, and coaching that are unprecedented in the history 
of the disability program.
    While customer satisfaction was improved under DCM, this may result 
more from the investment of significantly more resources and the 
artificial conditions of the work than from the DCM concept itself. 
Curiously, the increase in customer satisfaction was accompanied by an 
increase in the number of denied applicants who filed for 
reconsideration.
    We do want to thank the state and Federal personnel who undertook 
this pilot, and we will work proactively with SSA in order to glean 
positive results and usable work processes from it. Even so, we must 
point out that the actual outcomes of the test fall far short of what 
was characterized at the hearing.
    Thank you for the opportunity to provide this additional 
information and explanation. Please contact me again if further 
information is desired.
            Sincerely,
                                            Douglas Willman
                                                     Past President

                               <F-dash> 


             National Treasury Employees Union, Chapter 224
                                      Cleveland Heights, Ohio 44118
    Question 1. You asked, ``What do you mean by de-legalize the Office 
of Hearings and Appeals?''
    ``Delegalization'' is the process of eliminating or reducing the 
use, independence and effectiveness of attorneys, whether they are 
ALJs, staff attorneys or claimant's representatives in the disability 
decision process. The disability system has experienced one crisis 
after another since the early 1990's when the Social Security 
Administration failed to timely react to a significant increase in 
disability receipts leading to a disastrous increase in the number of 
cases pending, the disability backlog. In 1994 and 1995 a considerable 
number of claimants were waiting over a year for hearing decisions. By 
the time SSA decided to respond, the situation was entirely out of 
control with the OHA backlog increasing by as many as 10,000 cases a 
month. (I note that for the past 4 months, April to July 2001, the 
backlog has again gone up an average of more than 10,000 cases a 
month.)
    SSA's response then was the overly ambitious and very expensive 
Disability Process Redesign (DPR) that was intended to introduce 
radical changes to the adjudication process over an extended period of 
time. Unfortunately, the individuals charged with the task of dealing 
with the disability backlog used the opportunity to promote their 
philosophical agenda to de-legalize the Office of Hearings and Appeals. 
Unfortunately, the DPR was fundamentally flawed, its scope was too 
large, and the project was poorly planned and executed. Cynthia M. 
Fagnoni, Director of Education, Work force, and Income Security Issues; 
Health, Education, and Human Resources Division of the General 
Accounting Office, testified before the Subcommittees on Social 
Security and Human Resources on October 21, 1999 that,

          The agency's first ambitious redesign plan in 1994 yielded 
        little. When the agency scaled back its plan in 1997, progress 
        was slow, in part because even the scaled-back plan proved to 
        be too large to be kept on track.

    SSA once again has an overly ambitious and very expensive plan, but 
it is not a response to the disability backlog crisis but the cause of 
it. Under the guise of preparing for the future, SSA has implemented 
many of the concepts of the ill-fated Disability Process Redesign under 
the rubric of the Hearings Process Improvement Plan. Delegalization 
begins at the very core of HPI with the elimination of the Senior 
Attorney decision maker. While the name ``Senior Attorney'' remains, 
its effectiveness has been stripped away along with all its decision-
making authority. Similarly, the ``Supervisory Attorney'' position is 
now a ``Group Supervisor'' and is more likely to be filled by a non-
attorney paralegal than an attorney. Attorneys and non-attorneys, 
worried about violating state bar ethical considerations or engaging in 
the unauthorized practice of law must carefully consider whether each 
supervisory directive involves the legal aspects of an attorney's work. 
This is an inefficient process that demoralizes both attorney and 
supervisor. Consistent with this delegalization, attorneys represent a 
much smaller percentage of the individuals responsible for drafting ALJ 
decisions under HPI. Thus, HPI has effectively reduced the use and 
effectiveness of attorneys in the pre-Hearing process, the post-Hearing 
process and in supervision of the process. This ``de-legalization'' has 
helped contribute to the 21.5% increase in processing time since the 
close of January 2000, the month that the Phase I offices implemented 
HPI, and an increase in the backlog of almost 75,000 cases this fiscal 
year alone, more than 44,000 cases in the last 4 months alone.
    Question 2. You asked, ``What oversight is there of Senior 
Attorneys? Who reviews your decisions?''
    While the job title ``Senior Attorney'' continues to be used in 
SSA, the position has no decisionmaking authority and thus there are no 
decisions to review. The Hearing Office Director is the first-line 
supervisor of the current Senior Attorney and the Hearing Office Chief 
Administrative Law Judge is the second-line supervisor.
    In the Senior Attorney program prior to the Hearing Process 
Improvement plan (HPI) Senior Attorneys did issue fully favorable 
decisions. Senior Attorneys were supervised by a Supervisory Attorney 
as the first line supervisor and the Hearing Office Chief 
administrative law judge as the second line supervisor. The fully 
favorable decisions issued by Senior Attorneys were subject to offsite 
quality review by the Office of Quality Assurance and Performance 
Assessment (OQAPA), which reviewed a random sample on a post-
effectuation basis; own motion case reviews of a random sample of cases 
by the Appeals Council on a pre-effectuation basis also was part of the 
review process. Case examination referrals were conducted by OQAPA 
where an OQAPA screened case was selected to meet an automatic profile 
and the case was forwarded to the Appeals Council for consideration of 
own motion review, where appropriate, again on a pre-effectuation 
basis.
    In addition to these review processes, beginning in July 1998 
Supervisory Attorneys in each office were directed to select a random 
sample of approximately 10 percent of Senior Attorney dispositions for 
on-site quality review feedback on a post-effectuation basis. For new 
Senior Attorneys, the Supervisory Attorney was to review at least 50 
percent of the dispositions for the first 3 months. The Supervisor 
completed an on-site review checklist that was provided to the Senior 
Attorney and returned the case file to the Senior Attorney if the 
Supervisor identified a correctable error. On a quarterly basis the 
Supervisor was instructed to collate his or her comments and furnish a 
summary to the regional training coordinator for planning purposes. 
Finally, if the Senior Attorney or an effectuating component, 
discovered an error in a decision or received additional evidence that 
precluded a fully favorable decision, procedures were in place to 
terminate effectuation of the decision and schedule the case for a 
Hearing before an administrative law judge, or for the Appeals Council 
to either vacate the dismissal of the claimant's Request for Hearing or 
reopen and revise the decision of the Senior Attorney, as appropriate.
    NTEU believes that, with minor changes, this same process would 
work well in a new attorney decisionmaker program. Most offices no 
longer have a Supervisory Attorney with supervisory responsibility over 
all attorneys in the office. Such a position must be re-established to 
have an effective on-site quality review program. Further, SSA is 
critically understaffed in the ALJ position and thus ALJs should not be 
removed from production to perform quality reviews of attorney 
decisions. Finally, to be consistent with the SSA Performance Plans, 
decisional accuracy should be based on the ``substantial evidence'' 
standard with the same accuracy goal as that for ALJ decisions, 89% in 
FY2002 and 90% by FY2005. Like ALJs, attorney decisionmakers will need 
training and continuing legal education to attain these goals.
    Question 3. You asked me to comment on my statement that HPI was a 
failure and it appeared to be tailored to enhance ALJ productivity.
    I certainly do not think that SSA intended HPI to increase the 
backlog, increase processing time, decrease production, decrease 
productivity and decrease service to the public, but that is what HPI 
did. Clearly management wanted to enhance ALJ productivity, since they 
eliminated the only other OHA decisionmaker, the Senior Attorney 
decisionmaker.
    If their goal had been merely to increase OHA productivity, rather 
than specifically ALJ productivity, why would they have eliminated a 
program that decreased the backlog, decreased processing time, 
increased production, increased productivity and increased service to 
the public; particularly a program that did it with few added resources 
at a much lower cost per decision than an ALJ decision?
    HPI, however, was based on a number of fundamental misconceptions 
that would have been made apparent had it been tested prior to 
implementation.
    First, it was based on the belief that ALJs spent significant 
amounts of time on the pre-hearing development of their cases. This was 
simply not true. Most ALJs spent time instructing staff as to how they 
wanted their cases developed and staff members actually performed the 
developmental functions. Even if development of the case could be 
effectively delegated, the ALJ could not delegate the pre-hearing 
review of the case necessary for the Judge to prepare for questioning 
the witnesses at the hearing and the later review of the case necessary 
to making a decision on the merits. The Judge has to review the actual 
evidence and no amount of summarization, review by the staff or 
certification can substitute for this. Thus, removing the ALJ from pre-
hearing development saved virtually no ALJ time that could be used for 
ALJs to hold more hearings and decide more cases.
    At the same time, because of the reorganization of the process in 
Hearing Offices, employees worked for groups rather than individual 
ALJs, as was common prior to HPI, and could no longer develop each case 
to meet the requirements of each ALJ. ALJs, who still required that 
cases be developed as they desired thus had to spend more time on pre-
hearing development assuring that all the development they needed was 
obtained. In some offices, the attempts to avoid this problem through 
long and detailed ``standing orders'' got the ALJs the cases developed 
as they desired, but at great expense in terms of staff time and staff 
productivity. In many cases the ALJs associated with a group could not 
agree on ``standing orders'' so none were issued. Therefore, the group 
did not know how the ALJ wanted them to prepare the file. This resulted 
in over-development in some cases, and the need for further development 
in other cases.
    HPI also added the function of certifying that a case was ``Ready 
to Hear.'' Since ALJs had lost significant control over the pre-hearing 
development of the case but not the ability to require that the case be 
developed as they required before they held a hearing, the 
certification that a case was ``Ready to Hear'' was a meaningless waste 
of limited assets that added no value to most cases.
    Most importantly, the designers and directors of HPI failed to 
recognize the skills and abilities required to perform the many 
different tasks in processing cases from docketing the claim to mailing 
the decision when they eliminated ``stove-piping'' and organized the 
office in groups of technicians and analysts. They so under valued the 
work performed by employees that they assumed that everyone could do 
virtually everything with less training than a new crew member gets at 
McDonald's. They promoted many employees out of clerical jobs that they 
did well, into the job of drafting ALJ decisions, a difficult job for 
which many did not have the basic skills and for which they were not 
sufficiently trained. It will take years, if ever, for them to become 
skilled at this job. Those employees that were not promoted were often 
left with even more difficult jobs, with substantial new tasks added to 
all the tasks they had to perform before, again with little if any 
training on how to perform the tasks and no decrease in production 
expectation on the old tasks in spite of the additional duties added. 
In many cases the added tasks were those previously associated with 
lower graded positions, so that those not promoted often found their 
position to have been degraded.
    Finally, HPI failed because OHA employees had neither confidence in 
the plan nor the management that designed it and implemented it. 
Employees correctly viewed the failure to test HPI not as a sign of 
confidence by management that it would be a success but a sign that 
management knew that it would fail the test. It was a common saying by 
OHA employees that the only thing that SSA learned from the failed 
Adjudication Officer pilot was never to pilot a program again. Nothing 
was more damaging than management insisting that HPI ``reduced 
handoffs'' and then producing a flow chart showing fewer hand-offs of 
cases under HPI. It was very clear to all employees that the flow chart 
simply combined or left off many of the steps in the process and that 
the process had many more handoffs than what offices were doing prior 
to HPI.
    By any measure HPI has been a failure. It has not increased ALJ 
productivity even though that was clearly its design. Monthly ALJ 
productivity in FY2001 has approached, but never reached, what it 
averaged in FY2000.
    Question 4. You asked me if I was interested in commenting on the 
testimony provided by other witnesses at the Hearing.
    I was disappointed that Acting Commissioner Massanari did not 
consider the Senior Attorney Program to be very successful. Neither 
Commissioner Chater nor Commissioner Apfel expressed these concerns 
when they authorized and reauthorized Senior Attorney decisionmaker 
programs. One of Social Security Administration's goals is to provide 
claimants with the correct decision at the earliest possible time. When 
the Senior Attorney Program began in 1995 the disability backlog was 
570,000 cases and OHA disability processing time averaged 386 days. 
During the life of the Program Senior Attorneys provided decisions to 
over 200,000 claimants with an average processing time of just over 100 
days. Overall, the backlog was reduced to just over 310,000 cases and 
processing time for all claimants was reduced to just over 260 days. 
Furthermore these attorneys continued to provide most of the decision 
writing support for Administrative Law Judges and the time needed to 
draft ALJ decisions was maintained at approximately 10 days. This 
provided the administration with the flexibility to address workloads 
and allowed the Agency to utilize assets in an efficient, cost 
effective manner.
    I was even more disappointed by Acting Commissioner Massanari's 
misleading statement regarding disability processing time. He reported 
to you that the processing time had been reduced almost 100 days from 
its peak of 397 days in 1997. That is true as far as it goes, but it 
hides the deterioration that has occurred in the last few months. In 
actuality, in large part due to the senior attorney program, processing 
times had been reduced to just over 260 days by January 2000. Overall 
processing time by the end of June 2001 had actually increased to 316 
days (306 days for SSA cases only). Because of the increase in 
processing time and the backlog at OHA, we believe that HPI can 
categorically be described as a failure. Indeed Mr. Ross's statement 
that people view HPI as a disaster seems to be the most accurate 
description of these changes.
    Acting Commissioner Massanari also raised concerns about the 
quality of the decisions rendered. The dramatic improvements in 
processing time and the decreased level of pending produced by the 
Senior Attorney program only represents a true improvement in public 
service if the decisions issued were correct. Had Commissioners Chater 
and Apfel had significant concerns about the quality of the Senior 
Attorney decisions they would not have continued to authorize and 
reauthorize the program from 1995 until November of 2000. The Appeals 
Council reviewed senior attorney decisions using the same criteria they 
use to review administrative law judge decisions and found them to be 
of the same quality. Please see my response to question #2 for more 
information on this point.
    Finally, I note with satisfaction that ALJ Ronald Bernowski, 
President of the ALJ Union, testified that with some changes, re-
institution of the Senior Attorney Program would significantly improve 
the backlog problem at OHA.
                                              James A. Hill
                                                          President

                               <F-dash> 


                   Association of Administrative Law Judges
                                 Milwaukee, Wisconsin 53203
                                                      July 31, 2001
Hon. E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security,
Committee on Ways and Means,
B-316 Rayburn House Office Bldg.
Washington, D.C. 20515
Re: June 28 Hearing on Social Security Disability Programs' Challenges 
and Opportunities
    Dear Mr. Shaw,
    I again thank you for the opportunity to testify before your 
Subcommittee at the hearing on the Social Security Disability Programs' 
Challenges and Opportunities. The following are my answers to the 
questions that you posed in your letter dated July 13, 2001, to 
complete the hearing record, which I submit to you on behalf of the 
Association of administrative law judges (``AALJ''):
    Question 1. You propose an ALJ-administered independent agency and 
that you want a separate budget, not subject to review by the President 
or any executive branch officer, special treatment that an independent 
agency like SSA does not have. Why would the taxpayer and the claimants 
have any confidence in a government agency with few or no controls on 
it through the purse string?
    Response: Congress directly would control the purse string for a 
new independent adjudicative agency for Social Security Act cases, the 
United States Office of Hearings and Appeals (``USOHA''), the same as 
it does for all of the other independent agencies that Congress has 
created. AALJ's recommendation for the administrative budget process of 
a USOHA is identical to that which the Social Security Administration 
(``SSA'') currently has. AALJ's recommendation is substantively the 
same as the provisions of 42 U.S.C. Sec. 904(b), which sets forth the 
budget process for the SSA as an independent agency, including (1) 
having the USOHA Chief Judge prepare an annual budget for the USOHA, 
which would be submitted by the President to the Congress without 
revision, together with the President's annual budget for the USA, (2) 
making appropriations requests for staffing and personnel of the USOHA 
based upon a comprehensive work force plan that is established and 
revised from time to time by the Chief Judge, and (3) appropriations 
for administrative expenses of the USOHA would be authorized to be 
provided on a biennial basis. Thus, the USOHA budget would be subject 
to review by the President, but Congress also would see the budget that 
the Chief Judge of the USOHA prepared in view of only the need to have 
timely and high quality adjudications.
    The degree of independence that an agency has is affected by the 
degree of control that it has in preparing and submitting its budget 
requests to Congress. Budget requests usually are changed by the Office 
of Management and Budget (``OMB''). However, Congress can and has 
permitted independent agencies, including SSA, to submit their budgets 
without revision, so that the Appropriations Committees can compare the 
agency budget with the OMB revisions.
    In order to address the concerns raised by the Social Security 
Advisory Board (``SSAB'') that the SSA has not adequately staffed the 
OHA to produce timely and high quality decisions, Congress may want to 
consider barring OMB from submitting revisions of the new USOHA's 
budget requests, as Congress did for the U.S. Postal Service, 39 U.S.C. 
Sec. 203, 3604, and the U.S. International Trade Commission, 19 U.S.C. 
Sec. 2232. As the SSAB has pointed out in its September 1999 report 
entitled How the Social Security Administration Can Improve Its Service 
to the Public, the SSA's reduced staffing and other tight resource 
constraints has limited its capacity to respond to growing and more 
complex workloads, which has resulted in diminishment in the quality 
and timeliness of program service to the public. pp. 3, 19-20, 47-49.
    The claimant's and taxpayers should have the utmost confidence that 
Congress would provide the funds sufficient to get the work of the 
final administrative appeals of Social Security Act cases done 
efficiently and well without permitting waste. Also, the Chief Judge of 
an independent USOHA would have the one goal of the adjudication of the 
cases in a timely and high quality fashion in setting the budget needed 
to carry out this task, rather than the conflicted goals that currently 
exist within SSA that the SSAB found wanting.
    Question 2. Your proposal basically recommends setting yourself 
separate from all other branches of government because you do not want 
[to] be managed by the Commissioner in the executive branch. The 
Congress sets Social Security policy and the President through his 
Commissioner carries it out and the courts interpret the policy.
    (a) In your proposal, in what part of government will you operate 
and who will you be accountable to?
    Response. The USOHA will be an independent adjudication agency 
within the executive branch that is accountable only to the President 
and Congress. It will function as an independent agency within SSA for 
logistical reasons, but its officers and employees will not be 
supervised by any other part of SSA. (Placing the USOHA within SSA 
results in no new costs for office space and information systems and is 
a practical necessity, given the USOHA's substantial space needs that 
currently are in place at SSA, the need to share the SSA's information 
services and data bases, and the need to use the same case files.)
    The USOHA would have the exclusive jurisdiction to make the final 
administrative decisions of Social Security Act Title II and XVI 
claims. The USOHA will have permissive jurisdiction over other classes 
of cases, so it may hear and decide Medicare cases and other classes of 
cases such as those that the SSA ALJs have heard in the past, which 
have included Black Lung and FDIC cases. The final decisions of the 
USOHA that are made by its appellate panels would be appealed only to 
the Federal courts, with the District Courts as the first step in the 
judicial review.
    (b) If you want to stay within the executive branch, then you will 
have to be accountable to the President of the United States, isn't 
that correct?
    Response: Yes.
    (c) Since the Commissioner carries out Social Security policy for 
the President, will your Chief Judge then have to become the equal of 
the Commissioner in policy execution?
    Response: No. The Chief Judge of an independent USOHA would not 
have any authority to implement Social Security policy. The authority 
to implement Social Security policy would remain exclusively with the 
Commissioner of SSA.
    Only the final administrative adjudication authority of SSA would 
be abolished, including the Appeals Council. The Commissioner of SSA, 
who sets and implements the policy standards for entitlement to Social 
Security Act benefits, will continue to have the power to make only 
initial decisions on Social Security Act claims. However, the 
Commissioner of SSA will retain all authority for all of the 
policymaking, policy-implementation, rulemaking, investigation, and 
prosecutorial functions vested in the SSA by law. An independent USOHA 
would have the power only to render the final administrative 
adjudications of Social Security Act claims, as well as adjudicate any 
other classes of claims that Congress sees fit to authorize the USOHA 
to hear and decide, or that other agencies contract with the USOHA to 
hear and decide.
    (d) How is the public assured that one national Social Security 
disability policy can be maintained?
    Response: The USOHA would be administered centrally by the Chief 
Judge, Principal Deputy Chief Judge, and Deputy Chief Judges from a 
single national headquarters, which makes sense for an agency that 
would adjudicate claimant for national programs. The ten OHA regional 
offices and the position of Regional Chief Judge would be abolished so 
that only one set of support staff and administrative offices, instead 
of 11, will exist. A centralized structure will eliminate 
inconsistencies in the interpretation and communication to the 
administrative law judges of policies that affect the adjudication of 
claims arising out of the national Social Security programs, which has 
been a problem with the OHA regional offices.
    The several Deputy Chief Judges can perform the administrative 
duties of the Regional Chiefs. There will be fewer administrators and 
only one support staff and set of offices at the department 
headquarters, instead of ten support staffs and offices in addition to 
the headquarters staff and offices. Also, having one central office 
will create a more efficient organization, in view of instant modern 
electronic communications such as e-mail and fax.
    Question 3. You mention in your testimony that SSA policymakers 
have the ability to subtly and indirectly incline the Appeals Council 
to more or fewer awards. Can you explain how SSA does this and why?
    Response: Your question is asking about an observation that was 
made by the two authors of a law review article that was an exhaustive 
review of the operation and use of the Appeals Council that was 
published in 1990, which was as follows: ``SSA policymakers 
nevertheless are able to create an adjudicative climate that subtly and 
indirectly inclines the Appeals Council toward more or fewer awards, 
noting that the Appeals Council always reflects, to some extent, the 
interests and style of the OHA Associate Commissioner. Some have 
expressed the view that the Appeals Council is still perceived in some 
quarters as an even more partisan ``arm of the [agency].'' The Fourth 
Bite at the Apple: A Study of the Operation and Utility of the Social 
Security Administration's Appeals Council, Charles H. Koch, Jr. & David 
A. Koplow, 17 Fla. St. U.L. Rev. 199, 236-240 (1990). As is stated in 
my testimony, there is no significant evidence of direct agency 
pressure by SSA upon the ALJs to grant or deny more claims. The article 
expressed a concern that SSA policymakers can use the Appeals Council 
to set a tone as to what is expected and desired in terms of the 
proportion of cases that are granted, even though no examples were 
given. However, there are examples of SSA directing the Appeals Council 
to do ``own motion'' review of only the favorable decisions of ALJs, 
which has the effect of indirectly pressuring ALJs to issue fewer 
favorable decisions. The Appeals Council's administrative appeals 
judges have had no choice in this matter, since they are not 
independent adjudicators, unlike the ALJs, whose independence is 
established by the Administrative Procedure Act.
    The SSA's Bellmon Review Program in the early eighties was a 
process by which SSA had the Appeals Council do ``own motion'' review 
of 25% to 100% of only the favorable decisions issued only by ALJs who 
the SSA had targeted as having high allowance rates of 70% or more. The 
details of how the Bellmon Review was conducted and its impact on the 
ALJs' decisional independence are set forth in Association of 
administrative law Judges v. Heckler, 594 F.Supp. 1132, 1134-1136 
(D.D.C 1984) and Specialized Court, 15 Fla. St. U.L. Rev. at 12-15.
    A Federal district court found that SSA's Bellmon Review Program in 
the eighties had the Appeals Council do ``own motion'' review of 25% to 
100% of only the favorable decisions issued only by ALJs who the SSA 
targeted as having high allowance rates. The court also found that the 
Bellmon Review, together with SSA's practices of non-acquiescence, 
having ALJs who have a high allowance rate attend peer counseling, and 
threatening MSPB disciplinary actions was an ``unremitting focus on 
allowance rates in the individual ALJ portion of the Bellmon Review 
Program [that] created an untenable atmosphere of tension and 
unfairness which violated the spirit of the APA, if no specific 
provision thereof,'' Heckler, 594 F.Supp. at 1139, 1143.
    In 1983, the Subcommittee on Oversight of Government Management of 
the Senate Committee on Governmental Affairs held hearings on the ALJs' 
role in the Title II disability insurance program and issued a report 
that stated its findings:

          The principal findings of the Subcommittee is that the SSA is 
        pressuring its ALJs to reduce the rate at which they allow 
        disabled persons to participate in the Social Security 
        Disability Program . . . [The Subcommittee found that the SSA 
        was limiting the decisional independence of ALJs through its 
        Rulings, its non-acquiescence to Federal court decisions, and 
        its increasing of case quotas that reduced the time an ALJ 
        could spend on each case to develop additional evidence that 
        may support an allowance decision, among other things.] The APA 
        mandates that the ALJ be an independent, impartial adjudicator 
        in the administrative process and in so doing separates the 
        adjudicative and prosecutorial functions of an agency. The ALJ 
        is the only impartial, independent adjudicator available to the 
        claimant in the administrative process, and the only person who 
        stand between the claimant and the whim of agency bias and 
        policy. If the ALJ is subordinated to the role of a mere 
        employee, an instrument and mouthpiece for the SSA, then we 
        will have returned to the days when the agency was both 
        prosecutor and judge.

Sen. Rep. No. 98-111 (September 16, 1983).
    In 1997, the SSA General Counsel publicly rationalized SSA's making 
an end run around the APA to justify the SSA's current Quality 
Assurance Review program practice of having the Appeals Council do 
``own motion'' review of only favorable decisions by all of the ALJs 
and remand them for new proceedings, if they are found to be not 
supported by substantial evidence in the record or defective in any 
respect. This practice subjects the ALJs' favorable decisions to more 
scrutiny than unfavorable decisions, which works to the detriment of 
the claimants and undercuts the perception of fairness and impartiality 
of agency adjudication of administrative claims that the APA is 
intended to foster. The newly independent SSA has decided it is legally 
permissible to again do ``own motion'' review only of favorable 
decisions, just as long as only ALJs with high allowance rates are not 
the only ones whose cases are reviewed. This clearly shows that the 
independent SSA still believes that targeting only favorable decisions 
is permissible and now subjects all of its ALJs to such review. SSA's 
current Quality Assurance Review Program inherently is unfair and 
discourages the granting of benefits by ALJs.
    SSA's use of the Appeal Council in this fashion is an intrusion of 
its policy-implementation function into the adjudication process. The 
intrusion of the policymaking and policy-implementation functions of 
the SSA into the adjudication process is the primary reason why the 
adjudication process must be independent of SSA.
    Question 4. In their testimony, the Advisory Board cited 
variability in disability determinations across states and lack of 
consistency in decisionmaking. Can you tell us how having OHA as a 
separate agency decreases variability in disability determinations and 
help promote consistency in decisionmaking across all states at the 
hearing level of appeals?
    Response: Please the answer to question 2(d).
    Question 5. Please provide your views as to the recommendations of 
the Advisory Board relative to the Office of Hearings and Appeals and 
the appeals process.
    Response: Need for fundamental change. The SSAB makes a very strong 
case in favor of making fundamental changes at the SSA OHA, the concept 
of which was carried over into the title of its most recent report on 
the topic, but it does not present any specific recommendations or 
options for structural reform of the ALJ hearing process or Appeals 
Council process to engender a higher quality or faster handling of the 
caseload. ``Charting the Future of Social Security's Disability 
Programs: The Need for Fundamental Change'' (January 2001) (the ``SSAB 
Report''). The SSAB Report, which was submitted to your Subcommittee, 
makes the point that many support making the individual ALJ decision 
the final decision of the SSA, which would eliminate the Appeals 
Council bottle neck. However, the SSAB Report also correctly points out 
the impracticality of taking this step, since the SSA has shown by 
testing that this would result in a large increase of court appeals.
    SSAB recommendation to improve SSA-ALJ relations. AALJ would 
welcome the improvement of the relationship between SSA's management 
and its administrative law judges.
    SSAB recommendation to have adversarial SSA proceedings and close 
the record after the ALJ hearing. The SSAB's recommendations that the 
SSA be required to have representation at the hearings and that the 
record be fully closed after the hearing before the administrative law 
judge are procedural choices that the new USOHA should be permitted to 
make in its discretion. AALJ has proposed that the USOHA have the 
exclusive power to prescribe such rules of practice and procedure and 
other regulations as it deems necessary or appropriate to carry out the 
adjudicatory functions of the Office of Hearings and Appeals. The 
Administrative Procedure Act provides that ``[a] party is entitled to 
appear in person or by or with counsel or other duly qualified 
representative in an agency proceeding.'' 5 U.S.C. Sec. 555(b). 
Therefore, the SSA, as a party, will have a right to appear on its own 
behalf at the proceedings before the Office of Hearings and Appeals, if 
it wishes to do so, and also may choose to waive its right to appear. 
The USOHA's decisions are for the parties, rather than just on behalf 
of the SSA or the USOHA. The purposes of separation of the appellate 
administrative adjudication process from SSA is to provide more timely 
and higher quality adjudications for the claimants, not to make the 
process more complex and difficult for the claimants to negotiate.
    SSAB recommendation to close the record after the ALJ hearing. SSA 
regulations currently do not close or limit the record at any point in 
the administrative adjudication process. Even at the final step of 
administrative review, the Appeals Council engages in plenary review 
unless it says to the contrary. Sims v. Apfel, 530 U.S. 103, 120 S. Ct. 
2080, 2085-2086, 147 L. Ed. 2d 80 (2000), citing, 20 C.F.R. 
Sec. 404.975. The SSA regulations also state that ``[w]e will consider 
at each step of the review process any information that you present as 
well as all the information in our records.'' 20 C.F.R. 
Sec. 404.900(b). ``The regulations further make clear that the 
[Appeals] Council will `evaluate the entire record,' including `new and 
material evidence,' in determining whether to grant review.'' Sims, 120 
S. Ct. at 2086, quoting, 20 C.F.R. Sec. 404.970(b). The reason the SSA 
keeps the record open is explained by the provision in the ``judicial 
review'' section of the Social Security Act, which authorizes the 
remand of a case when a claimant shows that there is material new 
evidence and there is good cause for not including it in the record 
earlier. 42 U.S.C. Sec. 405(g).
    However, not limiting the documentary record at all results in a 
significant number of additional remands of cases by the Appeals 
Council to the ALJs for a supplemental hearing based upon new evidence 
submitted to it that would not occur if the record were closed at the 
ALJ hearing level. Not closing the record also permits some abuse by a 
few representatives who hold back evidence until the Appeals Council 
level. However, the claimants' advocacy groups oppose closing the 
record because doing so would foreclose the claimants' ability to 
continue to provide evidence of new or worsening impairments as their 
cases progress. Also, while closing the record at the ALJ level would 
reduce the number of Appeals Council remands and abuse of the process, 
there may well be an increase in new applications being filed because 
of new or worsening impairments that occurred after the record was 
closed and thus cannot be considered in the pending case.
    One effective way to address the competing interests in what the 
record should include is to keep the record open without limit for new 
and material medical evidence that is regarding medical treatment that 
occurred on or after the State agency (DDS) determination that is being 
appealed or is newly discovered evidence. New and material documentary 
evidence of treatment that occurred before the appealed State agency 
determination was issued should not be admitted unless good cause is 
shown for why it was not submitted during an earlier proceeding. This 
standard is in keeping with that set forth in the ``judicial review'' 
section of the Social Security Act for the courts, which is described 
above. 42 U.S.C. Sec. 405(g).
    Using the same ``good cause'' standard at all levels will prevent 
the confusion by the claimants and their representatives that would 
occur if different standard were used at different levels. Admitting 
all new and material medical evidence that arose since the date of the 
appealed State agency determination is appropriate at the ALJ level 
because the ALJ hearing is a de novo proceeding. (Admitting such new 
and material medical evidence at the appellate panel/Commission level 
will prevent excessive appeals to the district courts just to get 
remands to consider the new evidence pursuant to 42 U.S.C. 
Sec. 405(g).) Always allowing evidence of new treatment since the last 
determination or decision into the record creates a climate of fairness 
for the claimants. Allowing evidence of new treatment also eliminates 
the need for claimants to file new claims in order to get their new 
evidence reviewed that a closing of the record at the ALJ level would 
require. Setting a ``good cause'' standard for admitting older evidence 
is likely to discourage representatives from holding back existing 
evidence. Finally, a ``good cause'' standard will encourage the State 
agencies to gather all of the documentary evidence to make the record 
complete as possible. A more complete record at the State agency level 
will result in more accurate State agency determinations of disability.
    The proposal for closing the record pertains only to documentary 
evidence. Testimony regarding all relevant periods may be taken at the 
hearing without limit.
    SSAB recommendation of a Review Board as an Appeals Council 
substitute: Although the SSAB Report also correctly states that the 
Appeals Council model needs to be changed, its suggestion that another 
small body be substituted for the Appeals Council, namely a Review 
Board, which will have the same quality and timeliness issues as the 
Appeals Council, will not be an improvement. No small body of less than 
30 people, such as the Appeals Council or a Board or Commission, 
effectively can handle the caseload, which now is over 115,000 cases 
per year.
    The use of panels of ALJs as the final administrative step, instead 
of the Appeals Council, likely will have the same impact as the use of 
Bankruptcy Judge panels in lieu of District Court review: faster and 
higher quality decisions that are appealed less often and, when they 
are appealed, affirmed more often. The relatively high number of SSA 
ALJs, now about 1,000, provides a large pool of locally available 
adjudicators who are available for such work.
    The AALJ proposal for a new adjudication agency is a detailed and 
practical blueprint to improve the Social Security disability process. 
The AALJ proposal would improve the timeliness and quality of ALJ and 
final administrative review decisions which, at the same time, likely 
will reduce the claimant's need to resort to Federal court review and 
thus reduce the Federal court Social Security caseload. The process 
AALJ is proposing is realistic in terms of handling the large caseload, 
which I respectfully submit is not the case for the Board suggested by 
the SSAB. SSAB correctly recognizes the need for change, but relies on 
the creation of a small body, a Board, that would suffer from the same 
problems of low decision quality and untimely action as the SSA Appeals 
Council, another small body, has had for years.
    SSAB recommendation of an Article I court as a District Court 
substitute: Regarding judicial review at the District Court level, the 
SSAB did not make a convincing case in its SSAB Report for its 
suggestion that there is a need to replace the District Court with an 
Article I court. The pressing issue is to improve the final 
administrative adjudication process so that fewer claimants feel a need 
to resort to judicial review. This will result in fewer appeals to the 
courts. The final decisions of the USOHA that are made by its appellate 
panels would be appealed only to the federal courts, with the District 
Courts as the first step in the judicial review. A District Court 
appeal step is essential for several reasons: (1) The huge size of the 
Social Security appellate caseload would overwhelm the Circuit Courts 
if the District Court step is removed. An Article I court as a 
substitute for the District Courts would suffer from the same problems 
of being too small to effectively handle the caseload that the Appeals 
Council does. (2) Retaining District Court judicial review keeps local 
decisional generalists in the appeals chain who are sensitive to due 
process concerns, including adherence to the Administrative Procedure 
Act. (3) Social Security claimants have come to rely on the 
availability of the District Courts as a part of the judicial review 
due process. (4) Congress has a demonstrated preference for local 
control and decisionmaking with Social Security programs. (5) It is 
desirable to retain local access to the judicial review process for the 
often indigent Social Security claimants.
    Also, as is stated above, there are several practical reasons to 
maintain the District Court appeal step for the claimants. These 
include the massive Social Security appellate caseload, which would 
overwhelm an Article I court of the small size typically created by 
Congress and result in the same quality and timeliness issues that have 
plagued the Appeals Council, another small body with an unmanageable 
caseload.
    As of September 30, 1999, and September 30, 2000, the numbers of 
Social Security cases filed in the District Courts throughout the 
country during the preceding year were 13,320 and 15,829, respectively. 
Title II and Title XVI claims made up 99% of the cases in both 1999 and 
2000. As of September 30, 1999, and September 30, 2000, the numbers of 
all civil cases filed in the District Courts throughout the country 
during the preceding year were 260,271 and 259,517, respectively. 
Judicial Business of the United States Courts: 1999 and 2000 Annual 
Reports of the Director, Tables S-7, S-9. Article I courts are small 
courts. The U.S. Court of Federal Claims has 16 judges, the U.S. Tax 
Court has 19 judges, and the U.S. Court of Appeals for Veterans Claims 
has 7 judges. As of October 1, 1999, there were 600 active and 334 
senior District Court Judges, for a total of 934 Judges. As of February 
1, 2001, there were 599 active and 342 senior District Court Judges, 
for a total of 941 Judges. Administrative Offices of the U.S. Courts, 
Statistical Report for Justices and Judges of the United States, 
October 1, 1999, and February 1, 2001. These numbers suggest that an 
Article I Social Security Court would require at least 50 to 75 judges 
to handle the caseload in a timely and high quality manner.
    SSAB recommendation of a specialized Social Security Court of 
Appeals as a regional Circuit Courts of Appeal substitute: Under the 
AALJ proposal, the appeals from the District Courts will remain with 
the regional Circuit Courts of Appeal, as they do now, rather than go 
only to the D.C. Circuit or the Federal Circuit. Even with District 
Court review, placing all of the Social Security Circuit-level appeals 
in either of these courts would increase their workload by over 50%. 
The SSAB's suggestion of a specialized Social Security Court of Appeals 
in its SSAB Report superficially may sound attractive as a device to 
have one national interpretation of the Social Security Act. However, 
the SSAB does not demonstrate a strong need for such a specialized 
court. First, as SSAB points out, the Supreme Court already serves the 
function of providing a national interpretation of the Social Security 
Act, and having the regional circuits address the issues allows for 
legal debate that would otherwise not occur. Second, continuing to have 
the appeals go to the regional Circuits allows somewhat local access to 
the claimants. This is the same procedure as for appeals from both 
Bankruptcy Court decisions after District Court review and Tax Court 
decisions, which are appealed to the regional Circuits, which makes 
sense since they also serve individual claimants throughout the country 
who often have limited means. (Although the Tax Court is based in 
Washington, D.C., it sits throughout the country.) Regional circuit 
review has worked for tax and bankruptcy cases, despite the obviously 
strong argument that a single standard for construing the tax and 
bankruptcy laws is desirable so that they are applied the same to 
everyone. Finally, the regional circuits are not being overrun with 
Social Security cases. During the years that ended on September 30, 
1999, and September 30, 2000, only 891 and 845 Social Security cases 
respectively were filed with the regional Circuit Courts of Appeals. 
Judicial Business, 1999 and 2000 Reports, Table B-1A. This is less than 
2 percent of the 54,693 cases that were filed in 1999 and 54,697 cases 
filed in 2000 in the regional Circuit Courts. Judicial Business, 1999 
and 2000 Reports, Table B.
    No substantive changes in the process of judicial review after the 
final administrative decision are recommended by AALJ, other than to 
amend the Social Security Act to reflect that judicial review will be 
from the final decisions of the new agency, not the SSA. Our 
recommendations pertain only to the appellate administrative 
adjudication process that results in a final administrative decision of 
the claimants' entitlement to Social Security benefits, since that is 
where the problems lie.
    Question 6. How would an independent OHA agency be more successful 
at handling the huge appellate administrative caseload? How would OHA 
revise its processes to reduce the time spent waiting for an appeal 
decision?
    Response: The USOHA will have a two tier appellate process: a 
decision after a hearing by an ALJ and then an appeal to a local panel 
of three ALJs akin to the Bankruptcy Court Appellate Panel model. The 
Appellate Panels will be required to give deference to the individual 
ALJs' decisions, if they are supported by substantial evidence in the 
record. Deference will end the Appeals Council's current practice of 
just substituting its opinion for that of the individual ALJs, which 
has been criticized by the SSAB.
    The two tier appellate process is modeled in principal on the 
Bankruptcy Court Appellate Panel statute, 28 U.S.C. Sec. 158. 
Individual ALJs' decisions would be appealed to appellate panels 
staffed by ALJs, each of which would consist of three ALJs who would 
review the cases locally. The appellate panel step would be the final 
and exclusive level of administrative appellate review. The USOHA would 
establish a Social Security Appellate Panel Service in each region 
composed only of ALJs from the hearing offices in each region. A 
sufficient number of appellate panels would be designated so that 
appeals may be heard and disposed of expeditiously. An ALJ may not hear 
an appeal of a case from his/her own hearing office. This also would be 
a good assignment for senior judges.
    The appellate panels would be akin to the Bankruptcy Court 
appellate panels and is one of the key features that makes the ALJ 
self-administration model superior to the current SSA Appeals Council 
model or a Commission or Board model, all of which are small bodies 
that cannot timely and effectively handle a heavy caseload. The 
Bankruptcy Court system is another nationwide network of tribunals that 
hears a high volume of cases in a specialized area that is generated 
mostly from individual petitioners. There are 92 Bankruptcy Courts 
situated in proximity to the District Courts. 28 U.S.C. Sec. 152. There 
are 140 Social Security hearing offices. Over 1,300,000 cases were 
filed in Bankruptcy Court in 1999. Judicial Business of the United 
States Courts: 1999 Annual Report of the Director, Table F. Over 
500,000 cases are brought before Social Security ALJs every year. 
Accordingly, Social Security claimants can benefit from the use of an 
appellate system that demonstrably works on a large scale.
    The Bankruptcy Court Appellate panels have a short average 
disposition time, which was only 75 days in the Ninth Circuit in 1994. 
The Establishment of Bankruptcy Panels Under the Bankruptcy Reform Act 
1994: Historical Background and Sixth Circuit Analysis, Tisha Morris, 
26 U. Memphis L. Rev. 1501, 1530 (1996). The large pool of over 1,000 
ALJs permits the timely determination of appeals, which has not 
occurred with the Appeals Council, despite the SSA's implementation of 
the recent Appeals Council Process Improvement plan. Timely and high 
quality review also cannot occur with a Board or Commission, which 
likely will not have more than 12 members and would have to resort to 
hiring Appeals Council-type reviewers to handle the caseload.
    In addition to being an appellate system that timely can handle a 
large caseload, the appellate panel system has several other benefits 
that would afford high quality service to the Social Security claimants 
and likely reduce the requests for judicial review. Based upon the 
Bankruptcy Court experience, the appellate panel model (1) is an 
appellate system that can handle a large caseload, (2) results in a 
shorter disposition time because the large pool of about 1,000 ALJs 
throughout the United States permits the timely determination of 
appeals that cannot take place with a small body such as the Appeals 
Council or a Commission or Board, (3) results in higher quality 
decisions because of expertise, (4) results in substantially fewer 
appeals to the courts and a substantially lower reversal rate by the 
courts because of the confidence in the high quality of the decisions, 
which reflects a higher degree of decision accuracy, (5) results in a 
substantially reduced Federal court caseload, and (6) affords the 
claimants access to a local administrative appellate process.
    As is stated in answer 2(d), the USOHA will be run as nationally, 
rather than regionally, administered operation to provide centralized 
and efficient adjudication service for the national Social Security 
programs.
    Question 7. We would be interested in any comments you would like 
to make on testimony provided by other witnesses at the hearing.
    Response: The testimony of the Honorable Stanford Ross, the 
Chairman of the SSAB, and the witnesses for the six SSA and DDS 
employee organizations were consistent in their statements that SSA's 
recent reorganization of the hearing level of OHA operations, which is 
called the Hearing Process Improvement plan, has failed and resulted in 
an increasing backlog of cases waiting for a hearing, longer processing 
times for claimants to receive a hearing and decision of their cases, 
and lower quality decisions. Also Mr. Ross stated that ``the entire 
role of the Appeals Council should be carefully considered in terms of 
how well it is performing its functions.' All of the witnesses who 
commented on the OHA process agreed that fundamental change in the 
administration and structure of OHA is needed at the hearing and/or 
Appeals Council levels to achieve timely and high quality adjudications 
for the members of the American public who apply for Social Security 
benefits.
    I gladly will provide any additional information that you wish.
            Sincerely,
                                         Ronald G. Bernoski
                                                          President

                               <F-dash> 


    [Submissions for the record follow:]

  Statement of the American Federation of State, County and Municipal 
                           Employees, AFL-CIO

    These comments are submitted on behalf of the 1.3 million members 
of the American Federation of State, County and Municipal Employees 
(AFSCME), AFL-CIO. AFSCME represents unionized workers in state and 
local government, and health care facilities around the country. AFSCME 
members work in state Disability Determination Services (DDS) and our 
members who become disabled rely upon the benefits provided by the 
federal disability programs. One of our members served on the Social 
Security Administration's (SSA) Redesign Internal Advisory Committee 
and our members staffed some of the Redesign working groups.
    Our members working in state disability determination offices (DDS) 
perform the medical portion of the federal disability claims. AFSCME 
respresents adjudicators, medical and psychological consultants, and 
support and technical staff. Our members are very concerned about the 
future of the disability programs because they see first hand some of 
the failures of the current system and have specific recommendations on 
how to improve the program. Many of their concerns are similar to those 
in the report of the Social Security Advisory Board's Report, Charting 
the Future of Social Security's Disability Programs: The need for 
Fundamental Change, January 2001 [hereinafter, the Advisory Board 
Report].
    Our comments address two major issues: the Redesign proposal and 
the issue of caseloads and workloads in the context of Redesign and the 
projected increase in beneficiaries.
    Redesign raises many of the issues that the Social Security 
Administration and the state Disability Determination Offices face in 
the future. The Social Security Administration is to be commended for 
its efforts to make the application system more user-friendly and 
decrease the case processing time. Everyone agrees that the system 
needs improvements. However, AFSCME is very concerned that the current 
Redesign prototype will not improve the system. Indeed, without 
additional resources for the proposed system that will be implemented 
over a period when the caseload is expected to increase, matters will 
only get worse for claimants.
    AFSCME opposes Redesign's elimination of the requirement that a 
physician sign off on applications. Both our members who are 
adjudicators and our members who are physicians oppose this proposal. 
Although we appreciate the function and importance of disability 
examiners, they are not licensed medical consultants. This provision 
would undermine medical licensure laws by permitting disability 
examiners to make what are often sophisticated medical judgments. 
Determination of a disability is a very complex process, based on 
objective medical impairments. Elimination of the mandatory sign-off by 
a medical does not contribute to the goals of redesign, which are: to 
allow claims at the earliest point in the process, provide more 
opportunity for claimant interaction with the decision maker and reduce 
the amount of case processing time.
    It is our belief that only persons trained as physicians can make 
an accurate medical assessment of a claim for medical disability. If 
SSA eliminates the requirement for physician involvement in each claim, 
the program will no longer be a benefit program for people with 
medically determinable physical or mental impairments. Without 
mandatory physician involvement, there will no medical determination. 
Eliminating the physicians' role will not address the variance in 
allowance rates between the DDS and the administrative law judges. 
Rather, process unification should accomplish this.
    We are aware the future of the Redesign is uncertain, but even if 
the Redesign is not implemented and the current system remains with 
minor changes, policy makers must address the issue of workloads and 
caseloads in the context of providing sufficient resources to staff 
state disability offices. The issue of high staff turnover, an issue of 
concern in the Advisory Board Report, relates back to the issue of high 
caseloads and workloads. Each step added to the determination process 
adds additional case processing time, thereby increasing each 
adjudicator's workload.
    Redesign highlights the issue of workloads and caseloads because 
the prototype adds additional case processing time to the initial 
determination by requiring the informal disability conference prior to 
a denial of a claim and requiring a detailed rationale for a denial. 
The informal disability conference and the writing of the detailed 
rationale for the denial can add up to two hours to each denial. 
Imposing additional responsibilities to the workloads of disability 
examiners without reducing caseloads could have an adverse impact on 
the quality of the decision, and a negative impact on the state's 
performance rating and, more important, on the claimant.
    AFSCME is also concerned about the impact of the Redesign prototype 
on the current caseloads. Staff working in the Redesign prototype are 
assigned fewer cases than those not working on the prototype cases, 
creating a large backlog of cases in prototype states. The Advisory 
Board Report indicated that generally backlogs are climbing 
dramatically in state agencies. The backlog will increase if more 
states institute the prototype. If Redesign is implemented as currently 
proposed, and SSA does not give DDS the resources to hire additional 
adjudicators, backlogs will increase and service to claimants will 
decline.
    The Advisory Board Report also found that heavy workloads are 
causing employees stress and staff attrition, with attrition rates 
climbing to 21 percent or higher. This is especially disturbing because 
it takes at least two years to train a disability examiner. Also, many 
disability examiners who are seasoned veterans will be retiring in the 
upcoming years, presenting more challenges to state and federal 
agencies.
    The Advisory Board Report projects the number of DI beneficiaries 
to increase by nearly 50 percent and the number of SSI beneficiaries to 
increase by 15 percent. These dramatic increases will put enormous 
burdens on state and federal agencies.
    AFSCME is concerned that the Social Security Administration (SSA) 
is poised to implement the prototype nationally. The Advisory Board 
Report raised several issues that should be addressed before major 
changes in the disability determination process are implemented. We 
agree with the Advisory Board Report caution against national 
implementation of the prototype until administrative capacity is 
increased.
    The Advisory Board Report recommended that there be federal 
guidelines for educational requirements and staff training to improve 
quality. If SSA decides to implement a national certification program, 
it is important that all stakeholders participate in developing this 
program, including unions representing state workers.
    The federal government pays one hundred percent of the state agency 
personnel costs. Therefore, it is up to the federal government to 
decide what kind of program they will operate. We urge that it be one 
that provides claimants first class service by giving the states 
sufficient resources to hire sufficient staff to operate a quality 
program.
    AFSCME is submitting these comments on behalf of our members. 
However, in future hearings our members would be available to testify 
before this Committee so that members of the Committee can hear first 
hand from the frontline workers how the system can be improved and 
better serve the people who rely upon it for their financial security.

                               <F-dash> 


 Statement of Elizabeth B. Dameron, President, Association of Attorney 
                  Advisors, Greenville, South Carolina

    The Association of Attorney Advisors is the national professional 
organization of attorneys who work for the Office of Hearings and 
Appeals. Our members consist of bargaining unit attorney-advisors, 
senior attorney-advisors, processing group supervisors, hearing office 
directors, and Appeals Council analysts. Our common goal is to promote 
the role and professionalism of attorneys in OHA.
    As the attorneys of OHA have many concerns about the effects of the 
HPI process, the Association of Attorney Advisors greatly appreciates 
the importance of this series of hearings, and commends the 
Subcommittee for its proactive stance on the issues. As demonstrated by 
the testimony offered on June 28, 2001, no one questions the necessity 
of refining the disability programs of Social Security, particularly 
the hearing process. As is also demonstrated by the testimony, there 
are as many opinions as to how the process could be improved as there 
are witnesses on this issue.
    OHA attorneys are uniquely qualified by their education, 
experience, and role in the current HPI process to provide an 
employee's insight on the process to the Subcommittee. As a group, we 
produced the only successful and efficient redesign component to date--
the Article 7, Short Term Disability Project's Senior Attorney Project. 
The success of this project, despite significant lack of support by 
management in some hearing offices, the Administrative Law Judges as a 
group, and by the Agency, was the result of a concerted effort by the 
attorney-advisors. It was not only through the efforts of the senior 
attorneys themselves that made this project a demonstrated success, but 
it was also the efforts of those attorneys who were not acting as 
senior attorneys and who continued to diligently draft decisions for 
the Administrative Law Judges. As NTEU Chapter 224 President Jim Hill 
stated in his testimony before this Subcommittee, not only did the 
Senior Attorney project produce decisions, it did so in the setting of 
unprecedented Administrative Law Judge production levels. Those 
production levels were, in large and pertinent part, the result of the 
non-senior attorneys drafting Administrative Law Judge decisions so 
that the senior attorneys could concentrate on producing their own 
workload.
    Imagine then, how utterly insulting and demoralizing it was and is 
for those same attorneys to have the Agency denigrate their efforts and 
refuse to include the demonstrated successful components of the Senior 
Attorney program into HPI. Imagine how frustrating it is to watch 
application receipts escalate and production levels stagnate and fall, 
knowing you could be making a significant and meaningful contribution 
to serving the disability claimants, but not being allowed to do so. 
This is the situation in which the attorney advisors of OHA currently 
find themselves. The agency is not reaping the possible benefits of our 
education and talents. We could be used in a much more productive and 
meaningful manner, yet our duties and responsibilities have been 
diluted and our significant contributions trivialized. Ronald Bernoski, 
in his testimony as president of the Association of Administrative Law 
Judges, pointed out the incongruous fact that no additional attorney 
positions were included in HPI--while 350 promotions to the 
``paralegal'' writer position were created for non-attorney employees. 
Surely nothing more needs to be said about a process in which it is 
considered advantageous to deliberately hire less educated employees at 
the same salary as licensed attorneys to perform the vital role of 
creating the ultimate result of the OHA process, the decision itself.
    Rather than having a meaningful and professional role in the 
Hearing Process Improvement process, OHA attorneys are forced to take 
on more counterproductive responsibilities with no control over their 
work product. In addition to writing decisions, we are asked to screen 
cases for possible on the record payment, but can do no more than make 
recommendations. We are asked to screen cases for hearing readiness, 
but told to do so in only the most cursory and superficial manner 
possible, which not only is a waste of our time, but essentially 
eviscerates the pre-hearing work-up goals of HPI. We are asked to write 
more and more decisions, but to do so only by balancing our other new 
duties. The effect of this is that decision writing productivity has 
decreased. The hands of the attorneys of OHA have been tied behind our 
backs as we watch the agency's backlog increase to what must inevitably 
become unprecedented numbers. Given responses to recently distributed 
surveys to the members of the Association of Attorney Advisors, and my 
own conversations with members across the nation, it is fair to state 
that current morale and job satisfaction among attorneys is dismal at 
best.
    As the appellate branch of the Social Security process, OHA finds 
itself squarely in the center of the traditional conflict between 
science and the humanities. At the initial and reconsideration levels, 
disability decisions are much more influenced by purely medical 
concerns, even in the setting of process unification. Only when a claim 
is at OHA does the adjudicator face the claimant and solicit testimony 
under oath. Only at OHA are the subjective and highly individualized 
concepts of pain and credibility fully addressed. This heightened 
attention to the individual, to the human involved in the process, is 
both the pride and the bane of OHA. It is our pride in that each 
individual claimant is afforded notice and the opportunity to be 
heard--due process--the cornerstone of our legal philosophy. The bane--
in that providing due process absolutely defies quantification--is that 
quantification is the goal that must always be near to the hearts of 
the bureaucrats charged with administering this overwhelmingly large 
public program.
    The Hearing Process Improvement plan, or HPI, is an attempt to 
quantify what we do at OHA. While certainly our process must be as 
efficient as possible, it is apparent that HPI, in its current form, is 
not the answer. In the prior testimony, others have set out the 
statistics which document its shortcomings. The Association of Attorney 
Advisors wishes merely to offer our proven and effective services to 
the Agency--again. We could certainly be used in a more effective 
manner by restoring the senior attorney program as it was, to include 
signature authority for cases which could be paid without a hearing. 
The statistics from that now defunct program show a documented process 
which could begin to stem the ever growing backlog of cases being 
caused by HPI. I would also like to note that the old senior attorney 
program did not infringe upon the workload of the Administrative Law 
Judges. In fact, it was an excellent complement to the hearing process. 
Furthermore, all OHA attorneys are trained and ready to assume these 
responsibilities, and we can immediately show positive results by 
beginning to issue fully favorable on-the-record decisions on the cases 
we have already pre-screened while still drafting decisions for the 
Administrative Law Judges.
    In his testimony, Jim Hill, president of NTEU Chapter 224, one of 
the two unions which represents attorneys in OHA, set out his proposal 
for a return to and expansion of the Senior Attorney program. Based on 
input received in member surveys, the Association of Attorney Advisors 
supports Mr. Hill's proposal. We are also very interested in exploring 
other avenues in which we can use our education and experience to 
maximize service to disability claimants. Mr. Hill touched on this in 
the third recommendation he made in his testimony, i.e., to examine the 
implementation of alternative attorney decision makers in OHA. Stanford 
G. Ross, Chairman of the Social Security Advisory Board, suggests that 
the Agency should be represented by attorneys at the OHA level hearing. 
This intriguing suggestion, which would not only assist claimants, but 
would also benefit your other constituents and tax payers, is also 
contained in the SSAB's January 2001 statement. At this point, it is 
safe to say that OHA attorneys are essentially an untapped and 
unrealized resource. The Association of Attorney Advisors 
wholeheartedly embraces the exploration of ways to expand and enhance 
the role of attorneys in the disability adjudication process.
    In conclusion, as president of the Association, I commend the 
Subcommittee on its interest in the increasingly disturbing challenges 
facing Social Security Disability Programs. Our Association is 
committed to expanding the role of attorneys at OHA to best serve the 
Agency, OHA, and the individual disability claimant. We ask to have a 
voice in and be made a party to the changes that effect us all.

                               <F-dash> 


          Statement of Al Cannistraro, Clifton Park, New York

    The vast majority of disability determinations at all levels turn 
on an assessment of the claimant's physical and/or mental functional 
abilities and how they relate to the requirements of past work or other 
kinds of work to which the claimant might reasonably be expected to be 
able to adjust. In other words, a kind of equation is postulated with 
functional abilities on one side and the demands of work on the other. 
It is my suggestion that Congress fund research to bolster both sides 
of the equation.
    I also suggest the funding of a study of generic ``sedentary 
work.''
    Assessments of functional abilities are made, by and large, without 
reference to any underlying scientific principles, academic body of 
knowledge, or empirical research. This is a void that I feel Congress 
should consider filling through funded research.
    In my opinion, functional assessments tend to be subjective, 
depending on the frame of reference and experience base of the assessor 
and perhaps also reflecting local and organizational customs and 
values. Therefore, it is not surprising that the Social Security 
Advisory Board recently found a lack of national consistency in 
adjudicative outcomes. (See Agenda for Social Security: Challenges for 
the New Congress and the New Administration, Social Security Advisory 
Board, February 2001, page 7.)
    On the other side of the equation, it is suggested that Congress 
consider funding continuing research into the physical and mental 
requirements of jobs as they are performed in the current era. The 
Dictionary of Occupational Titles (DOT), a reference work that was 
compiled by the Department of Labor, is outdated and not being kept 
current. The DOT has been the primary source of information available 
to adjudicators when they seek information about the demands and other 
characteristics of jobs in the national economy.
    Additionally, it is suggested that Congress initiate a study of 
``sedentary work'' and the ways in which generically sedentary jobs 
might easily be adapted for individuals who cannot (or prefer not to) 
sit continually at traditional desks and tables. The inability to meet 
the physical demands of sedentary work is currently a gateway to 
disability benefits for so many individuals who, for medical reasons, 
cannot sit at a traditional desk or table for six hours out of eight on 
a full-time basis.
    For example, it is my thesis that if the traditional (lower) desk/
chair setup were to be replaced by a higher bench/stool arrangement 
that would permit workers to sit, lean or stand according to their own 
needs and preferences, then individuals who cannot sit full-time might 
still be able to work full-time at jobs that are traditionally 
considered to be ``sedentary.''
    Personal information: I have been employed by a state Disability 
Determinations Service continuously for over 27 years, much of that 
time as an adjudicator, and I have a masters degree in disability 
determinations from New York University. I currently serve as a 
supervisory level Administrative Hearing Officer whose work unit 
adjudicates appeals of determinations to cease disability benefits due 
to medical improvement or other reasons. My staff and I act as single 
decision-makers in the appeals that we adjudicate.
    Thank you for the opportunity to comment.

                               <F-dash> 


                                 Knoxville, Tennessee 37929
                                                      July 11, 2001
Subcommittee on Social Security
c/o Allison Giles, Chief of Staff
Committee on Ways and Means
1102 Longworth House Office Building
Washington, D.C. 20515
Re: Social Security Disability Determination--Finally Learning from 
Past Mistakes? OHA in the 21st Century
    Dear Committee Members:
    OHA is facing another workload ``boom''
    There is no question that the workload of the Office of Hearings 
and Appeals (OHA) component of the Social Security Administration (SSA) 
is cyclical. Similarly, there is no real question that another ``boom'' 
cycle is beginning to hit OHA. The ``baby boomer'' generation is 
reaching the age where disability claims peak. OHA and SSA are about to 
get hit by a wave of new claims like it did in the early 1990's. Such 
surges have always caused long delays at all levels of disability 
determination. OHA's workload will be expanded further due to changes 
in Medicare law. The Medicare changes are about to generate thousands 
of additional hearings.
    OHA's workload is also strained by DDS/SSA actions at the 
prehearing level. Some DDS's routinely ignore regulatory requirements 
regarding evidentiary development, leaving OHA personnel to request 
mandated follow-up. Some DDS's routinely deny cases with only minimal 
rationale for their determinations. This can result in erroneous 
determinations and in any case makes comparison point determinations 
much more time consuming. All but a few DDS's have been ordered not to 
implement the 1996 PUTT rulings, which require improved evidentiary 
development in keeping with longstanding regulatory requirements; 
provide more detailed rationale for their determinations; follow 
regulatory requirements regarding the weight of evidence, etc. (see, 
the May 2, 2001 Disability Determination Services Administrators' 
Letter, No. 566 from Deputy Commissioner Kenneth D. Nibali to all DDS 
administrators).
    Resulting delays at OHA have often been particularly long. There 
are many reasons for this effect. There are reasons both within and 
outside the control of OHA management. The major reason is the level of 
staffing. OHA is a relatively small component with SSA. An increase in 
workload always has a greater impact on a smaller workforce. OHA often 
has not been able to add staff to deal with ``boom'' periods. 
``Downsizing'' the federal government has been a priority for years, 
pushing to cut the ``fat'' from the government payroll. However, the 
axe has been cutting away a frightening amount of ``meat'' at the local 
hearing office level. It has become very difficult to even hire 
replacements for employees who leave an office. Increasing staff to 
prepare for approaching workload surges or predictable attrition has 
been out of the question.
    The ALJ corps has been shrinking for several years. None have been 
hired since 1997. The number of ALJs was about 1050 as recently as 
1999. The current total is continuing to decline toward 950. Hiring 
replacements under the current selection process will be very 
difficult, if not impossible, for the foreseeable future. Acting 
Commissioner Massanari testified that SSA wanted to hire 120 new ALJs 
now. Closer to 1200 adjudicators will be needed soon. The judge in 
Azdell v. OPM has stayed OPM from issuing any certificates of ALJ 
candidates through August 13, 2001. The case is very complex. There are 
a large number of intervening parties with very divergent interests. 
Given these factors, I believe an early resolution is very doubtful. I 
would not be surprised if OPM is prevented from issuing a certificate 
until 2002 at the earliest.
    The support staff for ALJs has also been shrinking, in particular, 
the legally trained staff available to draft decisions for and provide 
assistance to ALJs. The last hiring of attorneys in significant numbers 
was in 1995, when 500 temporary Attorney-Advisors were hired. In spite 
of the conversion to permanent status of many of the temporaries, the 
total number of OHA Attorney-Advisors has declined since 1995 and many 
of those have been assigned duties in addition to the traditional 
decision drafting and research duties.
HPI--an attempt to prepare
    The Hearing Process Improvement (HPI) initiative is a large scale 
attempt to allow OHA ``to do more with less'', to help deal with the 
increase. I believe it is too early to tell how successful or 
unsuccessful HPI will be in the long run. However, the productivity 
gains predicted prior to implementation certainly appear unduly 
optimistic. Except for the recent drop arising in conjunction with HPI 
implementation, productivity per employee at OHA had steadily climbed 
during the 1990's. New PC's, improved software and improved 
organizational structure can and has often helped OHA employees become 
more productive. More such gains are still possible. However, there are 
many tasks involved in adjudication that take time and must be allowed 
to take time. It takes time to read, review and analyze the evidence in 
a file, hold a hearing, reach a decision, draft a written decision and 
edit it. While there are certainly techniques that can be used to speed 
up these tasks, there is no question that the proverb ``haste makes 
waste'' applies. Would you want one of your family members to receive a 
decision drafted in twenty minutes, on the instructions of an 
Administrative Law Judge, who reviewed the file for ten minutes and 
held a three minute hearing? No one can reasonably expect a fair 
determination from such a setting. Furthermore, none of these functions 
[with the occasional exception of holding the hearing], can be omitted.
    Another major function of the disability determination process that 
requires extensive time is evidentiary development. Not only is this 
process time intensive, but since it depends on the cooperation of 
third parties, it is outside of OHA's and SSA's control! Setting strict 
informal deadlines for the submission of evidence is not consistent 
with current Social Security law. Speeding case processing by 
shortcutting at this step will result in improper determinations. 
Medical evidence favorable to the claimant would often not entered in 
the record at early stages of the process, especially in the case of 
unrepresented claimants.
    Therefore, significant productivity gains cannot and should not be 
expected in many of the most time intensive functions at OHA. Expecting 
huge productivity gains above those attained during the 1990's without 
significant staffing increases is just not reasonable.
Dealing with the ALJ shortage
    OPM's ALJ selection process has significant problems, as it applies 
to Social Security Administration, apart from those at issue in Azdell 
v. OPM. OPM's current process puts great emphasis on experience, 
regardless of the subject matter of that litigation, and expertise in 
federal and state evidentiary and procedural law. Experience in non-
adversarial administrative settings, such as Social Security, is given 
markedly reduced weight by OPM. Essentially all ALJs, in agencies other 
than SSA, hold adversarial hearings. This policy arguably has some 
validity for selecting ALJs for those agencies, but even that may be 
limited.\1\
---------------------------------------------------------------------------
    \1\ However, there is also argument that trial experience has been 
over-valued in ALJ selection in agencies that hold adversarial 
hearings. Administrative Law Judge Jesse Etelson explained how the bulk 
of a non-SSA ALJ's time is not spent in hearings, but in analyzing the 
written record and the applicable law, reaching the decision and 
preparing the written opinion. He also pointed out that top litigators 
are generally known for their fierce advocacy of the client's position, 
often to the exclusion of a ``neutral'' or objective position. In 
contrast, he noted that agency staff attorneys, are encouraged and 
rewarded for taking a ``neutral'' or objective position in analyzing 
cases. The New Administrative Law Judge Examination: A Bright, Shining 
Lie Redux, 43 Administrative Law Review 185 (Spring 1991).
---------------------------------------------------------------------------
    In any case, it is difficult to understand why this policy should 
be applied to selecting Administrative Law Judges for the Social 
Security Administration. SSA ALJs do not hold adversarial hearings! 
Federal and state procedural and evidentiary law does not apply. 
Expertise at Social Security law is critical to the job. It should be a 
primary selection criterion, if not THE primary selection criterion. 
The pertinent regulations provide that selectees with special expertise 
in the selecting agency's subject area may be given increased 
compensation as an aid to recruiting experts in the field. Anecdotal 
evidence suggests that agencies other than SSA, have routinely given 
candidates, with extensive experience in the law pertinent to the 
particular agency, preference in selection over candidates without such 
experience. This is only sensible. Justice (then Professor) Antonin 
Scalia commended agencies that sought ``selective registers'' of 
candidates with specialized experience. (The ALJ Fiasco--A Reprise, 47 
University of Chicago Law Review 57 (1979)).
    In addition to the focus on trial experience as a primary selection 
factor, the current OPM selection process apparently put great emphasis 
on two other concepts:

          1. There is a value in bringing some people with diverse 
        [i.e. non-SSA] backgrounds; and
          2. Selecting ALJs solely from an agency's pool of staff 
        attorneys should be avoided. This appears to have been a 
        reaction to the perceived situation in the 1930's and 1940's. 
        Hearing officers almost exclusively were selected from the 
        ranks of agency attorneys. Agency managers often put heavy 
        pressure on those hearing officers to rule in the agency's 
        favor. The Administrative Procedure Act (APA) was developed to 
        address these issues among others. It is important to note, 
        that the critical threat to due process and fairness was the 
        manager's ability to interfere with the adjudicator's 
        independence. The work history of the hearing officer was a 
        rather insignificant secondary issue in comparison. (Id.)

    Unfortunately, OPM has ignored the fact that the APA itself 
provides extensive protections for adjudicatory independence. It has 
taken those two suggestions to an absurd extreme in scoring applicants 
and preparing certificates ALJ eligibles for SSA. The evidence shows 
that very few attorneys with significant experience in Social Security 
law were ever given scores high enough to permit selection as an 
Administrative Law Judge. Throughout the 1990's, 80--90% of the ALJs 
selected by SSA had little or no experience in Social Security law 
prior to their appointment. This is akin to ``selecting the best 
physicians in the country'' for a 10 doctor cardiac care unit and 
ending up with two orthopedic surgeons, an endocrinologist, a 
psychiatrist, three gynecologists, an oncologist, a proctologist and 
only one cardiologist. It's still possible that such a group could 
eventually provide quality cardiac care, but it would take a very long 
time for everyone but the cardiologist to get up to speed.
    SSA research has shown that ALJs without experience in the SSA/OHA 
process have a significantly longer ``learning curve'' before they 
become fully productive than do ALJs with SSA experience. Therefore, 
new selections under the current process, (assuming such selections are 
permitted before the end of this calendar year), typically would not 
begin to make a significant impact on OHA until late 2002 at the 
earliest. Faster alternatives are available.
Creation of a new position, the ``Administrative Judge,'' can alleviate 
        these problems.
    The ``Administrative Judge'' would be a GS 14/15 position, with a 
ten year renewable term. Selection criteria would put a premium on 
expertise in Social Security law, whether received in the private or 
public sector. They can be further specialized, with one group 
authorized to hear Medicare claims and the other disability claims. 
Other critical selection criteria would include judicial demeanor, 
organizational skills (e.g. handling a large docket), oral and written 
communication skills, and interpersonal skills. Computer skills have 
become increasingly important in all career areas. It should also be a 
significant factor in the selection of Administrative Judges, since 
computer literacy/drafting most of their own decisions could help ease 
the strain on the decision-writing component (note, computer literacy 
is ignored in the current OPM ALJ selection process).
    Prompt adoption of an Administrative Judge option could bring 
online hundreds of adjudicators already familiar with Social Security 
law within a few months. Since they are not Administrative Law Judges, 
their selection would not be subject to the Azdell stay. They will make 
an immediate positive impact on OHA dispositions since experience in 
Social Security law and computer literacy would be important selection 
criteria. Giving the position a fixed term provides a way to reduce the 
number of SSA adjudicators should the workload level decline in the 
future. It also provides a way to ``weed out'' selectees who do not 
prove effective. The position could also be used as a training ground 
for future Administrative Law Judges selected after the Azdell 
litigation is finally resolved.
    Returning signatory authority to the Senior Attorney-Advisors, as 
advocated by Mr. Hill of NTEU, is another change that could provide 
significant ``bang for the buck,'' in dealing with OHA's increasing 
workload. However, Senior Attorney-Advisors under Mr. Hill's proposal, 
may only issue favorable on-the-record decisions. Even his large scale 
expansion of the Senior Attorney-Advisor program will not allow OHA to 
keep up with the upcoming workload. OHA must have more adjudicators who 
can hold hearings and issue both favorable and unfavorable decisions.
OHA also faces an increasing shortage of legal talent at the hearing 
        office level.
    Everyone agrees that in addition to increasing numbers of 
claimants, OHA's workload has increased in complexity. More and more of 
the decisions to be drafted are of the complexity requiring an 
attorney's analysis. Common sense and simple logic dictate that OHA 
would have a program in place to ensure that the number of Attorney-
Advisors was increasing to meet these workload demands.
    Last December, I asked then Acting Commissioner Halter why no such 
plans were in place. He responded in a letter that can be summarized as 
follows:

          500 temporary Attorney-Advisors were hired in 1995 to help 
        deal with the Welfare Reform caseload. Most of them had been 
        made permanent. About 350 Paralegal Analysts were promoted in 
        2000 under HPI to help deal with the decision-writing 
        shortfall.

    I find his explanation inadequate. Many temporary Attorney-Advisors 
were released from employment, in spite of meritorious performance. Mr. 
Halter himself admitted in his letter that the total number of current 
OHA Attorney-Advisors has declined since 1995. The effects of normal 
Attorney-Advisor attrition have been accelerated by HPI/OHA's new 
business process. Hundreds of the most experienced Attorney-Advisors 
have moved up to positions as Senior Attorney-Advisors, Group 
Supervisors and Hearing Office Directors. More will be pulled into the 
ranks of the new Administrative Judge corps. The corps of experienced 
decision writers is further reduced. First, by the attrition of 
experienced Paralegal Analysts.\2\ Second, virtually all of the 
Supervisory Attorney-Advisors were converted to Group Supervisors or 
Hearing Office Directors. A few others became Senior Attorney-Advisors 
and the rest retired. Group Supervisors and Hearing Office Directors 
have much wider management responsibilities and much less time to 
assist with decision drafting than did the Supervisory Attorney-
Advisors. Thus most of the writing, provided in the past by the 
Supervisory Attorney-Advisors, has effectively disappeared. Third, the 
complexity of disability decision-writing has continued to increase, 
thus increasing the demand for attorney writers.
---------------------------------------------------------------------------
    \2\ Many of our experienced Paralegal Analysts are rapidly 
approaching retirement age.
---------------------------------------------------------------------------
    Many of the new HPI Paralegal Analysts will develop into skilled 
writers with proper training and supervision. Paralegal analysts are 
not expected to draft the most complex cases. Attorney-Advisors and 
Senior Attorney-Advisors are expected to handle these. New Attorney-
Advisors must be hired now to develop the experience and expertise 
needed to replace our veteran personnel as they move on to other 
positions or retirement. It is reasonable to expect OHA's caseload to 
reach 700,000 soon, close to 100,000 more cases than in 1999.
    The productivity of the new Paralegal Analysts will improve over 
the coming months. Hearing Office Directors and Group Supervisors may 
eventually be able to spend a bit more of their time drafting 
decisions. However, it is also clear that normal attrition will account 
for several score of writers leaving OHA per year. A significant number 
of current Attorney-Advisors and Senior Attorney-Advisors will be 
selected for the new Administrative Judge position. These factors 
combined with the expected increase in OHA's workload fully support the 
immediate hiring of 200-300 new Attorney-Advisors over 2001 and 2002, 
with smaller annual classes to follow, in line with workload trends and 
actual attrition levels.
    Adjudication and decision drafting are complex jobs. As most of the 
witnesses pointed out, it takes over a year to develop a newly hired 
employee into a fully productive one in such positions. Please provide 
SSA the resources and guidance so that it recruits the necessary legal 
personnel to deal with the upcoming workloads now. Let us not repeat 
the crisis of the early 1990's where backlogs grew to intolerable 
levels.
            Sincerely,
                                         James R. Hitchcock
                                            Senior Attorney-Advisor
                                     Office of Hearings and Appeals

                               <F-dash> 


                              Independent Life Center, Inc.
                                      Craig, Colorado 81626
                                                       June 5, 2001
Allison Giles, Chief of Staff
1102 Longworth House Office Building
U.S. House of Representatives
Washington, DC 20515
    Dear Ms. Giles,
    I am writing to express my concern about the way in which people 
with disabilities can qualify for Social Security Disability Income 
(SSDI).
    The Social Security Administration tells people with Amyotrophic 
Lateral Sclerosis (ALS) that they qualify immediately; even though that 
disease takes a three to five-year period to progress fully, according 
to Dr. Koop's medical information Web site.
    Terminal cancer patients with a much shorter life expectancy, among 
others, who apply for SSDI are told by the Social Security 
Administration that they must wait as long as 2\1/2\ years for their 
SSDI payments to begin.
    I am told that the practice of making people wait continues because 
the US Congress does not want the Social Security Administration to 
hire any more people. If this is true, then Members of Congress need to 
explain to people like the gentleman whose situation is described in 
the accompanying letter why they and their families must be deprived of 
the medical services and financial assistance which could bring them 
some relief. There must be a better way.
            Sincerely,
                                            Evelyn Tileston
                                                 Executive Director

                               <F-dash> 


                              Independent Life Center, Inc.
                                      Craig, Colorado 81626
                                                      June 15, 2001
Wayne Allard, U.S. Senator
215 Federal Building
400 Rood Avenue
Grand Junction, CO 81501
    Dear Senator Allard,
    I am writing to ask for your assistance for Mr. Edward Gore, SSAN 
522-68-9239, 572 Colorado, Craig, CO 81625, home telephone number (970) 
826-0898, in his attempt to be made eligible for Social Security 
Disability Income (SSDI).
    Mr. Gore is a Vietnam vet who has a service-connected disability. 
He has operated his own Barber shop in Craig, Colorado until March of 
this year. Unfortunately, he was diagnosed with stomach cancer and is 
not expected to live for more than a year. Mr. Gore had stomach cancer 
surgery at the VA Hospital in Grand Junction, and was advised by his 
doctor that he would not be able to return to work due to the nature of 
the surgery and the debilitating affects of the cancer.
    Being not able to work, and having a wife and 16-year-old son to 
support, Mr. Gore applied for SSDI, having worked for more than enough 
quarters to qualify. He has been granted Supplemental Security Income 
SSI with Medicaid; but feels that he should be receiving SSDI as it 
would give him a larger cash payment each month.
    As I'm sure you know, it usually takes more than two years for a 
person to begin receiving any help through SSDI. Only people who suffer 
from ALS can get immediate SSDI payments. In my mind and heart, this 
situation is outrageous. Here we have a man who has paid into the 
system in several ways, as a veteran and as a businessman; but when he 
needs the help he has paid for, he cannot get it. Is there any way that 
Mr. Gore's SSDI application can be speeded up? Why should only some 
terminally ill people (those who have ALS) be given ``most favored 
applicant'' status when other terminally ill people are not? Where is 
the fairness in this system?
    Being a responsible husband and father, Mr. Gore is trying to do 
the very best he can for his family. Is there any way he can receive 
the help he needs through the Social Security Administration?
            Sincerely,
                                            Evelyn Tileston
                                                 Executive Director

                               <F-dash> 


   Statement of Jeremy Rosen, Staff Attorney, National Law Center on 
                         Homelessness & Poverty

    Mr. Chairman, thank you for this opportunity to submit testimony to 
the Committee. I am Jeremy Rosen, Staff Attorney for the National Law 
Center on Homelessness & Poverty, a not for profit organization based 
in Washington, D.C. The National Law Center does not receive any 
federal funding. The Law Center advocates for programs and policies 
that address the underlying causes of homelessness. Toward this end, 
the Law Center monitors implementation of federal programs that assist 
homeless persons, and works with non-profit organizations from all over 
the United States to advocate on behalf of homeless and poor Americans.
    Over the past twelve years, the Law Center has devoted significant 
resources to studying the Supplemental Security Income (SSI) program, 
and its impact on homeless people. Throughout that time, the Law Center 
has focused on two areas: (1) increasing access to the SSI program, so 
that more eligible homeless persons are able to apply for benefits; and 
(2) improving SSI eligibility rules, so that more homeless SSI 
applicants are approved for benefits.
    Today, this Committee will be discussing the challenges and 
opportunities facing the Social Security Administration's (SSA's) 
disability programs. I welcome the opportunity to provide the Committee 
with some brief comments on this topic, as it pertains to America's 
homeless population.
    Numerous studies have shown that over 30% of homeless persons are 
unable to work due to one or more disabilities. However, a December, 
1999 study by the Interagency Council on the Homeless found that only 
11% of homeless people receive SSI in any given month. This means that 
at least two thirds of the homeless individuals who are potentially 
eligible for SSI are not receiving benefits. My testimony today will 
explain the reasons for this enrollment gap, and suggest ways in which 
SSA can act to eliminate it.
    This gap is particularly tragic because the SSI program serves as a 
critical income support. With disability benefits, homeless persons can 
receive health insurance through Medicaid, and can access supportive 
housing or other federally funded public or subsidized housing. Without 
benefits, the same individuals are likely to be trapped on the street 
or in a homeless shelter.
    Over the past decade, SSA has made one significant effort to 
increase access to SSI benefits for homeless people. During fiscal 
years 1990-96, SSA conducted a series of SSI outreach demonstration 
programs. Under the programs, SSA awarded funds to local non-profit 
groups, to conduct outreach to specific SSI eligible populations. These 
projects were designed to allow SSA to evaluate whether increased 
outreach would result in an increased number of SSI beneficiaries. More 
than one third of the outreach programs focused on homeless people.
    SSA hired the Sociometrics Corporation, a private contractor, to 
evaluate the outreach programs. SSA field offices which worked with 
outreach program sites reported that SSI applications increased by 20% 
under those programs, while award rates jumped by 10%. Clearly, the 
programs were successful. These positive statistics prompted 
Sociometrics to recommend that SSA ``make a strong organizational 
commitment to promoting outreach through third-party agencies.''
    However, instead of continuing to fund outreach to eligible 
homeless persons, SSA ignored the findings of the Sociometrics reports. 
There is no evidence that any permanent change was made, to any aspect 
of the SSI program, as a result of the success demonstrated by the 
outreach demonstration projects. In addition, SSA did not publicize the 
Sociometrics program evaluation reports.
    The Law Center believes that SSA should implement the ``best 
practices'' from these outreach demonstration programs. To that end, 
the remainder of this testimony will identify twelve specific measures, 
many of which were proven to be successful by the outreach projects, 
that SSA should adopt. If these twelve steps were implemented, many 
additional qualified  homeless persons would receive the SSI benefits 
to which they are entitled  by law.
    <bullet> SSA should authorize the use of and appropriate a portion 
of its Research Account funds to support grants to entities that work 
in partnership with SSA field offices to develop or expand Supplemental 
Security Income (SSI) and Social Security Disability Insurance (SSDI) 
outreach, application, and re-determination services specifically for 
people experiencing homelessness.
    Funds should be distributed to state or local public or nonprofit 
organizations through a competitive process. Applicants should be 
required to demonstrate a commitment to apply the effective practices 
identified through SSA's homeless outreach and enrollment demonstration 
projects.
    <bullet> SSA should reform the representative payee system.
          Homeless clients are unlikely to have a friend or relative 
        available to serve as a representative payee. Currently, there 
        are an insufficient number of well-qualified non-profit 
        agencies that are willing to serve as representative payees. 
        Since, in many cases, no benefits can be paid without a payee, 
        many homeless persons are faced with no choice but to select an 
        unqualified representative payee who may mismanage their 
        benefits.
          To fix this problem, SSA should work to increase the number 
        of qualified representative payees. In addition, SSA must 
        accept liability for the replacement of benefits that are 
        stolen or misused by unscrupulous representative payees. This 
        will prevent needy beneficiaries from being adversely affected 
        by payees who abuse their fiduciary duties.
    <bullet> SSA should extend presumptive eligibility for SSI to 
people experiencing homelessness whose primary health care provider 
alleges that they are eligible for SSI.
    The Mental Health Advocacy Project, in Baltimore, MD., reached an 
agreement with their local SSA field office to process presumptive 
eligibility cases in this manner. Over the course of that agreement, 
more than 95% of the clients initially given presumptive eligibility 
were permanently approved for SSI benefits.
    <bullet> SSA field offices and state DDS agencies should establish 
special homeless claims units.
    This would ensure partnership building with homeless advocates and 
homeless service providers, targeted outreach to people experiencing 
homelessness, targeted information about applicant rights at all stages 
of the application, appeals, and re-determination processes, expedited 
review of applications, planning and system change within SSA and DDS 
systems, ombudsperson functions within SSA and DDS on behalf of people 
experiencing homelessness, and outcome and performance measurement.
    <bullet> When creating homeless claims units, SSA should be 
required to shorten case processing times for homeless persons.
    Homeless clients suffer a disproportionate impact from inflated 
case processing times. While it is important to maintain a high rate of 
decisional accuracy, homeless clients who may be living on the street 
cannot afford to wait up to two years for a final decision on their 
claim. To speed up decisions for homeless claimants, their applications 
should be flagged and sent to dedicated caseworkers in the state 
disability determination service (DDS) agencies. This procedure, 
already being followed in Massachusetts, would result in reduced 
waiting times for a population that is typically in desperate need of 
SSI benefits.
    <bullet> SSA staff should be required to assist homeless claimants 
in obtaining basic verifications, such as proof of identity, 
immigration status, or assets.
    In order to file an application for SSI, all claimants must meet 
these standard verification requirements. Unfortunately, many homeless 
persons have lost the documentation necessary to do so. In addition, 
they are unlikely to have sufficient funds to obtain replacement 
documentation. All too often, busy SSA caseworkers turn these people 
away, telling them to come back and apply when they have the proper 
documents. This should not continue. Instead, SSA representatives 
should work with homeless clients to help them obtain this information, 
through inquiries (via computer match or U.S. Mail) with state vital 
records agencies and/or INS.
    <bullet> Homeless persons should be given extra assistance in 
completing SSI application forms.
    Often, SSA caseworkers seek to complete each application as quickly 
as possible. In their haste, many important details can be overlooked. 
Unfortunately, homeless clients cannot easily be reached, to correct 
mistakes or discrepancies in their applications. Accordingly, extra 
care should be taken to ensure that the initial application is 
completed in a thorough manner. This will result in a greater 
percentage of decisions that are both accurate and timely.
    <bullet> SSA should follow current rules regarding the receipt of 
SSI benefits while in a public institution, and simplify the rules 
which permit the resumption of benefits after release from an 
institution.
    Currently, many homeless clients are improperly cut off from 
benefits when they enter public, emergency homeless shelters. When SSI 
benefits are properly suspended due to residence in a public 
institution, SSA must simplify the rules regarding the prompt 
resumption of benefits after a claimant has been released from that 
institution. This will help prevent homelessness by more quickly 
providing released individuals with a stable income and with Medicaid.
    <bullet> SSA should ensure that State DDS staff make every effort 
to obtain all medical records of homeless claimants, prior to 
scheduling consultative examinations (CE's).
    If insufficient records are available, thus necessitating that a CE 
take place, DDS staff must, under current law, give preference to 
scheduling those examinations with the claimant's treating physician. 
If the claimant does not have a treating physician, CE's should be 
scheduled with independent physicians, who are compensated at their 
standard hourly rate. This will prevent claimants from being sent to CE 
``mills,'' where doctors prepare incomplete CE reports after examining 
patients for no more than a minute or two.
    <bullet> The SSA Commissioner should be required to prepare and 
submit to Congress and the President, by September 30, 2002, a report 
that describes current policy and practice barriers to access and 
utilization of SSI and SSDI programs by people experiencing 
homelessness and recommendations for removing those impediments.
    In establishing the plan, the Commissioner should consult with 
people experiencing homelessness, nonprofit organizations advocating 
for people experiencing homelessness, and representatives of State, 
local, and tribal government. This will provide SSA with clear guidance 
regarding how to better serve homeless persons.
    <bullet> The SSA Commissioner should also be required to establish 
a permanent Advisory Committee on Homelessness, with responsibility for 
conducting ongoing reviews of policy and practice barriers to access 
and utilization of SSI and SSDI programs by people experiencing 
homelessness, and making recommendations for removing those 
impediments.
    <bullet> SSA should restore SSI eligibility for people whose 
primary qualifying disability is substance abuse.
    An April, 1999 study, performed by the National Law Center on 
Homelessness & Poverty and the National Health Care for the Homeless 
Council, indicated that as a direct result of losing their SSI due to 
this restriction, 76% of persons (who were paying for their own 
housing) lost that housing and became homeless. Restoring SSI to those 
individuals would dramatically increase the number of homeless persons 
eligible for SSI. This, in turn, would result in many more homeless 
people obtaining housing and Medicaid coverage.
    The National Law Center on Homelessness & Poverty would be glad to 
provide the Committee with any additional informatiion. We would 
welcome the opportunity to meet with you further, to discuss these 
critically important issues. Thank you for your consideration of this 
testimony.

                                <all>

</pre></body></html>
